I•mdmint • ..•••...y..111•

•

NO.

IN TUE

m

SUPREME COURT OPTIIE °Nitta) gra

t
---din
halrmi
titsagi5 \(You
Name)

/tilt

V&

— PETITIONER

sike tf Oh

lilt • ski Itieson wit ariinlis
REOPONDENT(S)
-

MOTION roataAvs TO PROCEED IN rottmA PAUPMNIII
of certiorari
mica leave to Ws the attached petition tore will

The petit:lona
without papsymeatt of costa end to proceed in firma pauper&
Phan duck the appropriate boxes:

forma pauper* in
laietitioner ha previously been granted lane to proceed in
=We
the
it/4
IL CA rimil
et
gaition )idffr

e+,

if Arik 4:41_

Cli ail kr ) nta

proceed is forma
OPOItioner has not preWously been granted leave to
pager* in my other court.
e tionerb Admit-or declaration in support of this motion is attached hart
(I;)ltr
CI Petitioner); Admit or declaration is not attached because
appointed counsel In the current proceeding, and:

the court below

am. appointment Was made under the Mowing provision of law:

Scanned with CamScanner

AFFIDAVIT OR DECLARATION
IN SUPPORT OF MOTION FOR LEAVE TO PROCEED Pi FORMA PAUPERS
am the petitioner in the abov ntftled ease. In support of
NA
me* Makin
' to proceed Mftworso pauper* I state that because of my poverty I am unable to pay
the costa al thins' or to give security therefor; and I believe I am entitled to syndrome
L Pbr both you and your spouse estimate the avenge amount of money svxsetved from each of
the Mowing mantes during the pest 12 months. Adjust any amount that was received
matte hiweeldy,, qunte1y semiannually, or annually to show the monthly rata. Use gross
amounts, that * amounts before any deductions for taxes or °theme..
Income source

Average monthly amount during
the pest 12 months

Amount oulund
next month

Ernpioymerd
Seterrploymerd
Income from reel properly
(such as will Imam)
Interest and &Mende

$

Afirtony

Child Support
Astkernent (such as SOS
security, pensions,

smelts, Insurance)
DisabIlly (aft as social
$
sway, Insurance payments)
Unemployment payments
Public-assistance
(etch as welfare)
Other (specify):

Scanned with CamScanner

t cut. (One monthly pay

history Ibr the put two years.
deductions.)
Employer

Address

Grate monthly pay

Mtn d

t employer Ant

& Urn your spouses employment hhtory for the put two inn, ma
(Gross monthly pay is Sus taxes or utter deductions.)

relfearr

Address

Ora* sworn* psy

Dittos of

4. How much cash do you and your spouse have? S
Delom state say money you or your spouse have in ink erxxxxuts or in any other &modal
is
'flppe of account (44, ducking or swinge)

you hews

A

.01
$
i
S

your spouse hoe
-

& List the assets, end their values, which you own or your spouse owns Do not IS clothing
ad coding household furnishings.
0 Other
Value

0 Home
Value

estate

0 Motor Vehicle S2
Year,
& model
Value

0 Other wets
Desaipti

19A

h
"JO

Vidue

Scanned with CamScanner

6. State every pence, badness, or mgertiration owing You or your spouse moacf. sad the
IUDOUTIt cond.
Amount owed to your spots
Amount mod to you
Person owing you or
your epos money

s9

7. State the paces who rely on you or your spouse for support. RIF minor children, list initials
Steed of names (as "a" instead of elia Elmith").
Nome

AP

ReletIonehlp

A
8. Estimate the avenge monthly expenses al you and your festiibc Show separately the amounts
;mid by yaw spouse. Adjust any psymeots that are made weekly, biweekly, quarterly, or
mina to show the monthly rate,
You

Your spouse

Rat ar hasemertgage payment
(inducts lot rutted for mobile home)
Are reel .data tens included? 0 Yes 1:1 No
Is property bunter included? Mee CI No
(eketaildti, heating
water, sewer, and telephone)
Some maintenance (08am and taltkaP)
hal
Clotklag
Laura" aad dry-Saabs
Medical and dental apes

Scanned with CamScanner

: yogyarouse
Tiensportedion (not including motor vehicle payments)
Remotion. entertainment, newspapers, inagesinee, etc.
Insurince (not deducted from wages or included in mortgage payments)
Iferaeownern or renter'.

0

Lib

9

Health
Motor Veldt*
Otter

$

Its Coot deducted from wages or included in mortgage payments)
(sPedf0

140

Installment payments
Maar Vehicle
Credit carcks)
Department star*/
Other
Allan nadatananoe, and rapport paid to others
Rettnisr expenses for mars of baldness, probation,
or foe WWI detailed statement)
Other (apecitA

$

',bad soidatly ripena

$

p
p

Scanned with Carricanner.

9. po yet expect any =Jar changes to yaw monthly income or expenses or in your assets or
liabilities during the next 12 months?
a Yes

174c.

If7••• describe on an attached sheet.

It Have you paid — or will yen be paying — an attorney say money tor
with this case, including the completion/ this farm! 0 Yea MI6

in connection

If yea, how much?
If yes, state the attorney's MUM address, and telephone number.

IL Han yea pdd—or will you be paying—anyone other than an attorney (such as a paralegal or
a typist) any money for services in connection with this case, including the completion of this
farm/
CI yes
I
f yea, how

much? _

Uyas, state the poson's mime* address, and telephone number

Provide in other information that will help explain why you cannot pay the costa of this axe..
/ft

I declare tmder penalty of perjury that the foregoing is true and correct.

Executed on:

TA_St

, 20

(
i

Scanned with CamScanner

a

Ja0ueosuieo tilvn pauueo$

vollosonvi ve

100041010110033V
1013091.341001
913411011. 011113210313.100.10493.13341

1411333311.131103
IMO NOM /081.33101

menu

Was=

flint 3101011-M7103 • AVM*

.14133M1 MOO Ave

WNW

Nolan

9911

UUCP - =wow 1131UVO 'Mkt

LAMM 14000 AVe

0921001

tWils0

00104

WM ivy tamn '3100 -AVM*

LOOM 40000 AVM*

3411itt

0104100

WOO

41110041- A.1130 11301134 - Ave

14303911000 Aye

9090L

0100000

00093

UMW • OMNI lelld • AVdt

44113311119000 AVM*

40110091

01090110

.433391.140d30 AVM*

12303/1

011203/10

0941 • 110900001100 1413334 V0193111/ 40 Mtn

301011.1

. 010004

00-04

POI 114 - OMINV/

00'00
vivo

-Ave

MOV0110

00'04

COWS • WA 31V101130 • AVM*

143339 MOO AVM*

03-010

01991/1- V.U013010 '93000111 • AM

1407391190d30 Ave

MEM

01WW10

00-093

6009101 - WADI 4971VMPA-AVM*

441373111193d313 Ave

01690

worm

00'0u

0014100-A391v100-AVer

421133311 I40d30 Ave

01113101

0000003

001:01

14030.01 • VAN33 Vivin-rim • Aver

.1413339.1.190d30 AVM*

WW1

010011201

00'01

2s9ft001 • A4119911000 • Aye

11.9001

0100100

bout

MHO - ATOMS 9003 AV*0131101.

I433331119043 AVM*
1403.131
413040 AWItalal

MUM

01=141

Wt

Ara AVd101101
LIMN 14003
MOO al 0E4310

CUM*

/1004010

Wet

009004 • 01100 11003 - AVe13110.1.
912901900900
- tniStMil 3001:107E1 MOM MGM*

tt1033

MOW°

0344

9110000 - A3111011003 • memos

.110040 AVA0001

won

000021 • 00331 1311101VA • AVdr

110029

14001030

00113

Cana - A3'4011000 - AVd101031

1433311111040 Ave
land
1111040 Amain

avas

1001003

00014

611192i -0N31 'tartIVA Ave

.14303111/30d30 Aver

mein

4000

0003

maw • Anew vow - Aver

1r303111A0d30 Ave

OMB

$490101 - tulip 'erne • Ave

14119331111901110 AV&

0001101

j !Mtge

0000

;wove •1110124 llirdTWA

14303911040 Ave

MOM

i 01=00

Melt I•Nor Van - AV&

.1,411394 MOM Ave.

DOM

0001040

11003 • AVdr

1,1133911113000 AVdr

CRIES

I men

WI MPH - Ara 1000 • AVdr
9010:90/100 t
wawa 301090313 0000 1013.13-00

tam 313000 AV&
seam onto
3:111101030111140LLM1

41411120

110011110

1000223

i IMMO

MM. A311110111002 • Ave

LIMN 11043 Ave

OMNI

I IMMO

00100191- ill3t131 33710111 • Ave

LAMM Man Ave

aning

mown

- 110131Vir WOWS • AVir

Isom MAO AWIt

309930

110t1 HOi

4100$01101•11

cl14, Sm.

verscao

OM MSc,

30-03

ilOnSO*1 -

00054
00 911
COM
00 013
0203

C

won
wan 0110001

tiara

001/13X0

•

fOr it
Sap 600331001eC>b

0014
man WM

011
/101001041011111

03 0111
wart See

.0001
01110.10111191101.

0000 10 300
1111,011,0Wrien
:as

: Paw

105W 'O10013Yt LOW

000001 lanonn
IMAM

CERTIFICATION
I hereby certify that the Ptaizaiff brain.
trap an nage ananthly balance far

Ania47101111diti,

)10 gal
On enCatt

(12) znouthe afS

Solution what confined at cot confined for a
:waive (12) maths, specify the number of .wt' confined. fl comae the *wage odd* bottom

ft M ae Manbl.)

lewd= notify that Plaintiff likewise has tbe folkrwins
4 mt:Inion:

&cording to the records of said

I

er-stOrlio
Autboriard Dill

a

Cr

Date

bolatso

c2-1041011

RECO
MAY )
BOOLY STATE hig.".UN
BUSINESS, OFfl cE.

Scanned with CarnScanner

No:

IN THE SUPREME COURT OF THE UNITED STATES

MR. AMOS WESTMORELAND, JR. -PETITIONER
vs.
MR. GLEN JOHNSON, WARDEN, AND
COMMISSIONER OF THE DEPARTMENT OF CORRECTION -RESPONDENT(S)

ON A PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Mr. Amos Westmoreland, Jr., Pro Se
G.D.C. #1041629
Dooly State Prison (HA 109M)
1412 Plunkett Road
Unadilla, Georgia 31091

(2)

QUESTIONS PRESENTED

QUESTION #1:
Does the 11th Circuit decision conflicts with this Court's decision in Martinez v. Ryan, (2012),
since it ignores that in Martinez v. Ryan, 566 U.S. 1 (2012), the Court held: [t]hat where, under
state law, ineffective assistance of trial counsel claims must be raised in an initial-review
collateral proceeding, a procedural default will not bar a federal habeas court from hearing those
claims if, in the initial-review collateral proceeding, counsel in that proceeding was ineffective
pursuant to Strickland v. Washington 466 U.S. 668 (1984)?

QUESTION #2
Does the 1 I th Circuit procedural bar conflicts with this Court's decision in Curler v. Sullivan
(1980), since it ignores that in Curler v. Sullivan 446 U.S. 335 (1980), the Court established
that [t]o show ineffectiveness, a petitioner must demonstrate that his defense attorney had an
actual conflict of interest, and that this conflict adversely affected the attorney's performance?

QUESTION #3:
The 6th Amendment right guarantees conflict-free effective assistance of counsel and does not
afford the defendant the hybrid right to simultaneously represent himself and be represented by
counsel, while the Georgia Rule of Professional Conduct 1.7 prohibits a representation
involving a potential conflict of interest unless and until the attorney has disclosed the potential
conflict, in writing, to his client and thereafter received the client's written consent to undertake
or continue that representation. The question is:
When a defendant is represented by multiple circuit defender's and subsequently files a pro se
post-conviction collateral attack raising substantial ineffectiveness federal constitutional claims
for failure of a succession of attorney's from the same circuit defender's office to raise it; Should
the principles underlying this Rule be discounted in a criminal proceeding, where 6th
Amendment right to conflict-free effective assistance of counsel is involved?

QUESTION #4:
Does the constitutional protections of effective assistance of counsel on only appeal as of right in
Evitts v. Lucey, (1985) and Douglas v. California (1963), extend to filing a timely Motion for
Reconsideration on only appeal of right?
If so, and appellate circuit defender does not withdraw in writing to allow petitioner to file a pro
se Motion for Reconsideration on direct appeal to resolve his constitutional questions, can such
noncompliance, if substantiated, procedurally bar a pro se habeas petitioner from having
substantial claim(s) heard by a federal court?

(3)

QUESTION #5:
The State elected to indict and try Petitioner on 3 Felony Murder counts and Vehicular Homicide
for the same victim. Georgia is a proximate cause state, and in virtually all of Georgia's many
homicide statutes, including vehicular homicide statutes, the General Assembly has employed the
same or very similar causation phrasing; The question is:
Does the 11th Circuit procedural bar conflicts with Jackson v. Virginia, 443 U.S. 307 (19791
since it ignores that in Jackson

v. Virginia this Court held: in a challenge to a state court

conviction under 28 U.S.C. § 2254, the applicant is entitled to habeas corpus relief...if it is found
that upon the record evidence adduced at trial no rational trier of facts could have found proof of
guilt beyond a reasonable doubt in terms of the substantive elements of the criminal offense as
defined by state law?

QUESTION #6:
Under the procedural aspects of the 14th Amendment Due Process Clause, when a state habeas
judge verbatim adoption prepared by a prevailing party contains internal evidence suggesting that
the judge may not have read them; Is the state court's fact-finding procedure, hearing, and
proceeding full, fair, and adequate if [t]he order is an artifact of [the States] having drafted (it]
with specific intent of not producing a fair and impartial assessment of the facts and law, and
deliberately glossed over and camouflaged significant attorney errors in order to ensure that those
errors are shielded from any meaningful review?

QUESTION #7:
If a state court omits context from a statutory provision utilizing quotations and ellipsis while
simultaneously applying clearly established federal law, and the omission, if submitted, would
alter the entire decision in the proceeding; Does this implicates Constitutional Guarantees to Due
Process and Equal Protection?

(4)
LISTS OF PARTIES
[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of all parties to
the proceeding in the court whose judgment is the subject of this petition is as follows:

(5)
TABLE OF CONTENTS
OPINION BELOW

[xvi]

JURISDICTION

[xvii]

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

[xviii]

STATEMENT OF THE CASE

[I]

PRETRIAL STAGE

[1 ]

THE TRIAL

[2]

MOTION FOR NEW TRIAL

[6]

INITIAL POST CONVICTION PROCEEDINGS

[8]

PRO SE MOTION FOR RECONSIDERATION

[10]

POST TRIAL COLLATERAL ATTACK(S)

[10]

STATE HABEAS CORPUS PETITION

[12]

FEDERAL HABEAS CORPUS PROCEEDING

[17]

QUESTION [1]

[21]

ARGUMENT

[21]

MARTINEZ APPLY TO PROCEDURAL DEFAULTED INEFFECTIVE
ASSISTANCE OF COUNSEL CLAIMS
[26]
SPECIFIC SUBSTANTIAL TRIAL INEFFECTIVENESS FEDERAL
CONSTITUTIONAL CLAIMS
[28]
Failure to Properly Investigate and Adequately Prepare for Non-Death Penalty Capital
Felony Murder Trial
[28]
Legal Completion of the Burglary Under State Law [Defense]
Proximate Cause Jury Instruction [Defense]
Policy (Intervening Cause) [Defense]
Breakdown of the Adversarial Process/ Closing Arguments

[32]
[34]
[37]
[43]

REASONS FOR GRANTING THE WRIT

[46]

QUESTION [2]

[47]

ARGUMENT

[47]

Conflict of Interest (Trial Counsel and Trial Court)

[48]

Other Similar Constitutional Conflict of Interest Claims Made in Both State and Federal
Habeas Petitions
[49]
QUESTIONS [3]

[52]

QUESTIONS [4]

[52]

ARGUMENT

[52]

Pre-Trial and Trial Circuit Defender Appointments
Post-Trial Circuit Defender Appointments

[53]
[55]

(6)
Circuit Defenders Post-Direct Appeal Correspondence

[57]

Pro Se Motion for Reconsideration in the Georgia Supreme Court

[57]

Circuit Defender's Testimony On Substitution And Conflict
Federal District Court Ruling On Conflict Of Interest
QUESTION [5]

[61]

ARGUMENT

[62]

A. LAWS OR CONSTITUTIONAL PROVISIONS
1. Georgia Law On Felony Murder/Burglary
Evidence Adduced at Felony Murder Trial
Jury Instructions On Felony Murder-Burglary
IV. Georgia Law On Vehicular Homicide

[62]
[62]
[62]
[63]
[64]

B. "CAUSE' in Georgia's Homicide Statutes Means Proximate Cause

[65]

C. Direct Appeal

[65]

D. State and Federal Habeas Petitions

[66]

E. This Court should Grant the Petition for Writ of Certiorari

[66]

QUESTION [6]

[68]

ARGUMENT

[68]

I. STATE COURT'S 'FACT-FINDING PROCEDURE', 'HEARING', AND 'PROCEEDING'

WERE NOT 'FULL, FAIR, AND ADEQUATE"'

[68]

EVIDENCE FILED IN STATE HABEAS PROCEEDING

[69]

FULL AND FAIR HEARING

[69]

SUBSTITUTE APPELLATE COUNSEL FAILURE TO WITHDRAW IN
WRITING
[70]
(iv) EXTRAORDINARY MOTION FOR NEW TRIAL

[71]

II. ADOPTION OF STATE'S PROPOSED FINAL ORDER WHICH WAS ARBITRARY AND
CAPRICIOUS
[72]
QUESTION [7]

[73]

I. DUE PROCESS

[73]

IL EQUAL PROTECTION
ARGUMENT

[73]
[73]

The state court adjudication resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established federal law, as determined by the Supreme Court of the United States
(Jackson v. Virginia, supra.)
[73]
The state court adjudication resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the state court proceeding
[73]
Direct Appeal
Pro Se Motion For Reconsideration
Pro Se Post Conviction Collateral Attacks

[74]
[74]
[74]

(7)
State Habeas Corpus

[74]

v. Federal Habeas Corpus

[75]

C. 40-6-6 is found in Official Codes of Georgia Annotated (O.C.G.A.) under Title 40 of the Uniform Road
Rules of Georgia.
[77]
Relevant Omitted Context

[77]

Legislature's Intention

[78]

D. Hypothetically, If Ground Doesn't Raise A Claim For Relief, --as the State and Federal courts and the
Respondents has maintained, --the logical question posed is: Why Would That.Particular Context Need To
Be Omitted And What Affect The Construction Has On The Entire Case And Potentially The Integrity Of
The Judiciary?
[79]
CONCLUSION

[81]

CERTIFICATE OF MAILING

[81]

PROOF OF SERVICE

[82]

INDEX TO APPENDICES
APPENDIX A- Eleventh Circuit Court of Appeals Westmoreland v. Johnson et.el., No. 1913759. Order entered February 25, 2020.
APPENDIX B- Eleventh Circuit Court of Appeals Westmoreland v. Johnson et.el., No.
Judgement entered June 11, 2020.
APPENDIX C- Northern District of Georgia Order, Westmoreland v. Johnson et.el. No. 1:14
CV-1315-TWT. Judgement entered July 31, 2019.
APPENDIX D- Northern District of Georgia, Westmoreland v. Johnson et.el. No. 1:14-cv01315-TWT-CMS. Report and Recommendation entered June 26, 2019.
APPENDIX E- Constitutional provisions, treaties, statutes, ordinances, and regulations involved
in the case, (set out verbatim with appropriate citation.) [Rule 14.1(1)];
APPENDIX F- Eleventh Circuit Court of Appeals, Westmoreland v. Warden et.el. 817 F.3d
751 (11th Cir. 2016). Judgement entered March 30, 2016.
APPENDIX G- Northern District of Georgia Westmoreland v. Grubbs et.el., No. 2012 U.S.
Dist. LEXIS 118733 (N.D. Ga. 2012). Judgement entered July 23, 2012.
APPENDIX H- Georgia Supreme Court, Westmoreland v. Johnson No. 516110557. Certificate
of Probable Cause denied September 6, 2016.
APPENDIX I- Ryan v. Thomas, 409 S.E.2d 507 (1991).
APPENDIX J- State v. Jackson et al. 697 S.E.2d. 757 (2010).
APPENDIX K- Georgia Supreme Court In Re: Formal Advisory Opinion 10-1 744 S.E.2d 798
(2013).
APPENDIX L- Hancock County Superior Court, Westmoreland v. Johnson No. 11-HC-034.
Docket Report.
APPENDIX M- Cobb County Superior Court, Westmoreland v. State, No. 07-9-6020,
Extraordinary Motion for New Trial- Order entered June 9, 2011.

(8)
APPENDIX N- Cobb County Superior Court, Westmoreland v. State No. 07-9-6020,
Extraordinary Motion in Arrest of Judgement- Order entered July 1, 2011; April 9, 2012.
APPENDIX 0- Client-Lawyer Letter(s) from Louis Turchiarelli.
APPENDIX P- Client-Lawyer Letter from William Carter Clayton June 29, 2010.
APPENDIX Q- Response from the Georgia Supreme Court Clerk July 15, 2010.
APPENDIX R- State and Federal Habeas Corpus- Trial Counsel Ineffectiveness Claims.

I9)
TABLE OF AUTHORITIES CITED

CASE

PAGE NUMBER

FEDERAL CASES
Adams v. United States ex rel. McCann

317 U. S. 269 (1942)

[27]

Alo
gger v. Hamlin

407 U. S. 25 (1972)

[27, 46]

Anderson v. City of Bessemer City,

470 U.S. 564 (1985)

[72]

Apprendi v. New Jersey

530 U.S. 466 (2000)

[34, 67]

Avery v. Alabama

308 U.S. 444 (1940)

[31, 51]

Brewer v. Williams

430 U.S. 387 (1977)

[55]

Brodie v. Connecticut

401 U.S. 371 (1971)

[69]

Brooks v. Tennessee

406 U. S. 605 (1972)

[28]

Burrage v. United States

571 U.S.

, 134 S.Ct. 881 (2014)

[35, 68]

Cabana v. Bullock,

474 U.S. 376 (1986)

[69]

Coffin v. United States

156 U.S. 432 (1895)

[73]

Coleman v. Thompson,

501 U.S. 722 (1991)

[24]

Corner v. Hall,

645 F.3d. 1277 (11th Cir. 2011)

[72]

Crane v. Kentucky

476 U.S. 683 (1986)
Cuyler v. Sullivan

[46]

(10)
446 U.S. 335 (1980)

[Passim]

Davis v. Alaska

415 U.S. 308 (1974)

[20, 39, 43]

Douglas v. California

372 U.S. 353 (1963)

[24, 52, 59]

Duncan v. Alabama

881 F.2d 1013 (11th Cir.1989)

[47]

Edward v. Carpenter

529 U.S. 446 (2000)

[25]

Estelle v. McGuire

502 U. S. 62 (1991)

[76]

Evitts v. Lucey

469 U.S. 387 (1985)

[24, 26, 52, 58,]

Ferguson v. Georgia,

365 U. S. 570 (1961).

[28]

Freund v. Butterworth

165 F.3d 839 (11th Cir. 1999)

[48]

Geders v. United States

425 U. S. 80 0976)

[28]

Gideon v. Wainwright,

372 U.S. 335 (1963)

[19, 24, 27, 46, 59]

Halbert v. Michigan

545 U.S. 605 (2005)

[24]

Hamilton v. Alabama

368 U.S. 52 (1961)

[55]

Herring v. New York,

422 U. S. 853 (1975)

[28]

Hinton v. Alabama

134 S. Ct. 1081 (2014)

[31, 34, 37, 43]

Holmes v. South Carolina

547 U.S. 319 (2006);

[46]

Holland v. Florida

560 U.S.

,

(2010) (slip op., at 18)

[26]

Holloway v. Arkansas
435 U.S. 475 (1978))

[51, 53]

In Re Winship
397 U.S. 358 (1970)

[78]

Jackson v. Virginia
443 U.S. 307 (1979)

[Passim]

Jefferson v. Sellers
250 F.Supp. 3d. 1340 (2017)

[72]

Johnson v. Holt et.al.
U.S. Dist. LEXIS 29244 (2017)

[72]

Johnson v. Zerbst,
304 U. S. 458 (1938)

[27, 46]

Lightbourne v. Dupger
829 F.2d 1012 (11th Cir.1987).

[47]

Lisenba v. California
314 U.S. 219 (1940

[46]

Martinez v. Court ofAppeals,
528 U.S. 152 (2000)

[59]

Martinez v. Ryan,
566 U.S. 1 (2012)

[Passim]

McMann v. Richardson
397 U.S. 759 (1970))

[28, 52]

Mickens v. Taylor
535 U.S. 162, 168 (2002)

[53]

Miller-El v. Cockrell
537 U.S. 322 (2003)

[25]

Moore v. Dempsey
261 U. S. 86 (1923).

[46]

Moskal v. United States
498 U. S. 103 (1990)

[68]

Pension v. Ohio
488 U.S. 75 (1988)
Powell v. Alabama

[21, 24]

(12)
287 U.S. 45 (1932)

[Passim]

Roberts v. Louisiana
428 U.S. 325 (1976)

[69]

Slack v. McDaniel
529 U.S. 473 (2000).

[20]

Smith v. White
815 F.2d 1401 (11th Cir.1987),

[47]

Strickland v. Washington
466 U.S. 668 (1984)

Passim

Trevino v. Thaler,
133 S. Ct. 1911 (U.S. 2013)

[26]

United States v. Cronic,
66 U.S. 648 (1984)

[31, 46]

United States v. Frady
456 U.S. 152 (1982)

[21]

United States v. Lanier
520 U.S. 259 (1997)

[68]

United States v. Sayan
296 U.S. App. D.C. 319 (D.C. Cir. 1992)

[50]

United States v. United States Gypsum Co.,
438 U.S. 422 (1978)

[72]

Von Moltke v. Gillies,
332 U.S. 708 (1948)

[51]

Westmoreland v. Warden et. el.
817 F.3d 751 (11th Cir. 2016)

[18]

Wainwright v. Sykes
433 U.S. 72, (1977)

[23]

Wiggins v. Smith
539 U.S. 510 (2003)

[31]

Wilson v. Corcoran,
562 U.S. 1 (2010)

[76]

Wood v. Georgia
450 U.S. 261 (1981)

[51, 52]

(13)
Wheat v. United States
486 U.S. 153 (1988)

[59]

FEDERAL STATUTES AND CONSTITUTION
28 U.S.C. § 1254(1)

xvii

28 U.S.C. § 2253(c)(2)

[20]

28 U.S.C. § 2254
5th Amendment of the U.S. Constitution

[23, 26, 61, 76]
[13, 17, 75, 76]

6th Amendment of the U.S. Constitution

Passim

14th Amendment of the U.S. Constitution

[Passim]

STATE CASES
Alexander v. State
620 S.E.2d 792 (2005).

[32, 64]

Alvin v. State
325 S.E.2d 143 (1985)

[68]

Archer v. Johnson
83 S E 2d 314 (1954)

[77]

Bivins v. McDonald,
177 S.E. 829 (1934)

[71]

Black v. Hardin
336 S.E.2d 754 (1985)

[21]

Brown v. Ricketts
213 SE2d 672 (1975)

[75]

Bun v. State
296 Ga. 549 (2015)

[58]

Cargill v. State,
340 SE2d 891 (1986)

[59]

Cash v. State,
368 S.E.2d 756 (1988)

[68]

City of Winterville v. Strickland,
194 S.E.2d 623 (1972)

[77]

Childs v. State
357 S.E.2d 48 (1987).

[32, 64]

(14)
Clark v. State

658 S.E.2d. 190 (2008).

[32, 64]

Clayton County v. Segrest

775 S. E. 2d. 579 (2015) (non-binding precedent)

[37,

42]

Cotton v. State,

279 Ga. 358 (2005)

[59]

Crawford v. State

292 Ga. 463 (2008)

[32, 64]

Everritt v. State

277 Ga. 457 (2003)

[40]

Foster v. State,

236 S.E.2d 644 (1977)
Hance v.

[65]

Kemp

373 S.E.2d 184 (1988)

[59]

Hung v. State,

653 S.E.2d 48 (2007)

[58]

In re Formal Advisory Op. /0-/
744 S.E.2d 798, 799 (Ga. 2013)

[58]

Johnson v. State

317 S.E.2d 213 (1984).

[36]

Jones v. State,

78 S.E. 474 (1913)

[32,67]

Kinney et.al., v. Westmoreland,

2009CV04437D {Clayton County State Court, Georgia)

[8]

Oglesby v. State,

256 S.E.2d 371 (1979)

[68]

Pope v. State
345 S.E.2d 831 (1986)

[50]

Ricks v. State

341 S.E.2d 895 (1986)

[32, 64]

Roberts v. State

314 S.E.2d 83 (2005).
Roulain v. Martin

[32, 64]

(15)
466 SE. 2d 837 (1996)

[75]

Ryan v. Thomas
409 S.E.2d 507 (1991).

[Passim]

Seagraves v. State
376 S.E. 2d. 670 (1989).

[59]

State v. Foster
233 S.E.2d 215 (1977)

[64]

State v. Jackson et al.
697 S.E.2d. 757 (2010)

[35, 65]

State v. Lane
838 S. E. 2d 808 (2020)

[31, 46, 48, 51]

State v. Lyons,
568 S.E.d 533 (2002)

[67]

Swailes v. State
709 S.E.2d 825 (1998).

[36]

Tolbert v. Toole
296 Ga. 357 (2014)

[59]

Westmoreland v. State
699 S.E.2d 13 (2010).

[9, 41]

Whittlesey v. State
385 S.E.2d 757 (1989)

[32, 64]

Williams v. State
46 Ga. 212 (1872)

[32, 64]

Williams v. State
300 S.E.2d 301 (1983)

[68]

Williams v. State
807 S.E.2d 418 (2017)

[58]

Wilson v. State
90 L.Ed 2d 557 (1955)

[55]

STATE STATUTES
O.C.G.A. § 9-14-47

[15, 70]

O.C.G.A. § 9-14-48

[Passim]

(16)

O.C.G.A § 9-14-49

[16 70]

O.C.G.A. § 16-5-I

[32, 35, 62]

O.C.G.A. § 16-7-1

[32, 62]

O.C.G.A. § 17-7-93
O.C.G.A. § 17-12-1 et.seq.

[54]

O.C.G.A. § 17-12-22

[2]

0.C.G.A. § 17-12-28

[30]

0.C.G.A. § 40-6-6

[Passim]

O.C.G.A. § 40-6-390

[36, 64, 65]

0.C.G.A. § 40-6-393

[35, 64]

OTHER
1 W. LaFave, Substantive Criminal Law (2d ed. 2003)
12 Ga. St. U. L. Rev. 295, 298 (1995)
4 W. Blackstone, Commentaries on the Laws of England 224 (1769)
ALI, Model Penal Code (1985)
Arraignment-

(definition)

[49]
[62]

(definition)

Contributing Proximate Cause-

[66]

[54]

(definition)

Conflict of Interest-

[42, 78]

[65]

Associate- (definition)
Commission-

[40, 65]

[53]
(definition)

[40]

D. Wilkes, State Post Conviction Remedies and Relief Handbook (2013-2014 Ed.)
[11]
Death Penalty Information Center, Smart on Crime: Reconsideration of the Death Penalty in a
Time of Economic Crisis, p. 13 (October 2009)
[58]
Ellipsis- (definition)

[76]

Ga. L. 1953, Nov. - Dec. Sess. p. 556

[77]

Ga. L. 1974, pp. 633, 674

[65]

Georgia Rules of Professional Conduct Rule 1.7.

[19, 51, 53]

Georgia Rules of Professional Conduct Rule 1.10

[19, 53, 59, 61]

Georgia Rules of Professional Conduct Rule 1.16.

[54, 57]

Georgia Supreme Court Rule 5.

[12]

Georgia Supreme Court Rule 27.

[10]

H. Hart & A. Honore, Causation in the Law 104 (1959)

[65]

(17)
Indigent Defense Act of 2003.

[54]

Intervening Cause- (definition)

[40]

Intervening Superseding Cause- (definition)

[40]

Law Clerk- (definition)

[48]

Proximate Cause- (definition)

[35]

Spoliation- (definition)

[19]

Uniform Superior Court Rule 4.3.

[57]

Uniform Superior Court Rule 29.2.

[54]

United States Supreme Court Rule 10

[46, 51, 68, 72, 79]

(18)
IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.

OPINIONS BELOW

[X] For cases from federal courts:
The order of the United States court of appeals appears at Appendix (A) to the petition and
[X] reported at No. 19-13759. or [ ] has been designated for publication but is not yet reported;
or, [ ] is unpublished.
The Order of the United States District Court appears at Appendix (C) to the petition and is
[X] reported at
reported; or, [ ] is unpublished.

; or, [ ] has been designated for publication but is not yet

JURISDICTION

[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was February 25, 2020.
[ ] No petition for rehearing was timely filed in my case.
[X] A timely motion for reconsideration was denied by the United States Court of Appeals on
the following date: June 11, 2020, and a copy of the order denying reconsideration appears at
Appendix B.

The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1).

(19)
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

The Fifth Amendment to the United States Constitution provides that:
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a
presentment or indictment of a grand jury ... nor be deprived of life, liberty, or property,
without due process of law....

The Sixth Amendment to the United States Constitution provides, in pertinent
part:
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial,
by an impartial jury of the State and district wherein the crime shall have been
committed; .. . to have compulsory process for obtaining witnesses in his favor, and to
have the assistance of counsel for his defence.

The Fourteenth Amendment to the United States Constitution provides, in pertinent part:
No state shall . . . deprive any person of life, liberty, or property, without due process of
law; nor deny to any person within its jurisdiction the equal protection of the laws.

28 U.S.C. § 2254(d) provides, in pertinent part:
(d) An application for a writ of habeas corpus on behalf of a person in custody pursuant
to the judgment of a State court shall not be granted with respect to any claim that was
adjudicated on the merits on State court proceedings unless the adjudication of the claim- (1) resulted in a decision that was contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the United
States; or (2) resulted in a decision that was based on an unreasonable determination of
the facts in light of the evidence presented in the State court proceeding.

O.C.G.A. § 9-14-47 provides:
[w]ithin 20 days after the filing and docketing of petition...or within such further time as
the court may set; the respondent shall answer...the petition. The court shall set the case
for a hearing on the issues within a reasonable time after the filing of defensive pleadings.

O.C.G.A. § 9-14-48 provides in pertinent part:
The court shall review the trial record and transcript of proceedings and consider whether
the petitioner made timely motion or objection or otherwise complied with Georgia
procedural rules at trial and on appeal and whether, in the event the petitioner had new
counsel subsequent to trial, the petitioner raised any claim of ineffective assistance of trial
counsel on appeal; and absent a showing of cause for noncompliance with such
requirement, and of actual prejudice, habeas corpus relief shall not be granted. In all cases
habeas corpus relief shall be granted to avoid a miscarriages of justice.

O.C.G.A § 9-14-49 provides:

(20)

After reviewing the pleadings and evidence offered at the trial of the case, the judge of the
superior court hearing the case shall make written findings of fact and conclusions of law
upon which the judgment is based. The findings of fact and conclusions of law shall be
recorded as part of the record of the case.

O.C.G.A. § 16-5-1 (c) provides in pertinent part: "[a] person also commits the offense of murder
when, in the commission of a felony, he causes the death of another human being irrespective of
malice "

O.C.G.A. § 16-7-1 provides in pertinent part: [a] person commits the offense of Burglary when,
without authority and with the intent to commit a felony or theft therein, he or she enters or
remains within the dwelling house of another.

O.C.G.A. § 40-6-390(a) provides in pertinent part: Any person who drives any vehicle in
reckless disregard for the safety of persons or property commits the offense of reckless driving.

O.C.G.A. § 40-6-393 (a) provides in pertinent part:
[a]ny person who without malice aforethought, causes the death of another person through
the violation of {illegally overtaking a school bus, 'driving recklessly', driving under the
influence, or !fleeing or attempting to elude an officer'} commits the offense of homicide
by vehicle in the first degree...."

O.C.G.A. § 40-6-6 (d)(1) provides in pertinent part: the foregoing provisions shall not relieve the
driver of an authorized emergency vehicle from the duty to drive with due regard for the safety
of all persons.

O.C.G.A. § 40-6-6 (d)(2) provides:
"[w]hen a law enforcement officer in a law enforcement vehicle is pursuing a fleeing
suspect in another vehicle and the fleeing suspect damages any property or injures or kills
any person during the pursuit, the law enforcement officer's pursuit shall not be the
proximate cause or a contributing proximate cause of the damage, injury, or death caused
by the fleeing suspect unless the law enforcement officer acted with reckless disregard for
proper law enforcement procedures in the officer's decision to initiate or continue the
pursuit. Where such reckless disregard exists, the pursuit may be found to constitute a

proximate cause of the damage, injury, or death caused by the fleeing suspect."

STATEMENT OF THE CASE
On the morning of May 17, 2007, a witness was driving home, when she observed two young black males
in a blue, older model station wagon, with an "blue tarp tied to the roof', and "no license plate displayed".
The neighbor became suspicious and followed the vehicle. She observed it minutes later parked in a
driveway, with the doors open and no occupants visible. The neighbor called her mother (non witness),
who called the witness' friend -- whom contacted the neighborhood watch and eventually law enforcement
authorities.
Incognizant of potential detection, the vehicle passively exited the neighborhood. After casually passing a
law enforcement vehicle, the officer made a U-turn and followed the vehicle. The officer's eventually
attempted to effectuate a traffic stop for a "drive-out tag" or "possible burglary". The driver of the vehicle
failed to accede to the officer's signals and drove his vehicle onto the Interstate, as additional patrol cars
joined the pursuit. The driver continued his attempt to elude the police. After the police attempted a box
maneuver to stop the fleeing vehicle, the vehicle executed a U-turn in the median to the southbound lane
where it collided with a Buick. The Buick rolled over twice, killing the driver and seriously injuring the
front seat passenger. Both the driver and the passenger of the vehicle fled on foot and was soon
apprehended. Items taken from two burglarized homes were found in their possession as well as in the
station wagon.

I. PRETRIAL STAGE:

Westmoreland was arrested on May 17, 2007 on (6) charges stemming from burglary and vehicular
homicide, among other accusations; after determined to be indigent, a judge assigned the circuit defender
office to represent him through circuit defender representative ("Martin" or "Marty" Pope). On November
30, 2007, Westmoreland was co-indicted in a 17-count indictment (HT. 153-61). On January 10, 2008,
Westmoreland was escorted to the superior court for a scheduled Arraignment', and was held in a
confinement cell during the proceeding, without further Communication with attorney on the contents or
results of the hearing (HT. 113-14)2. Roughly 2 weeks later, an undisclosed "conflict occurred" and circuit
defender was removed from the case. Westmoreland was consequently appointed several different circuit
defender, until trial commenced on 10-20-08. (HT. 120-24; 984-85)'.

' O.C.G.A. § 17-7-93(a) states in pertinent part: "Upon the arraignment of a person accused of committing a crime,
the indictment or accusation shall be read to him and he shall be required to answer whether he is guilty or not guilty
of the offense charged, which answer or plea shall be made orally by the accused person or his counsel."
2 ("HT"), refers hereinafter to State Habeas Transcripts;
1

(a) Pretrial Motion Hearing(s):
On 10-14-08, during initial pretrial motion hearing, codefendant circuit defender requested a
severance of defendants, arguing "as of the other counts in the case, the defenses are that it was
him not me, so those are complete!;' antagonistic in these cases";

the motion was denied; ("MH.")'

An additional pretrial motion hearing was conducted prior to trial, with circuit defenders, trial
court and prosecutors to discuss evidence and stipulations to be used at felony murder trial.
Westmoreland was not present at hearing; (HT. 1043-44; 1188).

II. THE TRIAL:

First Plea Recommendation:
On October 20, 2008, the morning of felony murder trial, prior to jury selection,fourth circuit defender
communicated the States first plea offer which included a guilty plea to Felony Murder, dismissal of
remaining counts and offer testimony against codefendant. Westmoreland subsequently rejected the plea
offer and elected to be tried by a jury. (HT. 1180-81; 2534-35).
Motion In Limine:
Minutes prior to jury selection, the State filed a motion in limine "to move the court to preclude the
Defense from cross-examining officers or detectives of any possible departmental policy violations, [or]
Disciplinary actions that may have arisen from the traffic fatality on May 17, 2007, as those matters are
irrelevant; and cross-examining any witnesses regarding any civil lawsuit against the Cobb County Police
Department, if any in fact does exist as these matters are irrelevant." (HT. 1043; 1182-1186).
In response to the motion, trial counsel argued that he did think the defense had a right to go into the
whole issue of the pursuit and ask about what the policy was for the officer's to follow the vehicle. He
stated that he did not have a copy of the policy. Codefendant counsel stated that he had "copies of the
policy somewhere in my archives. I think one of the questions would be whether this accident, which
would be a defense for both defendants potentially, or an intervening act that if they violated the policy
could go to their credibility as to whether they followed correct procedures on the chase and arrest". Trial

O. C. G. A. § 17-12-22(a) states in pertinent part: "Mlle council shall establish a procedure for providing legal
representation in cases where the circuit public defender office has a conflict of interest. This procedure may be by
appointment of individual counsel on a case-by-case basis or by the establishment of a conflict defender office in
those circuits where the volume of cases may warrant a separate conflict defender office."
' ("M11") refers hereinafter to Pretrial Motion Hearing; {not part of the State's evidence);
2

counsel added that he would expect that it would explain the officer's conduct in the pursuit. The judge
reserved the ruling and advised the defense that they would have it properly certified and lay the proper
foundation for what the policy was. The court said that she didn't know anything about the facts and until
she hear the facts, it needs to be brought back to her attention. She further stated counsel couldn't ask what
the policy is because that wouldn't be the highest and best evidence; the policy would be the highest and
best evidence of what the policy is. (HT. 1186-88).

During trial, both circuit defenders (Marotte and Christian) were advising Westmoreland that they were
attempting to obtain the policy from the Cobb county police department. (HT. 2519-20)

(c) Cross-Examination/ Confrontation Clause:

During cross-examinantion of the initiating pursuing officer, he testified that he turned around to follow it
(Westmoreland's vehicle); as a certified officer, he receive a certain amount of training in procedures and
policies of the Department; and there are certain procedures and policies that are set out that would
govern how you would react to various situations. When witness was cross-examined on the policy for

pursuing a vehicle under the circumstances with the call that he got, This examination was objected to
on relevance grounds by the State. The prosecutor interjected that the question should be about attempting
to elude a police officer. The trial court sustained the objection and ruled that "the policy would be the

highest and best evidence." Counsel moved on to an entirely different line of questioning, inquiring "when
did you turn on your emergency equipment?" (HT. 1576-77).

(d) Expert Witness Testimony:

The states expert witness, law enforcement officer/accident reconstructor', testified that the
victim's vehicle initially tripped when the front right wheel "furrowed" into the "tilled dirt", in the
grass where fiber optics had been laid days leading to the accident. (HT. 1698-1722; 1868-69; 163
§2; 168; 175).

Medical Examiner testified, that the victim's death was caused by injuries sustained during the
car incident; and

Physician Brian Frist testified that "the unlawful injury inflicted ['blunt force trauma']
accounted as the efficient, proximate cause of death.

(e) Defense Evidence:

After the close of the States case, the defense didn't present any evidence. (HT. 1878).

(I) Closing Arguments:

3

(I) Trial Counsel: advised the jury to find Westmoreland guilty of several felonies without
securing Westmoreland's permission. "But the bottom line is that I suggest to you that the evidence
in this case indicates that what he he found guilty of is vehicular homicide, serious injury by
motor vehicle, the burglary charges, the attempting to elude charges... [Ajnd that's what we would
ask you to consider doing in your verdict "(HT. 1896-1901).
Codefendant's Counsel: argued to the jury that: (i) "Believe it or not, I represent John
Williams. That's me."; (ii) That his client "was just the passenger in the vehicle that
[Westmoreland] was driving"; (iii) "Amos Westmoreland was driving his vehicle, Amos made a
mess out of May 17, 2007"; (iv) "the law is we have the guy that caused that death here, we
sure do. Right there!" (pointing at Westmoreland)... 'that was the guy that caused the death.
That was the guy that turned left That was the guy that struck that car."; (v) "we got to
separate out who pays for what in this case. Who caused the death of this lady? Who injured
these people's kin? Who did that? Amos did that, not Williams"; and (vi) "I will not say
that...Mr. Westmoreland didn't drive recklessly, didn't careen the car across 575 into this lady and
flip her car over twice...but I will not say that to anybody's fault but Westmoreland." (HT.
1902-1911).
State's Closing Arguments: prosecutors argued that: (i) "there was no question that these
officer's were engaged in their job, they were doing what we expect officers to do". (HT. 1888);
(ii) "we have agreed that Barbra Jean Robbins, she's the human being that died, with or without
malice. We have agreed to that in the stipulation". (HT. 1016-18 § 7; 1916); (iii) "we have to look
at the burglary itself, determine whether a burglary felony existed; if it does exist, then go back
and add the death of Barbra Jean Robbins." (HT. 1917); (iv) "but here's what's important, it was
a continuous act because they were in Cobb County, 'OUR COUNTY'. (HT. 1932).; (v) "the
basis for count number 8 is burglary, count 1 and 2...when you determine the burglary was
committed, then go back and add the death of the victim"; (ix) 'You took an oath, that you will
apply the law...when you find they committed the burglaries, that they helped each other with the
burglaries, that's felony murder, ladies and gentleman. That's an oath, that's your job". (HT.
1933); and (x) "When you get to exhibit (177), this is what they did...[b]ecause you know, if we
could have called her today, she would have said 'All I was doing was spending time with my
family, having breakfast. I wasn't speeding. I wasn't speeding at all. I had my daughter, my
granddaughter... and when you look at the death certificate, this Friday. she would have had a
birthday. And because Tatiana doesn't have Me-Maw for a birthday, we ask that you find them
guilty offelony murder, because that's what it is". (HT. 1936).

4

Motion for Directed Verdict:

Trial Counsel requested a directive verdict on felony murder count, arguing that there was no evidence
presented that Westmoreland was in commission of a burglary. The trial court denied the motion, leaving
the determination up to the jury. (HT. 1835; 1864); Trial court also denied defense request for accident
instruction, stating that Westmoreland "was driving all over the place', assuming that it was him" (HT.
1868-69)
Jury Instructions On Felony Murder-Burglary:
The trial court charged the jury on Felony Murder, in that:
"In order for a homicide to have been done in commission of a particular felony {Burglary}, there
must be a connection between the felony and the homicide. The homicide must have been done in
carrying out the unlawful act and not collateral to it. It is not enough that the homicide occurred
soon, or presently, after the felony was attempted or committed. There must be such a legal
relationship between the homicide and the felony so as to cause you to find that the homicide
occurred before the felony was at an end or before any attempt to avoid conviction or arrest for the
felony.
The felony must have a legal relationship to the homicide, be at least concurrent with it, in part,
and be part of it in an actual sense. A homicide is committed in carrying out of a felony when it is
committed by the accused while engaged in performance of any act required for the full execution
of the felony." (HT. 1964-66; 2021-23).
(i) Jury Questions:

During jury deliberations, the jury inquiry consisted of: "a recharge on the points of the law as it relates to
the charges"; their "main challenge is how conspiracy weighs in felony murder and homicide charges";
clarification of the essential basis of the offense"; and "when did the commission of the burglary
conclude"; (HT. 1984).

(i) Verdict, Conviction and Sentence:
As a result of convictions on several counts, Westmoreland was sentenced to Life imprisonment on
Felony Murder (Burglary), 15 years consecutive for Serious injury by motor vehicle, and 12 months
concurrent for obstruction and failure to secure a load; the remaining counts were merged or vacated by
the operation of law. (HT. 1069-71; 1090-92);

MOTION FOR NEW TRIAL:

Circuit defender Marotte filed a standard Motion for New Trial. Subsequently, circuit defender Louis
Turchiarelli was appointed to represent the case on appeal, and eventually amended the motion for new
trial twice. (HT. 1095; 1099; 1128)

5

At motion for new trial hearing trial counsel testified that:
a) he had never sat down and read the policy (HT. 2514); b) the first time the issue of the policies
came up was when Westmoreland brought it up on the second day of trial, the day the evidence
would have started (HT. 2515-17); c) "Mr. Christian, he wasn't really associated as co-counsel. He
was basically through the circuit defenders office going to observe and he did assist me...if I asked
him to do something"; d) he did ask Mr. Rife -- it was his understanding that he had a copy, but at
that time the court had ruled it was irrelevant; e) "I did not obtain the policy. We checked with the
police department, they said that it would take several days for them to comply with that...I did not
personally go...I had Mr. Christian check on it for me while he was more or less assisting me in
trial...[and] I think he had his secretary or his assistant call" (HT. 2519-20); f) in his trial

strategy, he didn't think the policies and procedures would help him in arguing whether the case
was a vehicular homicide verses a felony murder case; g) Mr. Rife had basically told him that "he
had gotten a copy of the policy"; h) he "felt it was relevant to ask the officer's about the policies to
lay some kind of foundation for their actions and whatever was going on, I did not think of was a
good idea for me to get the policy and try to put it into evidence...[a]s a defense, I felt that would
probably have a negative reaction with the jury"; i) he did not ask the court for any money for any
kind of private investigator, or any kind of expert and he never consulted with any expert witness
concerning the procedures and policies of the Cobb county police department.; j) it was not part
of his argument to the jury to try to convince them dealing with lesser charge of vehicular
homicide verses felony murder, dealing with O.C.G.A. § 40-6-6(d)(2) and proximate cause of the
collision and murder; he stated from a factual standpoint it was difficult for him "to try to tell the
jury that the officer conduct in the chase was the proximate cause"; k) he "believe [he] discussed
with [Westmoreland] we just didn't have a defense for us to put on under the circumstances
of this case, and [he] believe [he] told [Westmoreland] at that point and time, unless he
thought otherwise there wasn't any real need for us to discuss because we didn't really have
a trial strategy in terms of us presenting a defense (HT. 2527); I) he didn't present any
evidence in the cases (HT. 2522); m) he was previously the law clerk for Milton Grubbs (trial
courts late-husband) (HT. 2529); and n) "when I got the file, and I don't know how long this case

had been going on... "I believe he asked— at one point in time, I asked him— understand, there
was another lawyer prior to me in this case. And I didn't know what he had or had not done. At
some point in time, Mr. Westmoreland told me that he'd never seen his Indictment. I know I
sent him a copy of the indictment." (HT. 2513)

Also during the hearing, initial appellate circuit defender advised the court that:
"...for the purpose of clarification, I attached a certified copy of the Cobb County Police
Department's policy 5.17', Vehicle Pursuits, to my original first Amendment...'and I've got
another copy here and I had...Lt. Alexander fulnder subpoena to be here today and the
State said that they realized I've got a certified copy of the policy." (HT. 1107-24; 253839).
In denying Motion for New Trial, trial court ruled that she:

"did not allow trial counsel to cross examine officer Rosine on the Cobb County Police
Department Policy on vehicle pursuits. First there was no certified copy of the policy
tendered into evidence. The policy itself would be the best evidence of what it contained.
Secondly, there was absolutely no evidence of reckless disregard by the police officer's
during the chase and the policy, a certified copy of which was attached to the motion for
new trial, would not have revealed any. The policy was not relevant." (emphasis added).
(HT. 1138).
(i) Also in denying motion for new trial, the court, for the first time, applied "res gestaes" in
support of the "escape phase" of the burglary. (HT. 1142)

"...the policy of the Department is to use all reasonable means in order to apprehend a fleeing violator" Effective
December, 2004;

6

IV. INITIAL POST CONVICTION PROCEEDINGS:

The motion for new trial was denied on April 14, 2009 (HT. 1138). Literally, within a week,
Westmoreland received a Civil Summons filed by the family and victims of the car accident, naming
[him], (his codefendant), and (5) Cobb County Governmental Officials as parties in the action'. Exhibits in
the pleadings included Cobb county's pursuit policy 5.17, attached to amended motion for new trial and
Restricted Pursuit Procedures (Memorandum Order) which was effective on the date of the accident
(5/17/07)'. [HT. 2590-93]. Simultaneously, through an Open Records Act request, Westmoreland received

available case records from Cobb County Superior Court Clerk.
Lawyer/Client Communication:

After reviewing records and transcripts of felony murder proceeding, Westmoreland sent numerous
potential claims to initial appellate counsel for consideration on only appeal as of right. Correspondence
raised ineffectiveness of trial counsel claims including, but not limited to--:
* state interference; * outdated policy issue; * first time seeing discovery material (received from
the clerk); * no transcripts of arraignment or second pretrial motion hearing, in which
Westmoreland was involuntarily absent from; * conflict of interest with Public Defenders
Office (Le., Michael Syrop, Gary Walker, Kenneth Sheppard, David Marotte and Rick
Christian); * trial lawyer never stood a case in front of trial court and was the clerk for her
husband; * recusal because judges daughter was killed in a car related incident; * Motion to
hire an independent investigator filed by Michael Syrop wasn't pursued; * codefendant counsels
and Marone improperly instructing the jury to find Westmoreland guilty of numerous crimes; *

lack of communication; * Brady violation; * double jeopardy; * prosecutor's improper comments
in closing arguments; * improper influence to sign indictment during trial under the
understanding of pleading not guilty, and not intentionally waiving formal arraignment; *
ineffective assistance based on attorney being appointed at the "last minute"; * numerous
statutes, case law, and constitutional violations were presented for consideration; See (Pet. Ev.
24)°;
Conflict and Substitution of Appellate Circuit Defender:

Consequently, a conflict of interest occurred between Westmoreland and Turchiarelli for "client-lawyer
understanding" (Pet. Ev. 25) (Appendix 0); and resulted in Circuit Defender William Carter Clayton

being appointed (substituted) to the case. At that point, Motion for New Trial had been denied and the

Kinney et.al., v. Westmoreland Case No. 2009CV04437D (Clayton County State Court, Georgia);

' Effective [12/14/06], vehicular pursuits are prohibited unless there is probable cause to believe that the person(s)
being pursued have committed or are committing any one or combination of the following acts: 1) Murder, armed
robbery, rape, kidnapping, aggravated battery, and aggravated assault; or (2) Any act that creates an immediate threat
of death or serious bodily injury to another person (circumstances equivalent to deadly force being authorized)...This
memorandum constitutes a lawful order advising employees of a change of department practice. Employees are
hereby ordered to adhere to this change in policy.
("Pet. Ex.") refers hereinafter to exhibit(s)/evidence filed by Westmorland in state habeas proceeding.
7

direct appeal had already been docketed in the Georgia Supreme Court. Substitute Circuit Defender
enumerated four errors, including one claim of ineffective assistance of trial counsel on direct appeal, in
that, counsel failed to properly investigate and present evidence of the Cobb County Police Department's
vehicle pursuit policy; and he received ineffective assistance of counsel at motion for new trial in that his
first post-conviction counsel failed to present evidence of the Cobb County Police Department's vehicle
chase policy as reflected by the December 14, 2006, memorandum order banning police vehicle pursuits
except in certain limited situations.

None of the potential claims presented to initial appellate circuit defender were pursued on direct appeal
by substitute circuit defender.

(c) State Supreme Court Decision:

The Georgia Supreme Court affirmed Westmoreland's convictions and sentences on June 28, 2010.
Westmoreland v. State 287 Ga. 688, 699 S.E.2d 13 (2010). (HT. 2556; 2267-68) (12-1 at 2-4);

In Division I of the court's decision, the court opined that: "Wirst, the policy alluded to' was not
presented to the jury and is not contained in the record of appeal. Accordingly that material does not
factor into our evidentiary review." In Division 3 of the decision, the court went on to conclude:
"Westmoreland asserts that his first post-conviction counsel was ineffective because he failed to attach to
his motion for new trial a written addendum to Cobb County's vehicle pursuit policy which restricts
vehicle chases in cases involving crimes such as burglary. We find no reasonable probability that such
evidence, had it been introduced, would have resulted in a favorable ruling on the motion for new
trial." Id. (emphasis supplied).

In Division 2, the court held that:

"A party who complains about a restriction on cross-examination -must either ask the question he
desires to ask or state to the court what questions he desires to ask and then interpose timely
objection to the ruling of the court denying him the right to propound thge question '[Cit.]'.
However, after trial court sustained the prosecutor's objection, Westmoreland abandoned his line
of questioning and posed no objection to the trial court's ruling on the scope of his crossexamination. "Because '[e]rrors not raised in the trial court will not be heard on appeal [cit.],
[Westmoreland] has waived this [issue].'"Id. (emphasis in italics added).

V. PRO SE MOTION FOR RECONSIDERATION:

Westmoreland received the decision on direct appeal in the U.S. mail, with less than a week to timely
challenge the ruling. Substitute appellate circuit defender advised [Westmoreland] through

Allude- to refer casually or indirectly; make an allusion. [t]o contain a causal or indirect reference. Random House
Webster's Edition Dictionary;

8

correspondence, that the case was "final" and [he] had "4 years to challenge the conviction by way of
filing habeas corpus". (Pet. Ev. 29). (Appendix P.)

Westmoreland immediately filed a pro se Motion for Reconsideration' in the state supreme court, raising
several claims of error, omission and constitutional violations. (Pet. Ev. 31);
Subsequently, the clerk corresponded that as long as [Westmoreland] was represented by any counsel, the
court was unable to accept a filing for [him], and the attorney must withdraw in writing to be removed as
counsel in [the] case. (Pet. Ev. 32). See Georgia Supreme Court Rule 4". (Appendix Q)

VI. POST TRIAL COLLATERAL ATTACK(S):

(A) EXTRAORDINARY MOTION FOR NEW TRIAL:
The Extraordinary Motion for a New Trial, filed in the convicting court, is a post-conviction remedy in
Georgia. Motion must be directed to the trial court at the first instance'.
In May 2011, Westmoreland filed an Extraordinary Motion for New Trial and raised pertinent evidentiary
issues. Westmoreland presented a copy of the updated policy along with affidavit and other exhibits,
advising the court: "the evidence was explicitly included in a lawsuit in a separate court on the same
issue. The evidence was analyzed and admitted herein". (Pet. Ev. 36).

In June 2011, trial court ruled that:

"The Defendant alleges that he is entitled to a new trial because evidence of the "Cobb County
Police Departments' Restricted Pursuit Procedures" were not introduced into evidence. However
this is not newly discovered evidence. The record shows that Cobb County Police Pursuit
Procedures were argued at trial and at Motion for New Trial, even though a copy was not
submitted. The Supreme Court in its decision in this case @ 287 Ga. 688 discussed these
procedures in Divisions 1 and 2 of their decision. The Defendant cannot show that the Cobb
County Police Restricted Pursuit Procedures were not known about until after trial. Therefore
Defendant's Motion for New Trial is denied." (Pet. Ev. 37). (Appendix M)
(i) Discretionary Appeal:

" Ga. Sup. Ct. Rule 27: A motion for reconsideration may be filed regarding any matter in which the Court has ruled
within 10 days from the date of decision. A copy of the opinion or disposition to be reconsidered shall be attached.
No second or subsequent motion for reconsideration by the same party after a first motion has been denied shall be
filed except by permission of the Court. The Clerk may receive any later motion and deliver it to the Court for
direction as to whether it shall be filed.
" Any withdrawal, discharge, or substitution of attorneys of record in the Court shall be communicated to the Court
in writing via the e-file system and shall include the name and number of the case in this Court and the name and
address of counsel's client....Counsel shall provide a copy of the notification to the client, substituted counsel, and
opposing counsel, including the Attomey General where required by law.
" Sec D. Wilkes, State Post Conviction Remedies and Relief Handbook §§ 13:1, 13:103, pp. 626-27, 686 (2013-2014
Ed.)
9

In Application for Discretionary Appeal, the state supreme court passed an order that:
"Because applicant did not file until July 22, 2011 his application for discretionary appeal from
the June 9, 2011 order denying his extraordinary motion for new trial, the application is untimely
and hereby is dismissed....The applicant is granted ten days from the date of this order, [September
1, 2011], to file a motion for reconsideration." (Pet. Ev. 38).
(ii) Motion for Reconsideration
A timely motion for reconsideration was filed. An original lawyer-client letter from initial appellate
circuit defender Turchiarelli was attached as an exhibit, to show that counsel had advised Westmoreland
that the

defensive witness subpoenaed to testify at motion for new trial hearing could only testes that the

policy admitted was effective on the date of the accident. In October 2011, after considering the
Reconsideration, the state supreme court denied the motion. (Pet. Ev. 38).

(B) EXTRAORDINARY MOTION OF ARREST IN JUDGEMENT and AMENDMENT:

On June 30, 2011, Westmoreland filed an Extraordinary Motion of Arrest in Judgement, challenging the
sufficiency of the records and pleadings and raised pertinent evidentiary issues (Pet. Ev. 39). However, by
the time the 1st Amendment to the motion was filed, the trial court had ruled on original motion. (Pet. Ev.
40; 41; 42);

The trial court ruled that:
"[T]here are no non-amendable defects appearing on the face of the record or pleadings. — 1) The
indictment returned by the Grand Jury in the correct manner; 2) Each count of the Indictment
charges the essential elements of the crimes charged; 3) The Sentences imposed are correct as a
matter of law; 4) The contention regarding the Cobb County Police Department Pursuit to Policy
was previously rejected by the Supreme Court in Section 3 of its decision; and 5) There is no error
in the charge and no

"conflict of interest"; Therefore Defendant's Motion in Arrest of Judgement is

denied."' (July I, 2011). (Pet. Ev. 40); (Appendix N).
(i) 1st Amendment to Extraordinary Motion In Arrest of Judgement:

The 1st Amendment specifically attacked the validity of the Felony Murder conviction and sentence, with
direct reference to the record and pleadings, including the jury instructions. On April 9, 2012, the trial
court adjudged the motion, ruling that: "The 1st Amendment to Extraordinary Motion In Arrest of
Judgement having been reviewed...it is hereby denied." (Pet. Ev. 43);

Discretionary Appeal/ Motion for Reconsideration:

10

On May 4, 2012, the state supreme court received application for discretionary review. However, the clerk
declined to accept the application and returned it for lack offiling cost or a sufficient pauper's affidavit
(S.D. R. 5). (Pet. Ev. 44);

Without delay Westmoreland immediately complied, and the application was docketed on May 11, 2012.
Consequently, on May 24, 2012, the court dismissed the application as untimely, ruling: "the application
seeks review of an order entered April la 2012, thus making the application one day late."(Pct. Ev. 44).

V. STATE HABEAS CORPUS PETITION:

Westmoreland filed pro se state habeas corpus petition in Hancock County on October 28, 2011, along
with two amended petitions, in which he challenged his Cobb County convictions and sentences and
raised a total of 122 --5th, 6th and 14th Amendment of the U.S. Constitutional -- claims {including Due
Process, Equal Protection, and Ineffective Assistance of trial and appellate counsel(s)} (Appendix E).
Westmoreland maintained among other claims, that substitute appellate circuit defender was
constitutionally ineffective for failing to raise the grounds raised in the instant petition on appeal and
failing to withdraw in writing so that [Westmoreland] could properly present [his] constitutional claims in
Motion for Reconsideration to the State's highest court. On 12/15/11, Westmoreland filed a "Motion for
Appointment of Special Assistance of Counsel."(12-2 at 34-36).

(a) TRIAL COUNSEL'S SWORN AFFIDAVIT: (INTERROGATORIES):

During the pendency of the state habeas corpus proceeding, in a sworn affidavit administered under oath
on [June 19, 2012], Circuit Defender Marotte attested:

He didn't know how many felony murder cases he'd handled prior to Westmoreland's case; • he
was an associate in Milton Grubbs office during 77-78; • he presumed that the Circuit

Defenders Office was responsible for appointing him to the case; • he had a short pretrial
inquiry with the district attorney in the judge's office, where the judge asked if there were any
pretrial issues to be addressed; • this was a case where he was appointed at the last minute.
Judge Grubbs gave one continuance and he had to get ready as best he could within that time
frame; • he had less than 30 days to prepare but he had no choice in the matter. That was the
order of court and the schedule directed by the judge; • when he took the case, he did not
recollect seeing any motions filed by previous Circuit Defenders; the file that was turned over
to him had very little information in it, other than some discovery material; he had one
telephone conversation with the previous attorney who updated him on what little had been
done on the case; • he did not see a motion for funds to hire independent investigator to assist
the defense"; he did not have formal training in criminal investigations and accident
reconstruction; he did not have an expert or private investigator to assist in preparing a defense.

"but a private investigator would have been nice to have"; • he did not recollect another pretrial
conference being conducted after 10-14-08; • that prior to trial he had never read the Cobb
County Police Department Vehicle Pursuit Policy; he was not aware of a December 14, 2006

" (HT. 64-66)

11

Restricted Pursuit Policy; • the issue of the policy was first broached on the morning of trial;
he advised Westmoreland during trial that he was attempting to obtain the policy from the
police department; • he asked Rick Christian, who was sitting in on the case to try and get a copy
of it; he didn't know who actually went to the police department to attempt to obtain the policy
between Christian, his personal assistant or his secretary; • Counsel for co-defendant who had
been in the case for some period of time made him aware of the policy; he asked counsel if he
could produce the copy that he had; And he "did this mainly because defendant requested h.;
neither him nor counsel for the co-defendant believed that the policy constituted a valid criminal
defense and making that the main issue of the case might well have prevented a jury from
considering the lesser included offense; • it was his opinion that the policy may have been a
bearing on a wrongful death action, but he didn't believe that it was a defense to vehicular
homicide or felony murder; • he did not recollect specifically of advising Westmoreland that he
feared alienating the jury by attempting to blame police on account of losing credibility, but it was
possible; • he had stood/tried a case in front of Judge Grubbs. prior to Westmoreland's nondeath penalty capital felony murder trial; • he was aware of trial courts daughter dying in an
auto-related accident: stating that Westmoreland brought this issue up for the first time on the
morning of trial. Re considered this a frivolous issue and as a matter of morality, ethics, and
professionalism, he had no intention on filing such; * he believed co-defendant trial strategy was
that it was all Westmoreland's fault; • he did not object to codefendants counsel closing argument
blaming Westmoreland for everything; • he did the best he could with what he had to work with;
(Pct. Ev. [filed 6/21/12]) See OCGA § 9-14-48 (I)) and (c).
(b) State Habeas Hearing:

During the pendency of the state habeas corpus petition, Westmoreland filed several pleadings
(including, but not limited to, Motion for Production of Documents, Interrogatories and several
Amendments to Briefs) and numerous articles of evidence (exhibits #1-58). This fact was alluded to by the
Respondent's attorney at the hearing: "there is, as your honor is probably well aware, there is I'll say
voluminous pleadings in this case filed by Westmoreland, many motions, many Amendments". (HT. 4).
(Appendix L)

At the evidentiary hearing on April 3, 2013, Westmoreland's substitute appellate circuit defender
testified and was subjected to cross-examination. Clayton testified that:

(a) there was some sort of conflict with previous counsel but he couldn't remember exactly what it
was; (b) his appointment to Westmoreland ease was after motion for new trial had been heard and
denied and case was docketed— pending appeal in the Georgia Supreme Court; (c) being
appointed so late in the case, "in a sense" presented special and unique challenges to his
representation and it was unusual to be appointed at this part of the proceeding; (d) the belated
appointment did have a bearing on his legal analysis regarding ineffective assistance of
counsel claims; (e) he would have done things differently than the prior attorney had he had
the case from the Motion for New Trial; (f) he was sure that he would have raised question
of ineffective assistance of trial counsel claims differently than he would if he had been
appointed counsel at the beginning of Motion for New Trial; (g) he did not have a chance to
make the record for appeal and had to essentially write his brief based on the record that
was made by the prior public defender; (h) in preparing for the appeal, he spoke to
Westmoreland's former attorney, discussed the case with Westmoreland, and researched the Cobb
County pursuit policy; (i) he did not see a way to file an extraordinary motion for new trial
based on the outdated vehicle pursuit policy being included in the original motion for new
trial because by the time he came into the case, the appeal had already been docketed in
the georgia supreme court and trial court was without jurisdiction to hear such a motion
at that point; and Q) he felt that he raised the most viable and meritorious issues on appeal. (HT
7-15).

12

During the hearing, the Respondent presented the court with the states post-trial briefs which
Westmoreland had seen for the first time, but didn't object to the delay at the hearing. (FIT 22-23). The
state habeas judge requested post hearing briefs from both parties. (HT 32-33).
At the conclusion of the hearing, the court it

Westmoreland, that he had the file of everything

that had been stamped and filed in the case, and it included a particular brief. He acknowledged the he
was looking at it right then and noted that it was very thick, and that he was going to take it with him that
day (4-3-13) and go through everything that's filed in the case and once he was done, he would then
make a decision. (HT 30-33). (Appendix L)

A week after the hearing, Westmoreland received Respondent's "Return and Answer" through the
U.S. mail, addressing (103) of (122) constitutional claims. Grounds 68 and 105-122 were not addressed or
defended (procedurally defaulted) by the Respondent.
Westmoreland filed his post hearing brief suggested by the habeas judge, along with a motion for a
hearing pursuant to State Habeas Corpus Act''. A hearing was subsequently set for Novemeber 20, 2013.
However, while present at the courthouse awaiting scheduled hearing, the 'correctional officer' advised
Westmoreland that the judge said [the] case was "rescheduled" or "postponed" to another date.
Westmoreland insisted that the correctional officer advise the habeas judge that as a pro se litigant, [he]
wished to address the court. The officer declined the request.
(c) Final Order on Claims Raised in Petition:
In the final order drafted by the state and adopted by the state habeas court as its own, on ground(s): ((12), (5-8), (11-21), (23-29), (31-68), (71-80), (94-95), (97-107), (109-110), (*112}, (114), (116-118), (120),
(*12211, the habeas court concluded that "regardless of whether these claims were timely raised at trial
under the relevant procedure rule, these claims were not raised as error on appeal. Thus, they are
procedurally defaulted under O.C.G.A. 9-14-48 (d)". The order also concluded that:
"Westmoreland has failed to offer any evidence and has thus not met his burden to show cause in

the form of ineffective assistance of counsel at the appellate level for failure to raise these on
appeal and to establish prejudice based on the procedural [rule]. Westmoreland has thus failed to
overcome the procedural bar to consideration of these issues. Accordingly, ground {s} provide no
basis for relief'.
The order also acknowledges that "Westmoreland filed a motion for reconsideration, which was denied
on July 26, 2010". Id.

"O.C.G.A. § 9-14-47 provides in pertinent part: [w]ithin 20 days after the filing and docketing of petition...or within
such further time as the court may set the respondent shall answer...the petition. The court shall set the case for a
hearing on the issues within a reasonable time after the filing of defensive pleadings. ("defensive pleading" filed two
days after the hearing);
13

(c)(1) The adopted order further found that "Westmoreland failed to question appellate counsel on
the issue of failing to withdraw in writing at the evidentiary hearing. Thus, he failed to meet his
burden of proof to show that appellate counsel was ineffective....Accordingly, ground provides
no basis for relief "
(c)(2) Evidence filed in state habeas proceeding included, but was not limited to: All pro se postconviction collateral attacks and dispositions of actions, Sworn Affidavitfinterrogatories from
trial counsel David S. Marotte (Pet. Ex [filed 6/21/12]), client-lawyer correspondence between
Turchiarelli and Westmoreland (Pet. Ex. 23-25), client-lawyer correspondence from Clayton to
Westmoreland enclosed with denial of direct appeal (Pet. Ex. 29), Westmoreland's correspondence
to the state supreme court clerk including Motion for Reconsideration (Pet. Ex. 30-31) and
response from the clerk advising that counsel had to withdraw in writing. (Pet. Ex. 32).
(d) Certificate of Probable Cause:
Under circumstances, Westmoreland filed multiple Certificate of Probable Cause's (CPC) in the state
supreme court. Claims included (1) the state habeas court failed to meet the requirements of O.C.G.A § 914-49, when it adopted the state's proposed final order verbatim which was arbitrary and capricious;
and Westmoreland (2) reliance on the court's well-reasoned and established habeas precedent in Ryan v.
Thomas 261 Ga. 661 (409 S.E.2d 507)(1991), where the court made it clear that different attorneys from
the same public defender's office are not to be considered "new" counsel for the purpose of raising
ineffective assistance claims. Therefore, a defendant's right to raise such a claim may not be barred by
failure of a succession of attorneys from the same public defender's office to raise it. (Appendix I).
Subsequently, Westmoreland raised claims, including, but not limited to:
(i) Conflict of Interest with the Circuit Defenders Office; (ii) Violation of Right to be Present at
Critical Stage ("Makeshift" Arraignment); (iii) Conflict of Interest -- Trial Court and Trial
Counsel; (iv) Conflict of Interest -- Trial Counsel and Codefendant Circuit Defender; (v)
Prosecutorial Misconduct/Brady Violation (Trial); (vi) 6th Amendment Confrontation Clause
Violation; (vii) Merger/Void Sentence (Serious Injury by Vehicle); (viii) Ineffective Assistance of
Initial and Substitute Appellate Circuit Defender; (ix) Insufficiency of Evidence/Felony Murder
(Burglary) (cite-- Jackson v. Virginia); (x) Due Process and Equal Protection Violation when
court omitted unambiguous language from state statutory provision O.C.G.A. § 40-6-6(d)(2); (xi)
Trial Court Abuse of Discretion -- Extraordinary Motion for New Trial; (xii) Cumulative
Error/Spoliation (Due Process); (xiii) Conflict of Interest -- Respondent's Attorney (Attorney
General Samuel S. Glens); (xiv) Violation of Habeas Corpus Act -- O.C.G.A. § 9-14-47; (xv)
Ineffective Assistance of Counsel -- Inadequate Preparation and Investigation for Trial (cite-Strickland v. Washington); (xvi) Habeas Court Final Order Verbatim was Arbitrary and
Capricious (Due Process); (xvii) Violation of Right to be Present at Critical Stage
(Undisclosed Pretrial Hearing); (xviii) Double Jeopardy and Due Process Violation (Burglary,

14

Eluding a Officer and Vehicular Homicide -- Felony Murder); (xix) Inadequate Notice; (xx) Trial
Court Error (Applying res gestae in Order Denying Motion for New Trial); (xxi) Double
Jeopardy/Due Process (cite-- Apprendi v. New Jersey); (xxii) Trial Court Error -Extraordinary Motion for New Trial; (xxiii) Denial of Counsel at a Critical Stage (Trial); (xxiv)
Inadequate Investigation and Preparation for Trial; (xxv) Cumulative Errors/Due Process
Violation; (xxvi) Prosecutorial Misconduct/ Brady Violation -- State Interference (Motion for
New Trial);
The (CPC) was denied by the Supreme Court of Georgia, without particularly addressing any of the issues
raised therein. (Appendix H).

VI. FEDERAL HABEAS CORPUS PROCEEDING:
In May 2014", Westmoreland filed pro se 28 Section 2254 petition in the United States Northern District
Court of Georgia, which was amended to add a total of (62) claims maintaining - 5th, 6th and 14th
Amendment of the U.S. Constitution violation (i.e., Due Process, Equal Protection, and Ineffective
Assistance of Trial and Initial Appellate Counsel(s)). See (Appendix R). Grounds maintained among
other claims, that substitute appellate circuit defender was constitutionally ineffective for failing to (i)
raise conflict of interest with circuit defender's office -- as the 7th appointee in case; (ii) failing to review
the entire record to raise core constitutional violations on Westmoreland's only appeal as of right; and (iii)
failing to withdraw in writing so that [Westmoreland] could properly present [his] Motion for
Reconsideration to the State's highest court.
In filing federal petition, among other pleadings, Westmoreland again requested "Appointment of
Counsel" and an "Evidentiary Hearing".
Respondents responded to these claims arguing that Westmoreland's claims were procedurally
defaulted, meritless and untimely.
A United States Magistrate Judge prepared a Report and Recommendation ("R&R") 6/26/19, which
took the position that the state habeas court similarly determined Westmoreland's grounds (6-22 and 2647) to be procedurally defaulted, and ruled, "again Westmoreland has demonstrated no basis for
overcoming his (own) procedural default." (Appendix D).
Westmoreland submitted written objections to Magistrate's ("R & R"), among other contentions, that
the Magistrate mis-characterized [his] Brief as raising additional facts and argument and [his] "Reply"
untimely (Doc. 99 @21). The (R&R) noted that "Westmoreland offered no other factual support for
grounds in his petition." Westmoreland objection was based on the fact that after the case was remanded

u State habeas petition was "pending" in state court when Petitioner filed U.S.C. §2254 petition.
15

back to the District Court'', the Respondents filed a Second Amended Answer-Response and Brief (Doc.
91 and 91-1). In response, Westmoreland filed his 103-page 'Rebuttal and Supporting Brief" (Doc.
92), and at the time of the filing, the Magistrate clearly did not make any reference to the timing, factual
content or format as it did in the (R & R). In fact, she stated in a previous Order (Doc. 93) that she would
"review and consider" the Rebuttal and Supporting Brief submitted by Westmoreland. Westmoreland

also asserted that all grounds in the petition raised federal analogous provisions of the U.S. Constitutional
guarantees that were violated, while the "supporting facts" clearly articulated what a pro se layman,
believe to be the facts that establish the claim(s) independently. Furthermore, the brief set forth a more
detailed legal argument and citation of constitutional authority for each ground.
On 8/1/19, the United States District Court, overruled Westmoreland's objections and approved and
adopted the (R & R) as the opinion of the Court. The District Judge further held that Westmoreland "has
filed Objections to the Report and Recommendation but fails to provide any basis for the Objections.
'[Westmoreland] claims of ineffective assistance of counsel based upon a "conflict of interest"' are totally
without merit." "[H]e fails to state any basis for overcoming the Magistrate Judge's findings of procedural
default as to the vast majority of his claims. 'Claims of errors of state law by the Georgia Supreme Court
and the state habeas corpus court fail to furnish grounds for habeas relief...[T]he Petition is Denied."
(Appendix C),

Westmoreland requested a COA and the District Court denied this motion on 8/1/19. A timely notice of
appeal was filed and Westmoreland was permitted to proceed In Forma Pauperis.
A timely application for a certificate of appealability was filed in the U.S. Court of Appeals for the
11th Circuit. This application essentially submitted that COA should've been granted because reasonable
jurist could've debated and agreed that Westmoreland stated basis for overcoming the District Judge's
findings of procedural default as to the vast majority of his claims, and that issues presented were
adequate to deserve encouragement to proceed further, because:
The U.S. Supreme Court precedent in Martinez v. Ryan, 182 L.Ed.2d 272, 566 U.S. 1 (2012);
Ineffective Assistance of Initial Appellate Circuit Defender; (iii) STATE INTERFERENCE
during motion for new trial; (iv) PRETRIAL IMPUTED CONFLICT OF INTEREST: [Cit.]
Powell v. Alabama 287 U.S. 45 (1932), (Georgia Rule of Professional Conduct 1.7), Rule
1.10(a), and Gideon v. Wainwright, 372 U.S. 335 (1963); (iv) Cause and Prejudice Analysis;
Avery v. Alabama 308 U.S. 444, 446, 60 S.Ct. 321, 322, 84 L.Ed. 377 (1940). (v) Ryan v.
Thomas 261 Ga. 661 (409 S E 2d 507)(1991), for the proposition that, a defendant's right to raise
such a claim may not be barred by failure of a succession of attorneys from the same public
defender's office to raise it; (vi) Sixth Amendment rights violated when trial counsel entirely
failed to subject the prosecutor's case to a meaningful adversarial testing; (vii) Brady violation;
(viii) the state court's fact-finding procedure,' hearing,' and 'proceeding' were not 'full, fair,
and adequate; (ix) the stale habeas court adopted the state's proposed final order verbatim
Cf. Westmoreland v. Warden et.el. 817 F.3d 751 (11th Cir. 2016).
16

which was arbitrary and capricious; (x) inconsistent application of the state procedural default
rule because the extraordinary motion for new trial is a post -conviction collateral attack filed after
the case has been affirmed on direct appeal; (xi) RIGHT TO BE PRESENT AT CRITICAL
STAGE (ARRAIGNMENT); (xii) INSUFFICIENCY OF EVIDENCE [FELONY
MURDER-BURGLARY); (xiii) On direct appeal, the adjudication resulted in a decision that was
contrary to clearly established federal law, as determined by the Supreme Court of the United
States (Jackson v. Virginia supra. and Strickland v. Washington supra.); (xiv) the state
supreme court dilatory omitting "crucial" context from statute utilizing quotations and
ellipsis; (xv) SPOLIATION"; and (xvi) Equal Protection inquiry when an individual of a
different race-- in the same county-- committed crimes substantially indistinguishable from
convictions challenged, and the disposition of the case was shockingly contrast.
(g)(I) On 9/9/19, the District Court (Judge Thomas W. Thrash) denied the C.OA. explaining that
"Westmoreland has not made a substantial showing of a denial of his constitutional rights. Therefore, the
Westmoreland's Motion for Certificate of Appealability [Doc. 107] is DENIED."

On 2/25/20, the Eleventh Circuit (Judge Robert J. Luck) denied the application for a certificate of
appealability and explained:

"To merit certificate of appealability, an appellant must show that reasonable jurists would find it
debatable both (1) the merits of an underlying claim, and (2) the procedural issues that he seeks to
raise. See 28 U.S.C. § 2253(c)(2); Slack v. McDaniel, 529 U.S. 473, 478 (2000). Amos
Westmoreland's motion for certificate of appealability is DENIED because he failed to make the
requisite showing." (Appendix A).
Westmoreland filed a timely Motion To Reconsider, Vacate Or Modify Order Denying Certificate Of
Appealability virtually emphasizing the same points as the Application for C.O.A. and reiterated several
of this Courts holdings, including, but not limited to Martinez v. Ryan, (2012), Jackson v. Virginia
(1979), Davis v. Alaska, 415 U.S. 308 (1974), Pension v. Ohio 488 U.S. 75 (1988) Powell v. Alabama
287 U.S. 45 (1932) Strickland v. Washington (1985), (Due Process, Equal Protection, Ineffective
Assistance of Counsel and Conflict of Interest) and this Court's interpretation of Article VI of the U.S.
Constitution. Westmoreland points out that the Supremacy Clause dictates that his claims were ripe to be
heard as well as granted because any conflicting provisions of state constitution or law could have been
easily resolved.

(ii) The Motion To Reconsider, Vacate Or Modify Order Denying Certificate Of Appealability was
denied on June 11, 2020. Upon review, Before Circuit Judges Grant and Luck, by the Court,
Westmoreland's motion for reconsideration was DENIED ruling "he has offered no new evidence or
arguments of merit to warrant relief'. (Appendix B).

" The intentional destruction, mutilation, alteration, or concealment of evidence usually a document If proved,
spoliation may be used to establish that the evidence was unfavorable to the party responsible. Black's Law
Dictionary (9th Ed. 2009)

17

(iii) Prior to receiving denial of Motion to Reconsider, Westmoreland filed an Indigent Petitioner's
Request For Documents Without Cost (and Attachment), pursuant to 28 U.S.0 § 2250. The Attachment
included consisted of Appendix documentation, referenced in Application for Writ of Certiorari.

01. Does the Ilth Circuit decision conflicts with this Court's decision in Martinez v. Ryan, (2012), since
it ignores that in Martinez v. Ryan, 566 U.S. 1 (2012), the Court held: [t]hat where, under state law,
ineffective assistance of trial counsel claims must be raised in an initial-review collateral proceeding, a
procedural default will not bar a federal habeas court from hearing those claims if, in the initial-review
collateral proceeding, counsel in that proceeding was ineffective pursuant to Strickland v. Washington
466 U.S. 668 (1984)7

ARGUMENT:

Under Georgia law, to preserve the issue of ineffective assistance of previous counsel, new counsel must
raise the issue at the earliest practical opportunity of post-conviction review or the issue is waived. But
[w]here the issue of trial counsel's effectiveness has been raised on motion for new trial, any claims of
ineffective assistance of counsel not raised at trial level are procedurally barred. Failure to object or to
enumerate as error on appeal any alleged error results in a procedural bar to its consideration in habeas
corpus absent a showing of cause and actual prejudice to overcome the default. Black v. Hardin 336
S.E.2d 754 (1985). "Cause" to overcome a default may be constitutional ineffective assistance of counsel
under the Sixth Amendment standard of Strickland v. Washington 466 U.S. 668 (1984). "Actual
prejudice" may be shown through satisfying the prejudice prong of Strickland or satisfying the actual
prejudice test of United States v. Frady 456 U.S. 152, 170 (1982), which requires "not merely that the
errors at his trial created a possibility of prejudice, but that they worked to his actual and substantial
disadvantage, infecting his entire trial with error of constitutional dimensions."
In the instant case, the State appointed a new attorney to represent Westmoreland in his direct appeal.
Counsel amended the motion for new trial twice to raise additional issues, including claims of ineffective
assistance of trial counsel. After motion for new trial hearing, Westmoreland requested and received his
transcripts and records from the superior court clerk to research the law and attempt to assist in
marshalling his own defense at the appellate level by presenting numerous potential claims to counsel for
consideration on his only appeal as of right. Consequently, a conflict of interest occurred between
Westmoreland and first post-conviction counsel, and as a result a second post-conviction counsel was
substituted for direct appeal after the case had been docketed in the state supreme court. After trivial

18

communication with substitute counsel, only one claim of ineffectiveness of trial and initial appellate
counsel's were raised at the earliest practical opportunity, and claims was exclusively dependent on the
police pursuit policy. As a matter of fact, none of the substantial constitutional claims presented to initial
appellate counsel were raised on direct appeal, even considering that in preparing for the appeal, he

talked

to previous attorney, whom communicated to him about his investigation and preparation for
Westmoreland's case. (HT. 7-15). Counsel did not revisit any other trial counsel ineffectiveness issues
broached during motion for new trial or present any trial level ineffectiveness claims after reviewing the
record.

In his pro se state habeas petition, among other claims, Westmoreland claimed that his trial counsel had
been ineffective for failing to subject the prosecution to a meaningful adversarial challenge and was acting
under an actual conflict of interest. He argued for example, "trial

counsel failed to subject the

prosecution to an adversarial process by not offering any evidence", "[trial counsel] was appointed at a
time that he couldn't possibly and adequately prepare a defense for [Westmoreland] who was facing []
mandatory life imprisonment, [and] counsel [...] had practically less than 30 days to prepare, for a case
that needed complex defensive strategies", and "trial counsel was ineffective when he testified at motion
for new trial hearing, that he was attempting to obtain the Cobb county pursuit policy during trial, and in
same line of questioning he revealed that he never attempted to obtain the policy and never read the
policy." See (Appendix R). Westmoreland also faulted trial counsel for not "request[ingl a jury charge on
proximate cause for felony murder and vehicular homicide." The state habeas petition was denied, in part
in reliance on procedural default that Westmoreland failed to raise these claims on appeal and failed to
offer any evidence and thus not met his burden to show cause in form of ineffective assistance of counsel
at the appellate level for failure to raise these issues on appeal and to establish prejudice based on
{standard}. The court concluded that "grounds "10 through 21" [and] "31 through 68" provide no basis
for relief'.

In CPC, Westmoreland submitted that

"ground(s) are automatically exempt from the procedural rule

under O.C.G.A. § 9-14-48(d)- for failure of succession of attorney's from the same circuit defenders office
to properly raise it; Wherefore all (7) appointed attorneys involved in various stages of Westmoreland's
legal proceedings were employed by the Cobb County Circuit Defenders Office. Ryan v. Thomas p (409
S.E.2d 507)(1991)." (Appendix I). The C.P.0 was denied without explanation. (Appendix H).
Westmoreland sought relief by filing a 28 U.S.0 § 2254 petition, again raising several ineffectiveassistance-of-trial-counsel claims, among numerous other claims, acknowledging the state court denied his
claims by relying on a state procedural rule, which, under the doctrine of procedural default, would
prohibit a federal court from reaching the merits of the claims. See, e.g., Wainwright v. Sykes 433 U.S.

19

72, (1977). He could overcome this hurdle to federal review, Westmoreland argued, because he had cause
for the default: [ineffective assistance of both post-conviction counsel's and conflict of interest with the
Cobb County Circuit Defenders Office]. In support of theses claims, the record reflects, and substitute
appellate counsel conceded that:
(i) he talked to previous attorney, whom communicated to him about his investigation and
preparation for Westmoreland's case; (ii) he was limited to the record made by former appellate
counsel; (iii) he would have done things differently than the prior attorney had he had the case
from the Motion for New Trial; (iv) he was sure that he would have raised question of ineffective
assistance of trial counsel claims differently than he would if he had been appointed counsel at
the beginning of Motion for New Trial; (v) he did not have a chance to make the record for appeal
and had to essentially write his brief based on the record that was made by the prior public
defender; (vi) he raised all the viable and meritorious issues; and (vii) as part of his practice, he
"usually would have contacted trial counsel to find out his opinion of the case".
A U.S. Magistrate Judge took the position that the state habeas court similarly determined Westmoreland's
grounds ("6-22" [and] "26-47") to be procedurally defaulted, and ruled, "again Westmoreland has
demonstrated no basis for overcoming his (own) procedural default." (Appendix D). Westmoreland
submitted written objections to Magistrate's (R&R) and a U.S. District Judge, overruled the objections and
approved and adopted the (R&R) as the opinion of the Court. (Appendix C).
In timely filed C.O.A. in the U.S. Court of Appeals for the 11th Circuit, Westmoreland essentially
magnified and maintained virtually the same issues and arguments previously stated. The Circuit Judge
denied the C.O.A. (Appendix A).
In denying Motion to Reconsider, the Circuit Appeals Court did not mention Martinez v. Ryan, (2012).
(Appendix B).

When an attorney errs in initial-review proceedings, it is likely that no state court at any level will hear the
prisoner's claim. Where, as here, the motion for new trial is the first designated proceeding for a prisoner
to raise a claim of ineffective assistance at trial, the proceeding is in many ways the equivalent of a
prisoner's direct appeal as to the ineffective-assistance claim. This is because the state habeas court "looks
to the merits of the claim" of ineffective assistance, no other court has addressed the claim, and "defendant
pursuing first-tier review...are generally ill equipped to represent themselves" because they do not have a
brief from counsel or an opinion of the court addressing their claim of error. Halbert v. Michigan 545
U.S. 605 (2005); see Douglas v. California 372 U.S. 353 (1963). Cf. Pension v. Ohio 488 U.S. 75
(1988).
As Coleman recognized, an attorney's errors during an appeal on direct review may provide cause to
excuse a procedural default: for if the attorney is appointed by the State to pursue the direct appeal is

" there was no indication that substitute counsel contacted trial counsel to find out his opinion on the case.
20

ineffective, the prisoner has been denied fair process and opportunity to comply with the State's
procedures and obtain an adjudication on the merits of his claims. See 501 U.S., at 754; Evitts v. Lacey
469 U.S. 387 (1985); Douglas, supra, at 357-58. Without the help of an adequate attorney, a prisoner will,
have similar difficulties vindicating a substantial ineffective-assistance-of-trial-counsel claim. Claims of
ineffective assistance at trial often require investigative work and an understanding of trial strategy. When
the issue cannot be raised on direct review, moreover, a prisoner asserting an ineffective-assistance-oftrial-counsel claim in an initial-review collateral proceeding cannot rely on a court opinion or the prior
work of an attorney addressing that claim. Halbert 545 U.S., at 619. To present a claim of ineffective
assistance at trial in accordance with the State's procedures, then, prisoner likely needs an effective
attorney. The results would be the same if the State did not appoint an attorney to assist the prisoner in the
motion for new trial proceeding. The prisoner, unlearned in law, may not comply with the State's
procedural rules or may misapprehend the substantive details of federal constitutional law. Cf,, e.g. at 62021 (describing the educational background of the prison population). While confined to prison, the
prisoner is in no position to develop the evidentiary basis for a claim of ineffective assistance, which often
turns on evidence outside the trial record.
A prisoner's inability to represent a claim of trial error is of particular concern when the claim is one of
ineffective assistance of counsel. The right to the effective assistance of counsel at trial is a bedrock
principle in our justice system. It is deemed as an "obvious truth" the idea that "any person haled into
court, who is too poor to hire a lawyer, cannot be assured a fair trial unless counsel is provided for him."
Gideon v. Wainwright 372 U.S. 335 (1963). Indeed, the right to counsel is the foundation for our
adversarial system. Defense counsel tests the prosecution's case to ensure that the proceedings serve the
function of adjudicating guilt or innocence, while protecting the rights of the person charged. See e.g.,
Powell v. Alabama 287 U.S. 45 (1932) ("[The defendant] requires the guiding hand of counsel at every
step in the proceeding against him. Without it, though he may be not guilty, he faces the danger of
conviction because he does not know how to establish his innocence"). Effective trial counsel preserves
claims to be considered on [federal habeas proceedings], Edward v. Carpenter 529 U.S. 446 (2000).
Allowing a federal habeas court to hear a claim of ineffective assistance of trial counsel when an attorney's
errors caused a procedural default in an initial review collateral proceeding acknowledges, an equitable
matter, that the initial review collateral proceeding, if undertaken with ineffective counsel, may not have
been sufficient to ensure that proper consideration was given to a substantial claim. From this it follows
that, when a State requires a prisoner to raise an ineffective-assistance-of-trial-counsel claim in a initial
collateral proceeding, a prisoner may establish cause for a default of an ineffective-assistance claim in []
circumstances...where the appointed counsel in the initial-review collateral proceeding, where the claim

21

should have been raised, as ineffective under the standard of Strickland v. Washington supra. To
overcome the default, a prisoner must also demonstrate that the underlying ineffective-assistance-of-trialcounsel claim is a substantial one, which is to say that the prisoner must also demonstrate that the claim
has some merit. Cf. Miller-El v. Cockrell 537 U.S. 322 (2003) (describing standards for certificate of
appealability to issue).

Most jurisdictions have in place procedures to ensure counsel is appointed for substantial ineffectiveassistance claims. In Georgia, the State appoint counsel for first appeal as of right. It is likely that most of
the attorneys appointed by the courts are qualified to perform, and do perform according to prevailing
professional norms; and, where that is so, the States may enforce a procedural default in federal habeas
proceeding.

A finding of cause and prejudice does not entitle the prisoner to habeas relief It merely allows a federal
court to consider the merits of a claim that otherwise would have been procedurally defaulted. In this case,
for example, Westmoreland "ground for relief' is his ineffective-assistance-of-trial-counsel claim, a claim
that AEDPA does not bar. Westmoreland relied on the ineffectiveness of his post-conviction attorney to
excuse his failure to comply with Georgia's procedural rules, not as an independent basis for overturning
his conviction. (i.e., that substitute appellate circuit defender was constitutionally ineffective for failing to
(i) raise conflict of interest with circuit defender's office -- as the 7th appointee in case; (ii) failing to
review the entire record to raise core constitutional violations on Westmoreland's only appeal as of right;
and (iii) failing to withdraw in writing so that [Westmoreland] could properly present [his] Motion for
Reconsideration to the State's highest court.) In short, while § 2254(i) precludes Westmoreland from
relying on the ineffectiveness of post-conviction attorney as a "ground for relief," it does not stop
Westmoreland from using it to establish "cause." Holland v. Florida 560 U.S.

(2010) (slip

op., at 18).

A. MARTINEZ APPLY TO PROCEDURAL DEFAULTED INEFFECTIVE ASSISTANCE OF
COUNSEL CLAIMS
The principles underlying Martinez lead to the conclusion that ineffective assistance of substitute
appellate counsel establishes cause for a failure to raise an ineffective initial appellant counsel claim at the
state court level. This Court has identified three factors which compel the conclusion that ineffective
appellate counsel excuses a procedural default for the failure to raise ineffective trial counsel claims. First,
the right to the effective assistance of counsel at trial is a bedrock principle in our justice system ...
Indeed, the right to counsel is the foundation for our adversary system." Trevino v. Thaler 133 S. Ct.

22

1911 at 7 (2013) (quotations omitted). Second, taking into account that ineffective counsel on direct
appeal is cause, it only makes sense that ineffective assistance of substitute appellate counsel should be
cause for claims that cannot be raised on direct appeal. Third, where a state channels review of certain
claims into earliest practical opportunity of post-conviction review, the lawyer's failure to raise those
claims on the direct appeal could deprive a person of any review at all.

All three factors apply straightforwardly to ineffective appellate counsel claims. This Court held over
thirty years ago that "[a] first appeal as of right therefore is not adjudicated in accord with due process of
law if the appellant does not have the effective assistance of an attorney." Evitts v. Lucev, 469 U.S. 387,
396 (1985). Indeed, Evitts v. Lucey was decided upon the intersection of the Due Process Clause found
in the Fourteenth Amendment and the Sixth Amendment's right to effective counsel. 105 S.Ct. 830,
835-36 (1985). It is hard to imagine two more "bedrock principles" in our criminal justice system than
Due Process and the Right to Counsel. Surely the legal parameter, to say nothing of desideratum, that
courts do not convict a man, or in this case, imprison a man for life without due process of law is a
bedrock principle in America. Second, seeing as ineffective assistance of appellate counsel is cause to
excuse a procedural default, and seeing as it is literally impossible for someone other than appellate
counsel to raise this issue in the first instance, it only makes sense that ineffectiveness of substitute
appellate counsel should excuse a Westmoreland's failure to raise his ineffective of trial and initial
appellate counsel claim on direct review proceedings. Indeed, if ineffectiveness of substitute counsel is not
cause, then quite literally, no court would ever be able to review even the most powerful ineffective trial
and initial appellate counsel claim when substitute appellate counsel failed to raise the claim. The rationale
behind Martinez apply straightforwardly to finding cause and prejudice in the instant case.

The Constitution guarantees a fair trial through the Due Process Clauses, but it defines the basic elements
of a fair trial largely through the several provisions of the Sixth Amendment, including the Counsel
Clause:
"In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an
impartial jury of the State and district wherein the crime shall have been committed, which district
shall have been previously ascertained by law, and to be informed of the nature and cause of the
accusation; to be confronted with the witnesses against him; to have compulsory process for
obtaining witnesses in his favor, and to have the Assistance of Counsel for his defence."
Thus, a fair trial is one in which evidence subject to adversarial testing is presented to an impartial tribunal
for resolution of issues defined in advance of the proceeding. The right to counsel plays a crucial role in
the adversarial system embodied in the Sixth Amendment, since access to counsel's skill and knowledge
is necessary to accord defendants the "ample opportunity to meet the case of the prosecution" to which
they are entitled. Adams v. United States ex rd. McCann 317 U. S. 269 (1942); see Powell v.
Alabama supra, at 287 U. S. 68-69. State v. Lane 838 S. E. 2d 808 (2020).

23

Because of the vital importance of counsel's assistance, this Court has held that, with certain exceptions, a
person accused of a federal or state crime has the right to have counsel appointed if retained counsel
cannot be obtained. See Algersinger v. Hamlin 407 U. S. 25 (1972); Gideon v. Wainwright, supra;
Johnson v. Zerbst supra. That a person who happens to be a lawyer is present at trial alongside the
accused, however, is not enough to satisfy the constitutional command. The Sixth Amendment
recognizes the right to the assistance of counsel because it envisions counsel's playing a role that is critical
to the ability of the adversarial system to produce just results. An accused is entitled to be assisted by an
attorney, whether retained or appointed, who plays the role necessary to ensure that the trial is fair.

For that reason, the Court has recognized that "the right to counsel is the right to the effective assistance of
counsel." McMann v. Richardson 397 U. S. 759 (1970). Government violates the right to effective
assistance when it interferes in certain ways with the ability of counsel to make independent decisions
about how to conduct the defense. See, e.g., Geders v. United States 425 U. S. 80 (1976) Herring v.
New York 422 U. S. 853 (1975); Brooks v. Tennessee 406 U. S. 605 (1972). Ferguson v. Georgia 365
U. S. 570 (1961). Counsel, however, can also deprive a defendant of the right to effective assistance,
simply by failing to render "adequate legal assistance," Cuyler v. Sullivan 446 U. S. 344 (actual conflict
of interest adversely affecting lawyer's performance renders assistance ineffective).

Under Georgia law, claims of ineffective assistance of trial counsel must be raised at the earliest practical '
convenience, in this instance, that's motion for new trial proceeding. Therefore, as Westmoreland
maintains, a procedural default cannot bar the federal habeas court from hearing his substantial claims of
ineffective assistance at trial, since during motion for new trial proceeding, [I counsel in that proceeding
was ineffective. See Martinez v. Ryan supra.,

The Court has not elaborated on the meaning of the constitutional requirement of effective assistance in
the class of cases that presents claims of "actual ineffectiveness." In giving meaning to the requirement,
however, the Court must take its purpose -- to ensure a fair trial -- as the guide. The benchmark for
judging any claim of ineffectiveness must be whether counsel's conduct so undermined the proper
functioning of the adversarial process that the trial cannot be relied on as having produced a just result.

B. SPECIFIC SUBSTANTIAL TRIAL INEFFECTIVENESS FEDERAL CONSTITUTIONAL
CLAIMS:

In Strickland v. Washington 466 U.S. 668 (1984), this Court held:

24

"[T]he ultimate focus of inquiry must be on the fundamental fairness of the proceeding whose
result is being challenged; [And] in every case, the court should be concerned with whether,
despite the strong presumption of reliability, the result of the particular proceeding is unreliable
because of a breakdown in the adversarial process that our system counts on to produce just
results"

I. Failure to Properly Investigate and Adequately Prepare for Non-Death Penalty Capital Felony
Murder Trial:
Under the Due Process Clause, a criminal defendant is guaranteed the right to a fair and impartial tribunal.
The defendant had obviously been disadvantaged relative to the state, which had substantial resources and
skilled lawyers (including appointed circuit defenders) -- Westmoreland principally raises a legitimate
constitutional question of fairness. A trial should be arranged in such a way that the government does not
enjoy an unreasonable advantage over those it acts against.

In both state and federal habeas petitions,

Westmoreland alleged constitutional ineffectiveness of trial

counsels for meeting with him on (3) separate occasions for (3) hours respectfully, and failed to go over
ANY discovery material, ANY evidence, ANY trial strategies or tactics, ANY defense or the indictment.
Westmoreland saw all of the states evidence for the first time during capital felony murder trial. Counsels
did not offer any evidence in aid of the defense, considering Westmoreland facing life imprisonment.
Westmoreland was arrested in May 2007 and determined to be indigent, subsequently through Circuit
Defender Representative ("Martin" or "Marty" Pope), Circuit Defender (Michael Syrop) was appointed to
the case. On January 10, 2008, Westmoreland was escorted to the Cobb County Superior Court for a
scheduled Arraignment (HT. 113-14), and was held in a cold confinement cell during the proceeding.
After multiple undisclosed conflicts occurred with several circuit defenders, in September 2008, a few
days prior to scheduled trial date, fourth Circuit Defender (David Marotte) was appointed "per

Judge

Grubbs" and Pope. (HT. 120-124; 984-85).
Trial counsel had less than 30 days to prepare for non-death penalty capital felony murder trial.

(HT. 984-

85). Counsel testified that he visited Westmoreland on 3 separate occasions for an hour each visit.
However, counsel didn't go over any discovery material, States evidence, trial strategies or tactics,
defense, indictment or any other case related material. (HT. 2511; 2513; 2516-17). Westmoreland advised
counsel that he had never seen his indictment, counsel sent the document 2 weeks prior to trial, through
the U.S. mail. (HT. 2513). During trial, counsel

"...just didn't have a defense for us to put on under the

circumstances of this case, and didn't really have a trial strategy in terms of us presenting a defense."

25

(HT. 2527). And all evidence in possession of the State was seen during trial. At the close of the States
evidence however, counsel did not present any evidence or defense. (HT. 1878; 2522).

At the motion for new trial hearing, counsel summed his trial strategy as influencing the jury to find
Westmoreland not guilty of (3) counts of Felony Murder and guilty of the Vehicular homicide, he also
considered his strategy as the only defense available, and that he wanted the jury to believe the evidence
would show that the vehicular homicide was the proper charge. (HT. 2513-27).

In a sworn affidavit administered under oath, trial counsel attested that:

* He didn't know how many felony murder cases he'd handled prior to Westmoreland's case; * this
was a case where he was appointed at the last minute. Judge Grubbs gave one continuance and he
had to get ready as best he could within that time frame; * he had less than 30 days to prepare but
he had no choice in the matter. That was the order of court and the schedule directed by the judge;
* when he took the case, he did not recollect seeing any motions filed by previous Circuit
Defenders; the file that was turned over to him had very little information in it, other than some
discovery material; he had one telephone conversation with the previous attorney who updated
him on what little had been done on the case; * he did not see a motion for funds to hire
independent investigator to assist the defense; he did not have formal training in criminal
investigations and accident reconstruction; he did not have an expert or private investigator to
assist in preparing a defense, "but a private investigator would have been nice to have', * that
prior to trial he had never read the Cobb County Police Department Vehicle Pursuit Policy; he was
not aware of a December 14, 2006 Restricted Pursuit Policy; * he believed co-defendant trial
strategy was that it was all Westmoreland's fault; * he did the best he could with what he had to
work with. (Pet. Ev. [filed 6/21/12]).
Counsel's failure to properly investigate and adequately prepare prejudiced Westmoreland because
counsel's function as assistant to the defendant derive the overarching duty to advocate the defendant's
cause and the more particular duties to consult with the defendant on important decisions and keep the
defendant informed of important developments in the course of the prosecution.
"[D]uring perhaps the most critical period of the proceedings against [the] defendant, that is to
say, from the time of [his] arraignment until the beginning of [his] trial, when consultation,
thoroughgoing investigation and preparation were vitally important, [defendant] did not have the
aid of counsel in any real sense, although [he is] as much entitled to such aid during that period as
at the trial itself." Cf. Powell v. Alabama 287 U.S. 45 (1932); See Also Avery v. Alabama 308
U.S. 444 (1940).
Westmoreland submits that he was denied Sixth Amendment rights when counsel entirely failed to
subject the prosecutor's case to a meaningful adversarial testing, and errors at trial worked to his actual
and substantial disadvantage, infecting the entire felony murder trial with error of constitutional
dimension.
" 0. C. G. A. § 17-12-28(a), states in pertinent part: "...the circuit public defender in each judicial circuit is
authorized to appoint one investigator to assist the circuit public defender in the performance of his or her official
duties in the preparation of cases for trial.

26

Defense counsel has a duty to bring to bear such skill and knowledge as will render the trial a reliable
adversarial testing process. U.S.C.A. Const. Amend. 6. Therefore, minimally, the legal completion of the
burglary defense the policy strategy, proximate cause or intervening cause strategy/tactic were all
viable defenses, and could have aided counsel's chosen strategy. Logically, if counsel strategy was to
influence the jury to find Westmoreland not guilty of (3) counts of Felony Murder and guilty of the
Vehicular homicide, first, there was absolutely no evidence to substantiate this claim. Secondly, any
defense would have been more effective than no defense at all, and finally, considering the fact that four
(4) circuit defender's were present, it was obvious that the non-death penalty capital felony murder trial
was 'like' a game in which the participants were expected to enter the ring with a near match in skills. It
was an exhibit of sacrifice of unarmed prisoner to gladiators. Cf. U.S. v. Cronic supra. This Court has
explained that a "failure to investigate thoroughly [that stems] from inattention, not strategic judgment,"
serves to "underscore[] the unreasonableness of counsel's conduct." Wiggins v. Smith. 539 U.S. 510
(2003)
In order to prevail on a claim of ineffective assistance of trial counsel, a defendant must show that his trial
counsel's performance fell below an objective standard of reasonableness, and that the deficiency
prejudiced the defense. Strickland v. Washington, supra' See Hinton v. Alabama, 134 S. Ct. 1081
(2014) (Failure to investigate a point of law that is fundamental to a case combined with failure to perform
basic research on that point is a quintessential example of unreasonable performance under Strickland
rule.) State v. Lane, 838 S. E. 2d 808 (2020).

II. Legal Completion of the Burglary Under State Law (Defense]:
Keeping in mind that during felony murder trial, defense counsel "...just didn't have a defense [] to put on
under the circumstances of th[e] case, and didn't really have a trial strategy in terms of [] presenting a
defense" (HT. 2527), not presenting the legal completion of the burglary defense, is a substantial claim
because:
Felony Murder: Georgia law provides that (A person also commits the offense of murder when, in the
commission of a felony, he causes the death of another human being irrespective of malice....) O.C.G.A.
16-5-1 (c); Count 8 of the indictment alleged that Westmoreland "did unlawfully, without malice, cause
the death of Barbra Robbins, a human being, while in commission of the felony, Burglary." (FIT. 153-61).

Burglary: Georgia law provides that: [A person commits the offense of Burglary when, without authority
and with the intent to commit a felony or theft therein, he or she enters or remains within the dwelling
house of another.] (O.C.G.A. 16-7-1);

Under Georgia law, a burglary is completed when a person "enters" the dwelling house of another without
authority and with intent to commit a felony or a theft therein, regardless of whether or not he
accomplishes his apparent purpose. Ricks v. State 341 S.E.2d 895 (1986). Cf. Clark v. State 658
S.E.2d. 190 (2008) (The crime is completed upon entry, and does not require that any property actually be
taken.) See also Childs v. State 357 S.E.2d 48 (1987)' Alexander v. State 620 S.E.2d 792 (2005);
27

Roberts v. State 314 S.E.2d 83 (2005); Whittlesey v. State 385 S.E.2d 757 (1989). Jones v. States 78
S.E. 474 (1913); Williams v. State 46 Ga. 212 (1872); Crawford v. State 292 Ga. 463 (2008);
There's a reasonable probability that the outcome of the felony murder trial would've been different, if not
for counsel's unprofessional error, because the state offered evidence that law enforcement authorities
were notified by a third party, when the "suspicious vehicle" was backed in at a resident with the doors
open and occupants not visible — which the jury could infer that Westmoreland "entered"

'the dwelling

house of another without authority and with intent to commit a theft therein."' The legal completion of
burglary strategy would be viable defense and could potentially result in a hung jury or a not guilty verdict
on the felony murder in commission of a burglary count. There was evidence ample for the jury to
consider that, unbeknownst to potential detection Westmoreland actually attempted and peacefully left the

scene of the crime and was not in flight from the scene immediately after the burglary was completed.
Furthermore the jury may have considered that after casually passing a law enforcement vehicle, the
officer initiated a U-turn and followed the vehicle. The officer's attempted to effectuate a traffic stop for a
"drive-out tag" or "possible burglary".

Jury Instructions On Felony Murder-Burglary:
"In order for a homicide to have been done in commission of a particular [Burglary], there must be
a connection between the [Burglary] and the homicide. The homicide must have been done in
carrying out the unlawful act and not collateral to it. It is not enough that the homicide occurred
soon, or presently, after the [Burglary] was attempted or committed. There must be such a legal
relationship between the homicide and the [Burglary] so as to cause you to find that the homicide
occurred before the [Burglary] was at an end or before any attempt to avoid conviction or arrest
for the [Burglary].
The [Burglary] must have a legal relationship to the homicide, be at least concurrent with it, in
part, and be part of it in an actual sense. A homicide is committed in carrying out of a [Burglary]
when it is committed by the accused while engaged in performance of any act required for the full
execution of the [Burglary]." (HT. 1964-66; 2021-23).
In pursuing completion of the burglary defense, there's very sharp contrasts between felony murder jury
instructions and the evidence presented by the State: The only connection between the burglary and the
homicide, was the homicide occurred soon

"AFTER" the burglary was committed, which was not

enough; The homicide was "NOT DONE IN CARRYING OUT" the burglary because the burglary was
technically and legally completed, implicating the vehicular homicide predicated on reckless driving was

collateral to it; There was no legal relationship between the homicide and the burglary, to cause a
reasonable juror to find that the homicide occurred before the burglary was at an end or before an attempt
to avoid arrest for the burglary;

To the contrary, the homicide occurred: 'AFTER" the burglary was at an

end and 'AFTER" an attempt to avoid arrest for the burglary; There was no legal relationship between
the burglary and the homicide. The homicide happened "AFTER" the burglary, and not part of it in an
actual sense; The homicide was not committed in carrying out of the burglary, because it was not
committed while engaged in performance of any act required for the full execution of the burglary.

28

{[A]s

a matter offact, evidence suggests that the (vehicular) homicide was committed while engaged in the
performance of Reckless Driving.} Cf. Jackson v. Virginia supra.

During deliberations, the jury asked "when did the commission of the burglary conclude"; (HT. 1984).
The significant question was never particularly answered and allowed to dissipate, while the trial court
gave a partial recharge from the previous day.

With a strategy for the completion of the burglary, the jury would be equipped with knowledge for
consideration that under Georgia law, the act required to fully execute the burglary, a perpetrator need
only enter the dwelling house of another without authority and with intent to commit a theft therein. At the
motion for new trial hearing, counsel summed his trial strategy as influencing the jury to find
Westmoreland not guilty of (3) counts of Felony Murder and guilty of the Vehicular Homicide, he also
considered his strategy as the only defense available, and that he wanted the jury to believe the evidence
would show that the vehicular homicide was the proper charge. Indeed, the legal completion of the
burglary defense would better facilitate chosen strategy.

Trial counsel failure to pursue such a defense, no competent attorney under the same circumstances would
make this decision, especially when the client is facing automatic life imprisonment. At the time of trial,
there were ample case laws to support the argument that burglary was complete upon entry of the
dwelling. Proper investigation and adequate preparation would have revealed potential defense and
virtually supported counsel's chosen strategy. Strickland v. Washington, supra. Hinton v. Alabama 134
S. Ct. 1081 (2014), supra.

Ill. Proximate Cause Jury Instruction [Defense]:

In both state and federal habeas petitions, Westmoreland alleged constitutional ineffectiveness of trial
counsels for neglecting to request a proximate cause or intervening cause jury instruction, in regards to
felony murder and vehicular homicide.

Under Strickland decisions on requests to charge involve trial tactics to which a reviewing court must
afford substantial latitude, and they provide no grounds for reversal unless such tactical decisions are so
patently unreasonable that no competent attorney would have chosen them.

The State elected to try Westmoreland on 3 Felony Murder counts and Vehicular Homicide for the same
victim. Burglary carries 1-20 years, Vehicular Homicide carries 3-15 years and Felony Murder carries
automatic life imprisonment. Cf. Apprendi v. New Jersey 530 U.S. 466 (2000).

29

During trial, defense counsel "...just didn't have a defense for us to put on under the circumstances of th[e]
case, and didn't really have a trial strategy in terms of [] presenting a defense." (HT. 2527). Trial counsel's
failure to request a proximate cause or intervening cause jury instruction, in regards to felony murder
and vehicular homicide was so patently unreasonable that no competent attorney would have chosen not to
pursue it, which was deficient performance. The deficiency prejudiced Westmoreland because counsel
offered absolutely no defense or evidence and the jury didn't have a fair opportunity to make a decision
based on established principles of law.

Theres a reasonable probability that the outcome of the felony murder trial would've been different, if not
for counsel's error, because Georgia is a proximate cause state; and [w]hen another meaning is not
indicated by specific definition or context, the term "cause' is customarily interpreted in almost all legal
contexts to mean "proximate cause" - "[t]hat which, in a natural and continuous sequence, unbroken by
an efficient intervening cause, produces injury, and without which the result would not have occurred."
Black's Law Dictionary 1103 (5th ed. 1979).
Thus, [the Georgia Supreme Court] has explained that proximate cause is the standard for criminal cases
and homicide cases in general. Cf. State v. Jackson et al. 697 S.E.2d. 757 (2010). See (Appendix 5).
Indeed, in virtually all of Georgia's many homicide and feticide statutes, including the frequently charged
voluntary and involuntary manslaughter and vehicular homicide statutes the General Assembly has
employed the same or very similar causation phrasing to the extent those statutes have been interpreted by

Georgia's appellate courts, once again the term "cause" has been regularly construed as requiring
proximate causation. Id.

Vehicular Homicide and Felony Murder may be defined in "entirely different" statutes, in terms of their
Code sections, but the relevant causation language is indistinguishable, compare O.C.G.A. 40-6-393 (a)
("Any person who without malice aforethought, 'causes' the death of another person through the violation
of [various code sections] commits the offense of homicide by vehicle in the first degree...." (emphasis
supplied)), with O.C.G.A. 16-5-I (c) ("A person also commits the offense of murder when, in the
commission of a felony, he 'causes' the death of another human being irrespective of malice...."
(emphasis supplied)). Id. (Appendix J). Cf. Barrage v. United States 571 U.S.

, 134 S.Ct. SRI

(2014). Jackson v. Virginia 443 U.S. 307 (1979).
(i) Proximate Cause In Context Of A Felony Murder Prosecution Defined: where one commits a
felony upon another, such felony is to be accounted as the efficient, proximate cause of the death
whenever it, shall appear that the felony directly and materially contributed to the happening of a
subsequently accruing immediate cause of the death, or that the injury materially accelerated the death,
although proximately occasioned by a preexisting cause;
30

(i)(A) ...or if the homicide is committed within the res gestae" of the felony and is one of the incidental,
probable consequences of the execution of the design to commit the felony.
(ii) Proximate Cause In Context Of A Vehicular Homicide Prosecution Defined: where one inflicts an
unlawful injury, such injury is to be accounted as the efficient, proximate cause of the death whenever (1)
the injury itself constituted the sole proximate cause of the death; or (2) the injury directly and materially
contributed to the happening of a subsequently accruing immediate cause of the death; or (3) the injury
materially accelerated the death, although proximately occasioned by a preexisting cause. See Swailes v.
State 709 S.E.2d 825 (1998); Cf. Johnson v. State 317 S.E.2d 213 (1984).
(ii)(A) In order to be convicted of vehicular homicide by recklessly driving in violation of O.C.G.A. § 406-390, the evidence must be sufficient to prove beyond a reasonable doubt not only that the accused
committed the predicate traffic offence but also the predicate offense was the proximate cause of the
death of the [victim]. "This requires showing that "the defendant's conduct was the 'legal' or 'proximate'
cause, as well as the cause in fact, of the death.""
Counsels decision not to request charge on proximate cause was unreasonable tactical move which no
competent attorney in the same circumstances would've made, especially with Westmoreland facing a
automatic life sentence. The proximate causation strategy would be viable defense because: (1) what
constitutes proximate cause is undeniably a jury question and is always to be determined on the facts of
each case upon mixed considerations of logic, common sense, justice, policy, and precedent; and (2) the
jury could potentially return in a hung jury or a not guilty verdict on the felony murder in commission of a
burglary and/or eluding an officer, had they been properly charged because, it is reasonably probable that
they would have accepted the substantial evidence that, as the Medical Examiner testified, that the victim's
death was caused by ['blunt force trauma'] injuries sustained during the car incident; and the Physician
testimony that "the unlawful injury inflicted ['blunt force trauma'] accounted as the efficient, proximate
cause of death.

During deliberations, the jury stated that their "main challenge is how conspiracy weighs in felony murder
and homicide charges"; and they inquired about "when did the commission of the burglary conclude"; If

not for counsels deficient performance, the jury may have concluded that the vehicular homicide predicate
on reckless driving alone may have been found to have constituted a proximate cause of the driver's
death, as alleged in the indictment.

At the motion for new trial hearing, counsel stated that his trial strategy was to influence the jury to fmd
Westmoreland not guilty of (3) counts of Felony Murder and guilty of the Vehicular homicide. Trial
" res gestae was not instructed to the jury
31

counsel was asked whether his trial strategy of influencing the jury on the lesser offense, the vehicular
homicide rather than felony murder, using the proximate cause standards (0.C.G.A. § 40-6-6(d)(2)), and
trial counsel responded, "No". (HT. 2520-24). Trial counsel considered his strategy as the only defense
available, and that he wanted the jury to believe the evidence would show that the vehicular homicide was
the proper charge. Indeed, the proximate cause jury instruction would better facilitate chosen strategy.
Clayton County v. Segrest, 775 S. E. 2d. (2015) (non-binding precedent).
In failing to properly investigate, adequately research and understand the defenses available to his client,
defense counsel rendered assistance that fell way below the minimum standard set forth in Strickland
supra. Hinton v. Alabama (2014), supra. "The record indicates that the appearance was rather pro forma
than zealous and active." Under the circumstances disclosed, Westmoreland was not afforded the right to
counsel in any substantial sense.

IV. Policy (Intervening Cause) (Defense]:
In both state and federal petitions, Westmoreland alleged constitutional ineffectiveness of trial counsels
for failure to obtain the police chase policy requested by Westmoreland prior to trial. Both circuit
defenders were advising Westmoreland during trial that they were attempting to obtain the document.
After trial, counsel revealed that he sent co-counsel, then co-counsel's secretary or assistant to retrieve
the policy, and he revealed that he never read the policy, codefendant counsel had the policy, and he
didn't plan to get the policy.

During trial, defense counsel "...just didn't have a defense for us to put on under the circumstances of this
case, and didn't really have a trial strategy in terms of us presenting a defense." (HT. 2527). Minutes prior
to jury selection, the State filed a Motion in Limine "to move the court to preclude the Defense from
cross-examining officers or detectives of any possible departmental policy violations....that may have

arisen from the traffic fatality on May 17, 2007, as those matters are irrelevant" (HT. 1043); In response to
the motion, trial counsel argued 7 do think we have a right to go into the whole issue of the pursuit, or
whatever.... and ask about what the policy was for them to follow him.... "(HT. 1182-86). Counsel stated

that he did not have a copy of the policy.
Codefendant counsel stated that:
[he had] "copies of the policy somewhere in my archives. I think one of the questions would be
whether this accident, which would be a defense for both defendants potentially, or an
intervening act that if they violated the policy could go to their credibility as to whether they
followed correct procedures on the chase and arrest". (HT. 1186-87)

32

Trial counsel added that he would expect that it would explain the officer's conduct in the pursuit The
judge reserved the ruling and advised the defense that they would have to have it properly certified and lay
the proper foundation for what the policy was. The court said that she didn't know anything about the facts
and until she hear the facts, it needs to be brought back to her attention. She further stated counsel couldn't
ask what the policy is because that wouldn't be the highest and best evidence the policy would be the
highest and best evidence of what the policy is. (HT. 1187-88)

During trial, both circuit defenders (Marotte and Christian) were advising Westmoreland that they were
attempting to obtain the policy from the Cobb County Police Department. [HT. 2519-20]; On crossexaminantion of the initiating pursuing officer, counsel asked: [W]as witness trained in procedures and
policies of the Department, and was there certain procedures and policies set out that would govern how
he would react to various situations; the witness affirmatively replied. Counsel then examined witness
about "what was the policy for pursuing a vehicle under the circumstances with the call that the! got."
This examination was objected to on relevance grounds by the State. The prosecutor interjected that the
question should be about attempting to elude a police officer. The trial court sustained the objection and
ruled that "the policy would be the highest and best evidence." Counsel moved on to an entirely different
line of questioning, inquiring "when did you turn on your emergency equipment?" (HT. 1576-77).

First, Westmoreland was prejudiced by this deficiency because it infringed on his 6th Amendment
Confrontation Clause guarantee of the U.S. Constitution. Cf Davis v. Alaska 415 U.S. 308 (1974).
Secondly, potential answer to objected examination would've been to the effect, that Wire policy effective
on the date in question, prohibited officer's from pursuing a vehicle under circumstances such as
"possible burglary" or "drive-out tag." Thirdly , trial counsel's nor codefendant's counsel made any of the
arguments made during the States filing of the Motion in Limine. Lastly, codefendant's counsel did not
produce the copy from his archives, and neither trial counsels were able to retrieve a copy from the police
department, as they were advising Westmoreland.

Counsels decision not to pursue the policy as the intervening cause defense was unreasonable tactical
move which no competent attorney in the same circumstances would've made, especially with
Westmoreland facing an automatic life sentence. There's a reasonable probability that the outcome of the
felony murder trial would've been different, if not for counsel's unprofessional error, because there was
evidence from which a jury could've found that law enforcement officer's chase may have been the
intervening cause of the death caused by the fleeing suspect since the officers disregarded proper law
enforcement procedures in initiating [and] continuing the pursuit. The proper law enforcement procedure
for the officer's prohibited pursuits except for certain specified crimes known to the officer. Since officer's

33

allegedly responded to a "possible-burglary in progress" and testified that he was attempting to effectuate
a stop based on a traffic violation, a pursuit was not authorized. See Footnote (7);

Legal causation is the limit for which one is culpable for the harm caused. In order to show legal
causation, the prosecution must prove that the defendant's conduct was the proximate cause of the
victim's harm. A defendant is generally the proximate cause of harm if his conduct set in motion a chain
of events that ultimately resulted in the victim's death. Courts put a limit on this "links in a chain" theory
by excusing defendants from responsibility when an intervening superseding" event occurs, thereby
breaking the chain between defendants culpable act and the victim's injury. An intervening cause is
generally an unforeseeable extraordinary occurrence. In cases of felony murder, "for example, legal cause
will not be present where there intervenes (I) a coincidence that is not reasonably foreseeable...or (2) an
abnormal response"."

Properly instructed, the jury could have inferred that (2) two men agreed to commit a burglary, which was
accomplished. After the burglary was complete, the perpetrators left the scene of the crime and were
subsequently engaged in a police pursuit. However, during the pursuit, an accident occurred fatally
injuring the driver of another vehicle. The homicide was not a natural and probable consequence of the
conspiracy to commit burglary. The question is one of reasonable foreseeability and the chase and
subsequent vehicular homicide was not reasonable foreseeable at the time defendants conspired to commit
burglary. Cf Everritt v. State 277 Ga. 457 (2003);

Intervening Cause: An event that comes between the initial event in a sequence and the end result,
thereby altering the natural course of events that might have connected a wrongful act to an injury".

(ii) Proposed Intervening Cause Request of Charge:

"If you find that the defendant was negligent, but that the acts or omissions of a third person also
contributed to causing [] injuries, damage to property or death, then you have to decide whether
the third person's acts or omissions were reasonably foreseeable. If under the circumstances a
reasonably prudent person would have reasonably foreseen the third person's acts or omissions
and protected against them, then the defendant may be liable for the [] injuries, damage to
property or death. If, however, a reasonably prudent person would not have foreseen the third
person's acts or omissions and protected against them, then the defendant is not liable for the []
injuries, damage to property or death."
Contributing Proximate Cause": O.C.G.A. § 40-6-6 (d)(2) provides:

".superseding cause- an unforeseeable intervening cause that interrupts the chain of causation and becomes the
proximate cause of the event.
" I Lafave, Substantive Criminal Law, § 6.4 (h), p. 495 (2d. 2003).
"Black's Law Dictionary (9th Ed. 2009).

"Contributing cause: "(a] factor that—though not the primary cause-- plays a part in producing a result"). Black's
Law Dictionary 250 (9th ed. 2009)

34

"[w]hen a law enforcement officer in a law enforcement vehicle is pursuing a fleeing suspect in
another vehicle and the fleeing suspect damages any property or injures or kills any person during
the pursuit, the law enforcement officer's pursuit shall not be the proximate cause or a
contributing proximate cause of the damage, injury, or death caused by the fleeing suspect unless
the law enforcement officer acted with reckless disregard for proper law enforcement procedures
in the officer's decision to initiate or continue the pursuit. Where such reckless disregard exists,
the pursuit may be found to constitute a proximate cause of the damage, injury, or death caused
by the fleeing suspect, but the existence of such reckless disregard shall not in and of itself

establish causation." (emphasis added)."
During deliberations, the jury stated that their "main challenge is how conspiracy weighs in felony murder
and homicide charges"; and they inquired about "when did the commission of the burglary conclude"; The

inquiry was never particular answered and was allowed to dissipate, while trial court gave a partial
instruction from the previous day.
The outcome of the trial may have also been different because the jury could have considered proof of
causation in fact- that if the law enforcement officer's would have "never" decided to initiate or continue

the pursuit pursuant to effective prohibited vehicle pursuit policy, there is a reasonable probability that
Westmoreland would not have drove recklessly and the collision in which the victim was killed, may not
have "never" happened.

At the motion for new trial hearing, trial counsel testified that it was not part of his argument to the jury to
try to convince the jury dealing with lesser charge of vehicular homicide verses felony murder, dealing
with O.C.G.A. § 40-6-6(d)(2) and proximate cause of the collision and murder; he stated from a factual
standpoint it was difficult for him "to try to tell the jury that the officer conduct in the chase was the
proximate cause", which was contrary to his arguments on the states motion in limine, where he stated he
"would expect that it would explain the officer's conduct in the pursuit."

In sworn interrogatories made by trial counsel during the pendency of the state habeas proceeding, he
attested:

* he did not see a motion for funds to hire independent investigator to assist the defense; he did
not have formal training in criminal investigations and accident reconstruction; he did not have
an expert or private investigator to assist in preparing a defense, "hut a private investigator would
have been nice to have"; * he did not recollect another pretrial conference being conducted after
10-14-08; * that prior to trial he had never read the Cobb County Police Department Vehicle
Pursuit Policy; he was not aware of a December 14, 2006 Restricted Pursuit Policy; * the issue of
the policy was first broached on the morning of trial', * he advised Westmoreland during trial
that he was attempting to obtain the policy from the police department; * Counsel for co-

defendant who had been in the case for some period of time made him aware of the policy; he
asked counsel if he could produce the copy that he had; And he "did this mainly because
defendant requested it."; neither him nor counsel for the co-defendant believed that the policy
constituted a valid criminal defense and making that the main issue of the case might well have
prevented a jury from considering the lesser included offense; * it was his opinion that the policy
may have been a bearing on a wrongful death action, but he didn't believe that it was a defense to
" The state supreme court omitted clear and unambiguous language from statutory provision using quotations and
ellipsis. Westmoreland v. State 699 S.E.2d at 17-19. See (bold/italics emphasis)
" During motion for new trial, counsel testified that the first time the issue of the policies came up was when
Westmoreland brought it up on the second day of trial, the day the evidence would have started (HT. 2515-17)
35

vehicular homicide or felony murder; * he did not recollect specifically of advising Westmoreland
that he feared alienating the jury by attempting to blame police on account of losing credibility,
but it was possible; (Pet. Ev. [filed 6/21/12])
Although the statute is not an affirmative defense in Georgia to vehicular homicide, felony murder,
eluding an officer or burglary, O.C.C.A. § 40-6-6(d)(2) is material to the element of causation and may be
found to have negated or mitigated it. Notwithstanding the plain meaning of the statute (12 Ga. St. U. L.
Rev. 295, 298 (1995)), the relevant conduct is the decision to initiate or continue the pursuit, not how
[officer's] drove [their] own vehicle during the course of the pursuit. According to the issue of proximate
causation and duty under the statute.

Trial counsel deficiency in failing to obtain the evidence became even more skewed during direct appeal
when the state supreme court rejected Westmoreland's assertion that the evidence was insufficient to
support his convictions because the vehicle pursuit in this case violated Cobb County Police Department
policy and was an intervening cause of the collision. To this argument, the court ruled that "the policy

alluded to was not presented to the jury and is not contained on the record of appeal, [a]ccordingly, that
material [did] not factor into [their] evidentiary review." The court also held that counsel's decision not to
obtain the policy was "informed strategy".

This opinion from the state highest court was contrary to the record. Counsels decision was unreasonable
tactical move which no competent attorney in the same circumstances would've made, especially not
having hired an expert or independent investigator to aid the defense which was requested by initial circuit
defender, and client facing an automatic life sentence. Even more detrimental to the defense, both trial
counsel's (Marotte and Christian) were advising Westmoreland that they were attempting to obtain the
policy during trial -- and never stated otherwise until after trial -- during motion for new trial hearing. The
jury could have concluded that the officers decision to initiate and continue the pursuit admist the lawful
order restricting such, was an intervening cause singularizing the burglary and the subsequent vehicular
homicide. Clayton County v. Segrest 775 S. E. 2d. 579 (2015) (non-binding

precedent).

Representation of a criminal defendant entails certain basic duties. Counsel's function is to assist the
defendant, and hence counsel owes the client a duty of loyalty, a duty to avoid conflicts of interest. See
Cuyler v. Sullivan supra. From counsel's function as assistant to the defendant derive the overarching
duty to advocate the defendant's cause and the more particular duties to consult with the defendant on
important decisions and keep the defendant informed of important developments in the course of the
prosecution. Counsel also has a duty to bring to bear such skill and knowledge as will render the trial a
reliable adversarial testing process. Powell v. Alabama supra. Hinton v. Alabama (2014), supra. Davis
v. Alaska 415 U.S. 308 (1974).

36

Substitute appellate also raised claim on appeal, as trial court error in not allowing officer's testimony
about the policy. Nonetheless, the argument made no specific mention of Westmoreland's 6th
Amendment Confrontation Right under the U.S. Constitution.

V. Breakdown of the Adversarial Process/ Closing Arguments:

In both state and federal petitions, Westmoreland alleged constitutional

ineffectiveness of trial counsel for

instructing the jury, during defensive closing arguments to find Westmoreland guilty of several serious
felonies without securing Westmoreland's consent, permission or approval of this tactic; [and] failure to
make timely objections to several improper statements made by the prosecutors and codefendant's counsel
(circuit defender) during closing arguments, disparaging Westmoreland at a critical stage. Codefendant's
circuit defender used defense closing argument to disparage Westmoreland by blaming the entire case on
Westmoreland in front of the jury.
To meet the ineffectiveness standard of Strickland, the performance of defense counsel must be the
functional equivalent of no defense at all.

During capital felony murder trial, counsel just didn't have a defense to put on under the circumstances of
th[e] case, and unless [Westmoreland] thought otherwise there wasn't any real need [] to discuss because
we didn't really have a trial strategy in terms of [] presenting a defense. (HT. 2527); Codefendant's defense
was it was all Westmoreland's fault and he was just alone for the ride. Westmoreland first saw all of the
State's evidence during trial. At the close of the States evidence, neither of the (4) circuit defenders
representing the.trial offered any evidence or defense (HT. 1878; 2522).

I. Closing Arguments:

During defensive closing arguments, trial circuit defender advised the jury that:
"the bottom line is that I suggest to you that the evidence in this case indicates that what he he
found guilty of is vehicular homicide, serious injury by motor vehicle, the burglary charges, the
attempting to elude charges...[a]nd that's what we would ask you to consider doing in your
verdict." (HT. 1896-1901).
Also during defensive closing arguments, codefendant's circuit defender argued to the jury that:

(i) "Believe it or not, I represent John Williams. That's me."; (ii) That his client "was just the
passenger in the vehicle that [Westmoreland] was driving"; (iii) "Amos Westmoreland was
driving his vehicle, Amos made a mess out of May 17, 2007"; (iv) "the law is we have the guy
that caused that death here, we sure do. Right there!" (pointing at Westmoreland)...'that was the
guy that caused the death. That was the guy that turned left. That was the guy that struck that
car."; (v)"we got to separate out who pays for what in this case. Who caused the death of this
37

lady? Who injured these people's kin? Who did that? Amos did that, not Williams"; and (vi) "I

will not say that...Mr. Westmoreland didn't drive recklessly, didn't careen the car across 575
into this lady and flip her car over twice...but I will not say that to anybody's fault but
Westmoreland." (HT. 1902-11)
(C) During the States closing arguments, the prosecutors commented that:
(i) "there was no question that these officer's were engaged in their job, they were doing what we
expect officers to do"; (ii) "we have agreed that Barbra Jean Robbins, she's the human being that
died, with or without malice. We have agreed to that in the stipulation"; (iii) "we have to look at
the burglary itself, determine whether a burglary felony existed; if it does exist, then go back and
add the death of Barbra Jean Robbins."; (iv) "but here's what's important, it was a continuous act
because they were in Cobb County, 'OUR COUNTY"; (v) "the basis for count number 8 is
burglary, count 1 and 2...when you determine the burglary was committed, then go back and add
the death of the victim"; (ix) "you took an oath, that you will apply the law... when you find they
committed the burglaries, that they helped each other with the burglaries, that's felony murder,
ladies and gentleman. That's an oath, that's your job"; and (x) "when you look at the death
certificate, this Friday, she would have had a birthday. And because Tatiana doesn't have MeMaw for a birthday, we ask that you find them guilty offelony murder, because that's what it is"".
(HT. 1936)
The right to reasonably effective counsel is violated when the omission charged to trial counsel results
from inadequate preparation rather than from unwise choices of trial tactics and strategy. The deficient
performance prejudiced Westmoreland because counsel did not secure Westmoreland's consent or
approval of his tactic to suggest to the jury to find him guilty of any crimes, which amounts to a total
breakdown in the adversarial process. The exhibition was structurally flawed because the cumulative
effect of not offering evidence or a defense, and using a critical stage in the capital felony murder trial to
inflame the minds of the jury caused irreparable prejudice to Westmoreland. Even more detrimental to the
adversarial testing, counsel failed to object to codefendants counsels defensive closing arguments
disparaging Westmoreland at critical stage in the trial, and to allow the prosecution to follow up with the
impropriety was devastating.
If counsel would have refrained from making such arguments and objected to egregious statements made
by both prosecutors and codefendants circuit defender, theres a reasonable probability that the outcome of
the felony murder trial would've been different, if not for counsel's unprofessional error, because trial
court could have given a limiting or curative instructions or declared a mistrial for the blatant comments.
The outcome of the proceedings may have also been different because, not only was this a critical point in
trial, but the jury was competent enough to make their own determination of guilt and innocence based on
the evidence. Even considering that trial counsel did not tell the jury to find Westmoreland guilty of
felony murder, crimes admitted included vehicular homicide and four underlying felonies for the felony
murder counts.

" During Pretrial Detainee Stage, two (2) days after a "conflict occurred" with Petitioner's 3rd circuit defender, the
trial court "specially set" the case for trial for the week of October 20, 2008; (HT. 982).
38

As for codefendants circuit defender improper comments, the structural error undeniably manifested an
actual conflict of interest because during the course of the representation, Westmorelands' interests
diverged with respect to a course of action-- when codefendants best strategy was to blame Westmoreland
for all of the crimes, while being jointly represented by the same defense and circuit defenders office".
These statements were made exclusively and explicitly without objection from counsel which he conceded
in written interrogatories, along with clarifying that codefendants defense was that it was all
Westmoreland's fault. Westmoreland diligently presented claim to initial post-conviction counsel to
potentially raise on direct appeal. However, after conflict of interest and Westmoreland was appointed
substitute post-conviction counsel, error of ineffectiveness wasn't properly raised.

This Court's decisions in Cuyler establish that a state criminal trial, a proceeding initiated and conducted
by the State itself, is an action of the State within the meaning of the

Fourteenth Amendment. See

Lisenba v. California 314 U. S. 219, 314 U. S. 236-237 (1941); Moore v. Dempsey 261 U. S. 86, 261
U. S. 90-91 (1923). The Court recognized as much in

Gideon v. Wainwright 372 U. S. 335 (1963), when

it held that a defendant who must face felony charges in state court without the assistance of counsel
guaranteed by the Sixth

Amendment has been denied due process of law. Unless a defendant charged

with a serious offense has counsel able to invoke the procedural and substantive safeguards that
distinguish our system of justice, a serious risk of injustice infects the trial itself. Id. at 372 U. S. 344; see

Johnson v. Zerbst 304 U. S. 458 (1938). When a State obtains a criminal conviction through such a trial,
it is the State that unconstitutionally deprives the defendant of his liberty. See Argersiager
supra at 407 U. S. 29-33. Cuvler

v. Hamlin,

v. Sullivan supra, at 446 U. S. 343 (citations omitted).

The ultimate focus of inquiry must be on the fundamental fairness of the proceeding whose result is being
challenged. Prejudice is presumed where counsel entirely fails to subject the prosecution to a meaningful
adversarial testing. It was readily apparent at that point that the non-death penalty capital felony murder
trial was 'like' a game in which the participants were expected to enter the ring with a near match in skills.
It was an exhibit of sacrifice of unarmed prisoner to gladiators. Cf. U.S.

v. Cronic supra.. The

constitution guarantees criminal defendants a meaningful opportunity to present a complete defense. See

Holmes v. South Carolina 547 U.S. 319 (2006); Crane v. Kentucky 476 U.S. 683 (1986). State v.
Lane 838 S. E. 2d 808 (2020).

The Sixth Amendment right to counsel exists to protect the right to a fair trial. Strickland, 466 U.S. at
684. It is common sense that the accumulation of multiple errors can render a trial fundamentally unfair.

" During pretrial motion hearing, codefendant circuit defender requested a severance of defendants, arguing "as of
the other counts in the case, the defenses are that it was him not me, so those are completely antagonistic in these
cases"; the motion was denied.

39

Strickland thus instructs that counsel's errors must be considered together, requiring courts to assess
"counsel's errors" (plural) and analyze "the totality of the evidence before the judge or jury." Id. at 695
(emphasis added).

The writ should be granted based on Sup.Ct. R. 10 (a) and (c), in that the United States Court of Appeals
has so far departed from the accepted and usual course of judicial proceedings, as to call for an exercise of
this Court's supervisory power; and has decided an important federal question in a way that conflicts with
relevant decisions of this Court, (i.e., Martinez v. Ryan 566 U.S. 1 (2012)) and Strickland v.
Washington 466 U.S. 668 (1984)).

Q2: Does the 11th Circuit procedural bar conflicts with this Court's decision in Cuvler v. Sullivan
(1980), since it ignores that in Cuvler v. Sullivan 446 U.S. 335 (1980), the Court established that [t]o
show ineffectiveness, a petitioner must demonstrate that his defense attorney had an actual conflict of
interest, and that this conflict adversely affected the attorney's perfomiance?
ARGUMENT:

The Sixth Amendment to the United States Constitution guarantees criminal defendants the right to
effective assistance of counsel, and effective assistance includes a right to counsel "unimpaired by
conflicting loyalties." Duncan v. Alabama 881 F.2d 1013 (11th Cir.1989). The duty of unfettered loyalty
to one's clients is among the most central of a criminal defense attorney's responsibilities. See Strickland
v. Washington 466 U.S. 668, 692 (1984).

Ineffective assistance of counsel claims in the conflict of interest context are governed by the standard
articulated by this Court in Curler v. Sullivan supra. Cuvler establishes a two-part test that we use to
evaluate whether an attorney is constitutionally ineffective due to a conflict of interest. To show
ineffectiveness under Cuvler, a petitioner must demonstrate: (a) that his defense attorney had an actual
conflict of interest, and (b) that this conflict adversely affected the attorney's performance. To satisfy the
"actual conflict" prong, a defendant must show something more than "a possible, speculative, or merely
hypothetical conflict." Lightbourne v. Dugger 829 F.2d 1012 (11th Cir.1987). In Smith v. White 815
F.2d 1401 (11th Cir.1987), the court developed a test that enables them to distinguish actual from potential
conflicts of interest:

The Court there noted that it would not find an actual conflict of interest unless appellants can point to
specific instances in the record to suggest an actual conflict or impairment of their interests. The Court
concluded that [a]ppellants must make a factual showing of inconsistent interests and must demonstrate

40

that the attorney made a choice between possible alternative causes of action. [ ]. Assuming a defendant
can demonstrate that his attorney labored under an actual conflict of interest, the Cuyler test demands that
he show that this conflict adversely affected the representation he received. To prove adverse effect, a
defendant needs to demonstrate: (a) that the defense attorney could have pursued a plausible alternative
strategy, (b) that this alternative strategy was reasonable, and (c) that the alternative strategiy was not
followed because it conflicted with the attorney's external loyalties. See Freund v. Butterworth, 165 F.3d
839 (I 1th Cir. 1999). State v. Lane, 838 S. E. 2d 808 (2020)

I. Conflict of Interest (Trial Counsel and Trial Court):

In Ground 22 of original state habeas petition, Westmoreland allege his federal constitutional rights
were violated when trial counsel (David Marotte) was previous law clerk" for the trial judge's husband
(Milton Grubbs); and conflict or possible conflict wasn't properly raised by trial court or trial attorney. It
was indeed acknowledged in trial counsel's testimony at motion for new trial hearing. Westmoreland was
never, until that point, apprised of such possibility of conflict (Appendix R).
In the proposed final order drafted by the state and signed by the state habeas judge, it concluded that:

"Westmoreland failed to raise this claim post-trial and on appeal. Thus, they are procedurally
defaulted under O.C.G.A. 9-14-48 (d)"...."[A]ppellate counsel did not recall seeing any testimony
from trial counsel about the latter's purportedly serving as law clerk for the judge's husband. The
transcript of the motion for new trial hearing shows that during the course of answering a question
about his professional background, trial counsel stated that he had previously worked for Milton
Grubbs for about a year and a half. Hon. Adele P. Grubbs presided over Westmoreland's trial."
On merits, the order cited Cuvler v. Sullivan 446 U.S. 335 (1980), and concluded that:
"[A] mere mention of having worked for the husband of the judge presiding over the trial at some
point in trial counsel's legal career does not show that trial counsel operated under a conflict of
interest....Westmoreland has thus failed to overcome the procedural bar to consideration of this
issue. Accordingly, ground provide no basis for relief."
In Ground 10 of federal habeas petition, Westmoreland allege that he was denied the constitutional
rights to effective conflict-free trial counsel when he was previous law clerk for trial courts husband, and
conflict or possibility of a conflict was never properly raised...1ff he issue was elicited by trial counsel
during motion for new trial hearing. Exercising due diligence Westmoreland discovered that counsel was
previously an associate at Grubbs and Gnibbs with trial court and her late-husband.
A U.S. Magistrate Judge ("R&R") determined, "again Westmoreland has demonstrated no basis for
overcoming his procedural default." (Appendix D). However, the federal court denied claim in a aggregate
"Law clerk- one (as a law school graduate) who provides a judge, magistrate, or lawyer with assistance in such
matters as research and analysis. Merriam-Webster's Dictionary of Law (2016).
41

of other grounds and did not mention the Cuyler case at all or the merits that the state court made
reference to in the adopted proposed final order.

The record reflects, though not verbatim, that trial counsel testified that he was previous law clerk for the
judge's husband, and issue was alluded to during motion for new trial hearing. [HT. 2529]. However, in a
sworn affidavit filed in state habeas proceeding, counsel attested that he was an"associate° in Milton
Grubbs office during 77-78"; It was later discovered through public records that Marotte was actually an
associate in the firm, along with trial court and her husband.

II. Other Similar Constitutional Conflict

of Interest Claims Made in Both State and Federal Habeas
Petitions.

Trial counsel was specifically appointed to Westmoreland's case "per

Judge Grubbs" and circuit

defender representative, a day before second scheduled trial date, at a time when previous attorney
had conflict. [HT. 984-85];

During first pretrial motion hearing, trial court acknowledged that "I know that Mr. Marotte hadn't been in
the case very long. I also know he is a quick learn."(MH. 5).

In a sworn affidavit administered under oath, filed in state habeas proceeding, counsel stated that (1) he
presumed that the Circuit Defenders Office was responsible for appointing him to the case; (ii) this was a
case where he was appointed at the last minute. Judge Grubbs gave one continuance and he had to get
ready as best he could within that time frame; (iii) he had less than 30 days to prepare but he had no
choice in the matter. That was the order of court and the schedule directed by the judge; (iv) when he took
the case, he did not recollect seeing any motions filed by previous Circuit Defenders; the file that was
turned over to him had very little information in it, other than some discovery material; (v) he had one
telephone conversation with the previous attorney who updated him on what little had been done on the
case • and (vi) he had a short pretrial inquiry with the district attorney in the judge's office, where the
judge asked if there were any pretrial issues to be addressed. (Pet. Ev. f filed 6/21/121).

Trial counsel practiced law and was an officer of the court for 30+ years in Cobb County, and
had never, until Westmoreland's case, stood a case in front of trial court.

This fact was alluded to during trial when the judge stated that "Mr. Marotte hasn't tried a case before me
for some reason, we don't follow up." [HT. 1235-36]; However, in sworn affidavit filed in state habeas

"Associate- a lawyer employed by a law firm. Merriam-Webster's Dictionary of Law (2016).
42

proceeding, counsel stated that he had stood/tried a case in front of Judge Grubbs, prior to
Westmoreland's felony murder trial. (Pet. Ev. (filed 6/21/12]).

(c) Trial counsel failed to file a for a judicial recusal requested by Westmoreland, since he had been
made aware that trial court's daughter had been previously killed in an auto related accident'', and

trial consisted of an auto related accident. (Pet. Ev. #58)
In a sworn affidavit filed in state habeas proceeding, counsel attested that he was aware of trial courts
daughter dying in an auto-related accident, stating that Westmoreland brought this issue up for the first
time on the morning of trial, concluding that he considered this a frivolous issue and as a matter of
morality, ethics, and professionalism, he had no intention on filing such. (Pet. Ev. (filed 6/21/121) and 58);

See United States v. Sayan 296 U.S. App. D.C. 319 (D.C. Cir. 1992) (upholding application of Cuvler's
adverse effect test to alleged conflict created by lawyer's fear of antagonizing judge).
Attorney labored under an actual conflict of interest with the trial court and this conflict adversely affected
the representation Westmoreland received because, (a) "believe (he' discussed with 'Westmoreland] we
just didn't have a defense for us to put on under the circumstances of this case, and [he] believe (he'
told [Westmoreland' at that point and time, unless he thought otherwise there wasn't any real need
for us to discuss because we didn't really have a trial strategy in terms of us presenting a defense

(HT. 2527); (b) counsel could have pursued a plausible alternative strategy (i.e., the legal completion of
the burglary, the policy tactic, proximate cause or intervening cause strategies); (c) any of these alternative
strategies were reasonable considering the punishment and lack of defence or evidence presented during
capital felony murder trial; and (d) the alternative strategies were not followed because it conflicted with
the attorney's external loyalties with the trial court (and/or circuit defenders representative), whom
personally appointed counsel to represent Westmoreland's case. (HT. 984-85); Cf. Avery v. Alabama
308 U.S. 444, (1940), supra. Powell supra. The (internal) conflict affected the entire representation
because court appointed counsel took no substantial actions on behalf of Westmoreland. The record
reflects that Westmoreland (I) specifically requested his indictment stating that he never saw it, and
counsel sent document through the mail without going over it with client (HT. 2513)' (2) specifically
requested the police pursuit policy which counsel led him to believe that he was attempting to obtain,

but equivocally didn't (HT. 2514-20) and (Pet. Ev. [filed 6/21/121) and (3) specifically requested counsel
to file for a judicial recusal which counsel disregarded (Pet. Ev. [filed 6/21/121). Being apprised of such

potential conflicts at the outset, could have provided Westmoreland an opportunity to agree to the
representation or have the benefit of appointment of conflict-free counsel from another circuit (and/or

" Under state law, motions to recuse must be timely filed, i.e., made "as soon as the facts demonstrating the basis for
disqualification become known." See Pope v. State 256 Ga. 195, 202 (7)(e)(345 S.E.2d 831)(1986)
43

another judge, for that matter). Westmoreland non-existant waiver deprived him of the benefit of proper
preparation and investigation, by competent attorney and rights guaranteed under the federal constitution.
The conflicts were too remote to rely on Westmoreland's acquiesce. Cf. Von Moltke v. Gillies 332 U.S.
708 (1948); Woods v. Georgia (1981) supra.; Holloway v. Arkansas 435 U.S. 475 (1978);

The writ should be granted based on Sup.Ct. R. 10 (a) and (c), in that the United States Court of Appeals
has so far departed from the accepted and usual course ofjudicial proceedings, as to call for an exercise of
this Court's supervisory power; and has procedurally barred an important federal question in a way that
conflicts with relevant decisions of this Court, (i.e., Cuvler v. Sullivan 446 U.S. 335 (1980)). State v.
Lane, supra. (2020)

The 6th Amendment right guarantees conflict-free effective assistance of counsel and does not afford the
defendant the hybrid right to simultaneously represent himself and be represented by counsel, while the
Georgia Rule of Professional Conduct 1.7 prohibits a representation involving a potential conflict of
interest unless and until the attorney has disclosed the potential conflict, in writing, to his client and
thereafter received the client's written consent to undertake or continue that representation. The question
is:
When a defendant is represented by multiple circuit defender's and subsequently files a pro se postconviction collateral attack raising substantial ineffectiveness federal constitutional claims for failure of a
succession of attorney's from the same circuit defender's office to raise it; Should the principles underlying
this Rule be discounted in a criminal proceeding, where 6th Amendment right to conflict-free effective
assistance of counsel is involved?

Does the constitutional protections of effective assistance of counsel on only appeal as of
right in Evitts v. Lucey (1985) and Douglas v. California (1963), extend to filing a timely
Motion for Reconsideration on only appeal of right?
If so, and appellate circuit defender does not withdraw in writing to allow petitioner to file a pro se Motion
for Reconsideration on direct appeal to resolve his constitutional questions, can such noncompliance, if
substantiated, procedurally bar a pro se habeas petitioner from having substantial claim(s) heard by a
federal court?

ARGUMENT:

The Sixth Amendment to the U.S. Constitution guarantees that "[i]n all criminal prosecutions, the
accused shall enjoy the right...to have the Assistance of Counsel for his defence." It is well established that
44

the right to counsel protected by the Sixth Amendment is "the tight to effective assistance of counsel"
See McMann v. Richardson 397 U.S. 759 (1970); One component of the right to effective assistance of
counsel is the right to representation that is free of actual conflicts of interest. See Wood v. Georgia 450
U.S. 261 (1981). Ineffective assistance of counsel claims are generally evaluated under the two-part
deficient performance and resulting prejudice test announced by this Court in Strickland v. Washington
supra. However, as this Court recognized in Strickland itself, this two-part test is inapposite under certain
unusual circumstances. In some cases, "prejudice... is so likely that case by case inquiry into prejudice is
not worth the cost." Thus, prejudice is presumed where there has been an "[a]ctual or constructive denial
of the assistance of counsel altogether" and where "various kinds of state interference with counsel's
assistance" are present. A more limited presumption of prejudice arises where an attorney represents a
client despite an actual conflict of interest. In this situation, the attorney "breaches the duty of loyalty,
perhaps the most basic of counsels duties. Moreover, the precise effect on the defense of representation
corrupted by conflicting interests can be exceedingly difficult to determine. See Holloway v. Arkansas
435 U.S. 475 (1978); Requiring a showing of Strickland prejudice - i.e., a reasonable probability that but
for the conflict of interest, the outcome of the proceeding would have been different - would set the bar for
such claims too high. Thus, a defendant or habeas petitioner asserting ineffective assistance of counsel
based on an actual conflict of interest need only demonstrate that the conflict of interest existed and that it
"significantly affected counsel's performance." See Mickens v. Taylor 535 U.S. 162 (2002). Accord
Cuvler v. Sullivan, supra.

1. Conflict of Interest": Cobb County Circuit Defenders Office ("CCCDO") performs the essential private
function of representing criminal defendants.

Public Defenders working in the same judicial circuit are "firms" subject to prohibition.... [w]hen a
conflict exists pursuant to the conflict of interest rules listed therein, including in particular Rule 1.7."
[And] if it is determined that a single public defender in the circuit defenders office of a particular judicial
circuit has an impermissible conflict of interest concerning the representation of co-defendants, then that
conflict of interest is imputed to all of the public defenders working in the circuit public defender office of
that particular judicial circuit. Rule 1.10' does not become relevant or applicable until after an

"Conflict of Interest - There is a possibility of conflict, then, if the interests of the defendants may diverge at some
point so as to place the attorney under inconsistent duties. There is an actual conflict of interests if, during the course
of the representation, the defendants' interests do diverge with respect to a material factual or legal issue or to a
course of action.
" Georgia Rule of Professional Conduct 1.7 (a) provides: ("A lawyer shall not represent or continue to represent a
client if there is a significant risk that the lawyer's own interests or the lawyer's duties to another client, a former
client, or a third person will materially and adversely affect the representation of the client....")

45

impermissible conflict of interest has been found to exist. It is only when it is decided that a public
defender has an impermissible conflict in representing multiple defendants that the conflict is imputed to
the other attorneys in that public defender's office. Even then, multiple representations still may be
permissible in some circumstances.

(a) Pre-Trial and Trial Circuit Defender Appointments:

Westmoreland was arrested in May 2007; after he was determined to be indigent, a Cobb County Superior
Court judge appointed the CCCDO to represent him under Uniform Superior Court Rule 29.2; and Circuit
Defender Representative ("Martin" or "Marty" Pope) assigned first Circuit Defender (Michael Syrop). See
Indigent Defense Act of 2003, O.C.G.A. § 17-12-1 et.seq."

On January 10, 2008, Westmoreland was escorted to the Cobb County Superior Court for a scheduled
Arraignment", and was held in a confinement cell during the proceeding. (HT. 113-14). The contents of
the proceedings were not communicated to Westmoreland. In May 2008 third appointed Circuit Defender
(Kenneth Sheppard) came to visit Westmoreland and advised him that not only had Syrop been removed
from the case for conflict of interest", but yet a second Circuit Defender (Gary 0. Walker) had been
appointed and subsequently withdrew.n

In September 2008, a few days prior to scheduled trial date fourth appointed Circuit Defender (David
Marotte) came to visit Westmoreland and advised him that Sheppard had been removed from the case for

conflict of interest, and that he had requested a continuance, but had less than 30 days to prepare for trial.
Westmoreland advised Marotte that he had not seen his indictment up to that point, and circuit defender

"Georgia Rules of Professional Conduct- RULE I .I0(a) ("While lawyers are associated in a firm, none of them shall
knowingly represent a client when any one of them practicing alone would be prohibited from doing so by Rules
1.7: Conflict of Interest;")

" (I.D.A) formerly referred to the Georgia Public Defender Standard Council, which I.D.A. established as an
independent agency within the judicial branch of the state government. I.D.A. Committee works with indigent
defense to help provide representation and equal justice to all, and coordinates efforts of the legal profession and
other agencies to achieve these goals.

"Arraignment- is a critical time in the proceedings; [t]hat initial step in a criminal prosecution whereby the
defendant is brought before the court to hear the charges and to enter a plea. (Black's Law Dictionary 9th Edition
2009, pg. 123).
"Georgia Rule of Professional Conduct 1.7: [cmt. I] Loyalty and independent judgment are essential elements in the
lawyer's relationship to a client. If an impermissible conflict of interest exists before representation is undertaken the
representation should be declined. The lawyer should adopt reasonable procedures, appropriate for the size and type
of firm and practice, to determine in both litigation and non-litigation matters the parties and issues involved and to
determine whether there are actual or potential conflicts of interest.
" Ga. Rule of Professional Conduct; RULE 1.16 states in pertinent part: [w]hen a lawyer withdraws it shall be done
in compliance with applicable laws and rules; Upon termination of representation, a lawyer shall take steps to the
extent reasonably practicable to protect a client's interests, such as giving reasonable notice to the client, allowing
time for employment of other counsel, surrendering papers and property to which the client is entitled... [Cmt. 3]
When a lawyer has been appointed to represent a client, withdrawal ordinarily requires approval of the appointing
authority.
46

sent document through the U.S. Mail (2) weeks prior to capital felony murder trial". (HT. 120-124; 984).
This was the first time that Westmoreland was apprised that he was indicted on 17-counts and had to
prepare for trial on (3) counts of murder and vehicular homicide, when there was only one death. A few
days prior to trial, the CCCDO sentah appointed Circuit Defender (Rick Christian) "to observe" as cocounsel. (4) Four Circuit Defenders represented the defense during trial.
"[D]uring perhaps the most critical period of the proceedings against [the] defendant, that is to say, from
the time of [his] arraignment until the beginning of [his] trial, when consultation, thoroughgoing
investigation and preparation were vitally important, [defendant] did not have the aid of counsel in any
real sense, although [he is] as much entitled to such aid during that period as at the trial itself" Cf. Powell
v. Alabama, 287 U.S. 45 (1932).
(b) Post-Trial Circuit Defender Appointments:
After conviction and sentence, Circuit defender Marotte filed a standard Motion for New Trial.
Subsequently sixth appointed Circuit Defender (Louis Turchiarelli) was appointed to represent the case
on appeal, and eventually amended the motion for new trial twice. Turchiarelli represented Westmoreland
at motion for new trial hearing, raising ineffective assistance of trial counsel claims and trial court errors.
During motion for new trial hearing, trial counsel testified that:
a) "Mr. Christian, he wasn't really associated as co-counsel. He was basically through the circuit
defenders office going to observe and he did assist me...if I asked him to do something"; b) he did
not ask the court for any money for any kind of private investigator, or any kind of expert and he
never consulted with any expert witness concerning the procedures and policies of the Cobb
county police department.; c) he "believe [he] discussed with [Westmoreland] we just didn't have
a defense for us to put on under the circumstances of this case, and [he] believe [he] told
[Westmoreland] at that point and time, unless he thought otherwise there wasn't any real need for
us to discuss because we didn't really have a trial strategy in terms of us presenting a defense"

(HT. 2527); d) he didn't present any evidence in the cases (HT. 2522); and e) "when I got the file,
and I don't know how long this case had been going on... "I believe he asked-- at one point in
time, I asked him-- understand, there was another lawyer prior to me in this case. And I didn't
know what he had or had not done. At some point in time, Mr. Westmoreland told me that he'd
never seen his Indictment I known I sent him a copy of the indictment" (HT. 2513)

Nonetheless, in a sworn affidavit, during the pendecy of the state habeas corpus petition, counsel attested:
* He didn't know how many felony murder cases he'd handled prior to Westmoreland's case; * he
presumed that the Circuit Defenders Office was responsible for appointing him to the case; * he

had a short pretrial inquiry with the district attorney in the judge's office, where the judge asked if
there were any pretrial issues to be addressed; * this was a case where he was appointed at the
last minute. Judge Grubbs gave one continuance and he had to get ready as best he could within
that time frame; * he had less than 30 days to prepare but he had no choice in the matter. That

" Since arraignment is a critical stage in a criminal proceeding under Georgia law, an accused in a (capital) case in a
Georgia state court is entitled, as a matter of federal constitutional law, to counsel at his arraignment, and that, if he
is without counsel at the arraignment, he may obtain relief from his conviction without showing that he suffered
disadvantage by such denial. Hamilton v. Alabama 368 U.S. 52 (1961); Wilson v. State 212 Ga. 73 (1955); See,
e.g. Brewer v. Williams, 430 U.S. 387 (1977).
47

was the order of court and the schedule directed by the judge; * when he took the case, he did not
recollect seeing any motions filed by previous Circuit Defenders; the file that was turned over to
him had very little information in it, other than some discovery material; he had one telephone
conversation with the previous attorney who updated him on what little had been done on the
case; * he did not see a motion for funds to hire independent investigator to assist the defense; he

did not have formal training in criminal investigations and accident reconstruction; he did not have
an expert or private investigator to assist in preparing a defense, "but a private investigator would
have been nice to have"; * he had stood/tried a case in front of Judge Grubbs, prior to
Westmoreland's felony murder trial; * he believed co-defendant trial strategy was that it was all
Westmoreland's fault; * he did not object to codefendants counsel closing argument blaming
Westmoreland for everything; * he did the best he could with what he had to work with; (Pet. Ev.
[filed 6/21/12]).
After motion for new trial was denied, through Open Records Act, Westmoreland requested and received
transcripts and case records from Cobb County Superior Court Clerk. After reviewing records and
transcripts and researching the law, Westmoreland was attempting to assist in marshalling his own defense
at the appellate level by sending numerous potential constitutional claims and errors to initial appellate
circuit defender for consideration on only appeal as of right, including, but not limited to:
* state interference; * first time seeing discovery material (received from the clerk); * no
transcripts of: probable cause hearing; bond hearing; arraignment; second pretrial motion
hearing, in which Westmoreland was involuntarily absent from; * conflict of interest with
Public Defenders office (i.e., Michael Syrop, Gary Walker, Kenneth Sheppard, David
Marotte and Rick Christian); * inadequacy and inconsistency in pleadings filed by the circuit
defenders; * Motion to hire an independent investigator filed by Michael Syrop wasn't pursued; *
codefendant counsels and Marotte improperly instructing the jury to find Westmoreland guilty of
numerous crimes; * improper influence to sign indictment during trial under the
understanding of pleading not guilty, and not intentionally waiving formal arraignment; *
ineffective assistance based on attorney being appointed at the "last minute"; * right of indigent
defendant in criminal case to aid of the state by appointment of investigator or expert; See (Pet.
Ev. 24).
Consequently, a conflict of interest occurred between Westmoreland and Turchiarelli citing "lawyer-client
understanding". However, after conflict arose, Circuit Defender did not provide Westmoreland with
transcripts, evidence provided by Westmoreland's family, post-conviction investigative reports or what
issues were being raised on only appeal as of right. As a result of the conflict, seventh Circuit Defender
(William Carter Clayton) was appointed (substituted) to the case by the CCCDO. At that point, direct
appeal had already been docketed in the Georgia Supreme Court. On direct appeal, substitute appellate
circuit defender raised (4) claims that were all entirely dependent on the police pursuit policy, including
one claim of ineffective assistance of counsel against both trial and initial appellate circuit defender's.
(c) Circuit Defenders Post-Direct Appeal Correspondence:
Westmoreland received the decision denying his direct appeal in the U.S. mail approximately a week after
it was rendered. Enclosed with the copy of the courts decision was a letter from substitute appellate circuit
defender advising [him] that as of the date of the decision [6/28/10], "the conviction is final" and [he] had

48

"4 years from that date to challenge [the] conviction by way of Habeas Corpus." (HT. Pet. Ev. 29). (App.
P.)

Pro Se Motion for Reconsideration in the Georgia Supreme Court:

At the time Westmoreland recieve the courts decision and correspondence from substitute appellate circuit
defender, he had less than a week remaining to timely challenge the ruling of the Georgia Supreme Court.
Westmoreland immediately filed a timely pro se Motion for Reconsideration, raising several claims of
error, omission and constitutional violations. Subsequently, the clerk corresponded that as long as [he) was
represented by any counsel, the court was unable to accept a filing for [him], and the attorney must
withdraw in writing to be removed as counsel in [the] case. (Pet. Ev. 32). (App. Q). See Georgia Rules
of Professional Conduct: Rule 1.16(d) (Upon termination of representation, a lawyer shall take steps to the
extent reasonably practicable to protect a client's interests, such as giving reasonable notice to the client,
allowing time for employment of other counsel, surrendering papers and property to which the client is
entitled....)

(e) Circuit Defender's Testimony On Substitution And Conflict:

(a) there was some sort of conffict with previous counsel but he couldn't remember exactly what it
was; (b) his appointment to Westmoreland case was after motion for new trial had been heard and
denied and case was docketed-- pending appeal in the Georgia Supreme Court; (c) being
appointed so late in the case, "in a sense" presented special and unique challenges to his
representation and it was unusual to be appointed at this part of the proceeding; (d) the belated
appointment did have a bearing on his legal analysis regarding ineffective assistance of
counsel claims; (e) he would have done things differently than the prior attorney had he had
the case from the Motion for New Trial. (f) he was sure that he would have raised question
of ineffective assistance of trial counsel claims differently than he would if he had been
appointed counsel at the beginning of Motion for New Trial• (g) he did not have a chance to
make the record for appeal and had to essentially write his brief based on the record that
was made by the prior public defender (h) in preparing for the appeal, he spoke to
Westmoreland's former attorney, discussed the case with Westmoreland, and researched the Cobb
County pursuit policy; (i) he did not see a way to file an extraordinary motion for new trial
based on the outdated vehicle pursuit policy being included in the original motion for new
trial because by the time he came into the case, the appeal had already been docketed in
the georgia supreme court and trial court was without jurisdiction to hear such a motion
at that point; and (j) he felt that he raised the most viable and meritorious issues on appeal (HT
7-15).
The Sixth and 14th Amendment right to counsel is a fundamental right. United States v. Cronic 66
U.S. 648 (1984) (describing the Sixth Amendment right to effective assistance of counsel); Evitts v.
Lacey, 469 U.S. 387 (1985) (recognizing due process and equal protection right to counsel on direct
appeal requires effective assistance of counsel).

'° To date, Westmoreland hasn't received any confirmation, in writing, that Circuit Defender's Office has withdrawn
or been removed from [the] case. See Rule 4.3. Withdrawal;

49

Furthermore, as Westmoreland noted in his objections to U.S. Magistrate R&R, in 2009, at the time the
case was in the "pipeline" -- pending direct review, the death penalty prosecution of Brian Nichols was
costing the state approximately $2 million, making it difficult for the state to provide funding for indigent
defense in other cases. See Death Penalty Information Center, Smart on Crime: Reconsideration of the
Death Penalty in a Time of Economic Crisis, p. 13 (October 2009)-- Bun v. State 296 Ga. 549 (2015).
The Georgia Supreme Court in Williams v. State held that conflicts of interest are imputed among the
attorneys in a single public defender's office for purposes of evaluating conflicts of interest in joint
representations under the Sixth Amendment. 807 S.E.2d 418 (2017); see also In re Formal Advisory
Op. 10-1, 744 S.E.2d 798 (2013). (Appendix K). Cf. Hung v. State, 653 S.E.2d 48 (2007) (attorney who
filed motion for new trial was not considered to be "new" counsel for the purpose of an ineffective
assistance of counsel claim where he and trial counsel were from the same public defender's office);
(I) Federal District Court Ruling On Conflict Of Interest:
In the District Court's Order, the U.S. District Judge held that "[Westmoreland] claims of ineffective

assistance of counsel based upon a "conflict of interest" are totally without merit " (Appendix C).
The record shows that the conflict of interest significantly affected the representation Westmoreland
received from his trial and appellate circuit defender's. It is undisputed that all of Westmoreland's
attorney's did not pursue the course of action as diligently as they otherwise would have because of the
impermissible conflict of interest imputed on the Cobb County Circuit Defenders Office. Westmoreland is
not required to prove anything more to demonstrate a significant affect on his trial and appellate attorney's
representation of him. There is nothing in the record to suggest that Westmoreland validly waived his right
to conflict-free representation at trial or on appeal, and his acquiescence in the decision not to raise the
issue on appeal did not render his representation by circuit defenders any less defective. See Wheat v.
United States 486 U.S. 153 (1988) ("[C]ourts have an independent interest in ensuring that criminal trials
are conducted within the ethical standards of the profession and that legal proceedings appear fair to all
who observe them.")
The professional responsibility of lawyers to avoid even imputed conflicts of interest in criminal cases
pursuant to Rule 1.10(a) imposes real costs on Georgia's indigent defense system, which continually
struggles to obtain the resources needed to provide effective representation of poor defendants as the
Constitution requires. See Gideon v. Wainwright, 372 U.S. 335 (1963). But the problem of adequately
funding indigent defense cannot be solved by compromising the promise of Gideon. (Appendix K). Cf.
Douglas v. California 372 U.S. 353 (1963)' Ryan v. Thomas. 409 S.E.2d 507 (1991). (Appendix I).

50

Under Georgia law, a convicted defendant is not authorized to assert a pro se claim of ineffective
assistance while represented by counsel. "(T)he Sixth Amendment right does not afford the defendant
the hybrid right to simultaneously represent himself and be represented by counsel. (Cit.)' [Cit.]" Hance v.
Kemp, (373 S.E.2d 184 (1988), and under the 1983 Georgia Constitution, "a layperson does not have the
right to represent himself and also be represented by an attorney...." Cf. Cargill v. State 340 SE2d 891
(1986); Seagraves v. State 376 S.E. 2d. 670 (1989); This Court in Martinez v. Court of Appeals, 528
U.S. 152 (2000)... concluded there was no constitutional right to self representation on direct appeal from
a criminal conviction because historical evidence and the 6th Amendment did not provide any basis for
the right. The government's interest in the fair administration of justice outweighed any invasion of
petitioners self representation interest. Cf. Cotton v. State 279 Ga. 358 (2005). Tolbert v. Toole 296
Ga. 357 (2014).
If an indigent defendant is appointed circuit defender for appellate purposes, and that circuit defender fails
to raise substantial claim(s) of ineffectiveness of trial counsel at the earliest practical convenience, this
would be the first disadvantage to the defendant. Mainly because at that moment, the same substantial
claim(s) of ineffectiveness of trial counsel has technically been procedurally barred, something that an
effective appellate circuit defender has been schooled and trained to understand, while the indigent
defendant may have the slightest clue.
A second major challenge may arise with the representation if (or when) a lay defendant researches the
law and the case and presents (non-frivolous/frivolous) claims of error for circuit defender to raise on
direct appeal, after motion for new trial has been denied. Nonetheless, if that communication manifest a
potential conflict of interest and circuit defender withdraws-- at a critical moment when case is docketed
in the appellate courts --quite naturally the substitute counsel would have to be well trained and
experienced in appellate practices and conflict-free representation to navigate the case in the best interest
of the client. This is true because new circuit defender would not only have to review the court records and
transcripts, but he or she would also have to communicate with both former circuit defender and client to
make an informed strategy for appeal, under time limitations of the appellate court. The new circuit
defender would have the duty to review substantial claim(s) of ineffectiveness of two fellow circuit
defender's.
If the substantial error(s) of trial counsel are overlooked on direct appeal, the hurdle begins to be
insurmountable because indigent petitioner may have to overcome state procedural default if he or she
decides to challenge the constitutionality of the conviction and sentence in a timely filed post-conviction
collateral proceeding. This forces the indigent prisoner to either hire an attorney or expeditiously become
educated and trained in state and federal laws to comply with procedural rules in order to bring claims that
should've been raised potentially years earlier at initial-review collateral proceeding. This particular
situation calls for an exercise of this Court's supervisory power.
In certain situations, indigent defendants represented by multiple appointed counsels from the same public
defenders office --at different phases of a criminal proceeding --will virtually be disadvantaged by not

51

knowing or understanding the law and how to properly discern intricate counsel errors and constitutional
claims. Even though the constitution contemplates that accused defendants cannot do these very things.

As a result, substantial ineffective assistance claims may be foregone at trial and on direct review, and this
would permit one member of the circuit defenders office to shield his fellow member ['s] against
accusations of ineffectiveness at the expense of the rights of defendant. Additionally, a pro se habeas
petitioner would have to overcome insurmountable hurdles and risk claim(s) being barred by failure of a
succession of attorneys from the same public defender's office to raise it as error on appeal;

This is of more critical concern when its considered that under the federal constitution (1) [t]he State is
required to appoint effective assistance of counsel for indigent defendants pursuing first appeals as of
right; (2) [t]he 6th Amendment right does not afford the defendant the hybrid right to simultaneously
represent himself and be represented by counsel; and (3) Pro Se filings by represented parties are
unauthorized and without effect.

The Respondent has not offered any supportable evidence in the record that suggest that any of
Westmoreland's seven (7) court appointed circuit defenders informed Westmoreland, at any point, of a
potential or impermissible conflict of interest imputed on the Cobb County Circuit Defender's Office, nor
of the right to alternative counsel and urge Westmoreland to secure separate representation if he so desired
and there's no showing that Westmoreland actively waived his constitutional right to effective, conflictfree representation of counsel during pretrial, trial or on appeal. Westmoreland has diligently presented
constitutional errors at the earliest practical moment (i.e., when substitute appellate circuit defender
corresponded that the case was final and Westmoreland had 4 years to file a habeas corpus.)

The writ should be granted based on Sup.Ct. R. 10 (a) and (c), in that the United States Court of Appeals
has so far departed from the accepted and usual course of judicial proceedings, as to call for an exercise of
this Court's supervisory power; and has procedurally defaulted an important federal question in a way that
conflicts with relevant decisions of this Court, (i.e., Cuyler v. Sullivan 446 U.S. 335 (1980)).

Q5: Does the 11th Circuit procedural bar conflicts with Jackson v. Virginia, 443 U.S. 307 (1979) since
it ignores that in Jackson v. Virginia this Court held: in a challenge to a state court conviction under 28
U.S.C. § 2254, the applicant is entitled to habeas corpus relief...if it is found that upon the record evidence
adduced at trial no rational trier of facts could have found proof of guilt beyond a reasonable doubt in
terms of the substantive elements of the criminal offense as defined by state law?
ARGUMENT:

52

A. LAWS OR CONSTITUTIONAL PROVISIONS:
[T]here was not sufficient evidence to justify a rational trier of fact to find Westmoreland's guilt beyond a
reasonable doubt of Felony Murder [Burglary]. Westmoreland submits that his conviction on Count (8) of
the indictment violated his Federal Due Process rights because there was insufficient evidence to support
the jury's verdict as required by Jackson v. Virginia supra.
Georgia Law On Felony Murder/Burglary:
Count 8 of the indictment alleged that Westmoreland "did unlawfully, without malice, cause the death of
Barbra Robbins, a human being, while in commission' of the felony, Burglary." (HT. 153-61). Georgia
law provides that (A person also commits the offense of murder when, in the commission of a felony, he
causes the death of another human being irrespective of malice....) O.C.G.A. § 16-5-1 (c); -- thus
subjecting Westmoreland to an automatic life sentence.
Counts 1 and 2 of the indictment allege that Westmoreland, without authority and with the intent to
commit a theft, entered the dwelling house of the [victim(s)]. (FIT. 153-61). Georgia law provides that: [A
person commits the offense of Burglary when, without authority and with the intent to commit a felony or
theft therein, he or she enters or remains within the dwelling house of another.] (0.C.G.A. 16-7-1); -thus subjecting Westmoreland to 1-20 years.
Evidence Adduced at Felony Murder Trial:
On the morning of May 17, 2007, after committing burglary and unbeknownst to any potential detection,
the vehicle driven by Westmoreland civilly exited the neighborhood. After casually passing a law
enforcement vehicle, the officer initiated a U-tum and followed the vehicle. The officer subsequently
attempted to effectuate a traffic stop for a "drive-out tag" or "possible burglary". The driver of the vehicle
failed to accede to the officer's signals and drove his vehicle onto the Interstate, as additional patrol cars
joined the pursuit. The driver continued his attempt to elude the police. During the pursuit, the police
attempted a box maneuver to stop the fleeing vehicle and the vehicle executed a U-turn in the median to
the southbound lane where it collided with a Buick. The Buick rolled over twice, fatally injuring the driver
and seriously injuring the front seat passenger. Both the driver and the passenger of the pursued vehicle
fled on foot and was soon apprehended.
The Medical Examiner testified that at trial regarding the cause of the victim's death, which was caused by
injuries sustained during the car incident [i.e., 'blunt force trauma]. Dr. Brian Frist, the county's

"Commission [n.]: The act of committing, doing, or performing; the act of perpetrating..

53

Physician, came to similar conclusions, testifying that "the unlawful injury inflicted [i.e., 'blunt force
trauma'] accounted as the efficient, proximate cause of death".
III. Jury Instructions On Felony Murder-Burglary:
The trial court charged the jury on Felony Murder, in that:
"In order for a homicide to have been done in commission of a particular felony, there must be a
connection between the felony and the homicide. The homicide must have been done in carrying
out the unlawful act and not collateral to it. ft is not enough that the homicide occurred soon, or
presently, after the felony was attempted or committed. There must be such a legal relationship
between the homicide and the felony so as to cause you to find that the homicide occurred before
the felony was at an end or before any attempt to avoid conviction or arrest for the felony.
The felony must have a legal relationship to the homicide, be at least concurrent with it, in part,
and be part of it in an actual sense. A homicide is committed in carrying out of a felony when it is
committed by the accused while engaged in performance of any act required for the full execution
of the felony." (HT. 1964-66; 2021-23).
(a) Sharp Contrast Between Instructions and Evidence Presented:
* The homicide was not done in carrying out the burglary, and was collateral to it * It was not enough
that the homicide occurred soon after the burglary was committed. * There was no legal relationship
between the homicide and the burglary, to cause a reasonable juror to find that the homicide occurred
before the burglary was at an end or before an attempt to avoid arrest for the burglary. To the contrary, the
homicide occurred: "AFTER" the burglary was at an end, and "AFTER" an attempt to avoid arrest for the
burglary."
(b) Jury Question:
During deliberations, the jury asked for "a recharge on the points of the law as it relates to the charges";
their "main challenge [was] how conspiracy weighs in felony murder and homicide charges"; and "when
did the commission of the burglary conclude"; (HT. 1984).
Answer To Jury's Inquiry:
The substantial question's were never particularly answered and allowed to dissipate, while the trial court
gave a partial recharge from the previous day. Under Georgia law, a burglary is completed when a person
"enters" the dwelling house of another without authority and with intent to commit a felony or a theft
therein, regardless of whether or not he accomplishes his apparent purpose". Ricks v. State supra. Clark
v. State,supra. Childs v. State supra., Alexander v. State supra., Roberts v. State supra. Whittlesey v.
State supra., Williams v. State (1872) supra. Crawford v. State, supra.;

" {(AA a matter offact, evidence suggests that the (vehicular) homicide was committed while engaged in the
performance of Reckless Driving, on interstate-575.)
"The homicide was not a natural and probable consequence of the conspiracy to commit burglary. The reckless
driving (pursuit) and subsequent vehicular homicide was not reasonable foreseeable at the time defendants conspired
to commit burglary.
54

IV. Georgia Law On Vehicular Homicide:
Georgia law provides that ("Any person who without malice aforethought, causes the death of another
person through the violation of [illegally overtaking a school bus, 'driving recklessly, driving under the
influence, or fleeing or attempting to elude an officer'] commits the offense of homicide by vehicle in the
first degree....") O.C.G.A. §§ 40-6-393(a); 40-6-390. -- thus subjecting Westmoreland to 3-15 years.
Count 12 of the indictment allege that Westmoreland, "did without malice, cause the death of Barbra
Robbins, a human being, by driving reckless as alleged in 'count 11' of this indictment.; and Count 11
allege that Westmoreland "did unlawfully drive a certain Chevrolet motor vehicle on interstate-575, in
reckless disregard for safety of persons and property..."
(a) Essential Elements Of Vehicular Homicide:
A homicide caused solely through violation of the reckless driving statute, must be prosecuted under the
vehicle homicide statute, and not as for murder or involuntary manslaughter. Recklessness can only form
the basis of a prosecution for homicide by vehicle in the first degree, that it cannot form the basis for a
charge of murder. See State v. Foster 233 S.E.2d 215 (1977)" and Foster v. State 236 S.E.2d 644
(1977). In order to be convicted of vehicular homicide by recklessly driving in violation of O.C.G.A. § 406-390, the evidence must be sufficient to prove beyond a reasonable doubt not only that the accused
committed the predicate traffic offence but also the predicate offense was the proximate cause of the death
of the [victim]. "This requires showing that "the defendant's conduct was the 'legal' or 'proximate' cause, as
well as the cause in fact, of the death.""

B. "CAUSE" in Georgia's Homicide Statutes Means Proximate Cause:
Georgia is a proximate cause state, and though Vehicular Homicide and Felony Murder may be defined in
"entirely different" statutes, in terms of their Code sections, the relevant causation language is
indistinguishable. The General Assembly has employed the same or very similar causation phrasing to the
extent those statutes have been interpreted by Georgia's appellate courts, once again the term "cause" has
been regularly construed as requiring proximate causation. State v. Jackson supra. See (Appendix J);
The law has long considered causation a hybrid concept, consisting of two constituent parts: actual cause
and legal cause. H. Hart & A. Honore, Causation in the Law 104 (1959). When a crime requires "not

" "which involved an interpretation of vehicular homicide statute as enacted by the General Assembly in 1974. See
Ga. L. 1974, pp. 633, 674. As so enacted, the statute provides: "Whoever shall, without malice aforethought, cause
the death of another person through the violation of Section 68A-901 of this Title, 'Reckless Driving,' shall be guilty
of homicide by vehicle in the first degree..."
55

merely conduct but also a specified result of conduct," a defendant generally may not be convicted unless
his conduct is "both (1) the actual cause, and (2) the 'legal' cause (often called the 'proximate cause') of
the result." 1 W. LaFave, Substantive Criminal Law §6.4(a), pp. 464-466 (2d ed. 2003); see also ALI,
Model Penal Code §2.03, p. 25 (1985).

Direct Appeal:

(i) On direct appeal, substitute appellate counsel enumerated as error that the verdict of guilty as to felony
murder was contrary to the law and without evidentiary support because the state failed to prove that the
death was caused during the commission of the burglary's; The state supreme court applied Jackson v.
Virginia, to conclude that the evidence was ample for any rational trier of fact to find Westmoreland
guilty beyond a reasonable doubt of the crimes for which he was convicted. To support its decision, the
court applied res gestae. Res Gestoe's was not instructed to the jury or merely even mentioned during
felony murder trial", and embodies critically different elements from felony murder charge to the jury. CI
O.C.G.A. § 40-6-6(d)(2).

State and Federal Habeas Petitions:

Petitoner has consistently raised claims challenging the jury instructions and felony murder conviction(s)
in both state and federal petitions (and, all post conviction collateral proceedings, including pro se Motion
for Reconsideration of direct appeal and exclusively in Extraordinary Motion of Arrest of Judgement).
However, both state and federal habeas courts have relied on procedural bar, without addressing the
federal constitutional claim, even though issue clearly was enumerated on appeal.

This Court should Grant the Petition for Writ of Certiorari:

This Court or Georgia courts has not previously addressed the particular issue challenging the legal
completion of a burglary when the offense is predicated on felony murder statute; and even the more
complex issue of construction of proximate cause when simultaneously applying two separate homicide
statutes, when there's only one death involved.

"The court mischaractcrized the conclusion of Westmoreland's argument by adding "but after the burglary was
completed and he was attempting to flee." Enumeration or brief did not expressly assert such language or contention;
"The application implies that a murder may be committed in the commission of a felony, "although it does not lake
place until after the felony itself has been technically completed."
[i]n denying motion for new trial, the court, for the first time, applied "res gestaes" in support of the "escape
phase" of the burglary. (HT. 1142).

56

At common law, burglary was confined to unlawful breaking and entering a dwelling at night with the
intent to commit a felony". However, in tandem with the statute itself, there is ample case law in support
of the proposition that in the state of Georgia, Burglary is complete when the perpetrator enters the
dwelling. Furthermore, there's no evidence that suggests that Westmoreland was discovered during the
burglary by pursuing authority. As a matter of fact, when law enforcement authorities were notified, the
"suspicious vehicle" was backed in at a resident with the doors open and occupants not visible -- which a
reasonable jury could infer that Westmoreland had "entered" 'the dwelling house of another without
authority and with intent to commit a theft therein' -- therefore completing/executing the act of burglary.
Furthermore, Westmoreland, unaware of any actions by third parties, peacefully left the scene of the
crime and was not in flight immediately after the burglary was complete. Jones v. State, (1913),
supra.
The homicide was caused under law by Reckless Driving as indicated in the indictment on interstate-575.
The Burglary (or Eluding an Officer) was not the cause of the Vehicular Homicide in commission of
Reckless Driving. The ambiguous words of a criminal statute are not to be altered by judicial construction
so as to punish one not otherwise within its reach, however deserving of punishment his conduct may
seem. State v. Lyons 568 L.E.d 533 (2002). The injury itself (blunt force trauma) -- constituted the sole
proximate cause of the death AND directly and materially contributed to the happening of a subsequent
accruing immediate cause of death.
Whether the underlying felony had been abandoned or completed prior to the homicide so as to remove it
from the ambit of the felony-murder rule is ordinarily a question of fact for the jury to decide. This Court's
decision in Apprendi v. New Jersey 530 U.S. 466 (2000), requires specific findings by a jury, since the
statutory maximum sentence for a Vehicular Homicide predicated on Reckless Driving (15 yrs.), Burglary
(20 yrs.) [and {Attempting to Elude (1-5 yrs.)}] is increased to Felony Murder (automatic life
imprisonment) by virtue of some other fact ("res gestae").
Under the due process clause of the Federal Constitution's Fourteenth Amendment- and under
the Constitution's Sixth Amendment guarantee of a right to a jury trial -a criminal defendant is
entitled to a jury determination that the defendant is guilty beyond a reasonable doubt of every
element of the crime with which the defendant is charged, where the historical foundation for this
Court's recognition of these principles extends down centuries into common law; a state cannot
circumvent these protections by redefining the elements that constitute different crimes by
characterizing them as factors that bear[ed] solely on the extent of punishment. Apprendi, supra.
"In any event, for substantive double-jeopardy purposes, neither a burglary conviction nor a murder
conviction is a lesser included offense within the other "since proof of additional elements must

" See, e.g., 4 W. Blackstone, Commentaries on the Laws of England 224 (1769).
57

necessarily be shown to establish each crime. See Cash v. State, 368 S.E.2d 756 (1988); Oglesby v.
State 256 S.E.2d 371 (1979)]." Williams v. State 300 S.E.2d 301 (1983). Accord Alvin v. State 325
S.E.2d 143 (1985).
The conviction for Felony Murder violates Federal Due Process. Viewed in the light most favorable to the
prosecution, the evidence is not sufficient for any rational trier of fact to have found the essential elements
of the crime beyond a reasonable doubt. This Court has held that in the interpretation of a criminal statute
subject to the rule of lenity, where there is room for debate, one should not choose the construction that
disfavors the defendant. see Moskal v. United States 498 U. S. 103 (1990). Cf. Burrage v. United
States 571 U.S.

, 134 S.Ct. 881 (2014); United States. v. Lanier 520 U.S. 259 (1997).

The writ should be granted based on Sup.Ct. R. 10 (a) and (c), in that the United States Court of Appeals
has procedurally defaulted an important question of federal law that has not been, but should be, settled by
this Court, and has decided an important federal question in a way that conflicts with relevant decisions
of this Court, (i.e., Jackson v. Virginia 443 U.S. 307 (1979)). Even absent a conflict in the decision, the
federal courts has "so far departed from the accepted and usual course of judicial proceedings [] as to call
for an exercise of this Court's supervisory power,".

Q6: Under the procedural aspects of the 14th Amendment Due Process Clause, when a state habeas judge
verbatim adoption prepared by a prevailing party contains internal evidence suggesting that the judge may
not have read them; Is the state court's fact-finding procedure, hearing, and proceeding full, fair, and
adequate if [t]he order is an artifact of [the State's] having drafted [it] with specific intent of not producing
a fair and impartial assessment of the facts and law, and deliberately glossed over and camouflaged
significant attorney errors in order to ensure that those errors are shielded from any meaningful review?

ARGUMENT:
Westmoreland has repeatedly raised an issue before state and federal courts that required further factual
development -- whether the state habeas court's factual findings warrant deference, in light of what
Westmoreland claim was a deficient procedure employed by the state habeas corpus court in reviewing the
ineffective assistance claims. Westmoreland essentially argues that the state court's 'fact-finding
procedure,"hearing,' and 'proceeding' were not 'full, fair, and adequate.'

58

I. STATE COURT'S 'FACT-FINDING PROCEDURE', 'HEARING', AND 'PROCEEDING'
WERE NOT 'FULL, FAIR, AND ADEQUATE.'"
The question whether state procedures are 'adequate' involves two distinct inquiries. The first is whether
the procedure employed in a particular case in fact afforded the defendant a full and fair hearing. The
second is whether the procedure itself comports with due process of law." Cabana v. Bullock, 474 U.S.
376 (1986). With respect to the latter inquiry, the Fourteenth Amendment of the United States
Constitution forbids states from depriving any person of life or liberty without due process of law.
Roberts v. Louisiana 428 U.S. 325 (1976). This Court has stated that notice and an opportunity to be
heard in a manner appropriate to the nature of the case are essential requirements of proceddral due
process. See Brodie v. Connecticut, 401 U.S. 371 (1971) (citation omitted).
EVIDENCE FILED IN STATE HABEAS PROCEEDING:
While state habeas corpus was pending, Westmoreland filed several motions (including, but not limited to,
Motion for Special Assistance of Counsel and Request for Documents), Amendments to Brief and
numerous articles of Supporting Evidence (Exhibits #1-58). Also included in the pleadings filed by
Westmoreland was a Sworn Affidavit (Interrogatories) by trial counsel (David Marotte).
During the habeas hearing, the Respondent's attorney advised the court that "there is, as your honor is
probably well aware, there is I'll say voluminous pleadings in this case filed by Petitioner, many motions,
many Amendment". At the conclusion of the hearing, the court informed Westmoreland, that he had the
file of everything that had been stamped and filed in the case and it included a particular brief. He
acknowledged that he was looking at it right then and noted that it was very thick, and that he was going
to take it with him that day (4-3-13) and go through everything that's filed in the case and once he was
done, he would then make a decision". (HT 30-33). (Appendix L).
FULL AND FAIR HEARING:
A week after the hearing, Westmoreland received Respondent's "Return and Answer" through the U.S.
mail, addressing (103) of (122) constitutional claims. Grounds 68 and 105-122 were not addressed or
defended (procedurally defaulted) by the Respondent.
Subsequently, Westmoreland filed Post-Hearing Brief suggested by the habeas judge, along with a motion
for a hearing pursuant to O.C.G.A. § 9-14-47 of the State Habeas Corpus Act". A hearing was

" 0.C.G.A § 9-14-49 states "After reviewing the pleadings and evidence offered at the trial of the case, the judge
of the superior court hearing the case shall make written findings of fact and conclusions of law upon which the
judgment is based. The findings of fact and conclusions of law shall be recorded as part of the record of the case."
" see footnote 14 (above)
59

subsequently set for Noverneber 20, 2013. However, while present at the courthouse awaiting scheduled
hearing, the 'correctional officer' advised Westmoreland that the judge said [the] case was "reschedule"
or 'postponed" to another date. Westmoreland insisted that the correctional officer advise the habeas
judge that as a pro se litigant, [he] wished to address the court. The officer declined the request.
Eventually, the habeas court adopted the Respondent's proposed order verbatim and did not omit any
portions of the proposed order or insert any additional findings of its own. There is no genuine proof that
the habeas court conducted an independent inquiry of the facts and laws of this case proceedings. There is
no record or mere mention of the evidence (i.e., pending motions, exhibits, document requests, sworn
affidavits, conflict resolution letters, briefs, amendments or post-conviction collateral attacks) filed by
Westmoreland- in the states proposed order. (Appendix L)
(iii). SUBSTITUTE APPELLATE COUNSEL FAILURE TO WITHDRAW IN WRITING:
In both petitions Westmoreland raised claim of ineffectiveness of substitute appellate counsels for failure
to withdraw in writing so that [he] could file a timely motion of reconsideration of [his] direct appeal. This
claim stemmed from a very uncommon withdrawal practice of circuit defender's in Georgia, after denial
of direct review by the state appellate courts. Westmoreland filed a timely Pro Se Motion for
Reconsideration of his direct appeal, which was rejected by the clerk of court because counsel was
required to withdraw in writing. (Appendix P, Q)
In the order drafted by the State and adopted by the state habeas judge, on merits, the order concluded that
"Petitioner failed to question appellate counsel on this issue at the evidentiary hearing. Thus, he failed to
meet the burden of proof to show that appellate counsel was ineffective based on the
standard....[A]ccordingly, ground [] provides no basis for relief "
Westmoreland concedes that he did not question appellate counsel on this issue. However, included in the
habeas files, attached to denial of direct appeal is a client-lawyer letter from Clayton purportedly showing
counsel stating that case was final on the date of the Georgia Supreme Court's decision [6/28/10] and
advising [Westmoreland] that [he] had 4 years to challenge [] conviction by way of habeas corpus. Also in
evidence was Westmoreland's correspondence to the state supreme court clerk attached to pro se Motion
for Reconsideration and response from the clerk advising that counsel had to withdraw in writing. (Pet.
Ex. 29-32). Id.
(iv) EXTRAORDINARY MOTION FOR NEW TRIAL:

60

In both state and federal habeas courts, Westmoreland raised significant claim that his rights were violated
because the trial court denied his extraordinary motion for new trial on the ground that he did not prove
the Cobb County vehicle pursuit policy was newly discovered.

After the state supreme court ruled that the policy alluded to was not presented to the jury and not on the
record of appeal therefore it did not factor into their evidentiary review, Westmoreland filed extraordinary
motion in the trial court at the first instance. Westmoreland made the court aware of how the evidence was
discovered after motion for new trial was denied. (Appendix M). The updated policy would change the
rulings in denial of original motion for new trial.

At the State Habeas hearing, substitute appellate circuit defender Clayton testified that:

(a) being appointed so late in the case, "in a sense" presented special and unique challenges to his
representation and it was unusual to be appointed at this part of the proceeding...; (b) in preparing for
the appeal, he spoke to Westmoreland's former attorney, discussed the case with Westmoreland, and
researched the Cobb County pursuit policy...; and (c) he did not see a way to file an extraordinary
motion for new trial based on the outdated vehicle pursuit policy being included in the original
motion for new trial because by the time he came into the case, the appeal had already been
docketed in the georgia supreme court and trial court was without jurisdiction to hear such a
motion at that point...; (HT 7-15). Cf. Bivins v. McDonald, 177 S.F. 829 (1934).

However, the order drafted by the State and adopted by the state habeas judge ruled that "petitioner failed
to raise claim[' on appeal and was therefore procedurally defaulted under (9-14-48 (d)." The verbatim
adoption contained internal evidence suggesting that the judge may not have read it because the
extraordinary motion for new trial is a post conviction collateral attack filed in the trial court after the the
case has been affirmed on direct appeal.

This demonstrated inconsistent application of the state procedural default rule. See Corner v. Hall 645
F.3d. 1277 (11th Cir. 2011) (habeas review not precluded).

II. ADOPTION OF STATE'S PROPOSED FINAL ORDER WHICH WAS ARBITRARY AND
CAPRICIOUS:

The state court merely signed an order drafted by the state without revision of a single word, even though
the order cites Strickland v. Washington 466 U.S. 668 (1984). The order signed by state habeas court
with respect to Westmoreland's grounds: [0-2), (5-8), (11-21), (23-29), (31-68), (71-80), (94-95), (97107), (109-110), {*112}, (114), (116-118), (120), {*122}], conveniently denied the allegations and
continually stated that "regardless of whether these claims were timely raised at trial under the relevant

61

procedure rule, these claims were not raised as error on appeal. Thus, they are procedurally defaulted
under 0.C.G.A. 9-14-48 (d)". Petitioner has failed to offer any evidence and has thus not met his burden
to show cause in the form of ineffective assistance of counsel at the appellate level for failure to raise
these on appeal and to establish prejudice based on the procedural [rule]. Petitioner has thus failed to
overcome the procedural bar to consideration of these issues. Accordingly, grounds [] provide no basis for
relief."

[T]he verbatim adoption from the State's proposed order critically incorporates [the State's] selective use
of evidence and mischaracterization of the evidentiary record. [T]he order is an artifact of [the State's]
having drafted [it] with specific intent of not producing a fair and impartial assessment of the facts and
law, and deliberately glossed over and camouflaged significant attorney errors in order to ensure that those
errors are shielded from any meaningful review. Cf. Anderson v. City of Bessemer City, 470 U.S. 564
(1985). See Jefferson v. Sellers 250 F.Supp. 3d. 1340 (2017) and Johnson v. Holt et.al. U.S. Dist.
LEXIS 29244 (2017).

In laying out its concerns, this Court noted that, while the verbatim adoption by a court of findings of fact
prepared by a prevailing party is often permissible, the use of such a practice might be procedurally
problematic "where (1) a judge solicits the proposed findings ex parte, (2) does not provide the opposing
party an opportunity to criticize the findings or to submit his own, or (3) adopts findings that contain
internal evidence suggesting that the judge may not have read them." [Cit.] [Cit.]. "[A] finding is 'clearly
erroneous' when, although there is evidence to support it, the reviewing court on the entire evidence is left
with a definite and firm conviction that a mistake has been committed." United States v. United States
Gypsum Co. 438 U.S. 422 (1978).

The writ should be granted based on Sup.Ct. R. 10 (a) and (c), in that the United States Court of Appeals
has ignored an important question of federal law that has not been, but should be, settled by this Court,
because Georgia Habeas Corpus Court Judges have a long history of adopting the State Attorney General's
proposed final orders' in state prisoners habeas corpus cases. A vast majority of pro se incarcerated
litigants are not schooled or trained in law and the prison officials no longer provide legal aide assistance
in the State of Georgia-- cases that results in habeas corpus denials.

Q7: If a state court omits context from a statutory provision utilizing quotations and ellipsis" while

62

simultaneously applying clearly established federal law, and the omission, if submitted, would alter the
entire decision in the proceeding; Does this implicates Constitutional Guarantees to Due Process and
Equal Protection?

DUE PROCESS:
Due Process' emphasizes fairness between the State and the individual dealing with the State, regardless
of how other individuals in the same situation may be treated. 14th Amendment.

EQUAL PROTECTION:
'Equal Protection' emphasizes disparity in treatment by a State between classes of individuals whose
situations are arguably indistinguishable."

ARGUMENT:
The state court adjudication resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established federal law, as determined by the Supreme Court
of the United States (Jackson v. Virginia);
Jackson v. Virginia, 443 U.S. 307 (1979), this Court held: the applicant is entitled to habeas corpus relief
if it is found that upon the evidence adduced at the trial no rational trier of fact could have found proof of
guilt beyond a reasonable doubt.
The Constitution protects an accused against conviction except upon evidence that is sufficient
fairly to support a conclusion that every element of the crime has been established beyond a
reasonable doubt. The reasonable doubt standard plays a role in the American scheme of criminal
procedure. It is a prime instrument for reducing the risk of convictions resting on factual error.
The standard provides concrete substance for the presumption of innocence-that bed-rock
"axiomatic and elementary" principles whose "enforcement lies at the foundation of the
administration of our criminal law"

Coffin v. United States 156 U.S. 432 (1895).

The state court adjudication resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the state court proceeding.
i. Direct Appeal
On direct appeal, substitute appellate circuit defender raised claim that the evidence was insufficient to
support Westmorland's convictions because the vehicle pursuit in this case violated Cobb County Police
Department policy and was an intervening cause of the collision. The policy effective on the date of the
accident was not presented at trial or properly at the motion for new trial hearing. However, updated
policy was attached to appellate brief on direct appeal. The court rejected the argument, holding that "the

"Ellipsis

[n.]: Omission; a figure of syntax, by which one or more words, which are obviously understood, arc

omitted;

63

policy alluded to was not presented to the jury and is not contained on the record of appeal,
[ajccordingly, that material do not factor into our evidentiary review." The court also held that counsel's
decision not to obtain the policy was "informed strategy". Meanwhile the court applied 0. C. G. A § 40-66(d)( l) and (d) (2), for the proposition that:

"[w]hen a law enforcement officer is pursuing a fleeing suspect in another vehicle and the []
suspect [] injures or kills any person during the pursuit, the [] "'officer's pursuit shall not be the
proximate cause or a contributing proximate cause of the damage, injury, or death [...] unless the
law enforcement officer acted with reckless disregard for proper law enforcement procedures."'
And even where such reckless disregard exists, it [] shall not in and of itself establish
causation." Id.
Pro Se Motion For Reconsideration:

Westmoreland received the decision on direct appeal in the U.S. mail, with less than a week to timely
challenge the ruling. Substitute appellate circuit defender advised [Westmoreland] through
correspondence, that the case was "final" and [he] had "4 years to challenge the conviction by way of
filing habeas corpus". (Pet. Ev. 29) (Appendix P) Westmoreland immediately filed a pro se Motion for
Reconsideration in the state supreme court, raising several claims (including construction of statutes as
federal constitutional violations). (Pet. Ev. 31);

Subsequently, the clerk corresponded that as long as [Westmoreland] was represented by any counsel, the
court was unable to accept a filing for [him], and the attorney must withdraw in writing to be removed as
counsel in [the] case. (Pet. Ev. 32). (Appendix Q)

Pro Se Post Conviction Collateral Attacks

Westmoreland specifically raised the state supreme courts construction of the statute in both
Extraordinary Motion for New Trial and Extraordinary Motion in Arrest of Judgement including
Amendments and Discretionary Appeals in both actions, in the state supreme court. (Appendix M, N)

State Habeas Corpus

In Ground 83 of original state habeas petition, Westmoreland raised [Spoliation; Equal Protection
violation of the 5th and 14th Amendment of the U.S. Const.; 14th Amendment statutory classification
violation; 5th Amendment Due Process of statute violation.'

'The Georgia Supreme Court abused it's discretionary duties in [Division .1) of Movants case; the
court neglected to properly interpret 2 Georgia statutory laws, by omitting language in quoted
context (a scheme to confuse a layman with the lack of legal knowledge to understand through
due diligence that the omitted elements goes strictly to Movants defense, concerning proximate
cause) Because it forces the policy to be an issue. The Prohibited Policy."

64

In Ground 115 of amended habeas petition, Westmoreland raised [Spoliation. Equal Protection violation
of the 5th and 14th

Amendment of the U.S. Const.. 14th Amendment statutory classification violation;

14th Amendment Due Process of statute violation.]'

"[E]qual protection rights were violated because the Supreme Court of Georgia, in its opinion in
[Westmoreland's] appeal, omitted certain language from a statute that was relevant to the entire
case."
The order drafted by the State and adopted by the habeas judge concluded that:

"A habeas corpus action is not to be used as a means of obtaining a second appeal and it is not the

Brown v.
Ricketts [Cit.] (1975). Moreover, the rulings of the Supreme Court are binding on this Court.
Roulain v. Martin [Cit.] (1996). Accordingly, grounds 81 through 93 [and 115] provide no basis
function of State Habeas courts to review issues already decided by an appellate court.

for relief "

v. Federal Habeas Corpus
In Ground 50, of original federal habeas petition, Westmoreland raised [5th and 14th Amendment Due
Process Violation; 14th Amendment Equal Protection Violation; Spoliation; Miscarriage of Justice.]
and stated as supporting facts that:

"The Georgia Supreme Court neglected to properly interpret (2) state laws, by strategically
omitting unambiguous language, using quotations and ellipsis' to distort legislatures intent and
confuse a layman. The Court has never omitted language when applying either state statutory
laws in any case prior to Petitioner's" (Doc. 1 @ 55).
The Magistrate (R&R), which became the ruling of the District Court held:

Warden Johnson contends that Westmoreland's grounds 48-57 "do not state claims for relief, as
they do not allege violations of constitutional rights." [91-1] at 23. Each of those grounds asserts
that "[t]he Georgia Supreme Court abused it's discretion" in making a factual finding or applying
state caselaw or statutes. See [1] at 48-62. To the extent these grounds assert violation of state law,
they are no basis for Federal Habeas relief. See Wilson v. Corcoran 562 U.S. at 5; Estelle v.
McGuire 502 U. S. at 67. And to the extent these "grounds" are Westmoreland's attempt to
overcome the presumption of correctness that state court factual determination are entitled to on
federal habeas review, he has not proffered the "clear and convincing evidence" necessary to do
so. 28 U.S.C. § 2254(e)"'
Westmoreland objected to the Magistrate's (R&R), because (I) Ground raised significant Due Process and
Equal Protection claim of constitutional dimension and, abuse of discretion wasn't elicited in all grounds
as stated by Respondents and the federal courts.

C. 40-6-6 is found in Official Codes of Georgia Annotated (0.C.G.A.) under Title 40 of the Uniform
Road Rules of Georgia.

65

(i) O.C.G.A. § 40-6-6 (d)(1) provides in pertinent part: the foregoing provisions shall not relieve the
driver of an authorized emergency vehicle from the duty to drive with due regard for the safety of all
persons.
O.C.G.A. § 40-6-6 (d)(2) provides:
[w]hen a law enforcement officer in a law enforcement vehicle is pursuing a fleeing suspect in
another vehicle and the fleeing suspect damages any property or injures or kills any person during
the pursuit, the law enforcement officer's pursuit shall not be the proximate cause or a contributing
proximate cause of the damage, injury, or death caused by the fleeing suspect unless the law
enforcement officer acted with reckless disregard for proper law enforcement procedures in the
officer's decision to initiate or continue the pursuit. Where such reckless:disregard exists, the
pursuit may be found to constitute a proximate cause of the damage, injury, or death caused by
the fleeing suspect, but the existence of such reckless disregard shall not in and of itself establish

causation.
(iii) Ellipsis (noun) {Merriam-Webster}; (Cf. Footnote Si above)
1 a : the omission of one or more words that are obviously understood but that must be supplied to make a
construction grammatically complete; b : a sudden leap from one topic to another.
2 : marks or a mark (such as ... ) indicating an omission (as of words) or a pause.
Relevant Omitted Context:
"—in the officer's decision to initiate or continue the pursuit...."

[Where such reckless disregard exists,] the pursuit may be found to constitute a proximate cause of the
damage, injury, or death caused by the treeing suspect but the existence of such reckless disregard

phall not in and of itself establish causation.]

(b) Legislature's Intention:
Legislature intended by former Code 1933, § 68-301 to do two things: (1) to give the drivers of
certain authorized emergency vehicles the right to travel when occasion required it at a speed in
excess of the limit fixed by the provision applicable to motor vehicles generally; and (2) to protect
the public on highways, and even those riding in the vehicles thus favored, from reckless disregard
of their safety by the drivers of these privileged vehicles. Archer v. Johnson 83 S.E.2d 314
( I 954).
Ga. L. 1953, Nov. - Dec. Sess. p. 556 grants special privileges in operation of emergency
vehicles, but sets out conditions foi. operation (which include the use of sirens lights), and
provides for liability when there has been a reckless disregard for the safety of others. Violation
does not necessarily make the driver of the emergency vehicle liable, but it keeps open the issue of
causation, which otherwise would be disclosed. City of Winterville v. Strickland 194 S.E.2d
623 (1972).
Westmoreland submits that the state supreme court omitted crucial context from O.C.G.A. 40-6-6 (d)(2)
utilizing ellipsis quotations. It's not the interpretation as much, but issues of constitutional concern arises
with the dilatory omitting context from a state law. The context that was omitted, is crucial to any
proximate or intervening cause or proper law enforcement procedures argument. Most significantly, it
66

akaaliaTa

Maa.

As for the Georgia Supreme Courts decision, the court below did not particularly address the clear
substantive and procedural Due Process implications by disregarding the omission of words from the law.
Whether it was state or federal judicial construction, the strategic use of ellipsis and quotations along with
the contextual omission brought the judiciary into refute. Mainly because of how the unambiguous context
of the provision not only plays to the felony murder defense, but its the law.
Westmoreland is aware that violations of state law are not cognizable in a 2254 proceeding "unless such
violations are of constitutional magnitude." However, Due Process and Equal Protection are both claims
"of constitutional magnitude". When state opts to act in the field where its action has significant
discretionary elements, it must nonetheless act in accord with dictates of Constitution and, in particular, in
accord with due process of law. U.S.C.A. Const. Amend. 14.

The court applied statute, sections (d) (I) and (d) (2) and omitted explicit language; The omitted context
of the state statutory law provision was relevant to the entire case, concerning officers disregard for
proper law enforcethent procedures in initiating and continuing the pursuit. The mis-construction of the
provision disregarded Legislature intention. Nevertheless, there was a due Due Process and Equal
Protection Clause issue because the Georgia Supreme Court, has never, in any case, omitted language
when applying the statute, in the history of the court, until Westmoreland's case.
The writ should be granted based on Sup.Ct. R. 10 (a) and (c), in that the United States Court of Appeals
has so far departed from the accepted and usual course of judicial proceedings, as to call for an exercise of
this Court's supervisory power; and has decided an important federal question in a way that conflicts with
relevant decisions of this Court, (i.e., Jackson v. Virginia, supra.). There remain doubt about the
constitutional stature of the reasonable-doubt standard, and this Court has previously -explicitly held that
the Due Process Clause protects the accused against conviction except upon proof beyond a reasonable
doubt of every fact necessary to constitute the crime with which he is charged.

" 24 N. Y. 2d, at 205, 247 N. E. 2d, at 259.
68

CONCLUSION
The petition for a writ of certiorari should be granted.

Submitted this

3

/

day of August, 2020

1

Mr. Amos Westmoreland, Jr., Pro Se
G.D.C. #1041629
Dooly State Prison (H-1 109M)
1412 Plunkett Road
Unadilla, Georgia 31091

69

No:

IN THE SUPREME COURT OF THE UNITED STATES

MR. AMOS WESTMORELAND, JR. -PETITIONER
vs.
MR. GLEN JOHNSON, WARDEN, AND
COMMISSIONER OF THE DEPARTMENT OF CORRECTION -RESPONDENT(S)

ON A PETITION FOR A WRIT OF CERTIORARI TO
UNITED STATES COURT OF APPEALS FOR THE ELEVENTH CIRCUIT

APPENDIX

Mr. Amos Westmoreland, Jr., Pro Se
G.D.C. #1041629
Dooly State Prison (H-1 109M)
1412 Plunkett Road
Unadilla, Georgia 31091

.

-

TABLE OF CONTENTS

APPENDIX A
Eleventh Circuit Court of Appeals Westmoreland v. Johnson et.el. No. 19-13759.
Order entered February 25, 2020

APPENDIX BEleventh Circuit Court of Appeals, Westmoreland v. Johnson et.el. No. Judgement
entered June I 1, 2020
1

APPENDIX CNorthern District of Georgia Order Westmoreland v. Johnson et.el., No. 1:14-cv01315-TWT. Judgement entered July 31, 2019

APPENDIX DNorthern District of Georgia, Westmoreland v. Johnson et.el. No. I :14-cv-01315TWT-CMS. Report and Recommendation entered June 26, 2019

LJ
APPENDIX EConstitutional provisions, treaties, statutes, ordinances, and regulations involved in the
case, (set out verbatim with appropriate citation.) [Rule I4.1(i];

APPENDIX FEleventh Circuit Court of Appeals Westmoreland v. Warden et.el. 817 F.3d 751 (11th
Cir. 2016). Judgement entered March 30, 2016

APPENDIX CNorthern District of Georgia Westmoreland v. Grubbs et.el., No. 2012 U.S. Dist.
LEXIS 118733 (ND. Ga. 2012). Judgement entered July 23, 2012
LJ

APPENDIX HGeorgia Supreme Court, Westmoreland v. Johnson No. S I 6H0557. Certificate of
Probable Cause denied September 6, 2016
H_]

APPENDIX IRyan v. Thomas 409 S.E.2d 507 (1991)

APPENDIX J-

State v. Jackson et al. 697 S.E.2d. 757 (2010)

APPENDIX KGeorgia Supreme Court, In Re: Formal Advisory Opinion 10-1, 744 S.E.2d 798 (2013)

APPENDIX LHancock County Superior Court, Westmoreland v. Johnson, No. 11-HC-034. Docket
Report

APPENDIX MCobb County Superior Court Westmoreland v. State, No. 07-9-6020, Extraordinary
Motion for New Trial- Order entered June 9, 2011

APPENDIX NCobb County Superior Court, Westmoreland v. State No. 07-9-6020, Extraordinary
Motion in Arrest of Judgement- Order entered June 9, 2011; April 9, 2012

LJ
APPENDIX 0Client-Lawyer Letter from Louis Turchiarelli

Lil

APPENDIX PClient-Lawyer Letter from William Carter Clayton; June 29, 2010

LJ

APPENDIX QResponse from the Georgia Supreme Court Clerk; July 15, 2010

LJ

APPENDIX RState and Federal Habeas Corpus- Trial Counsel Ineffectiveness Claims
LJ

CERTIFICATE OF MAILING

CERTIFICATE OF SERVICE

1

1

APPENDIX A-

Eleventh Circuit Court of Appeals Westmoreland v. Johnson et.el., No. 19-13759. Order
entered February 25, 2020.

UNITED STATES C011111'1111 APPEALS
VOW ME /1.111.VEN111 CIRCUIT
.1-1 Inuit 04.1111 Oita 1110/fliti 4 it APrIrAl A 10111.4
j1Ori

Os horn soma to ow

&SC Oilinsto MOM

UPS, WM.
1104 M niiit •

ta• $401 as Ian" nit
rinAliagalegar

Petnuary 23.2020
Amos Wastmondand

Maly SP Inmate Legal Mail

Prs MU 730

MAMMA. flA 51091

Appeal Number 19-13759.11
Case Style: Amos Westmoreland v. Wit. d
al
Puma Coon Docket No: I: I4cv-013154 WT
The enclosed copy of this Court's order denying the appl
ication for a Certificate of
Appealability is issued as the mandate of this cant.
Is 11th Cir. R. 41-4. Counsel and pro se
ponies are advised that pursuant to I nth Cir. It. 27-2. 'a
motion to reconsider. vacate, a modify
an Oft must be filed within 21 days of theeo
n
of
such
order. No additional time shall be
allowed tor
Sincerely:
DAVID I: SMITH. Clerk of Coat
Reply to: Craig Stephen Gantt B
.phoned 404-3354170
Endogamic)
D1S-4 Multi-purpose diemisnl Idler

Scanned with camScanner

20 Page: 1Of I

DI De UMW STATES 00UXT OF APPE

ALS

KIR

11211DITN CIRCUIT
Nm

IP-17M-11

RappoNINIU-SMINN.
aped tom b thisi Suss Disriat Cast
is the Nan Obabe of Omits

Ti molt a adage eteppolib

ilky, in appalls not titow lull neemb

les has welt

let Miemile bode (I) the nib or sm elio

dyirs dirk eed M the puedend helms

nob • trim Ss 21 use

S unoxik sus t Mosnido 5$

Wesel aril's nodes St a

CIMI•NO eleppeebbility is

oreidue Sn!,i..

dm be

US. 473, 47111(2040). tame

DENTED bow be Med to at the

01 town J.

Luck
MUTED SIAM =CUR AMOR

Scanned with CainScan

flat

APPENDIX B-

Eleventh Circuit Court of Appeals Westmoreland v. Johnson et.el., No. Judgement entered
June 11, 2020.

Cs: 19-13759 Cate Flied: 0611112020 PS- t of l
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-137394

Pethioncr-A ;vellum,
VICIMLIS

COMMISSIONER,.GEORGtA DEPARTMENT OF CORRECTIONS;
Respondents-Appellees.

Anatol from the. United Stores District Court
for the Nathan District of Georgia
Setae: GRANT and LUCK. Circuit Judges.
BY THE COURT:
Amos Westmoreland has filed a motion for reconsideration.
I I th Or: R. 22-1(c) end 27-2, of this Can's February 25, 2020;

to

order denying n cadged! of

Ilppalebility In his appeal from the denial of his 21 U.S.C. f 22$ habeas corpus petition. Upon
eerFew. Westesoreknd's motion far

reconsideration is DENIED because betas offered no new

evidence or asinonenft ofinerit to srmnint

Scanned with CarnScannei

APPENDIX C-

Northern District of Georgia Order Westmoreland v. Johnson et.el., No. 1:14-CV-1315-TWT.
Judgement entered July 31, 2019.

Casa 1146,01319-7WT pent 104 . Fled 07/31/19 Per 1 of 3
IN.TIIE UNITED STATES DISTRICT- COURT
FOR plEisoRTHERN:DISTRICT OF GEORGIA
ATLANTADIVISION:
AMOS WESTMORELAND, 111.7.
CIVIL ACTIONTILE
NO. I:I4-CV-1315-TV(
GLEN JOHNSON
4/ARDEN; St14,
Respondent

ORDER
This is a pro se haben carpus actiaa by a state prisoner. It is before the

Court

Ott the !ieport• and Recommendation [lit92) of the Magistra

te Judge

recommending' delaying dte Petition. Ibe Petitioner is servi
ng a. life sentence tor
.
felontiminda. The Georgia Supreme Court summarized the ficts of the
Petitioner's
case as follows:
Vkwed in a light most favorable to the verdict, the
evidence Amen that
Swining of May .17, 2007, homes
behinging to Alison Murphy
and Jeanne and George Wan were burg
larize
Among the numerous *MILS taken were d in, Marietta, Georgia.
jewelry anti large screen
television set. That morning a neighbor driving in the vicinity of the
Wan home observed two young male
s bra blue, older model statio
Wagon. with a blue tarp tied to the mot; and license plate displayedn
.
'The neighbor became
suspicious and followed the car. She observed it
minutes later parked in the Werns' driveway the car doors wee opal
r otoeistsweenl
itedscs

§canhed tiiith:Caincanbei.

Case 1:14ov-0131541W Document 104 Fited 07/3149 Page 2 ot 3

and no occupants were visible inside. The police were notified and a

marked patrol car arrived in the area es the blue station wagon was
leaving the neighborhood. The officer activated his blue emergency
lights and siren in an effort to stop the vehicle: however, the driver of
the station wagon fitikx1 to accede to the officer's signals, and instead
drove his vehicle onto Interstate 573 northbound. Additional patrol cam
Joined in pursuit. The driver of the stallion wagon continued his attempt
to elude the police. and in the process.. large screen television taken
from the Wan home dislodged from under a tarp on the roof and
crashed onto the roadway. After the police attempted a boa maneuver
to stop the fleeing vehicle, the station wagon executed a U-turn in the
median and drove into the southbound lanes of Interstate 575 where it
collided with. a Buick being driven by Robins and occupied by four
passengers. The Buick rolled over twice and landed on its side, killing.
Robins and seriously injuring the front seat passenger. Both the driver.
and passenger in the station wagon fled on foot and were pursued by
the police and soon apprehended. Georgia identification cards in the
pockets of both suspects identified the driver as appellant
Westmoreland and the passenger as appellant Williams. Items taken
from the two burglarized homes were found in their possession as well
as in the station wagon.
Westmoreland v. State, 2/aaa.,,6 fdla-89, 604 S F Id 11- 17 (2010). The

pounds for relief stated in the Petition are set forth in the Report and
Recommendation. The Petitioner has filed Objections to the Report and
Recommendation but tails to provide any basis for the Objections. For
example. the Petitioner objects to the Magistrate Judge considering the Order
of the State habeas corpus court. His claims of ineffective assistance of
counsel based upon .a "conflict of interest" are totally without merit. He fails
to state any basis for overcoming the Magistrate Judge's findings of
t aueectawatunsereseon

2

t
Scanned with CamScanner

Case 1:14-cv-01315-TWT Dor:mere 104

Mine Page 3013

procedural derma*•at to die vast majority of his claims. Claims of ergots of

state law by the Georgia Suprente Coto' and the state habeas corpus court fail .
to 'finish grounds for habeas relief.

sopts the Report

anti Recommendation as thejudgmatt of the Court. The Petition is DENIED.
No Certificate of Appealability will be issued.
SO ORDERED. this 31 day cifJuly, 2019.

/stomas W. Thrash.
THOMAS W. THRASH, JR.
United States District Judge

ORDERSIltweinwelamitirtt

Scanned with .CarnScanner

taktiin•Dispalt grt1406;23 I 511424
taps yew-lc (

Miens Cos
Omits sat
14112131EnnallIallillakante
Cloafital USW
I a NSW cart
Nina

GM.

ASO 11111111•11

Tb 100"011ESS,Ini nate flat* • ale MI DY d4sfll4019.

Claims
Om ger
pan
ems

tatemil • Mrs•d

jPast-eti is reit

SS lbs.
nesse MOS limpsters elsoaDalmhille Cial1
11.0A

rlials

IL Teen, ea Mint ilmei

Di alp STROUD

14440-111134SaYENsalbabn

idatalitelnkilbl

-_asOwe
We
maisibasimc padSvottOrt
laslicaD541111 Das Is IS trniond Iair
lo!
laislinE At
Sr Di
DSO swap Dia
PO. DOE 71/0 .
U.S.. GA Mel

Tb"
idoses Sao; nese& lie dr swain
Mae illestopede Daemmee
ilmascire
Oak tail am* •
DUMP distliEW_D).1010144T53 glarart420191 ffietembees10191410
4
Masefliuum roacligiarkssairktumainsec
i
zoornsisbiplpa wiio1014
13•11114110MtleaMighten)

Scanned with CamScanner

Case 1:14-cv-01315-TNT Document 105 Filed 08101119 Page 1 of 1

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
AMOS WESTMORELAND, JR.,
Palmer►,
CIVIL ACTION FILE

vs.
OLEN JOHNSON. Wanton, and BRIAN
OWEN& CI.D.O.C. Conuntsalostr,

NO.1:14a43111,41MT

Respondents.

JUDGMENT
This petition fore writ of habeas corpus having come before the court, Honorable
Thomas W. Thrash, United States District Judge, for consideration of the Magistrate
Judge's Final Report and Recommendation, and the Court having APPROVED and
ADOPTED said recommendation, it S
Ordered and Adjudged that the petition for a writ of habeas corpus be, and the
same hereby Is, denied and dlentlesed. No Carlicate of Appealability will be issued.
Dated et Manta, 13eorght, this 10 day of August, 2019.
JAMES N. BATTEN
CLERK OF COURT

By: si B. Walker
Deputy Cleat
Prepared, Filed and Entered
in the Clerk's Office
August 1, 2019
James N. flatten
Clerk of Court
By: s/ B. Walker
Deputy Cleat

Scanned With CirnScanner

1,1,01

CM'ECF•GA Manberi NEMO Cant

cii-ben/Disbitch.p171 I 8959947S77696

Other Est*
I 1 ter411315-11NT ancnS.1r arida AM
OnendraTIM,CIAI,KradareSIBLeallaila.

Vt Dharld Card
dram liturld uUGiorgio
N•t-uIIdeaki law
.
fanompig imidiaddsor Sind di 11/1/2019 di 1110 PIM ROT
Weareread ..c.loteriod d
tin!ram

on. Si I 2010

Derarrew Nombrr:
Illerbd Tint
CRAM MOMENT G OldIerd and A4udqS That ma petition for a writ Orlabiltreorpus bi SM Thu UJVII haWayirdidilir
and dioninest Mb Coallitolo of AppostobtlIty iS ha losuod. (bnvii—Plow S.. to ottwooneattuot000ttgar to SS an
biennia itaNdItten abONN1:1‘o•41313:111T Nebo be Is dedisskay mad to:
Matt; Maintan Ceara 1110014dtpartpart, pridgistsapv
11:144N4UU4WT Pet bo bat amid by sibs man ix
Ass Westansdant. Jr
CDC 1011629
Darn SS Prom
PO BOX *SO
OA 31191
I)
Tbe tobraing daanntnnin ant orsociated mit tostiott
boomoot eseerlointhinn Occoning
Orissa 111Surala
Estbalt dam Star
[MAW stun I0•1060814713 DCW1401911 (V deNrbers101914614
)123T0004221111250107101749e073i7&AMS5316691b4lbalbs10113
MannimiennaiNdlelMIn7171MMUNOPM6330049.110S1306D

scanbed with Cani canner

APPENDIX D-

Northern District of Georgia, Westmoreland v. Johnson et.el. No. 1:14-cv-01315-TWT-CMS.
Report and Recommendation entered June 26, 2019.

cue 1:14-cv‘D.1315-

eat

06/26119 Page 1 of 31

IN THE UNITED STATES DISTRICT COURT
RGIA
FOR THE NORTHERN DISTRICT OF GEO
ATLANTA DIVISION
AMOS WESTMORELAND, JR.,
GDC ID to41629,

HABEAS CORPUS

28 U.S.C. N 2254

Petitioner,

CIVIL ACTION NO.
1:14-cv-1315-7wr-cms

v.
GLEN JOHNSON, Warden,
Respondent.

i

DatILBEEORIAMIRECOMMENDAIDSTh
This is a pro se habeas corpus action brought by

Amos Westmoreland,

OMMEND that
Jr., a state prisoner. For the reasons stated below, I REC
DENIED because he
Westmoreland's petition [IL as supplemented [87], be
nds for relief that
is not entitled to federal habeas relief on any of the 62 grou
te of Appealability
he raised, and I further RECOMMEND that a Certifica
be DENIED.
s that led to
The Georgia Supreme Court summarized the fact
Westmoreland's conviction and incarceration as follows:
g to
[O]n the morning of May 17, now, homes belongin
larized
Alison Murphy and Jeanne and George Wern were burg
n were
in Marietta, Georgia. Among the numerous items take
jewelry and a large screen television set.
Wen
That morning a neighbor driving in the vicinity of the
el station
home observed two young males in a blue, older mod

Scanned with CamScanner

.•

Case 1 14 cv 01 157WT . I . :Dballiteht::99n#14t141440trOgC*:°!.

. •wagon, with a blue tarp tiedito
and nobcénseiilntè
displayed. The neighbor became SiispiCiotl&and•lbiliVelEthet
- he'AiliServeit it ndnotealatcrparked
car 'doors ivere,open-*Id:no.bCenparitif,‘4Cre'iMitiiletgAilleMillAgS.
police were notified .itnd'iiiiiiiikediiiitridreabliri4VgillWihe*Afil;„,.cg•Nil
as the blue station LIVagoni:idleaViniftlatileiilllitirlOOR'the ....................................
officer activated his bluelightS and:sirenSficanieWi.41:000,,
•
jak,,n:
ithiclettito*&er.1Thedrivet of the station)vagonfailegity,agek
,
to the officer's signals,: and :Instead
. ............
.........
Interstate 575 .
'Additional! pattik eats joined the. .. .... .
........ ...
ticmpt
pursuit. The idriver of
to elude the police, and in the process, Atirgi'SeregifitelecriSipp
"a•••
. taken -from4hWern ,home dislodged,from ,undic
roof and crashed onto the-yoadway.!: After the police attempted a
'-••••••
box maneuver :to stop,Aliej:-Ilieing vehicle, theristationi,magonWri:::.!,
southbound
niexecuted a ?ti-turn in t e•medianoriddrove into the
lanes of Interstate 575 wherelteollidedwithaBUickheingtiven
:;.17,3,,,itsii a raiitiirtieit:itabitisrandi:occurAidby four passengers •
The Butokrolledpver twice and landed on its side, killing Robins17
and seriously injuring the front seat passenger: Bothrthetrivet
and passengerInthe:station:wagon ifledon?footand*efilint&Uid
by the police and soon apprehended Li.Georgia ,[identification
pockets •:.of bottususpeSideradiedlithe. driver as.,
ea rdsi.ln.lhe
.
appellant Westmoreland and the passenger as 4ppellatitlifohn,,
:Edgar Williams. Items,:ta en from the two,biliklarizedilomes:
were found in their nposse.Istorkas well e& trilhe'StatiOnViagono•
-

s, •

iiKestmorelandu: Siale,, 099 S.E.2d 13,4 -17(Ga...2oto)-(footnote.omitted).
•
In add ition,Itlhe evidence at trial'establisited that the pu rsuingvehicles did.,
Ilinot exceed The posted spec
Westmoreland and • Williams :were ;:jointly indicted, tried, and
Omitted. lee id at. if,

Both :were found':guilty. ! lititglaryltwo!eounts),

attempting to ;elude :ai:.pursuing pollee:: officer (two.. counts),, operatint a
!•2'

•

Scange0 With .'tainSca Knee.
.

.

•z.

•

Case 1:14-cv-013154INT Document 99 Filed 06126119 P

vehicle without a secure load, felony murder predicated on burg ory, felony
murder predicated on attempting to elude, and obstruction of a police officer.
See id. at 17

Westmoreland was also found guilty of reckless driving,

homicide by motor vehicle, and serious injury by motor vehicle. See id.
Both defendants were sentenced to life in prison for felony murder while in
the commission of a burglary, and Westmoreland received a consecutive asyear sentence for serious injury by motor vehicle and concurrent to-month
terms on the misdemeanor counts. See id. "The remaining counts were
merged or vacated by operation of law." Id.
Westnimeland filed a motion for new trial through his trial counsel,

David Marone. This motion was amended twice to raise additional issues by
new counsel, Louis Turchiarelli When that motion was denied,
Westmoreland appealed through a third attorney, Carter Clayton.
On direct appeal, Westmoreland contended that (1) "the evidence
adduced at trial was insufficient to prove felony murder because the death of
the victim was not committed 'in the.commission' of the burglary, but after
the burglary was completed and he was attempting to flee,* (a) "the trial
court abused its discretion because it improperly abridged his right to crossexamine one of the investigating officers concerning Cobb County's vehicle
3

Scanned with CamScanner

•

because, iiiiinatier of atittekiv,ithobutiaryWas deemed ongoing
belccOnSideredith

tlielestapOPe:Of [lie felony7 andithe purstiit

ilintervening cause]oftlieC011iniothr, See IdiaonCtitingplc.GAI 40;.:61
6). The Georgia Supreme Court, tajeted!Westmorelatitits.rseoondirg*ejit
•
objection
to
this
lintitation'on
crik§s,
an
because trial counsel did not preserve

counsel

e an "informed state c dedston no tosuggest to thajury that

the conduct thoofficer0yaothp proximate cause ofthOlatefitybecause he
-Was attempting toconvince eijilqitoiacquitioni helelonymur ,, ,
g

.

•

r

Cass 14.ev.01315.1WT Once( rat 99 Fl1e(106/24/

19 Page 5

and to find

morainal) guilty of a leaser offense" and (8)

counsel's failureto attach the Cobb County

post-conviction

vehicle pursuit policy had not

prejudiced Westmoreland because there was -no reasonable
probability that
such evidence, had it been introduced, wou

ld have resulted in a favorable

ruling on the motion for a new trial." Id.
at t9.
After "Westmoreland's conviction 'became
... he filed an extraordinary motion for a new

final on October 25, 2010,

trial in the Georgia trial court

on May 2, 2011." Westmorelan
d u. Warden, 817 F.3d 751, 754 (nth Cir.
2016). Shortly after "Wile state trial cou

rt denied the motion on the merits

on June 9, 2011,Westmoreland "filed his

state habeas petition on October

28, 2011." Id. And, while his stat
e habeas petition was stil

l pending,

Westmoreland initiated this case by signing and

"filing" a federal habeas

petition on April 25, 2014. See [I) at 68.
Warden Johnson moved to dismiss Westmore

land's federal habeas

petition on the grounds that it was untimely
and

/or that he had failed to

exhaust all available state remedies.

See [a].

In October 2014, Magistrate Judge E.

Clayton Scofield HI entered a

Final Report and Recommendation recom

mending that the case be

dismissed as untimely, without reaching the issu

e of exhaustion. See
[22].

5

Scanned with CamScanner

Case 1.14-cv-013154WT

meal

Filed 06/26/19 Page G of 31

In December 2014, the Honorable Thomas W "Chrash, Jr. dismissed
this case, staling that:
Although the Petitioner appears to argue that the one year
limitations period was tolled while his pro se extraordinary
motion for new trial was pending, he does not address the
Respondent's claim that this action was filed while the
Petitioner's suite habeas corpus action was still pending . . •
Indeed, that is undisputed. Therefore, this action should he
dismissed for lack of exhaustion of state court remedies.
[26] at t.
In March 2016, the. Eleventh Circuit reversed and remanded,
condoding that '[t]he District Court held that the petition was untimely
based, on the limitations period in 28 U.S.0 § 2244(dX1).• Westmore/and,
817 F,3d at 752. The Eleventh Circuit concluded that "[t]he District Court
dismissed Mr. Westmoreland's petition without properly considering the
effect of the extraordinary motion for a new trial" and observed that "[t]he
state bears much responsibility for this mistake," because the state omitted
that pleading when filing the record and then objected when Mr.
Westmoreland twice moved to have that motion added to the record before
this Court.. IS at 754.
The Eleventh Circuit noted that, on appeal, the state "conoede[d] that
'the petition was timely filed' because the 'one-year [federal limitations]
6

Scanned with CamScanner

Case 1:14-cv-01315-1Wr Doc

Filed mons Page 7 01 31

period should have been tolled while the extraordinary motion for new trial
was pending in the Georgia courts." hl. (quoting Ike slate's Brien. And the
Eleventh Circuit Anther noted that -I ilf the slate had made this concession
beck in sow. when Mr. Westmoreland repeatedly pointed the state's
attention to his state-court motion, then the District Court would have had
the means to decide the timeliness issue correctly the first lime around." Id.
The Eleventh Circuit "decline[d] the state's invitation to consider the
exhaustion issue" on appeal. Id. at 755. Rather, the Eleventh Circuit directed
this Court, lwjben considering the exhaustion issue on remit
nd. .. • [to]
determine whether cause and prejudice excuse any possible failure to
exhaust," and, "ON not, [whether] a stay and abeyance is proper while W.
Westmoreland exhausts state remedies." Id.
Judge Thrash ordered that the mandate of the Eleventh Circuit be
made the judgment of this Court, see [41], and denied Warden Johnson's
Motion to Dismiss, see [43].
Warden Johnson filed a Renewed Motion to Dismiss Petition for Lack
of Exhaustion. See k41. I entered a Final Report and Recommendation
recommending that the motion to dismiss be granted, but subsequently
vacated my recommendation when Warden Johnson filed a notice

Scanned with CarnScanner

Case 1:14-cv-01315-Tw1

99 Feed 06126/19

31

acknowledging that Westmoreland's state habeas case had finally reached its
end. See [47], [49] & [5(11.
This matter is now before me on Westmoreland's petition Ili, as
supplemented to add three additional grounds for relief 1871, WarOen
Johnson's Second Amended Answer-Response 1911 and thief 19o=rai and
Westrnoreland's toy-page singled-spaced "Rebuttal end Supporting !trier
(ten Traverse) 192],
have construed Westmoreland's filings liberally heatuse he is
proceeding pro se. See. e.g., Dupree u. Warden, 715 1:.311 1295, 1299 Oak
Cir. 2613). Nonetheless, it is useful to begin by quoting Westmoreland's ha
grounds for relief verbatim.
0)

"Substitute Appellate Circuit Defender faired to raise conflict of
interests with the Cobb County Circuit Defender's Offli.v." [I] at
6;
"Substitute Appellate Circuit Defender failed to review tin, entire
record to raise core constitutional violations on Petitioner only
appeal as of right.' Ill at 7:
"Subsdlute Appellate Counsel sent Petitioner a letter Mating that
as of 6/38/1 0 Petitioner's case was final and Petitioner had 4
years to challenge conviction by way of Habeas Corpus.
Petitioner filed an unsuccessful Motion for Reconsideration to
the Georgia . Supreme Court. Counsel failed to withdraw in
writing and Petitioner had to days to file the motion," Ill at 8;

Scanned with CamScanner

(4) "Throughout the habeas proceeding, Petitioner has raised
several grounds and/or claims of constitutional dimension (Due
Process) in which the Georgia Supreme Court affirmed the lower
court's decision. Petitioner filed a 42 U.S.C. § 1983 Civil Rights
Action against (13) public officials, including the 7 Georgia
Supreme Court Justices standing on 6/28/201o. Due Process
claims raised include grounds raised in State and Federal habeas
corpus." fa at 9;
(5)

"After makeshift arraignment on January to, 2008, Petitioner
was appointed several public defenders until trial commenced on
1o/2o/08. On 1/30/08 an impermissible conflict of interest was

imputed to the Cobb County Circuit Defender's Office." [I] at to;
(6) "Trial Court did not adequately appoint effective assistance of
counsel during pre-trial detainee stage. Petitioner was appointed
multiple Cobb County Circuit Defenders assisted by (Mary Pope)
<Circuit Defender Representative> prior to Petitioner's capital
felony trial. Thal Court failed to initiate an inquiry into the
existence of conflict." [I] at it;
(7) "Petitioner was denied the right to be present at critical stage
when he was held in a small, cold confinement cell on 1-40-08
while initial public defender waived formal arraignment. Days
later, an undisclosed conflict occurred and initial public defender

was abruptly removed from the case. Consequently, after
multiple undisclosed impermissible conflicts of interest occurred
with the Cobb County Circuit Defender's Office, Petitioner saw
his Indictment 2 weeks prior to capital. trial." [4 at 12;

(8) 'On mo-o8 Petitioner was absent from makeshift arraignment
which was waived by initial appointed circuit defender. On 1-3o08, a conflict occurred and Gary Walker was appointed to the
case. On 4-30-08, counsel requested and was granted a
withdrawal citing 'personal problems.'
Counsel never
established any type of communication with petitioner or
providerd] petitioner with discovery, indictment, or his conflict"
ft) at 13;

Scanned with CamScanner

Case 1:14.4v-01319.MT Docuinent 99 Filed 06/26/19 Page 10 of 31

'Counsel was.appointed less than ;;o days prior to Pet t oner's
capital felony trial: At the time of counsel's appointment, all
previously filed motions by Circuit:Defender's Office (including
Motion to Hire an independent Investigator to aid in 'preparation
of the defense) were. disregarded. Counsel. was 4th Circuit.
Defender in 8 months due to conflict." 1:1) at 14;
i i

'Trial counsel was previous law clerk for Milton Grubbs (Trial
Court's husband), and the conflict &possibility of a conflict was
never properly raised by Thal Court or counsel. The issue was
elicited by Thal Counsel after trial .during Motion for New Trial
Hearing. Exercising due diligence, Petitioner found counsel was
previously an associate @ Grubbs & Grubbs with Trial Court and
husband' [1] at 15; "Trial counsel practiced law and was an officer of the Court for
30+ years in Cobb County and had never, until Petitioner's case,

stood a case in front of Thal Court. Issue was never properly
raised to assess the possibility of a conflict; especially
considering the limited time to.prepare, :40% of counsel's cases
were criminal, the complexity of the possible defenses and

severity of the punishment." [1] at 16;

'After trial] counsel's appointment, Petitioner advised counsel
that he had never *en) his Indictment. Counsel sent
Indictment by U.S. Mail. Petitioner received Indictment
2
prior to his capital felony trial. Counsel never went weeks
over the
Indictment with Petitioner." [1] at 17;
*Trial Court neglected to disclose several possible conflicts on
record that might reasonably
be questions or considered
relevant for disqualification purposes. a). Trial Court's daughter
was killed in a[n] auto-related accident + b). Trial Court and her
late husband were previous law associates with Trial Counsel.*
[1] at 18;

10

Scanned with .cirn§canhei,

Case 1:14-cv-01315-TWT Document 99 Filed 05/2609 Page 11 of 31

(14) On 10/14/08 a pretrial motion hearing was conducted. On
10/17/08 a secret, undisclosed pretrial hearing was convened
with Trial Court, Prosecutors and (4) Defense Counsel[] (Circuit
Defenders) to discuss capital trial related issues. Petitioner was
absent from such hearing, and the results of the hearing w[ere]
not made known to Petitioner, verbally, through either Trial
Counsel[], Trial Court, the State, or through valid transcripts.
Transcripts show that hearing did in fact take place? [1] at 19;
(15) "Prosecutors stated in pretrial motion hearing that the state
[would] not plac[e] any medical examiner photos into evidence.:.
The medical examiner photos were later placed into evidence by.::
at
the prosecution during trial (over defens[e] objections)."
20;

(,i6) "Trial counsel reluctantly adopted special demurrer challenging
a void count in the Indictment. During initial pretrial hearing,

counsel adopted withdrawal of said motion for tactical purposes.
Counsel offered absolutely no evidence or defense to substantiate
the tactic to influence the jury to find petitioner guilty of a lesser
offense." Di at 21;
(17)

"Trial counsel0 were advised at motion hearing by trial court
that no (2) cotinselfl could argue an issue with their respective
co-counsel. During closing arguments, both trial counsel[]
showed their confusion on the ruling. Petitioner's co-counsel,
Rick Christian, never verbally, constructively or sufficiently
assistfed] the defense: (i] at 22;

(08) Both of petitioner's trial counsel[] (circuit defenders) failed] to
raise conflict of interest; with the circuit defenders being the 4111
and sth court appointe[d] to represent petitioner within 8 months
due to conflicts with the Cobb County Ciraiit Defenders Office.
Rick Christian was petitioner's 5111 circuit defender, sent through
the Circuit Defender's Office to observe trial. Nonetheless,
counsel[] were inexperienced in capital felony cases." 111 at 23;

Scanned with CamScanner

. ease 1:t4.1.:v.ot315.• ivy t bonnie's 99

Fded 9916119 Page 12 ur 31

(19)

counseln failed to raise conflict of int
e.rest considering the
burden to represent petitioner
wi
tho
ut
expert or private
investigator or such experience or fun
ds
to
hir
e such assistance
to propel petitioner s defense. State exp
wi
ert
tne
ss (Cobb Count)
Police Officer/accident reconstructor)
Inc
ide
nt
Report wan part
of discovery. Petitioner .vas pro
vid
ed
inc
ide
nt report after
Motion. for New Trial %as denied." [h
at 24;
(2o) 7Thal counsel met with petiti
oner on (3)separate occasions for
(3) hours respectfive)ly and failed
material, any evidence, any trial to go over any discovery
Indictments Petitioner saw all of thestrategies or tactics, or the
time during capital felony trial. COstate's evidence for the first
evidence in aid of the defense, con unself] did not offer any
sidering petitioner facing life
imprs'ssonment." at 25;
(21) `Minutes OW to trill prosec
utors violated. peritionees due
process by 'failing to disclose excu
requested prior to trial by seve lpatory evidence which was
defenders The Policy evidence atral court appointed circuit
petitioner because it waliexculpato issue• was favorabLeT to
ry, was suppressed by
of
motion in liinine and it prejud
ice
the Judges of the Law and the Fad petitioner because it deprived
cts of weighing the Sufficiency
of the evidence." (t] at 26;
.
(22) 'Trial court neglected to inq
uire int
exposed to pre-trial publicity in theo ;whether the jurors were
case. Petitioner's case was
exposed by media (newspap
er
Separate articles concealing 8 au and news station outlets).
to-related fatalities included
Petitioner's name and.descript
ion tithe charges." [a) at 2*;
(23) 'Fria 1,court ruled mi
nutes prior
] that the Pursuit Policy
would be the highest and be to his
st evidence. During tto
ssexamination concerning the polic
y
an
d
pro
ced
ure
for
pu
rsu
ing a
vehicle with the+, call tha
t they receivetl. The examinatio
n was
objected to, by the state and susta
ine
d
on
rel
ev
an
cy
iss
ue
. The
trial court ruled the
policy would be the, highest an
d best
12

Scanitdel v:rith:Caincannef,

Case 1:14-eip01315. NW Document 99 Filed 06126/19 Pace 13 of

31

evidence. The trial ermrt failed to order disclosure of evidence?
(1) at aft
(24) 'Trial court abused discretion end allowed the prosecutors
(state) to dictate the entire trial. Trio I court allowed evidence to
be presented dining the state's opening statement, over
objection. The entire videotape of the police pursuit was played
during the *tote's opening, and evidence was admitted into
evidence later, during capital felony trial." I r fat 29;
(25)

'Trial counsel)) failed to obtain the Police Chase Policy requested
by petitioner prior to trial. Both circuit defenders were advising
petitioner during trial that they were attempting to obtain the
document. After trial, counsel revealed he sent co-counsel, then
coneounseln) secretary or assistant to retrieve the policy, and he
had never read the policy. Co-defendant['sl counsel had the
policy: and he didn't plan to get the policy? (I) at 30;

(26). 'Trial counsel neglected to request a proximate cause or
intervening cause jury instruction in regards to felony murder
and vehicular homicide." 11) at 31;
-Dial counsel instructed the jury during defensive dosing
arguments to find petitioner guilty of several serious felonies
without securing petitioner's consent, permission or approval
of
this tactic (including 11 of 14 indicted crimes): [1] at 32;
'Trial counsel changed his reasonable doubt requested
charge 'to
help the jury commissioners out.'" (1) at 33;
counsel() failed to make timely objections to
several
improper statements made by the prosecutors and
codefendant's counsel (circuit defender) during dosing arguments.
Disparaging Petitioner at a critical stage. Co-de
fendant's counsel
Circuit Defender used defense closing argument to disparage
Petitioner by blaming the entire case on Petitioner in front of
jury.* [1] at 34;

13
Scanned with CainScannee

Case J:14,0/.013i5.1WT

Dotument 99 filed 96126119 Page 14

of 31

(3o) °During dosing arguments, the prosecutors. improperly
influenced; the jury on t) what con
sist of felony murder
(intrftlarY), 2). about police /expec
tancy, and 3) about the
continuation of the acts because Petitio
ner was in Cobh
`sour county.' Also during dosing argum
secutoyr
misled the jury on what consist of felo ents, the pro Count
ny murder predicated on
Seim? f flat 35;
(3t) "Trial court abused discretion.
wh
fmntion for al directIert) verdict onen she denied Petitioner's
count because it was dearly firdsufficfehiny murder (burglary)
conviction that the burglary continient evidence to support a ,
occurred. the burglary was clearly ued until the 'homicide
and legally complete *hen.
Petitioner entered the dwelling withou
to commit.a felony or a theft?' [1) at t authority with the intent
36;
(32) !During trial, the trial court adv
ised
interrupt her charge to the Judges attorneys nof tit object or
charge was extremely long and of the Law and Facts. The
several objectionable issues. Th counsel[) failed to object to
e
written interpretation of the law jury asked for a recharge, a
and
and when did the commission of thehow it pertains to a case,
court gave a partial recharge advisin burglary conclude. Trial
g jury to remember charge
from the previous day: ft) at 37;
(33) -Thal court. ;liaised dis
cretion when she charged the Judges
the Law and Facts on
of
felony murder
The charge was dearly confusing predicatetd] on burglary.
. The jury asked: for mitten
interpretation of the law and 'wh
en did the commission of the
burglary conclude?' The inquiry wa
sn't answered and trial court
allowed it to dissipate. The confus
ing charge was distinguishable
from the evidence presented in the
case," hi at 38;
(34) Mc Charge
of law to the triers of fact on
(Burglary): 'The hom
Felony Murder
icide must have
been dune in carrying out
the unlawful act.... It
is not enough tha
t the homicide occurred
soon, or presently, Mier the
burglary
committed: A ho
micide is committed in was attempted or
candying out burgl
ary
14

Scanned with CamScanner

Cnse 14-tv 0 i a I I WI It ocumm (J9 1111m109/"0/19 Pnwt 1'_d 41

when it is commlitc41 by the snows, while engaged in the
performance of nny act required for the full execution of the
burglaty."the jury asked when did the commission of the
burglary conclude. The burglary was complete when petitioner
entered dwelling.' DJ at :39;
(35) nindietment (076020) alleges (2) counts of Attempting to Elude,
and a count of Felony Murder predlucteld I on Attempting to
Elude. The indictment dotes) not {Illegible] which Attempting
to Elude serves as the underlying felonry) for the Felony Murder.
Petitioner was convicted on all (3) counts." it) at 40;
(36) Indictment (076020) alleges (2) counts of Burglary, and a Count
of Many murder predicate[d] on Burglary. The Indictment does
not claicit which Burglary serves as the underlying felony for
Felony Murder. Petitioner was convicted on all (3) counts." ill

at 41;

(37) 'Vehicular homicide count void where it fails to establish each
and every essential element of the crime charged, predicate[d] on
'Reckless Driving as in Count it.' The Indictment failed] to
establish a violation of statutory law, fail[ed] to establish what

degree, failed) to establish felony or misdemeanor, failed to

establish each and every essential element in a single count." [i)
at 4z;
(38) "Vehicular homicide predicate[d] on Count ii (Reckless
Driving); Serious Injury by Motor Vehicle predicate[d] on Count
11 (Reckless Driving); Reckless Driving Count was merged into
is year consecutive sentence on Serious Injury by Motor Vehicle,
predicate[dj on Reckless Driving. Vehicular Homicide
predicate[d] on same Reckless Driving Count was merged into
Life Sentence (Felony Murder)." [1] at.43;
(39) "Petitioner was indicted, tried, and convicted on (2) counts of

Felony Murder, all underlying felonies supporting Felony
Murder counts, and Vehicular Homicide and there was only one
death involved." [1] at 44;
15

Scanned with CamScanner

Case 1 14-cv-Ouis4wt Occurrent 93 rayd 0676119 Page 16 of 31

(401 *Petftioster wits Indicted. tried. corniest/I and sentenced on 7
counts of Title 40 (Uniform Road Rite): 0.C.O.A.: and all 7
times spurred front the yell hie pitmull: wilki statute 4 0-6-6(d X
&
applies to policies mid causation, and proper law
enforcement procedures.
The proper law enforct'mcnt
pnxedure on 3-17-07 hoe srhicie pursuits were prohibited for
burglary.- 111 at 45;
(40 'During Motion for New Trial hearing. trial court threat
ened

initial appellate counsel that she would recess proceeding to a
later date. When appellate counsel was actively examining trial
counsel about failing to obtain the pursuit policy after the court
had ruled it to be the highest and best evidence. Trial Court also
openly expressed and intimatefdi her personal opinions on the
scope of what a high speed chase consisted of to her.* fa) at 46;
(42) "During Motion for New Trial, prosecutor advised initial
appellate counsel that the state realized that counsel had a
certified copy of the policy. So defense-subpoenaed witness
testimony was not neansary. The witness was initially
subpoenaed to testimony to the validity and effectiveness of the
policy presented. The evidence presented was outdated and did
not reflect the policy active OD 5-17-07: [1] at 47;
(43) Initial appellate Circuit Defender was ineffective when he
advised the Court that the state told him that they realize(d) that
he had a certified copy of the policy, implying] that defensesubpoenaed witness testimony was not necessary. Counsel
proceeded with the state's concession without countervailing
proof or argument. The witness (Record Custodian) was initially
subpoenaed to testify to the validity and effectiveness of the
evidence attached to Motion; which was subsequently outdated.'
ft) at 48;
(44) In denying Petitioner's Motion for New Trial, Thal Court
applied 'res gestaea' to continue the commission of the burglary
until the homicide occurred. Res Gestaeff was not instructed to
16

Scanned with CamScanner

Can 1:14-o-0131Si WT Documant 99 Fite

Page 11 (Ail

the Judges of the LAW and Facts. The elements in the sres
gestaeff application arc very distinguishable from the Felony
Murder in Commission of Burglary Charge/Instructions to the
Jtidges of the Law and Pacts. Conclusion of Burglary was
questionable? [0 at 49;
(ass) *Denying Petitioner's Motion for New Trial; the judge ruled she
didn't allow counsel -to cross examine officers concerning the
policy because there wasn't a copy presented to the jury, and
there was absolutely no disregard by the officers 'during the
chase.' A .certified copy attached to the Motion for New Trial
would not have revealed any. The policy was not relevant. The,
Policy was the 'highest and best evidence' of what Jt contained.
The policy in effect on o57-17-07 prohibited officers to initiate or
gob= a pursuit: [1] at so;
(46) "In Order denying Petitioner's Motion for New Trial, Trial Court
ruled that the chase videos were admissible; the question wasn't
an admissibility issue per se, the error raised was that the
videotape of the chase was improperly played during the state's
opening statements. The video, along with several others, wins)
admitted later in caPital
[1] at sr;
-

(47) "After denial of Moticiii for New Trial, Petitioner discovered
evidence and presented it to the initial appellate counsel. A
conflict arose and Petitioner constructively 'questioned counsel's
performance. Counsel was substituted for lawyer/client
understanding prior to direct appeal. Attorney failed to provide
Petitioner with transcripts, post conviction investigative reports.
or what issuers] were being raised on appeal." [t] at 47:
(48) "The Georgia Supreme Court abused discretion by adopting and
applying Its gestaefr to continue the burglary Until the
homicide. 'Iles gestaelf was not instructed to the jury during
trial and is very distinguishable from the Felony Murder
predicate[d] on the Burglary charge to the Judges of the Law and
Facts." [ 1] at 48:
*7

Scanned v4ithbarnScannei.

f

Case 1 1acy-01315.MT Document 99 Fled 08128/19 Pets 18 at 31

(49) 'The Georgia Supreme Court abused discretion by quoting a case
law to confuse a layman 'to adopt the argument that the burglary
was complete when defendant left the building would eliminate
Petitioner has adopted this
burglaryas an underlying felony
argument to the Georgia Supreme Court." ill at 54:
(5o) The Georgia Supreme Court neglected to properly interpret (2)
state statutory laws by strategically omitting unambiguous
language, using ellipsis and quotations to distort Ethel
legislature's intent and confuse a layman. The Court has never
omitted language when applying either state statutory larva in
any CAW prior to Petitioner's." la) at 55;
(51) 'The Georgia Supreme Court applied cases in which the factual
and essential elements of the crimes differentiated from the facts
of Petitioner's case, with distinguishable evidence respectfully.
The stare decisis/case law does not elflicit a police pursuit policy
violation or intervening cause defense. Unreasonably] applied
Federal law according to the facts and evidence in the case? [I]
at 56;

(52) 'The Court abused its discretion when it equivocally ruled in
Division i that "the policy alluded to was not presented to the
jury and is not contained on the record of appeal. Accordingly,
that material does not factor into our evidentiary review: In
Division 3, the Court ruled "we found no reasonable probability
that such evidence . . . would've resulted in a favorable ruling."
Ili at 57;
(53) 'The Court abused discretion by ruling <in Footnote> 'that
evidence at trial established that the pursuing vehicles did not
exceed the posted speed limit.' The Footnote was equivocally
used in a statute that stated the officers could disregard certain
specified rules of the road, but the officer must drive with due
regard for safety of all persons. The chase exceeded posted speed
limit. Policy's's not in statute. Speed of the chase was not elicited
as a proper law enforcement procedure on updated policy." [1]
at 514;

Scanned with CamScanner

i 04 I 14 iv

1%k1 ft.!,

ita IHeiiOMirgitt Par 7HlI.JI

(54) irriW (Simla Siloam. Coon aboard Its illoicirtion by holding
- that trial court did 110 1411 when It 11.111111/411101ilisitiregmbilitY N.
!Pm exatnine 'damn regarillog the poliry; lite t 1nn1 exposed no
ineffrenve assimaitee of counsel claim btu allantla,uing line of
questioning, The 'Motion in jimine filed minutes prior to trial
pieserveil I third If Ili for ail war flf 0(59:
ISM

C;c0rititt Nobtante ('Hurt matte antinivasonable decision 1'Y
bolding that trial counsel testilimi he was familiar with the policy
and watt not ineffective for failing to properly investigate the
pursuit policy: 'cut fuel testified that he was at !erupting to obtain
the pOlicy during trial; he also revealed lie never mad the policy.
.and didn't attempt to obtain it7 ltj at 6U;

(56) -The Georgia Supreme Court made an unreasonable decision by
holding that trial counsel was not ineffective for failing to obtain
a copy Of the pursuit policy for defensive purposes: Petitioner
requested that policy, Co-defendantf 's) counsel had a copy of the
policy in his archives. Counsel offered no evidence to
substantiate his trial strategy." (4 at 63:
(57) if/heGeorgia Supreme Court made an unreasonable decision by ascertaining that initial appellate counsel was not ineffective for
attaching an incomplete policy to Petitioner's Motion for New
Thal; the updated policy which was attached to appellate Brief
by Substitute counsel prohibited chases for burglary and dearly
stated] Policy 5.37 wag being modified to reflect a change: RI
at 62;

(58) 'Trial Cows and the Georgia Supreme Court unscrupulously
abused their discretion because through discretionary review,
they cannot prove beyond a reasonable doubt that had the
correct policy been properly presented by any attorney, that the
outcome of capital felony trial or Motion for NewTrial would still
be in favor of jury's verdict on Felony Murder (Burglary)? [1] at
63;

Scanhed with tainScannee

Case 1 .14-cv-01315 Asa Document 99 Filed 06126119 Page 0 ct 31

(.59) :After the Georgia Supreme Court decided that the policy
alluded' to was not presented at trial or on the record of appeal,
therefore it did not factor into their evident in ry review, Petitioner.
filed Extraordinary Motion for. New Trial based on newly
discoveral evidence; the Trial Court ruled that Petitioner didn't
prove that evidence was newly discovered, and relied on the
Georgia Supreme Court's decision in Division 1 and 2 on
Petitioaer's direct appeal." (I at 64;
(6o) "Petitioner was deprived of the right to a hearing after in
defensive pleading pursuant to state law. The state habeas court
failed to meet the requirements of 0.C.GA. § 9-14-47: l8.71 at
15;
(60 The state habeas court failed to meet the requirements of
H 9-14-48 and 9-14-49, when it adopted the proposed
final order verbatim which was arbitrary and capricious." [871 at
15;
(62) "SPOLIATION." (117) at 35.

Having just quoted verbatim Westmoreland's numerous grounds for
relief, it is worth noting that he offered no other factual support for them in
his petition. This in significant because [hlabeas corpus petitions must meet
heightened pleading requirements." McFarland v. Scott, 512 U.S. 849, 856
(1994) (citing 28

U.S.C. foil. § 2254, Rule 2(c)). *The § 2254 Rules . .

mandate 'fact pleading as opposed to 'notice pleading," as authorized under.

Federal Rule of Civil, Procedure 8(a). Coupled with the form petition ... , the
federal rules give the petitioner... ample notice of this difference?' Borden
to Alien, 646 F.3d 785, 810 Oath Cir. 2011).
20

Scanned With CamScanner

199 Filed 06/26119 Page 21 of 31

Case 1.14-cv-01315-TWT

The reason for the heightened pleading requirement-fact
pleading-is obvious. Unlike a plaintiff pleading a case under
Rule 8(a), the habeas petitioner ordinarily possesses, or has
access to, the evidence necessary to esta hlish the facts supporting
his collateral claim; he necessarily became aware of them during
the course of the criminal prosecution or sometime
afterward. • .. Whatever the claim, ... the petitioner is, or should
be, aware of the evidence to support the claim before bringing his
petition.
Id. I have accordingly focused on those facts included in Westmoreland's
petition, and not those he added for the first time in his 103-page Traverse,
see [92], which he untimely filed, see IS 7.1(C), NDGa., only after Warden

Johnson had submitted his Second Amended Answer-Response and Brief,
see

& 91-17. See Atruenshine u.. Davis, No. 4:17-CV-294-Y, 2018 WL

2064704, at •4 (N.D. Tex. May 3, 2018) (llsrlew legal theories and/or factual

issues raised for the first time In a reply brief need not be considered on
federal habeas review."); Foster u. See'y, DOC, No. 232-CV-128-FTM-3804,
2015 WL 5111807, at "5, 7 (M.D. Fla. Feb. 9, 2015) ("Petitioner's arguments

contained in the Reply were not presented in the Petition and therefore did
not provide Respondent the opportunity to respond. It is well established
that arguments raised for the first time in a reply are improper.
Petition does not contain any additional facts or argument supporting
Ground The. Instead, Petitioner raises additional facts and argument
21

ei•
Scanned with CamScanner

Case 1. ' 14 -cv.01315-TWT Documenl 99 Filed 00126119 Page Vol 31

improperly in his Reply, which should not be considered.' (citing Herring U.
Secretary. Dept ul ant., 3y7 F.3d 1338, 1342 (lath Cir.2oo5))); see also
United States u. Songs, 31 P. Aphis 152, 2001 WI. 1747884, at •i (5th Cir.
Deem, 2oot) (affirming, in § 2255 proceedings, district court's refusal to
consider issue raised for the first time in reply to government's answerresponse).
For Westmoreland's benefit, I will summarize some other general
principles of federal habeas review that are particularly salient in this case.
"IA] writ of habeas corpus in behalf of a person in custody pursuant to
the judgment of a State court" may be granted "only on the ground that he is
in custody in violation of the Constitution or laws or treaties of the United
States.' 28 U.S.C. § 2254(a) (emphasis added). Consequently, claims that a
state trial, a state appellate court, or a state habeas court erred in applying
state law is beyond the scope of federal habeas review. See, e.g., Wilson u.
Corcoran, 562 Us. 1, 5 (2010) ('[I]t is not the province of a federal habeas
court to reexamine state-court determinations of state-law questions.")
(quoting Estelle v. McGuire, 502 U.S. 62, 67 (1990).
A prisoner who wishes to seek federal habeas review must generally
first 'exhaust() the remedies available in the courts of the State.* 28 U.S.C.
22

Scanned with CamScanner

29

(2004 j. And a.
to

If a p# ligeter does not satisfy the pro

cedural requir etn.

ror to the stale courrsattenti' on
-whether intrial;

or

dicer, as state law may requir

federal

e-procedural default w

Afogwood v Potterson,561US

320, 340 (2010).

has exhausted all available
state remedies
is

,

further statutory CCNIStraft. Chief
sirt owes deference to a state
court decision

law,

prisoner's federal constitutional cla
ims. Under federal
An application for a writ
of habe
person in custody pursuant to the jud as corpus on behalf of a
not he granted with respect to any cla gment Ma State court shall
im that was adjudicated on
the media in State cou
rt proceedings unless the adjudica
the claim
tion of

Scanned with CamScanner

Case 1 14 cv ,013 1W1 putallanta "

$tuI p*l

pstije z4 ul 31

resulted in a iteration that was contrary tn, or involved
an unreasonable application of clearly established Federal
law, as determined by the Supreme. Court of the United
States; or
resulted in a decision that was based on an
unreasonable determination of the facts in light of the
evidence presented in the State coon proceeding.
28 U.S.C. 12254(d),
Notably, when 1 2254(d) applies in tandem with a Supreme

case

hat itself requires a deferential standard of review, including, for example,
Strickland U. Washington, 466 U.S. 668 (1984), which governs ineffective
assistance of counsel claims, the state court's decision on the prisoner's
constitutional claim is subject to "doubly deferential judicial review" by the
federal habeas court. Knowles u. Mirzayance, 556 U.S. iii. 123 (2009).
Moreover, in a § 2254 proceeding in federal court, "a determination of
a factual issue made by a State court shall be presumed to be correct," unless
the prisoner rebuts that 'presumption of correctness by dear and convincing
evidence? 28 U.S.C.§ 2254(e).
"lf this standard is difficult to meet, that is because it was meant to be:
Harrington u. Richter, 562 U.S. 86, W2 (2011). The federal habeas statute,
including the provisions described above, serves as "a guard against extreme
malfunctions in the state criminal justice systems, not as a substitute for
24

Scanned with CamScanner

Case 1.14.cv-01315.

uI

t 99 Filed OVA

Page 29 or 31

ordinary error correction through appeal." Id. a 102-03 (internal quotation
marks omitted). Thus, s[a]s a condition for obtaining habeas corpus from a
federal a►urt, a state prisoner must show that the state court's ruling on the
claim being presented in federal court was so lacking in justification that
there was en error well understood and comprehended in existing law
beyond any possibility for fairminded disagreement." Id. at 103.
With that in mind, I turn to each of Westmoreland's grounds for relief.
Westmoreland's grounds a, 2 & 3 were considered and denied on the
merits by the state habeas court

See [45-6] at 8-9. Each an ineffective

assistance of appellate counsel claim, where Westmoreland needed to
demonstrate deficient performance and prejudice. See Strickland, 466 at

passim. The state habeas court determined that Westmoreland offered no
evidence in support of these grounds during state habeas proceedings and
thus did not meet the Strickland standard. See [45-6] at 7-B. Because the

Strickland standard applies in conjunction with § 2254(d), my review must
be 'doubly" deferential and 'Why question is whether there is any
reasonable argument that counsel satisfied Strickland's deferential .
standard." Richter, 562 U.S. at nos The state habeas court's decision easily
passes that threshold.

25

Scanned with CamScanner

Case 1.14•cvUs315

IWO t1G12&119 Page ul 31.

WI

Westmoreland's ground 4 is not one he presented to the state courts,
so it is procedurally defaulted and thus no basis for federal habeas relief.. See

Maywood, 561 U.S.. at 34o.,
The state habeas court determined that West ureland'a ground 5 was
procedurally defaulted because he failed to raise it on direct appeal as
required by state procedural rules. See [45-6] at 9-to. Consequently, the
state habeas court denied relief on this ground. In his federal filings,
Westmoreland has not demonstrated that the state habeas court erred in its
decision. or that "cause and "prejudice" or a "fundamental miscarriage of
justice" entitle him to overcome his procedural default.

See Murray v.

Carrier, 477 U.S. 478.488 (1986); Coleman v. Thompson, 501U.S.722, 750
(1991).

See also Mills u. United States, 3617.3d 1052,.1055 (nth Cir. 1996)

(A fundamental miscarriage of justice occurs when "a constitutional

At this stage, Westmoreland does not have the option of returning
to state court to exhaust this claim, because it would be deemed successive
under state habeas law. See O.C.G.A. § 9-14-51; Tucker u. Kemp, 351 S.Ead
to6 (Ga. 1987). And the United States Court of Appeals for the Eleventh
Circuit has held that Georgia's bar on successive petitions "should be
enforced in federal habeas proceedings against claims never presented in
state court, unless there is some indication that a state court judge would
find the claims in question 'could not reasonably have been raised in the
original or amended ]state habeas] petition.'" Chambers v. Thompson, iso
F .3d 1324, (327 (uth Cir. ►998) (quoting 0.C.G.A. § 9-14-51). There is no
such indication here, so the bar should be enforced.
26

Scanned with CamScanner

Case 1:14-cv-01315-71N1 Don

Sig VII

c6/19 Page n of 31

crioisrion liaS probably resulted in the conviction of one who is actually

innocent:).
The state habeas mart similarly determined Westmoreland's grounds
6-n to be procedurally defaulted. See [45-61 at 9-21.23, 25 & 45-46. And,
again, Westmoreland has demonstrated no basis for overcoming his
procedural default.
The Georgia Supreme Court determined that Westmoreland's ground
23 was not preserved for appellate review, and thus procedurally defaulted.
Set Westmoreland, 699 S.E.ad at i8. Again, Westmoreland has
demonstnited no basis for overcoming that procedural default.
The state habeas court determined that Westmoreland's ground 24

was procedurally defaulted. See [45-6] at 21-25.

'Westmoreland has

demonstrated no basis for overcoming that procedural default.
The Supreme Court denied Westmoreland's ground 25 on the merits..
See Westmoreland, 699 S.E2d at 19. This was another ineffective assistance
of counsel claim, governed by Strickland. Again, ar[t]he question is whether
there is any reasonable argument that counsel satisfied Strickland's
deferential standard."Richter, 562 U.S. at 105. The Georgia Supreme Court
concluded that Westmoreland's trial counsel's decision not to pursue a

27

Scanned with CamScanner

Case 1:14-cv-01315•TWT Document 99 Filed 06126/19 Page 28 of 31

'blame the police' defense was an Informed strategic decision" that did not,
in any event, prejudice Westmoreland. See Westmoreland, 699 S.E.24 at 19.
Thus, the Georgia Supreme Court concluded that Westmoreland bad
satisfied neither the performance, nor the prejudice, prong of Strickland's
two-part standard for demonstrating ineffective assistance. Applying the
doubly-deferential review described in Richter, it is clear that Westmoreland
is not entitled to federal habeas relief on this ground.
The state habeas court denied Westmoreland's grounds 26-47 as
procedurally defaulted. See [45-6] at 19, 23-29 & 39-40, Again,
Westmoreland has not demonstrated any basis to overcome his own default
Warden Johnson contends, that Westmoreland's grounds 48-57 "do
not state claims for relief, as they do not allege violations of constitutional
rights." [91-1] at. 23. Each of those grounds asserts that "[Me Georgia
Supreme Court abused its discretion" in making a factual finding or applying
state caselaw or statutes. See [0 at 48-62. To the extent these grounds assert
violations of state law, they are no basis for federal habeas relief. See Wilson
th Corcoran, 562 U.S. at 5; Estelle v. McGuire, 502 U.S. at 67. And to the
extent these "grounds" are Westmoreland's attempt to overcome the
presumption of correctness that state court factual determinations are
28

Scanned with CamScanner

Case 1. 14.ca-01315.Jwt Document

entitled

26/19 Page 29 of 31: .

Rheas view her has not proffered the "clear and

convincing evidence necessary to do SO. 28 U.S.C. 2254(e).
The state habeas court determined that Westmoreland's grounds 58procedurally defaulted. See 145-0 at 32-34 &:t8-39. Westmoreland
demonstrated any basis to overcome this finding of procedural
default.
Warden Johnson contends that Westmoreland's grounds 6o and 61 do
not state claims upon which relief may be granted. See [g t-t] at 26. Each of
these grounds purports to identify a defect in Westmoreland's state habeas
proceedings. Even assuming that Westmoreland can raise these claims for
the first time in this Court without having first presented and exhausted
them in state proceedings, neither is a basis for federal habeas relief. See,
e.g., .Qui►ue V. Gushy, 360 F.3d 1259, .1262 (nth Cir. 2004) ran alleged
defect in a collateral proceeding does not state a basis for [federal] habeas

Westmoreland stated his ground 62 in one, capitalized word:
"SPOLIATION? 1871 at 35. This was inadequate to state a basis for federal
habeas relief. See McFarland, 512 U.S. at 80; Borden, 646 F .3d at 81o.

Scanned with CamScanner

14 o1215 1W1

Decoatie Wesitmweland b

ao ground o

be:kr:Witted

01

ter federal habeas tenet, I have tecommendeil that his petitio

n be denied.

,And bectitsse Westmoreland does not meet ilu temiisite standard, I
have

mmended that i certificate of appealability be denied as well. See

.duck is. 11 cThrni►l. 3z911.9. 473/494 (Noon) (repining is two-Wirt

NI

Cu)"that jurists of reason would fincl it debatable wliethcr the petition Ma
a valid claim of the denial Ma constitutional

0w1 (2) "that jurists of

reason would find it debatable whether the district court was correct in

its

procedural ruling"): see also Spencer u. Linked Mutes

, 773 F.34 P132,11:19

(tith lie. 2014) (en hand (holding that the S/adc u. McDaniel standard

will

be strictly applied prospectively).

I DIRECT the Clerk to terminate the referral of this case to me.
SO. RECOMMENDED AND DIRECTED, this 26th
day of June,

1
r Ac
FA WI kINI:
NAS
IINITID STA iS MAUSTRAll: t /GE

30

Scanned with CamScanner

Case tt4 cvO13)s.lwT

urnenl øY Hied 06i211119 Peye 31 of•J1,

31

Scanned with CamScanner

Case 1:14-cv-01315-rwr

Documeni 100 Filed 06/20/19 Page 1 of 2

IN THE UNITED STATES DISTRICT COURT .
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
AMOS WESTMORELAND, JR., : IIA BRAS CORPUS
28 U.S.C. § 2254
GDC.ID to41629,
Petitioner,
CIVI I ACTION NO.
1:14-CV-1315-11WT-CMS

v.

GLEN JOHNSON, Warden,
Respondent.

••

("EDER FOR SERVICE OF.
REPORT AND RECOMMENDATION OF
1121132112ELSTEEMAGISTRAILAIDCLE
Attached is the report and recommendation of the United States
Magistrate Judge in this action in accordance with 28 U.S.C. § 636(b)(1) and
this Court's Civil Local Rule 72. Let the same be filed and a copy, together
with a copy of this Order, be served upon counsel for the parties.
Pursuant to 28 U.S.C. § 636(b)(1), each party may file written
objections. if any, to the report and recommendation within fourteen (14)
days of service of this Order. Should objections be filed, they shall specify
with particularity the alleged error or errors made (including reference by
page number to the transcript if applicable) and shall be served upon the
opposing party. The party filing objections will be responsible for obtaining
and filing the transcript of any evidentiary hearing for review by the. District

Scanned with CamScanner

Case 1

2• on

Qum If no drew
' as are filed. the report and recommendation may be
adopted as the opinion and order of the District Court and any appellate

d&'' findings and conclusions of law will be limited to a plain
error review. See uth Cir. R. 3-1.
The Clerk is DIRECTED to submit the report and recommendation
with objections, if any. to the District Court after expiration of the above time
wide

$0 ORDERED, this *6th day (lane, 2019.

CATHERINE M.
NAS
UNITED STATES .MAGISTRATE:JUDGE

§canbed With

APPENDIX E-

Constitutional provisions, treaties, statutes, ordinances, and regulations involved in the case, (set
out verbatim with appropriate citation.) [Rule 14.1(i];

APPENDIX EConstitutional provisions, treaties, statutes, ordinances, and regulations involved in the
case, (set out verbatim with appropriate citation.)

Amendment 5 - Trial and Punishment, Compensation for Takings. Ratified 12/15/1791.
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in the land or naval forces, or in the Militia, when in
actual service in time of War or public danger; nor shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property, without due process of law; nor shall private property
be taken for public use, without just compensation.

Amendment 6 - Right to Speedy Trial, Confrontation of Witnesses. Ratified 12/ 15/1791.
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause of the accusation; to be
confronted with the witnesses against him; to have compulsory process for obtaining witnesses in his
favor, and to have the Assistance of Counsel for his defence.

Amendment 14 - Citizenship Rights. Ratified 7/9/1868.
All persons born or naturalized in the United States, and subject to the jurisdiction thereof, are citizens
of the United States and of the State wherein they reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United States; nor shall any State deprive any
person of life, liberty, or property, without due process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.
Representatives shall be apportioned among the several States according to their respective numbers,
counting the whole number of persons in each State, excluding Indians not taxed. But when the right to
vote at any election for the choice of electors for President and Vice-President of the United States,
Representatives in Congress, the Executive and Judicial officers of a State, or the members of the
Legislature thereof, is denied to any of the male inhabitants of such State, being twenty-one years of age,
and citizens of the United States, or in any way abridged, except for participation in rebellion, or other
crime, the basis of representation therein shall be reduced in the proportion which the number of such
male citizens shall bear to the whole number of male citizens twenty-one years of age in such State.
No person shall be a Senator or Representative in Congress, or elector of President and Vice-President,
or hold any office, civil or military, under the United States, or under any State, who, having previously
taken an oath, as a member of Congress, or as an officer of the United States, or as a member of any State
legislature, or as an executive or judicial officer of any State, to support the Constitution of the United
States, shall have engaged in insurrection or rebellion against the same, or given aid or comfort to the
enemies thereof. But Congress may by a vote of two-thirds of each House, remove such disability.
The validity of the public debt of the United States, authorized by law, including debts incurred for
payment of pensions and bounties for services in suppressing insurrection or rebellion, shall not be
questioned. But neither the United States nor any State shall assume or pay any debt or obligation
incurred in aid of insurrection or rebellion against the United States, or any claim for the loss or
emancipation of any slave; but all such debts, obligations and claims shall be held illegal and void.

5. The Congress shall have power to enforce, by appropriate legislation, the provisions of this article.

28 U.S.C. § 2254 State custody; remedies in Federal courts
(a) The Supreme Court, a Justice thereof, a circuit judge, or a district court shall entertain an application
for a writ of habeas corpus in behalf of a person in custody pursuant to the judgment of a State court only
on the ground that he is in custody in violation of the Constitution or laws or treaties of the United States.
(b)
(1) An application for a writ of habeas corpus on behalf of a person in custody pursuant to the judgment of
a State court shall not be granted unless it appears that—
the applicant has exhausted the remedies available in the courts of the State; or

there is an absence of available State corrective process; or
circumstances exist that render such process ineffective to protect the rights of the applicant.
(2) An application for a writ of habeas corpus may be denied on the merits, notwithstanding the failure of
the applicant to exhaust the remedies available in the courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or be estopped from reliance
upon the requirement unless the State, through counsel, expressly waives the requirement.
(c) An applicant shall not be deemed to have exhausted the remedies available in the courts of the State,
within the meaning of this section, if he has the right under the law of the State to raise, by any available
procedure, the question presented.
(d) An application for a writ of habeas corpus on behalf of a person in custody pursuant to the judgment of
a State court shall not be granted with respect to any claim that was adjudicated on the merits in State
court proceedings unless the adjudication of the claim—
resulted in a decision that was contrary to, or involved an unreasonable application of, clearly
established Federal law, as determined by the Supreme Court of the United States; or
resulted in a decision that was based on an unreasonable determination of the facts in light of the
evidence presented in the State court proceeding.
(e)
In a proceeding instituted by an application for a writ of habeas corpus by a person in custody pursuant
to the judgment of a State court, a determination of a factual issue made by a State court shall be presumed
to be correct. The applicant shall have the burden of rebutting the presumption of correctness by clear and
convincing evidence.
If the applicant has failed to develop the factual basis of a claim in State court proceedings, the court
shall not hold an evidentiary hearing on the claim unless the applicant shows that—
(A) the claim relies on—
a new rule of constitutional law, made retroactive to cases on collateral review by the Supreme Court,
that was previously unavailable; or
a factual predicate that could not have been previously discovered through the exercise of due
diligence; and
(B) the facts underlying the claim would be sufficient to establish by clear and convincing evidence that
but for constitutional error, no reasonable factfinder would have found the applicant guilty of the
underlying offense.

(P If the applicant challenges the sufficiency of the evidence adduced in such State court proceeding to
support the State court's determination of a factual issue made therein, the applicant, if able, shall produce
that part of the record pertinent to a determination of the sufficiency of the evidence to support such
determination. If the applicant, because of indigency or other reason is unable to produce such part of the
record, then the State shall produce such part of the record and the Federal court shall direct the State to do
so by order directed to an appropriate State official. If the State cannot provide such pertinent part of the
record, then the court shall determine under the existing facts and circumstances what weight shall be
given to the State court's factual determination.
A copy of the official records of the State court, duly certified by the clerk of such court to be a true
and correct copy of a finding, judicial opinion, or other reliable written indicia showing such a factual
determination by the State court shall be admissible in the Federal court proceeding.
Except as provided in section 408 of the Controlled Substances Act, in all proceedings brought under
this section, and any subsequent proceedings on review, the court may appoint counsel for an applicant
who is or becomes financially unable to afford counsel, except as provided by a rule promulgated by the
Supreme Court pursuant to statutory authority. Appointment of counsel under this section shall be
governed by section 3006A of title 18.
The ineffectiveness or incompetence of counsel during Federal or State collateral post-conviction
proceedings shall not be a ground for relief in a proceeding arising under section 2254.

O.C.G.A. § 9-14-47. Time for answer and hearing:
Except as otherwise provided in Code Section 9-14-47.1 with respect to petitions challenging for the first
time state court proceedings resulting in a sentence of death, within 20 days after the filing and docketing
of a petition under this article or within such further time as the court may set, the respondent shall answer
or move to dismiss the petition. The court shall set the case for a hearing on the issues within a reasonable
time after the filing of defensive pleadings.

O.C.G.A. § 9-14-48. Hearing; evidence; depositions; affidavits; determination of compliance with
procedural rules; disposition
The court may receive proof by depositions, oral testimony, sworn affidavits, or other evidence. No
other forms of discovery shall be allowed except upon leave of court and a showing of exceptional
circumstances.
The taking of depositions or depositions upon written questions by either party shall be governed by
Code Sections 9-11-26 through 9-11-32 and 9-11-37; provided, however, that the time allowed in Code
Section 9-11-31 for service of cross-questions upon all other parties shall be ten days from the date the
notice and written questions are served.
If sworn affidavits are intended by either party to be introduced into evidence, the party intending to
introduce such an affidavit shall cause it to be served upon the opposing party at least ten days in advance
of the date set for a hearing in the case. The affidavit so served shall include the address and telephone
number of the affiant, home or business, if known, to provide the opposing party a reasonable opportunity
to contact the affiant; failure to include this information in any affidavit shall render the affidavit
inadmissible. The affidavit shall also be accompanied by a notice of the party's intention to introduce it
into evidence. The superior court judge considering the petition for writ of habeas corpus may resolve
disputed issues of fact upon the basis of sworn affidavits standing by themselves.
The court shall review the trial record and transcript of proceedings and consider whether the petitioner
made timely motion or objection or otherwise complied with Georgia procedural rules at trial and on
appeal and whether, in the event the petitioner had new counsel subsequent to trial, the petitioner raised
any claim of ineffective assistance of trial counsel on appeal; and absent a showing of cause for
noncompliance with such requirement, and of actual prejudice, habeas corpus relief shall not be granted.

In all cases habeas corpus relief shall be granted to avoid a miscarriage of justice. If the court finds in
favor of the petitioner, it shall enter an appropriate order with respect to the judgment or sentence
challenged in the proceeding and such supplementary orders as to rearraignment, retrial, custody, or
discharge as may be necessary and proper.
(e) A petition, other than one challenging a conviction for which a death sentence has been imposed or
challenging a sentence of death, may be dismissed if there is a particularized showing that the respondent
has been prejudiced in its ability to respond to the petition by delay in its filing unless the petitioner shows
by a preponderance of the evidence that it is based on grounds of which he or she could not have had
knowledge by the exercise of reasonable diligence before the circumstances prejudicial to the respondent
occurred. This subsection shall apply only to convictions had before July 1, 2004.

O.C.G.A § 9-14-49. Findings of Fact and Conclusions of Law
After reviewing the pleadings and evidence offered at the trial of the case, the judge of the superior court
hearing the case shall make written findings of fact and conclusions of law upon which the judgment is
based. The findings of fact and conclusions of law shall be recorded as part of the record of the case.

O.C.G.A. § 16-5-1 Murder; Felony Murder
A person commits the offense of murder when he unlawfully and with malice aforethought, either
express or implied, causes the death of another human being.
Express malice is that deliberate intention unlawfully to take the life of another human being which is
manifested by external circumstances capable of proof. Malice shall be implied where no considerable
provocation appears and where all the circumstances of the killing show an abandoned and malignant
heart.
A person commits the offense of murder when, in the commission of a felony, he or she causes the
death of another human being irrespective of malice.
A person commits the offense of murder in the second degree when, in the commission of cruelty to
children in the second degree, he or she causes the death of another human being irrespective of malice.
(e)(1) A person convicted of the offense of murder shall be punished by death, by imprisonment for life
without parole, or by imprisonment for life.
(2) A person convicted of the offense of murder in the second degree shall be punished by imprisonment
for not less than ten nor more than 30 years.

O.C.C.A. § 16-7-1 Burglary
A person commits the offense of burglary when, without authority and with the intent to commit a
felony or theft therein, he enters or remains within the dwelling house of another or any building, vehicle,
railroad car, watercraft, or other such structure designed for use as the dwelling of another or enters or
remains within any other building, railroad car, aircraft, or any room or any part thereof. A person
convicted of the offense of burglary, for the first such offense, shall be punished by imprisonment for not
less than one nor more than 20 years. For the purposes of this Code section, the term "railroad car" shall
also include trailers on flatcars, containers on flatcars, trailers on railroad property, or containers on
railroad property.
Upon a second conviction for a crime of burglary occurring after the first conviction, a person shall be
punished by imprisonment for not less than two nor more than 20 years. Upon a third conviction for the

crime of burglary occurring after the first conviction, a person shall be punished by imprisonment for not
less than five nor more than 20 years. Adjudication of guilt or imposition of sentence shall not be
suspended, probated, deferred, or withheld for any offense punishable under this subsection.

O.C.G.A. § 40-6-6. Authorized emergency vehicles
(a) The driver of an authorized emergency vehicle or law enforcement vehicle, when responding to an
emergency call, when in the pursuit of an actual or suspected violator of the law, or when responding to
but not upon returning from a fire alarm, may exercise the privileges set forth in this Code section.
(b) The driver of an authorized emergency vehicle or law enforcement vehicle may:
Park or stand, irrespective of the provisions of this chapter;
Proceed past a red or stop signal or stop sign, but only after slowing down as may be necessary for safe
operation;
Exceed the maximum speed limits so long as he or she does not endanger life or property; and
Disregard regulations governing direction of movement or turning in specified directions.
(c) The exceptions granted by this Code section to an authorized emergency vehicle shall apply only when
such vehicle is making use of an audible signal and use of a flashing or revolving red light visible under
normal atmospheric conditions from a distance of 500 feet to the front of such vehicle, except that a
vehicle belonging to a federal, state, or local law enforcement agency and operated as such shall be
making use of an audible signal and a flashing or revolving blue light with the same visibility to the front
of the vehicle.
(d)(I ) The foregoing provisions shall not relieve the driver of an authorized emergency vehicle from the
duty to drive with due regard for the safety of all persons.
When a law enforcement officer in a law enforcement vehicle is pursuing a fleeing suspect in another
vehicle and the fleeing suspect damages any property or injures or kills any person during the pursuit, the
law enforcement officer's pursuit shall not be the proximate cause or a contributing proximate cause of the
damage, injury, or death caused by the fleeing suspect unless the law enforcement officer acted with
reckless disregard for proper law enforcement procedures in the officer's decision to initiate or continue
the pursuit. Where such reckless disregard exists, the pursuit may be found to constitute a proximate cause
of the damage, injury, or death caused by the fleeing suspect, but the existence of such reckless disregard
shall not in and of itself establish causation.
The provisions of this subsection shall apply only to issues of causation and duty and shall not affect
the existence or absence of immunity which shall be determined as otherwise provided by law.
Claims arising out of this subsection which are brought against local government entities, their
officers, agents, servants, attorneys, and employees shall be subject to the procedures and limitations
contained in Chapter 92 of Title 36.
(e) It shall be unlawful for any person to operate an authorized emergency vehicle with flashing lights
other than as authorized by subsection (c) of this Code section.

O.C.G.A. § 40-6-390 - Reckless driving
Any person who drives any vehicle in reckless disregard for the safety of persons or property commits
the offense of reckless driving.
Every person convicted of reckless driving shall be guilty of a misdemeanor and, upon conviction
thereof, shall be punished by a fine not to exceed $1,000.00 or imprisonment not to exceed 12 months, or
by both such fine and imprisonment, provided that no provision of this Code section shall be construed so

as to deprive the court imposing the sentence of the power given by law to stay or suspend the execution
of such sentence or to place the defendant on probation.

0.C.6.A. § 40-6-393. Homicide by vehicle:
Any person who, without malice aforethought, causes the death of another person through the violation
of subsection (a) of Code Section 40-6-163, Code Section 40-6-390 or 40-6-391, or subsection (a) of Code
Section 40-6-395 commits the offense of homicide by vehicle in the first degree and, upon conviction
thereof, shall be punished by imprisonment for not less than three years nor more than 15 years.
Any driver of a motor vehicle who, without malice aforethought, causes an accident which causes the
death of another person and leaves the scene of the accident in violation of subsection (b) of Code Section
40-6-270 commits the offense of homicide by vehicle in the first degree and, upon conviction thereof,
shall be punished by imprisonment for not less than three years nor more than 15 years.
Any person who causes the death of another person, without an intention to do so, by violating any
provision of this title other than subsection (a) of Code Section 40-6-163, subsection (b) of Code Section
40-6-270, Code Section 40-6-390 or 40-6-391, or subsection (a) of Code Section 40-6-395 commits the
offense of homicide by vehicle in the second degree when such violation is the cause of said death and,
upon conviction thereof, shall be punished as provided in Code Section 17-10-3.
Any person who, after being declared a habitual violator as determined under Code Section 40-5-58
and while such person's license is in revocation, causes the death of another person, without malice
aforethought, by operation of a motor vehicle, commits the offense of homicide by vehicle in the first
degree and, upon conviction thereof, shall be punished by imprisonment for not less than five years nor
more than 20 years, and adjudication of guilt or imposition of such sentence for a person so convicted may
be suspended, probated, deferred, or withheld but only after such person shall have served at least one year
in the penitentiary.

40-6-395. Fleeing or attempting to elude police officer; impersonating law enforcement officer
(a) It shall be unlawful for any driver of a vehicle willfully to fail or refuse to bring his or her vehicle to a
stop or otherwise to flee or attempt to elude a pursuing police vehicle or police officer when given a visual
or an audible signal to bring the vehicle to a stop. The signal given by the police officer may be by hand,
voice, emergency light, or siren. The officer giving such signal shall be in uniform prominently displaying
his or her badge of office, and his or her vehicle shall be appropriately marked showing it to be an official
police vehicle.
(b)(I) Any person violating the provisions of subsection (a) of this Code section shall be guilty of a high
and aggravated misdemeanor and:
Upon conviction shall be fined not less than $500.00 nor more than $5,000.00, which fine
shall not be subject to suspension, stay, or probation and imprisoned for not less than ten days nor
more than 12 months. Any period of such imprisonment in excess of ten days may, in the sole
discretion of the judge, be suspended, stayed, or probated;
Upon the second conviction within a ten-year period of time, as measured from the dates of
previous arrests for which convictions were obtained to the date of the current arrest for which a
conviction is obtained, shall be fined not less than $1,000.00 nor more than $5,000.00, which fine
shall not be subject to suspension, stay, or probation and imprisoned for not less than 30 days nor
more than 12 months. Any period of such imprisonment in excess of 30 days may, in the sole
discretion of the judge, be suspended, stayed, or probated; and for purposes of this paragraph,
previous pleas of nob contendere accepted within such ten-year period shall constitute
convictions; and

(C) Upon the third or subsequent conviction within a ten-year period of time, as measured from
the dates of previous arrests for which convictions were obtained to the date of the current arrest
for which a conviction is obtained, shall be fined not less than $2,500.00 nor more than $5,000.00,
which fine shall not be subject to suspension, stay, or probation and imprisoned for not less than
90 days nor more than 12 months. Any period of such imprisonment in excess of 90 days may, in
the sole discretion of the judge, be suspended, stayed, or probated; and for purposes of this
paragraph, previous pleas of nolo contendere accepted within such ten-year period shall constitute
convictions.
For the purpose of imposing a sentence under this subsection, a plea of nolo contendere shall
constitute a conviction.
If the payment of the fine required under paragraph (1) of this subsection will impose an economic
hardship on the defendant, the judge, at his or her sole discretion, may order the defendant to pay such fine
in installments and such order may be enforced through a contempt proceeding or a revocation of any
probation otherwise authorized by this subsection.
Notwithstanding the limits set forth in any municipal charter, any municipal court of any
municipality shall be authorized to impose the punishments provided for in this subsection upon a
conviction of violating this subsection or upon conviction of violating any ordinance adopting the
provisions of this subsection.
(5)(A) Any person violating the provisions of subsection (a) of this Code section who, while fleeing or
attempting to elude a pursuing police vehicle or police officer in an attempt to escape arrest for any
offense other than a violation of this chapter, operates his or her vehicle in excess of 30 miles an hour
above the posted speed limit, strikes or collides with another vehicle or a pedestrian, flees in traffic
conditions which place the general public at risk of receiving serious injuries, or leaves the state shall be
guilty of a felony punishable by a fine of $5,000.00 or imprisonment for not less than one year nor more
than five years or both.
(B) Following adjudication of guilt or imposition of sentence for a violation of subparagraph (A)
of this paragraph, the sentence shall not be suspended, probated, deferred, or withheld, and the
charge shall not be reduced to a lesser offense, merged with any other offense, or served
concurrently with any other offense.
(c) It shall be unlawful for a person:
To impersonate a sheriff, deputy sheriff state trooper, agent of the Georgia Bureau of
Investigation, agent of the Federal Bureau of Investigation, police officer, or any other authorized
law enforcement officer by using a motor vehicle or motorcycle designed, equipped, or marked so
as to resemble a motor vehicle or motorcycle belonging to any federal, state, or local law
enforcement agency; or
Otherwise to impersonate any such law enforcement officer in order to direct, stop, or
otherwise control traffic.

Rule 1.7 of the Georgia Rules of Professional Conduct
A lawyer shall not represent or continue to represent a client if there is a significant risk that the
lawyer's own interests or the lawyer's duties to another client, a former client, or a third person will
materially and adversely affect the representation of the client, except as permitted in (b).
If client informed consent is permissible a lawyer may represent a client notwithstanding a significant
risk of material and adverse effect if each affected client or former client gives informed consent
confirmed in writing to the representation after:
(I) consultation with the lawyer pursuant to Rule 1.0(c);
(2) having received in writing reasonable and adequate information about the material risks of and
reasonable available alternatives to the representation; and

(3) having been given the opportunity to consult with independent counsel.
(c) Client informed consent is not permissible if the representation:
is prohibited by law or these Rules;
includes the assertion of a claim by one client against another client represented by the lawyer
in the same or a substantially related proceeding; or
involves circumstances rendering it reasonably unlikely that the lawyer will be able to provide
adequate representation to one or more of the affected clients.

Rule 1.10 of the Georgia Rules of Professional Conduct
(a) While lawyers are associated in a firm, none of them shall knowingly represent a client when any one
of them practicing alone would be prohibited from doing so by Rules 1.7: Conflict of Interest: General
Rule, 1.8(c): Conflict of Interest: Prohibited Transactions, 1.9: Former Client or 2.2: Intermediary.
(b) When a lawyer has terminated an association with a firm, the firm is not prohibited from thereafter
representing a person with interests materially adverse to those of a client represented by the formerly
associated lawyer unless:
the matter is the same or substantially related to that in which the formerly associated lawyer
represented the client; and
any lawyer remaining in the firm has information protected by Rules 1.6: Confidentiality of
Information and 1.9(c): Conflict of Interest: Former Client that is material to the matter.
(c) A disqualification prescribed by this rule may be waived by the affected client under the conditions
stated in Rule 1.7: Conflict of Interest: General Rule.

Rule 1.16 of the Georgia Rules of Professional Conduct provides:
(a) Except as stated in paragraph (c), a lawyer shall not represent a client or, where representation has
commenced, shall withdraw from the representation of a client if:
(I) the representation will result in violation of the Georgia Rules of Professional Conduct or
other law;
the lawyer's physical or mental condition materially impairs the lawyer's ability to represent
the client; or
the lawyer is discharged.
(b) except as stated in paragraph (c), a lawyer may withdraw from representing a client if withdrawal can
be accomplished without material adverse effect on the interests of the client, or if:
(I) the client persists in a course of action involving the lawyer's services that the lawyer
reasonably believes is criminal or fraudulent;
the client has used the lawyer's services to perpetrate a crime or fraud;
the client insists upon pursuing an objective that the lawyer considers repugnant or imprudent;
the client fails substantially to fulfill an obligation to the lawyer regarding the lawyer's
services and has been given reasonable warning that the lawyer will withdraw unless the
obligation is fulfilled;

the representation will result in an unreasonable financial burden on the lawyer or has been
rendered unreasonably difficult by the client; or
other good cause for withdrawal exists.
When a lawyer withdraws it shall be done in compliance with applicable laws and rules. When
ordered to do so by a tribunal, a lawyer shall continue representation notwithstanding good cause for
terminating the representation.
Upon termination of representation, a lawyer shall take steps to the extent reasonably practicable to
protect a client's interests, such as giving reasonable notice to the client, allowing time for employment of
other counsel, surrendering papers and property to which the client is entitled and refunding any advance
payment of fee that has not been earned.

Uniform Superior Court Rule 4.3. Withdrawal
(I) An attorney appearing of record in any matter pending in any superior court, who wishes to withdraw
as counsel for any party, shall submit a written request to an appropriate judge of the court for an order
permitting such withdrawal. The request shall state that the attorney has given written notice to the
affected client setting forth the attorney's intent to withdraw, that 10 days have expired since notice, and
there has been no objection, or that withdrawal is with the client's consent. The request will be granted
unless in the judge's discretion to do so would delay the trial or otherwise interrupt the orderly operation
of the court or be manifestly unfair to the client.
(2) The attorney requesting an order permitting withdrawal shall give notice to opposing counsel and
shall file with the clerk and serve upon the client, personally or at that client's last known mailing and
electronic addresses, the notice which shall contain at least the following information:
the attorney wishes to withdraw;
the court retains jurisdiction of the action;
the client has the burden of keeping the court informed where notices, pleadings or other
papers may be served;
the client has the obligation to prepare for trial or hire new counsel to prepare for trial, when
the trial date has been scheduled and to conduct and respond to discovery or motions in the case;
if the client fails or refuses to meet these burdens, the client may suffer adverse consequences,
including, in criminal cases, bond forfeiture and arrest;
dates of any scheduled proceedings, including trial, and that holding of such proceedings will
not be affected by the withdrawal of counsel;
service of notices may be made upon the client at the client's last known mailing address;
if the client is a corporation, that a corporation may only be represented in court by an
attorney, that an attorney must sign all pleadings submitted to the court, and that a corporate
officer may not represent the corporation in court unless that officer is also an attorney licensed to
practice law in the state of Georgia or is otherwise allowed by law; and
unless the withdrawal is with the client's consent, the client's right to object within 10 days of
the date of the notice, and provide with specificity when the 10th day will occur.
The attorney requesting to withdraw shall prepare a written notification certificate stating that the
notification requirements have been met, the manner by which notification was given to the client and the
client's last known mailing and electronic addresses and telephone number. The notification certificate
shall be filed with the court and a copy mailed to the client and all other parties. Additionally, the attorney
seeking withdrawal shall provide a copy to the client by the most expedient means available due to the
strict 10-day time restraint, i.e., e-mail, hand delivery, or overnight mail. After the entry of an order
permitting withdrawal, the client shall be notified by the withdrawing attorney of the effective date of the

withdrawal; thereafter all notices or other papers shall be served on the party directly by mail at the last
known mailing address of the party until new counsel enters an appearance.
(3) When an attorney has already filed an entry of appearance and the client wishes to substitute counsel,
it will not be necessary for the former attorney to comply with rule 4.3 (1) and (2). Instead, the new
attorney may file with the clerk of court a notice of substitution of counsel signed by the party and the
new attorney. The notice shall contain the style of the case and the name, address, phone number and bar
number of the substitute attorney. The new attorney shall serve a copy of the notice on the former
attorney, opposing counsel or party if unrepresented, and the assigned judge. No other or further action
shall be required by the former attorney to withdraw from representing the party. The substitution shall
not delay any proceeding or hearing in the case.

APPENDIX F-

Eleventh Circuit Court of Appeals, Westmoreland v. Warden et.el. 817 F.3d 751 (11th Cir.
2016). Judgement entered March 30, 2016.
.

9/3/2020

WESTMORELAND v. WARDEN I FindLaw

United States Court of Appeals,Eleventh Circuit.
Amos WESTMORELAND, Petitioner—Appellant, v. WARDEN, Commissioner, Georgia
Department of Corrections, Respondents—Appellees.
No. 14-15738
Decided: March 30,2016
Before TJOFLAT, MARTIN, and JILL PRYOR, Circuit Judges. Amos Westmoreland, Leesburg, GA,
pro se. Matthew Crowder, Paula Khristian Smith, Samuel Scott Olens, Andrew George Sims,
Attorney General's Office, Atlanta, GA, for Respondents—Appellees.
Amos Westmoreland appeals the dismissal of his pro se federal habeas petition. The District Court
held that the petition was untimely based on the limitations period in 28 U.S.C. § 2244(d)(1). Mr.
Westmoreland told the court that his limitations period was tolled (which is to say paused) by the
pendency of an extraordinary motion for new trial he filed in Georgia state court. He also
repeatedly asked the state to turn over a copy of this motion. Each time Mr. Westmoreland asked,
the state insisted that it had given the District Court all the records the court needed. The court
decided the issue without seeing Mr. Westmoreland's state-court motion. This Court then granted a
certificate of appealability (COA) on these issues:
Whether the proper filing of a Georgia extraordinary motion for new trial tolls the time period for
filing a 28 U.S.C. § 2254 petition, see 28 U.S.C. § 2244(d)(2); and if so, whether Westmoreland's
Georgia extraordinary motion for new trial was properly filed; and
If a Georgia extraordinary motion for new trial is a tolling motion under 28 U.S.C. § 2244(d)(2),
and Westmoreland properly filed his extraordinary motion, whether the district court erred by
dismissing his 28 U.S.C. § 2254 petition as time-barred.
After our Court granted this COA, the state acknowledged that it had been wrong all along. The
state now agrees that Mr. Westmoreland's petition is timely. We agree too. We thus reverse and
remand.1

We review de novo a district court's dismissal of a habeas petition as untimely. Day v. Hall, 528
F.3d 1315, 1316 (11th Cir.2008) (per curiam). Federal habeas petitions that challenge state-court
judgments must be filed within a year of "the latest of" one of four triggering dates, including "the
date on which the judgment became final." 28 U.S.C. § 2244(d)(1)(A). This one-year limitations
period is tolled while "a properly filed application for State post-conviction or other collateral review
https://caselaw.findlaw.com/us-11th-circuit/1730784.html

1/4

9/3/2020

WESTMORELAND v. WARDEN I FindLaw

with respect to the pertinent judgment or claim is pending." Id. § 2244(d)(2). An application is
considered "for" collateral review if it seeks "a judicial reexamination of a judgment or claim in a
proceeding outside of the direct review process." Wall v. Kholi, 562 U.S. 545, 553, 131 S.Ct. 1278,
1285, 179 L.Ed.2d 252 (2011). And an application is considered "properly filed" if "its delivery and
acceptance are in compliance with the applicable laws and rules governing filings." Artuz v.
Bennett, 531 U.S. 4, 8, 121 S.Ct. 361, 364, 148 L.Ed.2d 213 (2000). Also, if a properly filed state
application is denied, then the time for appealing this denial tolls the federal filing deadline. See
Cramer v. Sec'y, Dep't of Corr., 461 F.3d 1380, 1383 (11th Cir.2006) (per curiam). This is true
"regardless of whether the inmate actually files the notice of appeal." Id. So long as the applicant
was allowed to appeal, the limitations period is tolled "until the time to seek review expires." Id.
In Georgia, a motion for new trial filed more than 30 days after a judgment is entered is called an
"extraordinary" motion for new trial. O.C.G.A. § 5-5-41(b). This Court has never decided whether a
Georgia extraordinary motion for new trial is an application for collateral review, though we have
said such a motion is "in the nature of a collateral proceeding." Mize v. Hall, 532 F.3d 1184, 1191 n.
5 (11th Cir.2008). And the Georgia Supreme Court has explained that an extraordinary motion for
new trial is one of three ways to "challenge a conviction after it has been affirmed on direct appeal."
Thomas v. State, 291 Ga. 18, 727 S.E.2d 123, 123 (Ga.2012). (The other two are "a motion in
arrest of judgment" and "a petition for habeas corpus." Id.) We thus hold that a Georgia
extraordinary motion for new trial can be an "application for State post-conviction or other collateral
review." 28 U.S.C. § 2244(d)(2).

Mr. Westmoreland's § 2254 petition is timely. Mr. Westmoreland's conviction became final on
October 25, 2010. He thus had until October 25, 2011, to file his federal petition. Mr. Westmoreland
properly filed an extraordinary motion for new trial in the Georgia trial court on May 2, 2011. This
was a motion for collateral review, so while it was pending the one-year clock froze at 189 days
(the number of days between October 25, 2010 and May 2, 2011). The state trial court denied the
motion on the merits on June 9, 2011. Mr. Westmoreland had 30 days to appeal this denial. See
O.C.G.A. § 5 6 35(d). This means the clock did not start again until at least July 9, 2011. Mr.
Westmoreland then properly filed his state habeas petition on October 28, 2011. This was 111 days
after July 9. 189 plus 111 is 300, so his filing was within § 2244(d)'s one-year period and further
tolled this period. Mr. Westmoreland then filed his federal petition on May 1, 2014, before his state
petition was denied on June 27, 2014. This means he was still within his one-year time for filing
when he filed his federal petition.
The District Court dismissed Mr. Westmoreland's petition without properly considering the effect of
the extraordinary motion for new trial. The state bears much responsibility for this mistake. Shortly
after Mr. Westmoreland filed his federal petition, the District Court ordered the state to file all
https://caselaw.findlaw.com/us-llth-circuit/1730784.html

2/4

9/3/2020

WESTMORELAND v. WARDEN I FindLaw

"pleadings, transcripts and decisions as are available and required to determine the issues raised."
The state responded by moving to dismiss the petition as untimely. Mr. Westmoreland then asked
the court to order the state to make his extraordinary motion for new trial a part of the district court
record. The state objected, claiming it had "already filed all relevant exhibits that are germane to
resolving the issue of the timeliness of this petition." Mr. Westmoreland then filed a 28 U.S.C. §
2250 request for a copy of the same motion. The state again objected, repeating that it had
"already filed all relevant exhibits that are germane to resolving the issue of the timeliness of this
petition."
In this Court, the state reports that it "has examined the trial court's public record in Petitioner's
criminal case and does not dispute Petitioners contentions." The state thus concedes that "the
petition was timely filed" because the "one-year period should have been tolled while the
extraordinary motion for new trial was pending in the Georgia courts." If the state had made this
concession back in 2014, when Mr. Westmoreland repeatedly pointed the state's attention to his
state-court motion, then the District Court would have had the means to decide the timeliness issue
correctly the first time around. Instead, the state repeatedly told the District Court that it had given
the court everything "germane to resolving" the timeliness issue, the District Court relied on this
representation, Mr. Westmoreland was delayed two more years in prison, and this Court had to
issue an apparently unnecessary COA and decide an unnecessary appeal.

Even with its admission that Mr. Westmoreland's federal petition is timely, the state says we should
affirm the District Court anyway because Mr. Westmoreland failed to exhaust state remedies. The
COA did not cover the exhaustion issue. To the contrary, the COA order expressly stated that,
"should this Court ultimately conclude that [Mr. Westmoreland's] § 2254 petition was timely filed,
the district court will determine any issues of exhaustion, procedural default, and cause and
prejudice in the first instance." We thus decline the state's invitation to consider the exhaustion
issue now. When considering the exhaustion issue on remand, the District Court must determine
whether cause and prejudice excuse any possible failure to exhaust. If not, then the court must
determine if a stay and abeyance is proper while Mr. Westmoreland exhausts state remedies. See
Rhines v. Weber, 544 U.S. 269, 277-78, 125 S.Ct. 1528, 1535, 161 L.Ed.2d 440 (2005).
REVERSED AND REMANDED.
FOOTNOTES
1. The state also filed a motion asking this Court to expand the appellate record to include Mr.
Westmoreland's extraordinary motion for new trial and the order denying that motion, plus
documents that purported to show Mr. Westmoreland's failure to exhaust state remedies. We grant
the motion as to the extraordinary motion for new trial (Exhibit 5) as well as the order denying the
https://caselaw.findlaw.com/us-11th-circuit/1730784.html

3/4

9/3/2020

WESTMORELAND v. WARDEN I FindLaw

motion (Exhibit 6). We deny it as to all the other exhibits because, as explained in part III, we are
not addressing exhaustion at this time.Mr. Westmoreland also filed a pro se motion for leave to file
a reply brief out of time. We grant this motion.
MARTIN, Circuit Judge:

https://caselaw.findlaw.com/us-11th-circuit/1730784.html

4/4

APPENDIX G-

Northern District of Georgia Westmoreland v. Grubbs et.el., No. 2012 U.S. Dist. LEXIS
118733 (N.D. Ga. 2012). Judgement entered July 23, 2012.

Case 1:12-cv-02080-TWT Document 4 Filed 07/23/12 Page 1 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
AMOS WESTMORELAND,
GDC No. 1041629,
Plaintiff,
v.

PRISONER CIVIL RIGHTS
42 U.S.C. § 1983
CIVIL ACTION NO.
1:12-CV-2080-TWT-ECS

ADELE GRUBBS et al.,
Defendants.
FINAL REPORT AND RECOMMENDATION AND ORDER
Proceeding pro se, state prisoner Amos Westmoreland filed a
civil rights complaint under 42 U.S.C. § 1983 against his public
defenders, several police officers, a trial judge, and seven members
of the Georgia Supreme Court. [Doc. No. 1]. Because most of his
claims are time-barred and the remainder seek relief from defendants
Who are immune from suit under § 1983, Mr. Westmoreland's complaint
should be dismissed. See 28 U.S.C. § 1915A.
For purposes of this Final Report and Recommendation, the
undersigned accepts as true Mr. Westmoreland's history of his
criminal trial and direct appeal in Georgia state court:
The crimes were committed allegedly on May 17,
2007. On November 30, 2007, Movant was charged in a
multi-count indictment. After makeshift arraignment
on January 10, 2008, Movant was appointed several
public defenders until trial commenced on October 20,
2008. On October 23, 2008, Movant was found guilty of
(2 counts) of Burglary, (2) counts of fleeing and
attempting to elude a pursuing officer, (2) counts of
felony murder (predicated on burglary and attempting
to elude), obstruction, operating a vehicle w/o a
secure load, reckless driving, homicide by motor

AO 72A

Case 1:12-cv-02080-TWT Document 4 Filed 07/23/12 Page 2 of 7

vehicle (predicated on reckless driving), and serious
injury by motor vehicle (predicated on reckless
driving.
Movant recieved a sentence of life
imprisonment for felony murder while in the commission
of a burglary, and 15 years consecutive for serious
injury by motor vehicle, plus 12 months concurrent for
the misdemeanor counts. Movant appealed from the
denial of Motion for New Trial (3-12-09). On direct
appeal to the Georgia Supreme Court, the Court made
its decision on June 28, 2010 and affirmed the lower
court's decision, all Justices concurred.
[Id. at 21 (spelling and punctuation as in original)].
Mr. Westmoreland complains that (1) his public defenders
(sometimes acting alone and sometimes in concert with police
officers) violated his rights because they had conflicts of
interest, did not aggressively enough seek or use a copy of a police
pursuit policy, ignored evidence he wanted presented, and were
generally ineffective [id. at 1-7, 12-14, 22-23, 25-26]; (2) a state
court trial judge ignored conflicts of interest, failed to protect
his rights, made errors of law, and showed prejudice [id. at 8-11,
22]; and (3) seven members of the Georgia Supreme Court, "showing
total disregard for Due Process and Constitutional Rights," issued
an "equivocated decision" [id. at 15-20, 24-25]. Mr. Westmoreland
is seeking hundreds of millions of dollars in damages. See Lid. at
27].
A two-year statute of limitations applies to § 1983 actions in
Georgia. See Crowe v. Donald, 528 F.3d 1290, 1292 (11th Cir. 2008).
Therefore, all claims that arose more that two years before Mr.
2

AO 72A

Case 1:12-cv-02080-TWT Document 4 Filed 07/23/12 Page 3 of 7

Westmoreland filed this suit on June 13, 2012, see [Doc. No. 1-1 at
1], are now time-barred. That includes all of the claims he seeks
to bring against the defendants except for the claims against the
Georgia Supreme Court justices.
Although Mr. Westmoreland's claims against the members of the
Georgia Supreme Court arising out of their June 28, 2010, decision
fall just within the two-year limitations period, those claims must
also be dismissed. "[I]t is a general principle of the highest
importance to the proper administration of justice that a judicial
officer, in exercising the authority vested in him, shall be free
to act upon his own convictions, without apprehension of personal
consequences to himself." pradlev v. Fisher, 80 U.S. 335, 13 Wall.
335, 347 (1872). Thus, a judge is entitled to absolute judicial
immunity from damages arising from acts taken in his judicial
capacity, unless he acts in the clear absence of all jurisdiction.
Sibley v. Lando, 437 F.3d 1067, 1070 (11th Cir. 2005).

"[T]he

nature of the act itself, i.e., whether it is a function normally
performed by a judge, and . . . the expectations of the parties,
i.e., whether they dealt with the judge in his judicial capacity,"
determine whether an act was within a judge's judicial capacity.
Stump v. Sparkman, 435 U.S. 349, 362 (1978); see also Mireles v.
Waco, 502 U.S. 9, 12 (1991). And a judge acts in the clear absence
of jurisdiction only where he is entirely without subject matter
3

A0 72A

Case 1:12-cv-02080-TWT Document 4 Filed 07/23/12 Page 4 of 7

jurisdiction, not merely because he may have acted in a manner that
was erroneous, malicious, or in excess of authority. Dykes v.
Hosemann, 776 F.2d 942, 947-48 (11th Cir. 1985) (en Banc). See also
Pierson v. Ray, 386 U.S. 547, 554 (1967) ("Immunity applies even
when the judge is accused of acting maliciously and corruptly.")
It is beyond question that the decision rendered in Mr.
Westmoreland's direct appeal by the Georgia Supreme Court was within
that court's subject matter jurisdiction and that it was a normal
judicial act.

The Georgia Supreme Court justices that Mr.

Westmoreland named as defendants in this case are therefore entitled
to judicial immunity from suit under § 1983 for that decision.
For the foregoing reasons, the undersigned RECOMMENDS that Mr.
Westmoreland's complaint be DISMISSED.

See 28 U.S.C. § 1915A.

The undersigned GRANTS Mr. Westmoreland' request for permission
to proceed in forma pauperis. [Doc. No. 3].
The Clerk is DIRECTED to transmit a copy of this Order to the
warden of the institution where Mr. Westmoreland is confined. The
warden of that institution, or his designee, is ORDERED to remit the
$350 filing fee due from Mr. Westmoreland for this case in "monthly
payments of 20 percent of the preceding month's income credited to
. . [his] account . . . each time the amount in the account
exceeds $10 until the filing fee[]" is paid in full. 28 U.S.C.
§ 1915(b)(2).

AO 72A

Case 1:12-cv-02080-TWT Document 4 Filed 07/23/12 Page 5 of 7

The Clerk is DIRECTED to terminate the reference of this case
to the undersigned.
SO RECOMMENDED, ORDERED, and DIRECTED, this 23rd day of u y,
2012.

S/ S. Clayton Scofield III
E. CLAYTON SCOFIELD III
UNITED STATES MAGISTRATE JUDGE

5

AO 72A

Case 1:12-cv-02080-TWT Document 4 Filed 07/23/12 Page 6 of 7

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
AMOS WESTMORELAND,
GDC No. 1041629,
Plaintiff,

v.

PRISONER CIVIL RIGHTS
42 U.S.C. § 1983
CIVIL ACTION NO.
1:12-CV-2080-TWT-ECS

ADELE GRUBBS et al.,
Defendants.
ORDER FOR SERVICE OF REPORT AND RECOMMENDATION OF
UNITED STATES MAGISTRATE JUDGE
Attached is the report and recommendation of the United States
Magistrate Judge in this action in accordance with 28 U.S.C.
§ 636(b) (1) and this Court's Civil Local Rule 72. Let the same be
filed and a copy, together with a copy of this Order, be served upon
counsel for the parties.
Pursuant to 28 U.S.C. § 636(b) (1), each party may file written
Objections, if any, to the report and recommendation within fourteen
(14) days of service of this Order. Should objections be filed,
they shall specify with particularity the alleged error or errors
Made (including reference by page number to the transcript if
applicable) and shall be served upon the opposing party. The party
filing objections will be responsible for obtaining and filing the
transcript of any evidentiary hearing for review by the District
Court. If no objections are filed, the report and reconuaendation
may be adopted as the opinion and order of the District Court and
any appellate review of factual findings will be limited to a plain

AO 72A

Case 1:12-cv-02080-TWT Document 4 Filed 07/23/12 Page 7 of 7

error review. United Statesv. S14y, 714 1.2d 1093 (11th Cir.
1983).
The Clerk is DIRECTED to submit the report and recommendation
with objections, if any, to the District Court after expiration of
the above time period.
SO ORDERED, this 23rd day of July, 2012.

S/ E. Clayton Scofield III
E. CLAYTON SCOFIELD III
UNITED STATES MAGISTRATE JUDGE

2

AO 72A

APPENDIX H-

Georgia Supreme Court, Westmoreland v. Johnson No. S16110557. Certificate of Probable
Cause denied September 6, 2016.

SI

ItT
5_c7
Ads,

Ott, Z4,14

-

AMOS WESTMORELAND v.
Pas the Swain Can of Hank Canty.

Upon essaiseraties aOw apptkoallaa agnineate et probable awn appal an
geboalan callees.KM amninal thigh be bendy daidamil. Ail dat Jusaliesa•anew.

MS Cairn

Nct 1-0C404

SUPREME COURT Of THE STATIC OF GEORGIA
Oak's Met AtiSith
anify der the above is a trat tuna front the
moan of the Supreme Cant of Gann
niacin my nature and the sai egad coon
harm dined the day mid yaw tat above nine

c

Onf Doan aork

Scanned with CarnScanner

APPENDIX I-

Ryan v. Thomas, 409 S.E.2d 507 (1991).

9/3/2020

Ryan v. Thomas, 409 SE 2d 507 - Ga: Supreme Court 1991 - Google Scholar

409 S.E.2d 507 (1991)
261 Ga. 661
RYAN
v.
THOMAS, Warden.
No. S91A0952.
Supreme Court of Georgia.
October 18, 1991.
Reconsideration Denied November 7, 1991.
508 "508 Steve Ryan, pro se.
Michael J. Bowers, Atty. Gen., C.A. Benjamin Woolf, Atty., State Law Dept., Atlanta, for Thomas.
CLARKE, Chief Justice.
Petitioner Steve Ryan was convicted of numerous crimes including armed robbery and kidnapping. At trial he was
represented by a public defender from the Fulton County Public Defender's Office (Public Defender's Office). His motion for
new trial was filed by a second public defender from the Public Defender's Office, and a third attorney from this office
represented him on direct appeal.
Following the affirmance of his appeal Ryan v. State 191 Ga.App. 477 382 S.E.2d 196 (1989) Ryan filed a pro se habeas
corpus petition, maintaining that his trial counsel had rendered ineffective assistance. At the hearing on this petition, Ryan's
appellate counsel testified that prior to filing Ryan's appeal, he evaluated potential claims of ineffective assistance of trial
counsel, but determined that any such claims would be without merit. The habeas court concluded that since the ineffective
assistance claim was not raised on direct appeal, it was procedurally barred under Black v. Hardin 255 Ga. 239 336 S.E.2d
754 (1985).
We granted Ryan's application for probable cause to determine whether, as a matter of law, a pro se petitioner is
procedurally barred from raising the issue of ineffective assistance where this issue is not raised on direct appeal, and both
trial and appellate counsel are members of the same public defender's office.
In White v. Kelso 261 Ga. 32 401 S.E.2d 733 (1991) we were faced with a similar issue. In that case one attorney was
appointed by the court to represent the petitioner at trial. A second attorney, not professionally related to the first, was
appointed to represent the petitioner on appeal. Following the affirmance of his conviction, the petitioner filed a pro se
habeas petition in which he alleged that his trial counsel had been ineffective. We noted that ineffective assistance claims
are often entertained for the first time on habeas corpus where a petitioner has had only one attorney throughout his legal
proceedings because "an attorney cannot reasonably be expected to assert or argue his or her own ineffectiveness." 261
Ga. 32 401 S.E.2d 733. However, we held that where there is new counsel appointed or retained, he must raise the
ineffectiveness of previous counsel at the first possible instance in the legal proceedings. Thus, in White, the claim of
ineffectiveness of trial counsel was waived because appellate counsel had failed to raise it.
Were we to look no further than the rule set out in White, we would agree that Ryan's claim is procedurally barred because
the second attorney from the Public Defender's Office who represented Ryan on motion for new trial failed to raise an
ineffective assistance claim. However, in this case, unlike in White, all three attorneys involved in the various stages of
Ryan's legal proceedings were attorneys with the same Public Defender's Office.
As stated above, we noted in White that an attorney cannot reasonably be expected to assert his or her own
ineffectiveness. Likewise, it would not be reasonable to expect one member of a law firm to assert the ineffectiveness of
another member, where one represented a defendant at trial and the other represented him on motion for new trial or
appeal. On the other hand, a member of a law firm may not by his or her failure to raise an ineffective assistance claim
509

against a fellow member of his firm bar the rights of a defendant to ever raise that issue. To hold otherwise "509 would

https://scholacgoogle.com/scholar case?case=168644265339243229284=ryan+v.+thomas+409+S.E.2d+507+(1991)&hken&as_sdt=80006&as_vis=1 1/2

9/3/2020

Ryan v. Thomas, 409 SE 2d 507 - Ga: Supreme Court 1991 - Google Scholar
permit one member of the firm to shield his fellow member against accusations of ineffectiveness at the expense of the
rights of the defendant. This the courts cannot allow. See, e.g., First Bank & c. Co. v. Zagoria 250 Ga. 844 302 S.E.2d 674
(1983) Roper v. State 258 Ga. 847 (1)(a) 375 S.E.2d 600 (1989).
Regardless of whether an attorney has been appointed to act for the client or retained by the client, the client is entitled to
fidelity from the attorney and every member of the attomey's law firm. To that end we hold that attorneys in a public
defender's office are to be treated as members of a law firm for the purposes of raising claims of ineffective assistance of
counsel. As such different attorneys from the same public defender's office are not to be considered "new" counsel for the
purpose of raising ineffective assistance claims under White v. Kelso. Therefore, a defendant's right to raise such a claim
may not be barred by the failure of a succession of attorneys from the same public defenders office to raise it.
This case is remanded to the habeas court for a determination of the merits of Ryan's ineffective assistance of counsel
claims.
Judgment reversed and remanded.
All the Justices concur.

Save trees - read court opinions online on Google Scholar.

https://scholar.google.com/scholar_case?caser-16864426533924322928&q=ryan+v.+thomas+409+S.E.2d+507+(1991)&111=en&as_sdt=.80006&as_vis=1 2/2

APPENDIX J-

State v. Jackson et al. 697 S.E.2d. 757 (2010).

9/3/2020

State v. Jackson, 697 S.E.2d 757 — CourtListener.com
697 S.E.2d 757 (2010)

The STATE
v.
JACKSON et al.
No. 510A0070.
Supreme Court of Georgia.
June 28, 2010.
Patrick H. Head, District Attorney, Dana J. Norman, Jesse D. Evans, Asst. Dist. Atty., for appellant.
Tony L. Axam, Calvin A. Edwards, Jr., Atlanta, for appellees.
NAHMIAS, Justice.
Appellees, defendants Cadester Jackson and Warren Woodley Smith, allegedly conspired "758 with Jerold Daniels to rob a drug dealer
at gunpoint. The victim, however, also turned out to be armed, and he shot and killed Daniels in self-defense. A Cobb County grand jury
indicted Jackson and Smith on three counts of felony murder along with other offenses. The defendants moved to dismiss the felony
murder counts pursuant to State v. Crane, 247 Ga.779 279 S.E.2d 695 (1981). The trial court granted the motion to dismiss, and the
State now appeals, asking us to overrule Crane. After thorough review, we conclude that Crane should be overruled, and we therefore
reverse. The causation issue presented should be decided by a properly instructed jury at trial, using the customary proximate cause
standard.
This should be an easy case for a Georgia appellate court. The question presented is what the term "causes" means as used in the
felony murder statute. See OCGA § 16-5-1(c) ("A person also commits the offense of murder when, in the commission of a felony, he
causes the death of another human being irrespective of malice?). In cases both before and after Crane, this Court interpreted that very
term to require "proximate causation." In addition, there are dozens of other cases from this Court and the Court of Appeals, before and
after Crane, that hold that the same term as used in other homicide statutes and in many other criminal and civil contexts means
proximate cause.
This case is difficult only because of Crane. There, in a short opinion that did not mention any of Georgia's extensive causation case law,
the Court held that the word "causes" in the felony murder statute requires not proximate causation, but that the death be "caused
directly" by one of the parties to the underlying felony. Id. at 779 279 S.E.2d 695. Applying this new and more restrictive conception of
causation, the Court concluded that a defendant cannot be found guilty of felony murder when the intended victim of the underlying
felony kills the defendant's accomplice, because that death is "caused directly" by the victim rather than the defendant. See id.
As shown below, the opinion in Crane was poorly reasoned, and perhaps because it is so incongruous with the rest of Georgia law, it
has not been consistently applied by this Court or the Court of Appeals in the ensuing three decades. Its holding has not been applied
uniformly in the specific context of felony murder, nor has its reasoning been followed in construing the same causation language in
other homicide statutes. The relevant facts of this case, however, are almost identical to Crane's, and so today we must either
reaffirm Crane or reject it. After careful consideration, we have concluded that Crane must be overruled. Stare decisis is an important
doctrine, but it is not a straightjacket. Crane's age and statutory nature are outweighed by the other factors undermining its precedential
authority, and it is important that the Court refute its reasoning to insure that the case can no longer be cited in efforts to pollute other
streams of our law.

The Factual and Procedural Background of This Case
The parties stipulated, for purposes of the motion to dismiss, that Jackson, Smith, and Daniels conspired to commit an armed robbery
of someone who the defendants believed was a drug dealer. Daniels approached the intended victim armed with a handgun, with
Jackson nearby and Smith waiting in the getaway vehicle. The victim, who was also armed, exchanged gunfire with Daniels, and he
ultimately shot and killed Daniels in self-defense. Jackson and Smith were later arrested. The indictment charged the defendants with,
among others offenses, felony murder. Tracking the statutory language, Count 1 alleged that both Jackson and Smith "did cause the
death of Jerold Daniels, a human being, ... while in the commission of a felony, to wit: Aggravated Assault." The indictment charged
Smith with two more counts, alleging that he caused Daniels's death while in the commission of the felony of possession of a firearm by
a convicted felon.
The defendants moved to dismiss the felony murder charges. They argued that because the victim fired the shot that killed their coconspirator, they did not directly cause Daniels's death. The trial court, bound by this Court's decision in Crane, granted the motion to
dismiss. The State *759 filed this direct appeal under OCGA § 5-7-1(a)(1), asking us to overrule Crane.

"Cause" in Georgia's Homicide Statutes Means Proximate Cause
The felony murder statute provides that "[a] person also commits the offense of murder when, in the commission of a felony, he
causes the death of another human being irrespective of malice." OCGA § 16-5-1(c) (emphasis added). As in Crane, the question in this
case is whether a defendant who commits a felony whose intended victim kills a co-conspirator "causes" that death. The answer should
https://www.courtlisteneccom/opinion/1346679/state-v-jackson/

1/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 — CourtListener.com

be straightforward. Georgia is a proximate cause state. When another meaning is not indicated by specific definition or context, the term
"cause" is customarily interpreted in almost all legal contexts to mean "proximate cause"—"[t]hat which, in a natural and continuous
sequence, unbroken by any efficient intervening cause, produces injury, and without which the result would not have occurred." Black's
Law Dictionary 1103 (5th ed. 1979).
Thus, this Court has explained that proximate cause is the standard for criminal cases in general. See, e.g., Skaggs V.
State, 278 Ga. 19 19-20, 596 S.E.2d 159 (2004) ("In a criminal case, proximate cause exists when the accused's '"act or omission
played a substantial part in bringing about or actually causing the (victim's) injury or damage and... the injury or damage was either a
direct result or a reasonably probable consequence of the act or omission."'" (citations omitted)). We have also said that proximate
cause is the standard for homicide cases in general. See, e.g., James v. State, 250 Ga. 655 655, 300 S.E.2d 492 (1983) ("In Wilson v.
State, 190 Ga. 824 829, 10 S.E.2d 861 (1940), we set out the following test for determining causation in homicide cases: 'Where one
inflicts an unlawful injury, such injury is to be accounted as the efficient, proximate cause of death, whenever it shall be made to appear,
either that (1) the injury itself constituted the sole proximate cause of the death; or that (2) the injury directly and materially contributed to
the happening of a subsequent accruing immediate cause of the death; or that (3) the injury materially accelerated the death, although
proximately occasioned by a pre-existing cause.'").
Consistent with this general rule, we have held in many cases and for many decades that proximate causation is the standard for
murder cases prosecuted under the murder statute, now codified as OCGA § 16-5-1. Thus, we have long held, in numerous cases, that
proximate causation is the test for malice murder, a crime defined using the identical "he ... causes" phrasing. See OCGA § 16-5-1(a)
("A person commits the offense of murder when he unlawfully and with malice aforethought, either express or implied, causes the death
of another human being.").11) Finally, with respect to the statutory text at issue in this case, and in full accord with the general rule for
criminal and homicide cases and with our construction of the identical language in subsection (a) of the same statute, we have
repeatedly held, before and after Crane, that the phrase "he causes" in OCGA § 16-5-1(c) establishes proximate causation as the
standard for liability in felony *760 murder cases [2]
Indeed, in virtually all of Georgia's many homicide and feticide statutes, including the frequently charged voluntary and involuntary
manslaughter and vehicular homicide statutes, the General Assembly has employed the same or very similar causation phrasing.
13I*761 And to the extent those statutes have been interpreted by Georgia's appellate courts, once again the term "cause" has been
regularly construed as requiring proximate causation.141
As an original matter, therefore, we would decide this case simply by applying the customary legal meaning of "cause," which is
supported by the ample precedent interpreting the felony murder provision at issue, its identical sister provision in the murder statute,
and identical or substantially similar provisions in many other homicide statutes. We would hold that the phrase "he causes"
as *762 used in OCGA § 16-5-1(c) requires the State to prove that the defendant's conduct in the commission of the underlying
felony proximately caused the death of another person. In the context of this case, proximate causation would exist if (to use "the rule"
for felony murder that the Court stated a year after deciding Crane) the felony the defendants committed "directly and materially
contributed to the happening of a subsequent accruing immediate cause of the death," Durden, 250 Ga. at 329, 297S.E.2d 237 or if (to
use language from a case decided 16 years before Crane) "'the homicide [was] committed within the res gestae of the felony' ... and is
one of the incidental, probable consequences of the execution of the design to commit the robbery," Jones, 220 Ga. at
902 142 S.E.2d 801 (citations omitted).
Whether the evidence in this case would establish such proximate causation beyond a reasonable doubt is a harder question, in part
because the stipulated facts we have before us are summary and the issue of proximate causation is so fact-intensive. That is why
proximate cause determinations are generally left to the jury at trial. See McGrath, 277 Ga.App. at 829 627 S.E.2d 866 ("What
constitutes proximate cause is 'undeniably a jury question and is always to be determined on the facts of each case upon mixed
considerations of logic, common sense, justice, policy, and precedent."' (citation omitted)).
The defendants here planned an armed robbery of someone they believed to be a drug dealer, who also turned out to be armed, an
occurrence not unusual among drug dealers. When their co-conspirator Daniels approached the victim with a handgun to execute the
robbery, the victim defended himself and killed Daniels. Perhaps more detailed evidence would show that, despite the dangerous and
violent nature of armed robbery and drug dealing, circumstances existed that made the fatal result of the defendants' felonious conduct
improbable in this case, or made the drug dealer victim's actions an "efficient intervening cause." On the limited record before us,
however, a jury could rationally conclude that the defendants' felonies played a "substantial part in bringing about" their accomplice's
death when they confronted at gunpoint a drug dealer, whose deadly response could be viewed as a "reasonably probable
consequence" of their acts. Skaggs, 278 Ga. at 19-20 596 S.E.2d 159 (citations and punctuation omitted). Thus, as an original matter,
we would have little hesitation reversing the trial court's order and remanding the case for trial and decision by a jury properly charged
on causation using language adapted from our proximate cause homicide cases.

State v. Crane
3. This is not, however, an original matter. The same legal issue was presented in much the same factual scenario, nearly 30 years ago
in Crane. In that case, Crane and three confederates were burglarizing a home when the homeowner shot and killed one of them in
defense of himself and his property. See 247 Ga. at 779 279 S.E.2d 695. The Court recognized that the case turned on whether the
term "he causes," as used in the felony murder statute, can extend to the death of an accomplice killed by the intended victim. Id. In its
one-and-a-half page opinion, however, the Crane Court did not consider the customary legal meaning of "cause" or look to our thenexisting case law interpreting that term as used in the felony murder statute, the malice murder statute, and homicide and other criminal
statutes in general. Instead, the Court baldly asserted that it was faced with the choice between limiting felony murder to deaths
"caused directly by one of the parties to the underlying felony" or construing the statute "to include also those deaths indirectly caused
by one of the parties." Id. (footnote omitted; emphasis supplied). Reflecting on the only two interpretations of "he causes" that it

https://www.courtlistenercom/opinion/1346679/state-v-jackson/

2/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 — CourtListener.com

considered, the Court stated that "[w]e would, if allowed a choice, favor the construction which would criminalize the conduct involved in
the present case." Id. at 780 279 S.E.2d 695. Because a criminal statute was being interpreted, however, the Court concluded that "we
are constrained by principle to rule in behalf of the accuseds." Id.
We agree that the rule of lenity would require the Court to adopt the interpretation that favored the accuseds if, after applying *763 all
other tools of statutory construction, the Court determined that "directly causes" and "indirectly causes" were the only possible meanings
of the word "causes" in OCGA § 16-5-1(c) and that equally strong reasoning supported either interpretation, leaving the statute
ambiguous. See Banta v. State, 281 Ga. 615, 617-618 642 S.E.2d 51 (2007) (-The rule of lenity ... applies only when, after consulting
traditional canons of statutory construction, we are left with an ambiguous statute."' (quoting United States v. Shabani, 513 U.S. 10
17, 115S. Ct. 382 130 L. Ed. 2d 225 (1994))). But the Crane Court did notapply the traditional canons of statutory construction before
jumping to that conclusion, and the binary reading of the causation element proposed by the Crane Court finds no foundation in our legal
tradition or our case law, none of which the Court mentioned [5] Indeed, other than Crane and cases discussing Crane, we have found
not a single instance in our extensive causation case law where the Court has suggested that the word "causes" can mean only "directly
causes" or "indirectly causes."
To the contrary, we have consistently employed the more nuanced concept of proximate causation, which does not track the binary, and
often unhelpful, direct-indirect dichotomy of Crane. Proximate causation imposes liability for the reasonably foreseeable results of
criminal (or, in the civil context, tortious) conduct if there is no sufficient, independent, and unforeseen intervening cause. That definition
would include, at least in some factual scenarios, a deadly response against one of the perpetrators by the intended victim of a
dangerous felony like burglary or armed robbery.

The Inconsistent Application of Crane's Holding
4. No later cases have bolstered Crane's reasoning nor do the dissents today make any effort to do so. Indeed, neither this Court nor
the Court of Appeals has consistently applied Crane's holding that the words "he causes" in the felony murder statute "require the death
to be caused directly by one of the parties to the underlying felony." 247 Ga. at 779 279 S.E.2d 695 (footnote omitted). In nearly three
decades, the Court has applied Crane wholeheartedly on just two occasions. The first came a year after Crane, when the Court
reversed a felony murder conviction where a police officer killed a bystander during a shootout with the defendant. See Hill V.
State, 250 Ga. 277 278-280 295 S.E.2d 518 (1982).16] The second *764 time was in Hyman v.
State, 272 Ga. 492 531 S.E.2d 708 (2000). Police came to Hyman's home looking for a murder suspect, and he falsely told them that
the suspect was not there. When the police were allowed to search the house the suspect shot and killed one of the officers. See id. at
493 531 S.E.2d 708. Hyman was charged with murder while in the commission of the felony of making a false statement, but the Court
held that the "direct cause" of the officers death was the suspect, with whom Hyman was not acting in concert, and so under Crane his
felony murder conviction was reversed. See 272 Ga. at 493 531 S.E.2d 708. It is possible that the same result would have been
reached under the proximate cause test, consideration of which the Hyman Court pretermitted. See id.
In another case, however, the Court upheld the defendant's felony murder conviction based upon the death of a bystander killed by
someone who was engaging in a gunfight with the defendant. See Smith v. State, 267 Ga. 372 375-376 477 S.E.2d 827 (1996). To
reach that result, the Court had to redefine the Crane test as whether the death of the bystander was "directly caused" by "a willing
participant" (rather than a co-party) in the gunfight. 267 Ga. at 375 477 S.E.2d 827. The Court struggled to distinguish Crane and Hill as
cases in which "the homicides were not committed by either the defendant or someone acting in concert with him." 267 Ga. at
376 477 S.E.2d 827. The shooter in Smith, however, was plainly "one of the parties to the [defendant's] underlying felony," Crane, 247
Ga. at 779, 279 S.E.2d 695 (footnote omitted), and it is questionable whether someone charged with committing an aggravated
assault against the defendant by shooting at him, see Smith, 267 Ga. at 372, n. 1, 477 S.E.2d827 can really be said to be "acting in
concert with him," id. at 376 477 S.E.2d 827.
In other cases since Crane, we have upheld felony murder convictions where the death could hardly be said to have been "caused
directly" by the defendant's acts. See McCoy V. State, 262 Ga. 699 700, 425 S.E.2d 646 647-48 (1993) (upholding felony murder
conviction by finding that the death of a firefighter who fell into a well behind a burning house and died of asphyxiation was "directly
attributable" to the defendant's felonious conduct in setting fire to the house); Darden, 250 Ga. at 329 297 S.E.2d 237 (affirming felony
murder conviction where a storeowner responding to a burglary died of a heart attack after exchanging shots with the defendant). In
several other felony murder cases, we have simply ignored Crane and applied the proximate cause test. See, e.g., the post-1981 cases
cited in footnote 2 above.
Moreover, if Crane's reasoning is solid and its holding deserving of precedential value, as Justice Thompson's dissent suggests, see
Dissenting Op. at 769, then the term "causes" and the identical or substantially similar causation language used in Georgia's other
homicide statutes should also be susceptible to the same "directly causes" versus "indirectly causes" ambiguity posited in Crane. And
because all those statutes are also penal, the rule of lenity should require that the "directly causes" interpretation be applied in those
contexts as well. But that *765 has not happened. To the contrary, this Court and the Court of Appeals have continued to apply the
traditional proximate cause standard in those situations. See, e.g., the post-1981 cases cited in footnotes 1 and 4 above.
Crane has caused the most tension in vehicular homicide cases, which, like felony murder cases, sometimes involve deaths that are
"directly" caused by innocent third parties acting as a result of the defendant's precipitating criminal acts. Thus, in Hill, this Court held
that, under Crane, a defendant did not "cause" the death of another person and so was not guilty of felony murder when a police officer
at whom the defendant was shooting shot back and killed an innocent bystander. See 250 Ga. at 280 295 S.E.2d 518. Yet the Court of
Appeals, in a case involving almost the same causation language and a similar fact pattern, held that a defendant was guilty of vehicular
homicide when a police officer from whom he was illegally fleeing bumped his truck in an effort to stop it (much like an officer returning
fire to stop an ongoing felony) and caused the truck to crash, killing an innocent bystander (a baby riding in the truck). See Pitts, 253
Ga.App. at 374 559 S.E.2d 106. The Pitts court reached this conclusion by simply ignoring Crane and applying the usual proximate
cause test. See id. at 374-375 559 S.E.2d 106.
https://www.courtlistenencom/opinion/1346679/state-v-jackson/

3/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 - CourtListener.com

Similarly, in Ponder v. State, 274 Ga.App. 93, 616 S.E.2d 857 (2005), the defendant, who was under the influence and recklessly fleeing
the police, caused a pursuing police car to veer into oncoming traffic, where the police car collided with a Buick, killing the officer. See id.
at 94-96, 616 S.E.2d 857. Like the homeowner who fired the fatal shot in Crane, the "direct cause" of the officer's death was the driver of
the Buick. But the Court of Appeals, again without mention of Crane, upheld the conviction because the evidence supported the jury's
finding that the defendant's criminal conduct was the proximate cause of the officer's death. See 274 Ga.App. at 95-96 616 S.E.2d857.
In McGrath v. State, 277 Ga.App. 825, 627 S.E.2d 866 (2006), the chain of causation was even more indirect. McGrath, who was driving
recklessly and under the influence on 1-85, crashed into a car driven by Kar. Both vehicles were wrecked, and McGrath and Kar were
injured. Burroughs-Brown, a nurse, saw the wreck and stopped to assist. Another car driven by Ramirez, who could not see BurroughsBrown until it was too late due to poor visibility, hit her. She was pinned briefly between Kar's and Ramirez's cars, but then she fell onto
the highway, where two other vehicles ran over her. See id. at 826-827, 627 S.E.2d 866. Citing Crane, McGrath argued that he did not
directly cause Burroughs-Brown's death, and faithful application of Crane's reasoning would indeed have required reversal. But the
Court of Appeals again upheld the conviction under the proximate cause test. See McGrath, 277 Ga.App. at 828-830 627 S.E.2d 866.
In a footnote, the court distinguished Crane on the ground that it "involved the felony murder statute, which was subject to two
interpretations" and asserted that "[s]uch is not the case here, since the vehicular homicide statute has been consistently interpreted and
applied." Id. at 830 n. 4 627S.E.2d 866. The Court of Appeals distinguished Crane similarly in an earlier vehicular homicide case.
See Johnson,170 Ga.App. at 434 317 S.E.2d 213 ("Crane is clearly inapposite to the instant case where there is no evidence of indirect
causation and which involves construction of an entirely different statute.").
Vehicular homicide and felony murder may be defined in "entirely different" statutes, in terms of their Code sections, but the relevant
causation language is indistinguishable, compare OCGA § 40-6-393(a) ("Any person who, without malice aforethought, causes the
death of another person through the violation of [various code sections] commits the offense of homicide by vehicle in the first degree...."
(emphasis supplied)), with OCGA § 16-5-1(c) ("A person also commits the offense of murder when, in the commission of a felony, he
causes the death of another human being irrespective of malice...." (emphasis supplied)). If Crane is good law, then this Court's
construction of the causation language in OCGA § 16-5-1(c) should be binding on the Court of Appeals when it interprets the virtually .
identical causation *766 language in the vehicular homicide statute. See Ga. Const. of 1983, Art. VI., Sec. VI, Par. VI ("The decisions of
the Supreme Court shall bind all other courts as precedents."). Crane is, however, no longer good law.

Stare Decisis Considerations
5. Stare decisis is an important principle that promotes the rule of law, particularly in the context of statutory interpretation, where our
incorrect decisions are more easily corrected by the democratic process. See Smith v. Salon Baptiste, 287 Ga. 23,
30, 694 S.E.2d 83(2010) (Nahmias, J., concurring specially). However, stare decisis is not an "'inexorable command,' nor 'a mechanical
formula of adherence to the latest decision.' ... Stare decisis is instead a 'principle of policy.- Citizens United v. Fed. Election
Commn., 558 U.S.
130 S. Ct. 876 920, 175 L. Ed. 2d 753 (2010) (Roberts, C.J., concurring) (citations omitted). In considering
whether to reexamine a prior erroneous holding, we must balance the importance of having the question decided against the importance
of having it decided right. Id. In doing so, we consider factors such as the age of the precedent, the reliance interests at stake, the
workability of the decision, and, most importantly, the soundness of its reasoning. See Montejo v. Louisiana, 556 U.S.
129 S.
Ct. 2079 2088:2089 173 L. Ed. 2d 955 (2009).
As demonstrated above, Crane's reasoning is unsound and contrary to the body of our law. Crane's holding may be workable in its
specific context—the death of a co-party directly caused by the intended victim of the underlying felony. As just discussed, however, this
Court and the Court of Appeals have been unable or unwilling to apply Crane's reasoning to all felony murder cases, much less to the
many other homicide statutes that use the same causation language. In addition, Crane affects no property or contract issues and
establishes no substantive rights, so it creates no meaningful reliance interests. (To be sure, the potential conspiring felon who is wellread in the law might be slightly less deterred from committing a dangerous felony by the belief that if one of his co-conspirators is killed
by the intended victim or a police officer, he will not face a murder charge, but that is not the sort of reliance the law usually recognizes
in the stare decisis analysis.)
That leaves, on the side of reaffirming Crane, only its age and its statutory nature. That is all Justice Thompson's dissent relies upon.
See Dissenting Op. at 769-70. Crane is indeed nearly three decades old, and in Crane and the only two subsequent cases in which we
actually applied its holding, the Court expressly noted that the General Assembly could correct the result. See Crane, 247 Ga. at
780 279 S E 2d 695 ("The choice of whether or not the conduct in the present case should be violative of our criminal statutes lies with
the General Assembly."); Hyman, 272 Ga. at 493 531 S.E.2d 708 ("If this result be viewed as a defect in our felony murder statute, the
remedy lies with the legislature." (quoting Hill, 250 Ga. at 280 295 S.E.2d 518)).17) "Without strong reason to set aside a long-standing
interpretation," Justice Thompson's dissent says, "we will not do so in the face of legislative acquiescence." Dissenting Op. at 769. But
see Durrence V. State, 287 Ga. 213, 216, n. 5, 695 S.E.2d 227 (2010) (Thompson, J.) (unanimously overruling a 26-year-old statutory
interpretation case in a footnote, briefly explaining why the precedent was decided incorrectly but not mentioning "legislative
acquiescence").
We have explained at length the strong reasons that exist to overrule Crane, which the dissents do not refute. Moreover, Crane's odd
reasoning and the inconsistent application of its holding by both appellate courts make resort to "legislative acquiescence" particularly
dubious.isl In large part *767because our Court and the Court of Appeals have not consistently applied Crane, it has not had the sort of
obviously far-reaching effects that are likely to stimulate a legislative response. Moreover, prosecutors will only rarely go to the trouble of
charging felony murder where Crane appears to apply, much less appealing the issue when the trial court follows our precedent (as the
trial courts must). Consequently, most of Crane's direct effect—the felony murder prosecutions that are never brought—goes unseen.
Furthermore, it is not clear how the General Assembly would go about correcting Crane. If the legislature revised the "he causes"
language in OCGA § 16-5-1(c) to say "he proximately causes," without simultaneously revising all the other homicide statutes that use
similar causation language (including the malice murder provision in subsection (a) of the same statute), the effort could backfire. We
could expect to see appeals by defendants arguing that the legislature's revision of one provision indicates that the language remaining
https://www.courtlistenencom/opinion/1346679/state-v-jackson/

4/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 — CourtListener.com

in all the other provisions means something else—what we said such language meant in Crane, that is, "directly causes." Nor do
legislatures commonly undertake to enact the highly detailed amendment that would be required to respond very specifically
to Crane—assuming that, in light of the inconsistent application of Crane, the General Assembly could even tell for sure what it needed
to correct.
In light of these considerations, we do not believe "that we can properly place on the shoulders of [the General Assembly] the burden of
the Court's own error." Girouard v. United States, 328 U.S. 61 69 66 S. Ct. 826 90 L. Ed. 1084 (1946). "Certainly, stare decisis should
not be applied to the extent that an error in the law is perpetuated," Etkind V. Suarez, 271 Ga. 352 357, 519 S.E.2d 210 (1999), and it
would not foster the objectives of predictability, stability, and consistent development of legal principles to reaffirm a decision that
branched away from the path of prior and subsequent causation law, has rarely been followed, and if truly followed would disrupt many
areas of settled law.

Conclusion
6. For these reasons, we hereby overrule State v. Crane, 247 Ga. 779 279 S.E.2d 695 and our subsequent cases relying
upon Crane. We hold that the felony murder statute requires only that the defendant's felonious conduct proximately cause the death of
another person. We therefore reverse the order of the trial court and remand the case for the jury to decide the causation question at
trial.
Judgment reversed and case remanded.
All the Justices concur, except HUNSTEIN, C.J., and BENHAM and THOMPSON, JJ., who dissent.
HUNSTEIN, Chief Justice, dissenting.
The State charged appellees Jackson and Smith with the felony murder of Daniels, who was shot and killed in self-defense by Hogan
after Daniels, together with appellees, attempted to rob Hogan at gunpoint. Relying on State v.
Crane, 247 Ga. 779 279 S.E.2d 695 (1981), the trial court dismissed the felony murder charges. In Crane, this Court held that a
defendant is not criminally liable for felony murder in those cases where *768 the murder victim was killed by someone other than the
defendant or another party to the commission of the underlying felony. Focusing on certain language in the felony murder statute,[9] the
majority overrules Crane and reverses the trial court. I cannot agree with the majority for the reason that the holding in Crane is
compelled by the plain and unambiguous language in OCGA § 16-2-20, the statute that identifies those persons who may be charged
with and convicted of the commission of a crime.
OCGA § 16-2-20 provides:

Every person concerned in the commission of a crime is a party thereto and may be charged with
and convicted of commission of the crime.

A person is concerned in the commission of a crime only if he:

Directly commits the crime;

Intentionally causes some other person to commit the crime under such circumstances that the
other person is not guilty of any crime either in fact or because of legal incapacity;

Intentionally aids or abets in the commission of the crime; or

Intentionally advises, encourages, hires, counsels, or procures another to commit the crime.
(Emphasis supplied.)
This Court recognized the effect of OCGA § 16-2-20 on the felony murder statute in Hill v. State 250 Ga. 277(1)
(b), 295S.E.2d 518 (1982).(101 Hill was convicted of the malice murder of police officer Mullinax and the felony murder of Darryl Toles, a
bystander who was inadvertently shot by Mullinax when the officer fired back in response to Hill's attack. Citing Crane, this Court
reversed the felony murder conviction because the evidence was clear that Hill "did not directly cause the death of Darryl Toles and may
not be convicted therefor." Id. at 280(1)(b) 295 S.E.2d 518. In the accompanying footnote this Court pointed out that OCGA § 16-2-20
(former Code Ann. § 26-801)

https://www.courtlisteneccom/opinion/1346679/state-v-jackson/

5/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 — CourtListener.com

provides that under certain circumstances, one may be held responsible for a crime one did not directly
commit. A review of that Code section shows none of the circumstances to be applicable here. The
closest, perhaps, is [OCGA § 16-2-20](b)(2) which allows a finding of criminal liability where one
"intentionally causes some other person to commit the crime under such circumstances that the other
person is not guilty of any crime either in fact or because of legal incapacity." (Emphasis supplied.)
There is, however, in this case no allegation or evidence that [Hill] intentionally caused Officer Mullinax
to shoot Darryl Toles.
Regardless whether or not appellees directly or proximately caused the death of Daniels, as Crane held, there is no question under the
facts stipulated by the parties that appellees did not directly commit the alleged crime; hence, they cannot come within the ambit of
OCGA § 16-2-20(b)(1). A review of the indictment establishes that the State does not allege that appellees "intentionally cause[d]"
Hogan, the intended armed robbery victim, to shoot and kill Daniels,l111so that OCGA § 16-2-20(b)(2) is not applicable. Finally, the facts
and allegations present no basis for considering Hogan to be a "person concerned in the commission of the alleged felony murder
under any other provision in OCGA § 16-2-20.
By reinterpreting OCGA § 16-5-1(c) to authorize defendants such as appellees to be charged with and convicted of felony
murder *769 when a defendant unintentionally but "proximately" causes some other person to commit the murder, the majority has
judicially rewritten OCGA § 16-2-20(b) to add a fifth category of criminal liability. Contrary to the majority's note, neither "[o]ur traditional
proximate cause law" nor the questionable case law interpreting OCGA § 40-6-393(a) authorizes the majority's cavalier expansion of
OCGA § 16-2-20(b). Maj. Op., fn. 6. I understand that many members of this Court are frustrated that the Legislature, despite our
repeated exhortations, see, e.g., Hyman v. State, 272 Ga. 492 493, 531 S.E.2d 708 (2000) (authored by Carley, J.), has declined to
amend OCGA § 16-2-20 to provide for criminal liability in situations of this nature. As currently enacted nothing in OCGA § 16-2-20
makes a person criminally liable when that person unintentionally but proximately causes some other person to commit a crime. But
creating this fifth theory of criminal liability all on our own is blatant judicial activism. The Legislature, not this Court, gets to decide
whether a person in this type of situation is a party to a crime. I cannot agree to this judicial usurpation of the legislative prerogative.
Instead, because OCGA § 16-2-20(b) expressly provides that a person is concerned in the commission of a crime "only if he comes
within one of its four categories, thereby unambiguously setting forth all legally recognized theories of criminal liability in this State, and
there is no allegation or evidence that appellees qualified under any of those four categories as parties to the crime of felony murder, I
would hold that the trial court's dismissal of the felony murder charges against appellees was correct and should be affirmed.
Accordingly, I respectfully dissent to the majority's opinion.
I am authorized to state that Justice BENHAM joins in this dissent.
THOMPSON, Justice, dissenting.
The Georgia felony murder statute provides that "[a] person also commits the offense of murder when, in the commission of a felony, he
causes the death of another human being irrespective of malice." OCGA § 16-5-1(c). In State v.
Crane, 247 Ga. 779 279 S.E.2d695 (1981), this Court unanimously held that a "death of one of the would-be felons at the hand of the
intended victim of the underlying felony" does not invoke the felony murder rule because the phrase "he causes" in the statute must be
strictly construed to mean one of the defendants directly caused the death. Crane, supra at 779 279 S.E.2d 695. The State concedes
that Crane is factually on all fours and accurately states the law in Georgia, but it urges this Court to overrule it.
The meaning of "causes" was open to two possible interpretations in Crane, and we chose the one that favored the accused rather than
the State. Id. As we have already said twice in the nearly 30 years since Crane, "[i]f this result be viewed as a defect in our felony
murder statute, the remedy lies with the legislature.- Hyman v. State, 272 Ga. 492 493 531 S.E.2d 708 (2000) (quoting Hill v.
State, 250 Ga. 277 280 295 S.E.2d 518 (1982)).

"[E]ven those who regard 'stare decisis' with something less than enthusiasm recognize that the
principle has even greater weight where[, as here,] the precedent relates to interpretation of a statute."
[Cit.] A reinterpretation of a statute after the General Assembly's implicit acceptance of the original
interpretation would constitute a judicial usurpation of the legislative function.
Smith v. Baptiste, 287 Ga. 23, 30, 694 S.E.2d 83 (2010), (Nahmias, J., concurring specially), quoting Abernathy v. City of
Albany, 269 Ga. 88 90 495 S.E.2d 13 (1998). Without strong reason to set aside a long-standing interpretation, we will not do so in the
face of legislative acquiescence. "If this Court has been wrong from the beginning, on this subject, let the legislative power be invoked to
prescribe a new rule for the future; until altered by that power, we are disposed to adhere to the rule which has been so long applied by
our Courts and is so well known to the legal profession." Etkind v. Suarez, 271 Ga. 352 358(5), 519 S.E.2d 210 (1999). Thus, unless
and until the General Assembly declares that the element of causation in the felony murder statute actually means proximate causation,
we should adhere to our interpretation of the statute as set forth in Crane.

https://www.courtlistener.com/opinion/1346679/state-v-jackson/

6/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 — CourtListeneccom

*770 "[No judicial system could do society's work if it eyed each issue afresh in every case that raised
it. (Cit.) ... The application of the doctrine of stare decisis is essential to the performance of a wellordered system of jurisprudence. In most instances, it is of more practical utility to have the law settled
and to let it remain so, than to open it up to new constructions, as the personnel of the court may
change, even though grave doubt may arise as to the correctness of the interpretation originally given
to it. (Cits.)" [Cit.]
Etkind, supra at 356-357(5) 519 S.E.2d 210.
"Certainly, stare decisis should not be applied to the extent that an error in the law is perpetuated. [Cit.] However, [Crane] is not an
erroneous statement of the law of Georgia, but merely a pronouncement by a majority of this Court as to the proper construction of the
[criminal] law of this state on a matter of first impression." Etkind, supra at 357(5) 519 S.E.2d 210. "'Stare decisis is the preferred
course because it promotes the evenhanded, predictable, and consistent development of legal principles, fosters reliance on judicial
decisions, and contributes to the actual and perceived integrity of the judicial process.'" Smith v. Baptiste, supra at 31, 694 S.E.2d 83
(Nahmias, J., concurring specially).
The identical fact pattem that was considered in Crane is now again before the Court, and the statute has remained unaltered by the
General Assembly despite the passage of 29 years. All that has changed is the composition of the Court. We cannot and should not
take it upon ourselves to expand upon the statutory language to achieve a result not expressed and not intended by the legislature. To
do so is to eliminate predictability, stability, and continuity that is essential to a well-ordered judicial system. For these reasons, I must
respectfully dissent.
I am authorized to state that Chief Justice HUNSTEIN and Justice BENHAM join in this dissent.

NOTES
See, e.g., Wilson, 190 Ga. at 829 10 S.E.2d 861 (upholding proximate cause instruction and malice murder conviction where the
defendant smashed the victim's skull with a hatchet and the victim died nine months later from infection and gangrenous lung
abscess)' Ward v. State, 238 Ga. 367 369 233 S.E.2d 175 (1977) (holding that, even if the defendant's act of throwing the drunken
victim off a bridge into a river "did not directly cause" the victim's death, "the jury was authorized to find that this act either materially
contributed to the death ... or materially accelerated it" under the proximate cause test set forth in Wilson and other cases)' Fleming v.
State, 240 Ga. 142 145 240 S.E.2d 37 (1977) (affirming the trial court's refusal to instruct the jury to acquit on malice murder if it found
that the defendant mortally shot the victim but also found that the "immediate cause" of the victim's death was drowning, because "[t]he
evidence established that the wounds were the proximate cause of the death"); Bishop V. State, 257 Ga. 136
140, 356 S.E.2d 503 (1987) (holding in a malice murder case that "'[w]here one inflicts an unlawful injury, such injury is the proximate
cause of death if the injury "directly and materially contributed to the happening of a subsequent accruing immediate cause of the
death,, "" noting that "[t]his court has held evidence of death by pulmonary embolism resulting from treatment after wounds were inflicted
by a defendant can present a question for a jury as to whether the wound was the proximate cause of death." (citations omitted)).
See, e.g., Jones v. State, 220 Ga. 899 902 142 S.E.2d 801 (1965) ("'A murder may be committed in perpetration of a felony,
although it does not take place until after the felony itself has been technically completed, if the homicide is committed within the res
gestae of the felony.' Certainly the killing is a part of the res gestae of the robbery in this case ... and is one of the incidental, probable
consequences of the execution of the design to commit the robbery." (citations omitted)); Dupree v. State, 247 Ga. 470 470-471,
472, 277 S.E.2d 18 (1981) (holding, where the victim died of heart failure brought on by stress and injuries incurred during a robbery,
that the evidence was sufficient to find that "the conduct of the appellant in perpetrating the robbery constituted the proximate cause of
the death of the deceased"); Larkin v. State, 247 Ga. 586 587 278 S.E.2d 365 (1981) (upholding felony murder conviction against the
defendants claim that the evidence was insufficient to show that "he caused his mother-in-law's death" when he stabbed her while
assaulting his wife and she later died from a pulmonary embolus as a complication of surgery to re-stitch the knife wound, explaining
that "[w]here one inflicts an unlawful injury, such injury is the proximate cause of death if the injury 'directly and materially contributed to
the happening of a subsequent accruing immediate cause of the death- (citation omitted)); burden v. State, 250 Ga. 325
329 297 S.E.2d 237 (1982) (affirming felony murder conviction where a store owner responding to a burglary died of a heart attack after
exchanging shots with the defendant, explaining that "the rule may be stated as follows: Where one commits a felony upon another,
such felony is to be accounted as the efficient, proximate cause of the death whenever it shall be made to appear either that the felony
directly and materially contributed to the happening of a subsequent accruing immediate cause of the death, or that the injury materially
accelerated the death, although proximately occasioned by a pre-existing cause."); Williams v. State, 255 Ga. 21
22 334 S.E.2d 691 (1985) (relying on burden to uphold felony murder conviction where the defendant shot the victim in the leg, causing
him to fall out of his vehicle, which then rolled over and killed him, because the aggravated assault "directly and materially contributed to
his death by asphyxiation"); State v. Cross, 260 Ga. 845 847 401 S.E.2d 510 (1991) (holding that "OCGA § 16-5-1(c), defining felony
murder, requires that the death need only be caused by an injury which occurred during the res gestae of the felony" and upholding an
indictment that charged the death of a baby more than a year after the defendant shook her (emphasis in original)); Skaggs, 278 Ga. at
19-20 22 596 S.E.2d 159 (applying the general test for proximate causation in a felony murder case and holding that the defendant's
aggravated assault by hitting and kicking the victim proximately caused the victim's death by causing him to fall and fatally hit his head
on the ground, rejecting the argument based upon Crane that the proximate cause jury instruction erroneously "failed to include
additional language expounding upon proximate cause when the accused does 'not directly cause the death'").
See, all with emphasis supplied, OCGA § 6-2-5.2 ("Any person who, without malice aforethought, causes the death of another
person through the violation of Code Section 6-2-5.1 [operating aircraft under the influence] commits the offense of homicide by
aircraft...."); § 16-5-2(a) ("A person commits the offense of voluntary manslaughter when he causes the death of another human
https://www.courtlisteneccom/opinion/1346679/state-v-jackson/

7/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 — CourtListener.com

being under circumstances which would otherwise be murder and if he acts solely as the result of a sudden, violent, and irresistible
passion...."); § 16-5-3(a) ("A person commits the [felony] offense of involuntary manslaughter in the commission of an unlawful act
when he causes the death of another human being without any intention to do so by the commission of an unlawful act other than a
felony."), (b) ("A person commits the [misdemeanor] offense of involuntary manslaughter in the commission of a lawful act in an unlawful
manner when he causes the death of another human being without any intention to do so, by the commission of a lawful act in an
unlawful manner likely to cause death or great bodily harm."); § 16-5-80(b) ("A person commits the offense of feticide if he or she willfully
and without legal justification causes the death of an unborn child by any injury to the mother of such child...."), (d) ("A person commits
the offense of voluntary manslaughter of an unborn child when such person causes the death of an unborn child under circumstances
which would otherwise be feticide and if such person acts solely as the result of a sudden, violent, and irresistible passion...."); § 40-6393(a) ("Any person who, without malice aforethought, causes the death of another person through the violation of [various motor
vehicle statutes] commits the offense of homicide by vehicle in the first degree...."), (b) ("Any driver of a motor vehicle who, without
malice aforethought, causes an accident which causes the death of another person and leaves the scene of the accident in violation of
subsection (b) of Code Section 40-6-270 commits the offense of homicide by vehicle in the first degree...."), (c) ("Any person who
causes the death of another person, without an intention to do so, by violating any [other] provision of this title ... commits the offense of
homicide by vehicle in the second degree when such violation is the cause of said death...."); § 40-6-393.1(b)(1) ("A person commits the
offense of feticide by vehicle in the first degree if he or she causes the death of an unborn child by any injury to the mother of such child
which would be homicide by vehicle in the first degree...."), (c)(1) ("A person commits the offense of feticide by vehicle in the second
degree if he or she causes the death of an unborn child by any injury to the mother of such child by violating any [other] provision of this
title ... which would be homicide by vehicle in the second degree...."); § 40-6-396(a) ("Any person who, without malice
aforethought, causes the death of another person through the violation of subsection (a) of Code Section 40-6-26 commits the offense of
homicide by interference with an official traffic-control device or railroad sign or signal...."); § 52-7-12.2(a) ("Any person who, without
malice aforethought, causes the death of another person through the violation of [various code sections] commits the offense of
homicide by vessel in the first degree."), (b) ("Any operator of a vessel who, without malice aforethought, causes a collision or accident
which causes the death of another person and leaves the scene of the collision or accident in violation of subsection (a) of Code Section
52-7-14 commits the offense of homicide by vessel in the first degree...."), (c) ("Any person who causes the death of another
person, without an intention to do so, by violating any [other] provision of this title ... commits the [misdemeanor] offense of homicide by
vessel in the second degree when such violation is the cause of said death."); § 52-7-12.3(b)(1) ("A person commits the offense of
feticide by vessel in the first degree if he or she causes the death of an unborn child by any injury to the mother of such child through the
violation of [various code sections]...."), (c)(1) ("A person commits the offense of feticide by vessel in the second degree if he or she
causes the death of an unborn child by any injury to the mother of such child by violating any [other] provision of this title....").
See, e.g., Cain V. State, 55 Ga.App. 376, 381-382, 190 S.E. 371 (1937) ("In a case of manslaughter, the negligence of the defendant
must be the proximate cause of the death, in order to constitute such crime.... 'Whoever does a wrongful act is answerable for all the
consequences that may ensue in the ordinary course of events, though such consequences are immediately and directly brought about
by an intervening cause, if such intervening cause was set in motion by the original wrong-doer, or was in reality only a condition on or
through which the negligent act operated to induce the injurious result.'" (citations omitted)); Coley v. State, 117 Ga.App. 149,
151 159 S.E.2d 452 (1968) ("To convict for the offense of involuntary manslaughter in the commission of an unlawful act, it is
necessary, among other things, that the death be the proximate result of the unlawful act. Or, as it may otherwise be stated, the unlawful
act must be found by the jury to be the proximate cause of the homicide." (citations omitted)); Cook V. State, 134 Ga.App. 357,
359, 214 S.E.2d 423 (1975) (approving detailed proximate cause instruction on murder, voluntary manslaughter, and involuntary
manslaughter charges); Johnson v. State, 170 Ga.App. 433, 434 317 S.E.2d 213 (1984) ("The term and concept of proximate cause
has been applied in vehicular homicide cases in this state for many years."); Hickman v. State, 186 Ga.App. 118,
119 366 S.E.2d 426 (1988) (rejecting claim in voluntary manslaughter case that the victim did not die "as a direct, proximate result of
the strike or strikes inflicted by defendant because the cause of death was due to an intervening factor: pulmonary embolism,"
citing Heath v. State, 77 Ga.App. 127, 130-131, 47 S.E.2d 906(1948)); Anderson v. State, 226 Ga. 35 37 172 S.E.2d 424 (1970)
(approving charge on involuntary manslaughter in the commission of an unlawful act, explaining that the "excerpt complained of when
considered with the entire charge plainly instructed the jury that the act of the defendant must have been the proximate cause of the
death of the deceased"); Miller v. State, 236 Ga.App. 825, 828 513 S.E.2d 27 (1999) ("In vehicular homicide cases the State must
prove that the defendant's conduct was the 'legal' or 'proximate' cause, as well as the cause in fact, of the death." (citations
omitted)); Walker v. State, 251 Ga.App. 479, 481 553 S.E.2d 634 (2001) (upholding voluntary manslaughter conviction, stating that "
[t]he test for determining causation in homicide cases is" whether the unlawful injury is "'the efficient, proximate cause of death'" (citation
omitted)); Pitts v. State, 253 Ga.App. 373, 374 559 S.E.2d 106 (2002) ("In order to be convicted of vehicular homicide under OCGA §
40-6-393, the conduct of the defendant must have caused the death. This requires showing that 'the defendant's conduct was the "legal"
or "proximate" cause, as well as the cause in fact, of the death.'" (citations omitted)); McGrath v. State, 277 Ga.App. 825, 828829, 627 S.E.2d 866(2006) ("gin order to be convicted of vehicular homicide by recklessly driving in violation of OCGA § 40-6-390, [the
defendant's] conduct must have caused the death of [the victim].... 'This requires showing that "the defendant's conduct was the 'legal'
or 'proximate' cause, as well as the cause in fact, of the death.""' (citations omitted)).
The only other support the Crane Court offered for its holding was that "[o]ther jurisdictions apparently are split on this issue, the
numerical majority favoring a negative answer," citing an ALR annotation without any analysis of whether the felony murder statutes and
case law in those jurisdictions mirror Georgia's. See Crane, 247 Ga. at 779 & n. 3 279 S.E.2d 695 (citing 56 ALR3d 239).
The Crane Court's perfunctory analysis of the felony murder statute to reach a holding that limits the scope of felony murder liability is
not unique. See Ford v. State, 262Ga. 602 602, 423 S.E.2d 255 (1992) (holding, based largely on case law from other states, and
despite the felony murder statute's use of the unrestricted term "a felony," that "dangerousness is a prerequisite to the inclusion of a
felony as an underlying felony under the felony murder statute of this state"). See also Shivers v. State, 286 Ga. 422, 425-428 & n.
3 688 S.E.2d 622 (2010) (Nahmias, J., concurring specially) (criticizing the Ford Court's holding and reasoning, including its
misstatement about the common law history of Georgia's felony murder statute).
It may be noted that this holding had no immediate effect on the case, because the defendant killed the police officer during the
shootout, and his malice murder conviction and death sentence for that crime were affirmed. See Hill, 250 Ga. at 279, 281, 284,
287, 295 S.E.2d 518. However, the Eleventh Circuit later vacated the capital conviction based upon violations of Hill's due process rights
https://www.courtlistenercom/opinion/1346679/state-v-jackson/

8/9

9/3/2020

State v. Jackson, 697 S.E.2d 757 — CourtListener.com

at trial. See Hill v. Turpin, 135 F.3d 1411 1412 (11th Cir.1998).
Looking to a footnote in Hill, see 250 Ga. at 280, n. 3, 795 S.E.2d 518, Chief Justice Hunstein's dissent argues that "the holding
in Crane is compelled by the plain and unambiguous language in OCGA § 16-2-20, the statute that identifies those persons who may be
charged with and convicted of the commission of a crime." Dissenting Op. at 768. The Crane Court did not suggest that its holding was
compelled by § 16-2-20, mentioning the predecessor version of that statute only in passing, see 247 Ga. at 779, n. 4, 279 S.E.2d 695
and the Chief Justice does not try to defend the causation reasoning on which Crane did rely. Moreover, in its footnote, the Hill majority
was not explaining why felony murder liability was limited by OCGA § 16-2-20. The Court instead had accepted Crane's limitation of
liability to deaths "directly cause[dj" by the defendant and was looking to the party-to-a-crime statute to see if it might be used to expand
liability to "a crime one did not directly commit." 250 Ga. at 280 & n. 3 295 S.E.2d 518. On the incorrect *direct causation" assumption,
the answer was no. The Chief Justice cites no authority for the proposition that the party-to-a-crime statute imposes a limitation on
proximate causation. To the contrary, OCGA § 16-2-20 expandscriminal liability from a defendant's own criminal acts (and their
proximate consequences) to the criminal acts of his accomplices and agents (and their proximate consequences). Thus, the question in
this case is not whether the defendants intentionally caused their victim to commit a crime by killing their co-conspirator; the victim acted
in self-defense and committed no crime. The question is whether a jury could reasonably find that the predicate felonies
the defendants intentionally committed, alone or as co-parties under OCGA § 16-2-20(b)(3) and (4), proximately caused Daniels' death
when their intended victim defended himself against the armed robbery. Our traditional proximate cause law answers that question
affirmatively. Finally, we note that the effort to limit felony murder liability based on OCGA § 16-2-20 runs into the same problem as the
effort to limit liability based on a constricted view of causation: the same reasoning should apply to all similar criminal and homicide
cases, but that has never been done, as the discussion below demonstrates. In short, this opinion does nothing to alter or expand
OCGA § 16-2-20. We are simply interpreting the language of the felony murder statute.
Contrary to the assertion in Chief Justice Hunstein's dissent, the Court has never suggested that the General Assembly needs to
"amend OCGA § 16-2-20 to provide for criminal liability in situations of this nature." Dissenting Op. at 769. Indeed, that dissent argues
for the first time ever that OCGA § 16-2-20, as opposed to the causation element in OCGA § 16-5-1 (c), requires the result reached
in Crane. See footnote 6 above.
Even aside from these peculiar circumstances, it can be perilous to rely heavily on legislative silence and inaction to conclude that a
court's interpretation of a statute is correct.
Legislative silence is a poor beacon to follow in discerning the proper statutory route.... The verdict of quiescent years cannot be invoked
to baptize a statutory gloss that is otherwise impermissible. This Court has many times reconsidered statutory constructions that have
been passively abided by [the legislature]. [Legislative] inaction frequently betokens unawareness, preoccupation, or paralysis. "It is at
best treacherous to find in [legislative] silence alone the adoption of a controlling rule of law." Girouard v. United States, 328 U.S. 61 69
[, 66 S. Ct. 826 90 L. Ed. 1084) (1946).... Where, as in the case before us, there is no indication that a subsequent [General Assembly]
has addressed itself to the particular problem, we are unpersuaded that silence is tantamount to acquiescence, let alone... approval....
Zuber v. Allen, 396 U.S. 168, 185 & n. 21, 90 S. Ct. 314, 24 L. Ed. 2d 345 (1969). See also Helvering v. Hallock, 309 U.S. 106 119120, 60 S. Ct. 444 84 L. Ed. 604 (1940) ("To explain the cause of non-action by [the legislature] when [the legislature] itself sheds no
light is to venture into speculative unrealities.").
Under OCGA § 16-5-1(c), "[a] person ... commits the offense of murder when, in the commission of a felony, he causes the death of
another human being irrespective of malice."
The majority cites to Hill albeit with no significant discussion." Thornton v. Ga. Farm Bureau Mut. Ins.
Co., 287 Ga. 379, 695 S.E.2d 642 (2010). See Majority Opinion, p. 763.
The pertinent language in the indictment charges appellees "with the offense of MURDER for that [appellees] ... while in the
commission of a felony, to wit: AGGRAVATED ASSAULT as alleged in Count 4 of this Indictment, did cause the death of Jerold Daniels,
a human being." Count 4 alleged that appellees "did unlawfully make an assault upon the person of Arthur Hogan, with a firearm ..." The
parties stipulated that Hogan was the person appellees intended to rob.

https://www.courtlisteneccom/opinion/1346679/state-v-jackson/

9/9

APPENDIX K-

Georgia Supreme Court In Re: Formal Advisory Opinion 10-1, 744 S.E.2d 798 (2013).

Supreme Court of Georgia.
IN RE: FORMAL ADVISORY OPINION 10-1.
No. 51 OU1679.
Decided: July 11, 2013
Dennis R. Dunn, Deputy A.G., Stefan Ernst Ritter, Senior A.A.G., Samuel S. Olens, A.G.,
Department of Law, J. Randolph Evans, Mckenna, Long & Aldridge, LLP, Paula J. Frederick,
General Counsel, Robert E. McCormack III, State Bar of Georgia, John Joseph Shiptenko, Office
of The General Counsel, Michael Lanier Edwards, Eastern Judicial Circuit Public Defender's Office,
Savannah, James B. Ellington, Hull Barrett, PC, Augusta, for In re Formal Advisory Opinion 10-1.
Responding to a letter from the Georgia Public Defender Standards Council (GPDSC), the State
Bar Formal Advisory Opinion Board (Board) issued Formal Advisory Opinion 10-1 (FAO 10-1), in
which the Board concluded that the standard for the imputation of conflicts of interest under Rule
1.10(a) of the Georgia Rules of Professional Conduct applies to the office of a circuit public
defender as it would to a private law firm. FAO 10-1 was published in the June 2010 issue of the
Georgia Bar Journal and was filed in this Court on June 15, 2010. On July 5, 2010, the GPDSC
filed a petition for discretionary review which this Court granted on January 18, 2011. The Court
heard oral argument on January 10, 2012. For reasons set forth below, we conclude, as did the
Board, that Rule 1.10(a) applies to a circuit public defender office as it would to a private law firm,
and pursuant to State Bar Rule 4.403(d), we hereby approve FAO 10-1 to the extent it so holds.'
1. At the heart of FAO 10-1 is the constitutional right to conflict-free counsel and the construction of
Rule 1.10(a) of the Georgia Rules of Professional Conduct. "Where a constitutional right to counsel
exists, our Sixth Amendment cases hold that there is a correlative right to representation that is
free from conflicts of interest." Wood v. Georgia, 450 U.S. 261, 271 (101 SC 1097, 67 LE2d 220)
(2008). Indeed, this Court has stated in no uncertain terms that, "Effective counsel is counsel free
from conflicts of interest." Garland v. State, 283 Ga. 201 (657 S.E.2d 842) (2008). In keeping with
this unequivocal right to conflict-free representation, Rule 1.10(a) provides as follows:
While lawyers are associated in a firm, none of them shall knowingly represent a client when any
one of them practicing alone would be prohibited from doing so by Rule 1.7: Conflict of Interest:
General Rule, 1.8(c): Conflict of Interest: Prohibited Transactions, 1.9: Former Client or 2.2:
Intermediary.
(Emphasis in original.) Comment [1] concerning Rule 1.10 defines "firm" to include "lawyers . in a
legal services organization." Comment [3] further provides "Lawyers employed in the same unit of
a legal service organization constitute a firm,."
https://caselaw.findlawcom/ga-supreme-court/1638811.html

1/4

9/3/2020

IN RE: FORMAL ADVISORY OPINION 10-1. I FindLaw

Under a plain reading of Rule 1.10(a) and the comments thereto, circuit public defenders working
in the circuit public defender office of the same judicial circuit are akin to lawyers working in the
same unit of a legal services organization and each judicial circuit's public defender's office2 is a
"firm" as the term is used in the rule. This construction is in keeping with our past jurisprudence. Cf.
Hung v. State, 282 Ga. 684(2) (653 S.E.2d 48) (2007) (attorney who filed motion for new trial was
not considered to be "new" counsel for the purpose of an ineffective assistance of counsel claim
where he and trial counsel were from the same public defender's office); Kennebrew v. State, 267
Ga. 400 (480 S.E.2d 1) (1996) (appellate counsel who was from the same public defender office as
appellant's trial lawyer could not represent appellant on appeal where appellant had an ineffective
assistance of counsel claim); Ryan v. Thomas, 261 Ga. 661 (409 S.E.2d 507) (1991) (for the
purpose of raising a claim of ineffective assistance of counsel, "attorneys in a public defender's
office are to be treated as members of a law firm ."); Love v. State, 293 Ga.App. 499, 501 at fn. 1
(667 S.E.2d 656) (2008). See also Reynolds v. Chapman, 253 F3d 1337, 1343-1344 (11th
Cir.2001) ("While public defenders' offices have certain characteristics that distinguish them from
typical law firms, our cases have not drawn a distinction between the two."). Accordingly, FAO 10-1
is correct inasmuch is it concludes that public defenders working in the same judicial circuit are
"firms" subject to the prohibition set forth in Rule 1.10(a) when a conflict exists pursuant to the
conflict of interest rules listed therein, including in particular Rule 1. 7.3 That is, if it is determined
that a single public defender in the circuit public defender's office of a particular judicial circuit has
an impermissible conflict of interest concerning the representation of co-defendants, then that
conflict of interest is imputed to all of the public defenders working in the circuit public defender
office of that particular judicial circuit. See Restatement (Third) of the Law Governing Lawyers §
123(d)(iv) ("The rules on imputed conflicts . apply to a public-defender organization as they do to a
law firm in private practice .").
2. Despite the unambiguous application of Rule 1.10(a) to circuit public defenders, GPDSC
complains that FAO 10-1 creates a per se or automatic rule of disqualification of a circuit public
defender office. We disagree. This Court has stated that "[Oven that multiple representation alone
does not amount to a conflict of interest when one attorney is involved, it follows that counsel from
the same [public defender office] are not automatically disqualified from representing multiple
defendants charged with offenses arising from the same conduct." Burns v. State, 281 Ga. 338,
340 (638 S.E.2d 299) (2006) (emphasis in the original). Here, Rule 1.10 does not become relevant
or applicable until after an impermissible conflict of interest has been found to exist. It is only when
it is decided that a public defender has an impermissible conflict in representing multiple
defendants that the conflict is imputed to the other attorneys in that public defender's office. Even
then, multiple representations still may be permissible in some circumstances. See, e.g., Rule
1.10(c) ("A disqualification prescribed by this rule may be waived by the affected client under the

https://caselaw.findlaw.com/ga-supreme-court/1638811.html

2/4

IN RE: FORMAL ADVISORY OPINION 10-1.1 FindLaw

9/3/2020

conditions stated in Rule 1.7: Conflict of Interest: General Rule.) Thus, FAO 10-1 does not create a
per se Rile of disqualification of a circuit public defender's office prior to the determination that an
impermissible conflict of interest exists and cannot be waived or otherwise overcome.
Although a lawyer (and by imputation his law firm, including his circuit public defender office) may
not always have an impermissible conflict of interest in representing multiple defendants in a
criminal case, this should not be read as suggesting that such multiple representation can routinely
occur. The Georgia Rules of Professional Conduct explain that multiple representation of criminal
defendants is ethically permissible only in the unusual case. See Rule 1.7, Comment [7] ("The
potential for conflict of interest in representing multiple defendants in a criminal case is so grave
that ordinarily a lawyer should decline to represent more than one co-defendant."). We realize that
the professional responsibility of lawyers to avoid even imputed conflicts of interest in criminal
cases pursuant to Rule 1.10(a) imposes real costs on Georgia's indigent defense system, which
continually struggles to obtain the resources needed to provide effective representation of poor
defendants as the Constitution requires. See Gideon v. Wainwright, 373 U.S. 335 (83 SC 792, 9
LE2d 799) (1963). But the problem of adequately funding indigent defense cannot be solved by
compromising the promise of Gideon. See Garland v. State, 283 Ga. 201, 204 (657 S.E.2d 842)
(2008).
Since FAO 10-1 accurately interprets Rule 1.10(a) as it is to be applied to public defenders
working in circuit public defender offices in the various judicial circuits of this State, it is approved.4
Formal Advisory Opinion 10-1 approved.
FOOTNOTES
In FAO 10-1, the Board purported to answer a broader question—whether "different lawyers
employed in the circuit public defender office in the same judicial circuit [may] represent codefendants when a single lawyer would have an impermissible conflict of interest in doing so"—and
we asked the parties to address a similar question in their briefs to this Court. That statement of
the question, however, is too broad. The real issue addressed by the Board—and addressed in this
opinion—is solely a question of conflict imputation, that is, whether Rule 1.10(a) applies equally to
circuit public defender offices and to private law firms. No doubt, the question of conflict imputation
under Rule 1.10(a) is part of the broader question that the Board purported to answer and that we
posed to the parties. But whether multiple representations are absolutely prohibited upon
imputation of a conflict—even with, for instance, the informed consent of the client or the
employment of "screening" measures within an office or firm—is a question that goes beyond Rule
1.10(a), and it is one that we do not attempt to answer in this opinion. To the extent that FAO 10-1
speaks to the broader question, we offer no opinion about its correctness.
There are 43 circuit public defender offices in Georgia.
https://caselaw.findlaw.com/ga-supreme-courtJ1638811.html

3/4

9/3/2020

IN RE: FORMAL ADVISORY OPINION 10-1. I FindLaw

a. Rule 1.7 of the Georgia Rules of Professional Conduct provides:(a) A lawyer shall not represent
or continue to represent a client if there is a significant risk that the lawyer's own interests or the
lawyer's duties to another client, a former client, or a third person will materially and adversely
affect the representation of the client, except as permitted in (b).(b) If client informed consent is
permissible a lawyer may represent a client notwithstanding a significant risk of material and
adverse effect if each affected client or former client gives informed consent confirmed in writing to
the representation after: (1) consultation with the lawyer pursuant to Rule 1.0(c); (2) having
received in writing reasonable and adequate information about the material risks of and reasonable
available alternatives to the representation; and (3) having been given the opportunity to consult
with independent counsel.(c) Client informed consent is not permissible if the representation: (1) is
prohibited by law or these Rules; (2) includes the assertion of a claim by one client against another
client represented by the lawyer in the same or a substantially related proceeding; or (3) involves
circumstances rendering it reasonably unlikely that the lawyer will be able to provide adequate
representation to one or more of the affected clients. The maximum penalty for a violation of this
Rule is disbarment.
4. Our opinion cites several precedents that concern the constitutional guarantee of the assistance
of counsel, and it is only fitting that we think about the constitutional values that Rule 1.10
promotes as we consider the meaning of Rule 1.10. We do not hold that the imputation of conflicts
required by Rule 1.10 is compelled by the Constitution, nor do we express any opinion about the
constitutionality of any other standard for imputation. Rule 1.10 is a useful aid in the fulfillment of
the constitutional guarantee of the right to the effective assistance of counsel, but we do not hold
today that it is essential to fulfill the constitutional guarantee. We do not endorse any particular
alternative to Rule 1.10(a), but we also do not foreclose the possibility that Rule 1.10(a) could be
amended so as to adequately safeguard high professional standards and the constitutional rights
of an accused—by ensuring, among other things, the independent judgment of his counsel and the
preservation of his confidences—and, at the same time, permit circuit public defender offices more
flexibility in the representations of co-defendants. As of now, Rule 1.10 is the rule that we have
adopted in Georgia, FAO 10-1 correctly interprets it, and we decide nothing more.
PER CURIAM.
All the Justices concur.

https://caselaw.findlaw.com/ga-supreme-court/1638811.html

4/4

APPENDIX L-

Hancock County Superior Court, Westmoreland v. Johnson, No. 11-HC-034. Docket Report.

wt tt

("7"0::7
E 940 it.14.

Lit ,(Iffia-3 tack mid and

;.5 0 20U

Fobtanoziftwant

V.
v•

CNA ftdu-9

Munn _1)‘Irktepn

WS-Latl-

swirl:kr*

N; titan

ti

%4A

Mau*, in DATA obito

C.V.

Cn %bon rotecii
and Dan,

inntnia InAtich

%extent) rear ciaffidiuks, and

put htha-mod

a;dant!. micort'io3 cutetiorys cu
nk
Nat in kiantneX acerimN Cntr i., ord

ciintsi ih Otharta Corps
ors clorioncrks

%or* tam I D-213-1k WI\ 41/2.
it dale'tna AN
(r.

NIA Noma NustOr Gllet\ -

ia tiocurnant is

IS* catined evieancv bisT
&NAAS acuyetlan v
otAh 0,C-a AIR - t -44-:Catink-3 DA
VtaitOVIN et WVAISKAt
&t.S.1 Skr.13"..AL ?Mu. sNutA
\Mit °local %Da fackuirksi
recortb) br Aar tsii doted saccor
it8 i33 thleyina or -1,93.1 tha
t
It
mAnt itte not incite:led I aNkaded.

1
.1

Scanned with CamScanner

, tiatt\ eotiked %iltitr in St 1 or
Isar Moo,

E

Csiiimi‘
E

% \ gAto 114-` Ica liN
it) tit,

1)C (pi:11E4)1-11;s

kw Corpua..
b *_

,
\ntIqttionla kturlybe lb IA in e
i
tce
itht
h
re
t yam&
A ruct\licialatt tituhtM thy' Whim)
ibr bzoto3 ffilithal Sp?) 14)-C%
E al tit apti ArtilymanA- ItilOool y.i0 imt.) -0
ii) *ttr;Aos gutter (ftentak.,.'in.0.. tma wyncF
11) ,tft
Ii 0 CmiNg of 'Anal r 1,lb-rya
"t" 9'.00A.M,
0 \ ekatieSk Wti ttheAke Ott 60
airy natithAti-..tiros 4„ Alla 0 1 2012
0 ii) brat (ruche 9zikstt1/4
iimligimorc?e,'
AI NouttoMatg 0.0alktr) Waibii
‘ :'"" - . '
3.1 Nce4nk MA anti attni As ' 6. anti
Ne
nti
a) INnzgkinit4 vett and N. , i liv trit.veyLv llauwirti‘rrciati
anattAkapppirtVM-Dta
I to) Nit tRem kko
ht e, at Claims 4.0“:&inual
SAinStlatraltin or &ht. L5-13410
ti) gitwinolWad ClunAbkil Shiccnetb
t-itet
1 pa) CD4Vg• af WEatek (a-tri-CCI
, t3.) kartini Aiti..c Dia.Thi22taisid %lot L9-IA-ot)
I 14) ON:trona S CatesaL (Skid illethe3 C1
-2s-o%
, 15.)tft-tin lb Didoisk Mended 3ilir;61 tesnufrer
Laid Mork.)1041-01
11 161-__
en thib• to Via. -Nd 65't shtuaraex3
43- (1,--10-0S )

ei..-k.

(o_

43 _
-S. _
',ID__
.-- 141-

--m-

....
L.14.-_
_LS:
—V
—_311._
__.39
- ACL_
—AO- .4-2.

M tog, c,i PA95.17 lariAett IN L.I.N.Q
.Alftandarbhui, ts S G Wield) AI_
aD,1rat) -*C o\ Bait ,crkicied kV tnniaL acc
eA

trte. (WiwiCi arcritz)
41.1____.-k
.72.) &thy( balms\ %Jain For Mu.) -gra fitai-i%
,93).-__ #
-I
2411..Ace iD Init.\ TuttiltamillAirrn likolartic
01-2.10-01)
DIA4oremt item lagaTurddidvelii i
ti tiVIGAi Lt2-4-04)
211) Le..-ttec fin, SanhtttkE crimust
i filearkit. Clusikm) Li- t'104
ail cerie et Aptr ib kiilL 66orgio
, &creme. (tart U-at-10\
.24.M2c.s.sitr‘ tii" I. Sebnto au.K.Av
. 014 (12-2B-10450Acas)
24) wt.. Th),,urm,,,,, feunsei t W.Dic
ker 0019tth ) 6-1St-t0
M3.) Mandl Lob- to LC.) Nit or Gerniu.
SAS(Diet' 1.11-UAD)
S) tflobssn ter W irmorlera the, ID AIL Ux5ick
t. ibhat CI-11-iticp >
32) Veconme.Ruh*e_. Cleft of oe
ur lynx 1. Ile is -to)
as) Lac tars lard Cbiet NfrutIve., Cle
rk gt--.2/1r113)
M) t'
frOn Cs Coat Vial, Th.p. iletorcls Cucurlan) auk
tv,Oph b. .6.
Jass 3ttese_ -tiny, V‘tat thbet . catty, DivA Vet-7
Ad.
it.71.— *
tq 1_ k

Scanned with CamScanner

4+

:AL
,
.. ri .
.it_r_
(V
*-:
-St--St—Silt
_ 121

J22
St
_.!...P__
4

Amu

t.
C

41)--k•
471

r, 4SL*
441__
453— kle-- qre--VV01- ataallii

E kal tA3.\
4-1.L*

9osti-ccalicsun

taktiCtd fjae int6611) 45 -I% -en
&Wu ez)

.

Q
F

1

1
I

I

Klatt...4*N esidento
Cdautted in to a&L edidentia3 claws. kv% ae
rt
Na4343 Carr 4.4r

Si

bed

/041
3 ,f rise. 02041
a

I
I

Itw. Bouts Liotivralbuti INA

hdtttniett- Oastri. ties
Aanimg aunty Swot- CdAft
a.tat besf
-5v 1 Beutuatto

41

ifik

r

*vont; tom..

tinceek loits Drib,
rrt~

Attn

*11-its. &toy. WE/

Scanned with CamScanner

1

APPENDIX M-

Cobb County Superior Court, Westmoreland v. State, No. 07-9-6020, Extraordinary Motion for
New Trial- Order entered June 9, 2011.

Filed In Office Jun-09-2811 16:25:49

ID# 201 —0071711—CR
age 1

IN THE SUPERIOR COURT OF COBB CO
STATE OF GEORGIA
Clerk

www.cobbsuperiorcourtclerk.com
Jay C. Stephenson
of Superior Court Cobb County

STATE OF GEORGIA
■

CRIMINAL
FILE NO: 07-9-6020-42

vs.
AMOS WESTMORELAND,
Defendant.
ORDER
The Defendant having filed an Extraordinary Motion for New Trial based
on newly discovered evidence and the Court having reviewed the same and the
record in this case;
IT IS HEREBY ORDERED AND ADJUDGED as follows:

0.C.GA §3-3-23 states:
"A new trial my be granted in any case where any material evidence - - - relating to new and material facts is discovered by the applicant after the
rendition of a verdict against him and is brought to the notice of the Court
within the time allowed by law for entering a Motion for New Trial"
O.C.G.A. §5-5-41 a) expands the time beyond 3o days if some good reason
is shown, as judged by the Court.

The Defendant was convicted by a jury of thirteen of the sixteen counts
against him, including felony murder, on October 23, 2008 and was sentenced on
November 6, 2008.

ID# 2011-0071711—CR
Page 2

A timely Motion for New Trial was denied and the Supreme Court affirmed
the conviction on August 10, 2010 — 287 Ga. 688.

The Defendant alleges that he is entitled to a new trial because evidence of
the "Cobb County Police Departments' Restricted Pursuit Procedures" were not
introduced into evidence.

However this is not newly discovered evidence. The record shows that
Cobb County Police Pursuit Procedures where argued at trial and at Motion for
New Trial, even though a copy was not submitted. The Supreme Court in its
decision in this case @ 287 Ga. 688 discussed these procedures in Divisions 1 and
2 of their decision.

The Defendant cannot show that the Cobb County Police Restricted
Pursuit Procedures were not known about until after trial.
Therefore Defendant's Motion for New Trial is denied.
SO ORDERED this

day of

ZIE

JUDGE
P. GRUBEtS
Superior Court of Cobb County
State of Georgia

2

2011.

ID# 2011-0071711—CR
Page 3

CERTIFICATE OF SERVICE

This is to certify that I have this day served all interested parties in the
tiern and forewlisg matter by depositing a copy of this Order dated the
day of Th4 aJ
,2011 in the Cobb County Mail System in the
properly addressed envelopes with adequate postage thereon addressed as
follows:
Jason Marbutt, Esq.
Bruce Hombuclde, Esq.
Assistant District Attorney
Cobb Judicial Circuit
Interdepartmental Mail
Amos Westmoreland #1041629
Hancock State Prison
701 Prison Blvd.
Sparta, GA 31087

This Crel day of UELA-0

2011.

r-escostaitiel-Roucto

Kimberly Carroll-Hawlcins
Judicial Administrative Assistant to
Judge Adele P. Grubbs

APPENDIX N-

Cobb County Superior Court, Westmoreland v. State No. 07-9-6020, Extraordinary Motion in
Arrest of Judgement- Order entered July 1, 2011; April 9, 2012.

WOO Offin rifler ilitain
ID* WS1R-1111146429—CR
Pep•

IN THE SUPERIOR COURT OF CO
STATE OF GEORGIA

Ci9Le% C
selliimpteteciartel•rea
Jay C. Stillaile
art of Senrin Cart MI Comb

•

STATE OF GEORGIA

•

CRIMINAL
FILE NO: 07+

42

•
•
•
•

AMOS WESTMORLAND, Mt,
Defenissit

OULU
ille alum SIM an Order denying the Defendants Extraordinary Motion
in And ofiludgment atonal which is attached and made a part bertat and
We Ddendent filed a Nader oiAppsel to dist Order.
The Ddendant filed a ergAmendment to the Extramtithasy 'dation in
Attest of Judgment.* The Court did not nth on said amendment because the
Appeal was pending.
The as Amendment to theExtmotdiaary Motion in Attest of Judgment
having hoesmimed;
IT IS IMILIWYORDEREDAND ADJTJDIGED that the IsAmended
Estramthnaty Motion in Attest otludgment is denied.

SO ORDERED this

*of

2012:

JUDGE ADBtS P. GRUBBS
Superior Court of Cobb County
State of Georgia

I

Scanned with CamScanner

g topic.

IN THE SUPERIOR ODURT OF COB

STATE OF GEORGIA

Jar

STATE OF GEORGIA

ant of topyrior tart Coll Canty

CRIMINAL
FILE NO: o7g-lionoma

es.
AMOS WESTMORELAND, lit.

r.

Dalsothon.

•

0.82,A11
The Defendant having filed an Watracedinsry Mod= in Arrest of
indpeents and the same laving beat we and consi

dered;

fillitiMY ORDERED ANDADAIDGED as follows:
t.

The Defendant was convicted by *jury detain older sateen coun

ts for

which be was Indicted 'Spans felony murder, on October 23, moll

and was

sentasaid on Narrate 6, aooll.
After that Mod Court denial the Madan for Newts's', the Soprano
affirmed the conviction on June aft, aoro SGa.

Court

bit A oripy of that decision

is intorporsted into this Order. and Efteelud beta

to order to ektilenge a axwittion after it has been affirmed on direc

t

'PPS, criminal defendants•is required to file an extraordinary moti

on for DOW

trial, a motion in arrest of judgment or a petition for habeas carp

us. Hume u

Staff *86 Ga. 226.

Scanned with CamScanner

I DO 201 ii:11014.74 —CR
4,

A motion for meet of Nehmen Use fore non-smandeh

le defect which

appears on the facia of the record or pleadings. It
must
at which the Judgment was obtained.

be made during the term

The remitter from the Suprense Court of Georgia was

made the Judgment

aide Court on August to, solo. This Motion in Aun

t of Judgment was Sled

June 30. 201L It le too late
6.
However, there ate no non-emendable defects appe

aring on the face of the

reeord or pleadings
i)

The intlidment maned by the Grand Jury in the

h)

Pack count of the Indictment charm the essentia

correct manna.

l elements of the

crimes charged.
The Sentences imposed am correct aa a matter

of law.

The *Intention regarding the Cobb County Poli

ce Department

Pursuit to Policy was previously rejected by the

Supreme Court in.

Section 3 of its decision.
There is no error in the chugs and no "conflict

of interest

THEREFORE Defendants Motion in Attest of Judgme

nt is dna&

SO OROMMOthki

day of

201L

JUDGEAbEts P. GRUIBS
Superior Court of Cobb County
State of Georgia
2

Scanned with CamScanner

CILILIMCMILDESERIani
fhb it to

I bore this day served all Interested puttee In the
by deproltins a copy of this fialozdated the
, aim In the Cobb County Mall System in the
with duseet postage thereon addressed ea

r
ut

Jams Marton. En
inane Nondstrekle. Roc
AMMXIA NMI* Attorney
Cobb Judleial Moult
thtertiqaertmeatal Mall
Amos Wartmonhind stoat*
tiosuck Mao Prim
yea Primo Med.
Spam GIA sloe

This 51114* Of

71

ti t
Hairldau
Judicial Adoduistradvs Assistant to
Judie Ada. P. Grubbs

Scanned with CamScanner

APPENDIX 0-

Client-Lawyer Letter from Louis Turchiarelli.

(ion 01Tice
SUPREME COURT et GEORGIA
144 WashingtonSinn, SW
$12 Suit (Ace Annex
Allanu. Genii 30334

JUL 15 If
Mr. Amos Westmoreland #1041629
Hancock State Prison
701 Prison Blvd.
Sparta, GA 31087

LI. T. R. Alexander
Cobb County PoliCe Dept.
140 North Marietta Pkwy
Marietta Ga. 30060

RETURN SERVICE
REOUESTE0

O

S
7 ”A
•
09424144i
MIlLOI ROM :tr

1

Amos Westmoreland 1041629
Hancock State Prison
701 Prison Boulevard
Sparta, Georgia 31037

RECO SEP 2 3 Z010
GEtr.OS 1 3 I. 08 7

mI1111/1111111 1111111"1111119 /111111111111111"1 11111.1

Louis M. Turelharelli
Attorney at Law
416 Roswell Street,NE
Spite 200
Marietta, GA 30060
DO NOT FORWARD
ADDRESS CORRECTION REQUESTED

RECD MAY
Mr. Arruia W”st,mori!lancl
Intl 4:7n

is 20W1
(\\

Scanned with CamScanner

Louis M. !urchins,
Mont/ at Um
418 Rowel SbeetNE
Suits 200
Matta, GA 300M
DO NOT FORWARD
ADDRESS CORRECTION RE

STED

Mr. Amos Westmoreland
GDC ID 81041629
Hancock State Prison
P.O. Box 339
Sparta, GA. 31067

2009

SiOii+Ong

Louis M. Turd
Attorney at Law
416 Roswell StmeLNE
Suite 200.
Maria GA 30060

WhoJOhn htmilin,JhaddunlithinA,11

G le 2009

et

DO NOT FORWARD
ADDRESS CORRECTION REQUESTED

Mr. Amos Westmoreland
GDC ID 11041629
Hancock State Prison
P.O. Box 339
Sparta, GA 31087

31C4373.7:,

xic4

I„ji,,,,Ifii,,,I, Ii I11 11,,flud

Scanned with CamScanner

imildAnAull

LOUIS M. TURGIIARELLI
Attorney at Law
Suite ton
410 lithswell Street, KE.

Marietta, Georgia Sooao

Email louilepurchinellihn.tom
Te11,)4. (no)itivIsce
DIS irt(rmas-ovss

December 4, 2009

.

E

r

t

ry

-fit Amos Westmoreland
GDC ID 41041629
NanCock State Prison
P.O. Box 339
Sparta, GA 31087
RE:

Amos Westmoreland v. State of Georgia
Appeal No. sl0A0365

Dear Mr. Westmoreland:
•

I am in receipt of your letter dated November 26.
2009
and would like to inform you on the current Situa
tion.
regarding your case.

II

El

You had mentioned in your letter that you needed
to
have an attorney-client understanding, the problem
is that
you continually have put in your letters that you
feel
not vigorously defending your case nor did you appro I ant
ve of
my handling of the Motion for New Trial, even thoug
h with
your latest letter you indicated you felt I was a
good
lawyer and was doing a good job. I have explained
that we
introduced both of the Cobb County Policies and Proce
dures
for high speed chases at the Motion for New Trial
and
they
will be included in the appeal. The civil
lawsuit you
mentioned in your letter has no bearing on your case
since
it was not mentioned at trial and thus it has no
probative
value in the Appeal.
As I explained in my previous correspondence
I made
sure there was an order in place at the trial court
level
to guarantee the 'complete' record was transmitte
d to the
higher court which included all of the DVD/video
recordings

Scanned with CamScanner

Mr. Amos Westmoreland
December 4,. 2009
Page. Two

evidenCe that the State presented at,trial, this after
giving.a thorough legal presentation to the trial Court of
all the errors that were Made during the trial.

1
I

I

.

1 :40. that ytur !7.a:Cletie allegations against me in
Your November 16, 2009 letter certainly raised a conflidt
in:our attorney client relationship therefore I contacted.
the Circuit Defenders offiCs in Cobb County and made them
aware of yoUr concerns." The director, Randy Harris and
myself feel that it is in your best interest to assign a
.new attorney fOr the purl:lobes of your appeal, and they will
file a substitution of counsel. Your new counsel of record
is Carter Clayton, 404 656-4470.

As you requested in you; letter oUNOveMber 26, 2009 I
am returning the Original letter and all tachments
therein.
Very truly ypurs,

I
I

Lduis N. TUrch are114
I

124T/bi

Scanned with CamScanner

APPENDIX P-

Client-Lawyer Letter from William Carter Clayton June 29, 2010.

TATE BAR
Or ORG1A
ecl
Side 100
:WAWA. GA NOW

ruv

Mr. Amos Westmoreland
1041629
Hancock State Prison
P.O. Box 339
Sparta, GA 31087

aiga7+40$39

hdhudffluJulthullhownhahhhodlthhuh,11

JONES. ORRLSON a WOMACK. P.C.
ATTORNEYS AT LAW
1250 PEACHMEE CENTER TOWER
230 PEACHTREE SiltI. H.W.
ATLANTA. GEORGIA 30303

021P
t
0093123581
LED TROu ZIP

90 DEC 2 2$9,

V. 3 AR73. CIMOti
-7,Nn

RESS CORRECTION REOUESMO

Amos Westmoreland
COCO 1041629
Hancock StatePrison
P.O. Box 339
Sparta, GA 31087
31.0873103 13C44

oupi

STAE
T BA
OF GEORGIA

sot

104 Marietta sued NW
Suke 100
Atlanta. GA 30303

12(2
4:10•3

A
US Pi

rat DEW 2 9 2009
Mr. Amos Westmoreland
RGA ti 4 011111 # 101629 E-2
Scanned with CamScanner

U.

II

LEWIS N. JONES
WILLIAM A. MORRISON
JANET L WOMACK
W. CARTER CLAYTON

JONES, MORRISON & WOMACK. P.C.
ATTORNEYS AT LAW
1250 PEACHTREE CENTER TOWER
230 PEACHTREE ST., N.W.
ATLANTATOA .30303
P.O.BOX 36247
ATLANTA. GA 30343
PHONE (404) 630-1670
FAX (400564.5994

G.

17, 2009

Amos Westmoreland
GDC$ 1041629
Hancock State Prison
P.O. Sox 339
Sparta. GA 31087
RE:

Amos Westmoreland v. State of Georgia
Appal NQ. MA0165 _

.0.1046.. mem.. •

I

•No

Dear Mr. Westmoreland.

I

I

I

I have been appointed to replace your former attorn
ey Mr. Turehiarelli to represent you
regarding the appeal of your conviction for murder.
I have reviewed your file, and familiarized
myself we the facts of your case and the issues to be
raised on appeal.. I have also filed for and
received an extension of time to file
the brief in your ease until January 23,2010.
1 look forward to working with you. If you have any
particular questions or concerns
regarding your case please do not hesitate to contact
me,

Yours Very Tnily

W. Carteon
r CIA
Attorney At lanv

Scanned with CamScanner

JONES, MORRISON & WOMACK. P.C.

LEWIS N /ONES
WILLIAM A. MORMON
SAPIET L. WOMACK
W. CA RTER CLAYTON

Amos Westmoreland
GDCI 1041629
Ilancock State Prilon
PA), Box 339
5patta, GA 31087
RE:

ATTORNEYS AT LAW
1250 PEACHTREE CENTER TOWER
230 PEACHTREE ST.. N.W.
ATLANTA, GA 30303

P.O. BOX 56217
ATLANTA, GA 20343
PHONE (404) 6511-1670
FAX (404) 0.44994

Jane 29,1010

Amos Westmoreland v. Stated Georgia
Apnea:No. S 10A0365

Dear Mr. Westmoreland,
:wire: to inform you that the Sipterne Court of Geor.sia
reileted yeur Appeal,.
have enclosed a copy of the court's decision. As of the date of this decision hme.28, 2010 your
conViClion is final. You have four years from Out date to challenge:your conviction by way of
I lakes Corpus. Wyatt have any questions please do not hesitate to contact me.
Yours Very Tnly

A/.
/W. Carta ClaytOW
Attorney At Law

Scanned with CamScanner

APPENDIX Q-

Response from the Georgia Supreme Court Clerk July 15, 2010.

=

91

a
0.

J;.

.g
s
o

C

a

S

tis

.A

41:

oi

.cu ••••

LE:
°A AL'S:

*I] 3
.t
!A : SI t3;;= "
r54
--; -11
a•••=!,
z
/4
2 111,

Us,

it'
1'

C.7111:

5:FF:Fai =was

I

5'5

et.d",

'•:••••••,.1

APPENDIX R-

State and Federal Habeas Corpus- Trial Counsel Ineffectiveness Claims.

APPENDIX 14-

STATE AND FEDERAL HABEAS CORPUS- TRIAL COUNSEL INEFFECTIVENESS
CLAIMS (apercu)

I. STATE HABEAS CORPUS PROCEEDING:
(a) In filing State Habeas Corpus Petition, Westmoreland raised several 5th, 6th and 14th
Amendment of the U.S. Constitution Due Process, Equal Protection, and Ineffective
Assistance of Trial Counsel(s) claims, in that:
(8) On 1-30-08 "a conflict occurred" and [he] was appointed another public-circuit defender and
he was not adequately informed of the conflict by his attorney, the trial court, or the circuit
defenders office.
he had a fourth trial attorney appointed, and all previouslyfiled motions were not ruled
upon, and because he was not provided a copy of his indictment.
[trial counsel] was appointed to represent him too close to his trial to allow counsel to
adequately prepare petitioner's defense.
(16) trial counsel filed "very limited" motions on petitioner's behalf "disregarded all previously
filed motions," and failed to provide petitioner with a copy of the indictment or a list of witnesses.
(20) trial counsel did not provide him with a copy of the indictment until two weeks before trial
and because did not provide him with a list of witnesses.
trial counsel operated under a possible conflict of interest because he had previously served
as a law clerk for the trial judge's late husband, which possible conflict was never revealed to
petitioner until the motion for new trial hearing.
trial counsel operated under a conflict of interest due to the fact that he had been practicing
law for more than (30) years in Cobb County but had never tried a case before trial court.
trial counsel failed to argue that there was a conflict because Rick Christian was thrust into
the case without the proper procedures of the circuit defenders office, the trial court, or
petitioner.
trial counsel failed to file a motion to recuse the trial judge on the basis that the trial judge's
daughter had been killed in an automobile related accident and he was being tried for an
automobile related accident despite petitioner's request that he do so.
trial counsel failed to raise a possible conflict of interest concerning co-counsel Rick
Christians appointment, since he later testified that Christian was through the circuit defenders
office to observe. Nonetheless, Christian was inexperienced in capital trials.
trial counsel failed to raise any possible conflict of interest issues concerning the fact that
trial counsel could not obtain independent experts to aid petitioner's defense and failed to

adequately prepare to cross-examine the state's expert witnesses concerning the elements of
accident reconstruction.
(28) trial counsel only met with petitioner three times for an hour each time and refused each
time to discuss with petitioner the discovery materials, evidence, trial tactics, or defense strategy.
trial counsel failed to subject the prosecution to an adversarial process by not offering any
evidence.
trial counsel failed to subject the prosecution to a meaningful adversarial challenge when he
failed to object to several improper comments made by the prosecutor and petitioner's
codefendant's counsel during closing arguments.
trial counsel failed to subject the prosecution to a meaningful adversarial challenge when he
failed to obtain the Cobb county vehicle pursuit policy to rebut the prosecution's motion in
limine.
trial counsel failed to subject the prosecution to a meaningful adversarial challenge when he
attempted to cross examine the pursuing officer concerning the vehicle pursuit policy only to
draw an objection from the prosecution which was sustained by trial court.
trial counsel neglected to request a jury charge on proximate cause for felony murder
trial counsel failed to subject the prosecution to a meaningful adversarial challenge when he
instructed the jury during closing arguments to find petitioner guilty of several serious felonies.
trial counsel "changed his reasonable doubt requested charge to help the jury
commissioners out."
(68) trial counsel testified at motion for new trial hearing, that he was attempting to obtain the
Cobb county pursuit policy during trial, and in same line of questioning he revealed that he never
attempted to obtain the policy and never read the policy.
(114) trial counsel failed to investigate and present the Cobb county vehicle pursuit policy, which
deprived the trial court of the opportunity to consider that the pursuing officers could have been
the proximate cause of the victim's death.
(117) co-counsel Rick Christian was only appointed to represent petitioner for the purpose being
placed on the murder case docket and did not contribute anything to the defense.

II. FEDERAL HABEAS CORPUS PROCEEDING:
(a) In filing Federal Habeas Corpus Petition, Westmoreland specifically raised several Due
Process, Equal Protection, and Ineffective assistance of Trial Counsel(s) claims, in that:

Ground 9: Counsel was appointed less than (30) days prior to Petitioners capital felony trial; At
the time of counsels appointment, all previous motions filed by circuit defenders office (including
motion to hire an independent investigator to aid in preparation of the defense), were
disregarded. Counsel was 4th circuit defender in (8) months due to conflict.
Ground 10: That he was previous law clerk for trial courts husband, and conflict or possibility of
a conflict was never properly raised....[t]he issue was elicited by trial counsel during motion for
new trial hearing. Exercising due diligence petitioner found counsel was previously an associate
at Grubbs and Grubbs with trial court and her late-husband.
Ground 11: That he practiced law and was an officer of the court for 30+ years in Cobb County,
and had never, until petitioners case, stood a case in front of trial court. Issue was never properly
raised to assess the possibility of a conflict; especially considering the limited time to prepare;
40% of counsel's cases were criminal, the complexity of the possible defenses and the severity of
the punishment.
Ground 12: After trial counsels appointment, petitioner advised counsel that he had never saw
his indictment. Counsel sent indictment by U.S. Mail. Petitioner received indictment (2) weeks
prior to his capital felony trial. Counsel never went over the indictment with petitioner... [17
count indictment].
Ground 14: On 10/14/08, a Pre-Trial motion hearing was conducted. On 10/17/08, a secret
undisclosed pretrial hearing was convened with trial court, prosecutors and (4) defense counsels
(Circuit Defenders), to discuss capital trial related issues. Petitioner was absent from such
hearing, and the results of the hearing was not made known to petitioner, verbally, through either
trial counsels, trial court, the state or through valid transcripts. Transcripts show that hearing
did in fact take place.
Ground 16: Trial counsel reluctantly adopted special demurrer challenging a void count in the
indictment. During initial pretrial hearing, counsel adopted withdrawal of said motion, for
tactical purposes. Counsel offered absolutely no evidence or defense to substantiate tactic to
influence the jury to find petitioner guilty of lesser offense.
Ground 18: Both of petitioners trial counsels (circuit defenders), failed to raise conflict of
interest with the circuit defenders being the 4th and 5th appointee to represent petitioner within
(8) months due to conflicts with the Cobb County Circuit defenders office, Rick Christian was
petitioners 5th circuit defender, sent through the circuit defenders office to observe trial
Nonetheless, counsel's were inexperienced in capital felony trials.
Ground 19: Trial counsels failed to raise conflict of interest considering the burden to represent
petitioner without expert or private investigator or such experience or funds to hire such
assistance to propel petitioners defense. State expert witness (Cobb County Police Officer/
Accident Reconstructor) incident report was part of discovery. Petitioner was provided incident
report after motion for new trial was denied.

Ground 20: Trial counsel met with petitioner on (3) separate occasions for (3) hours respectfully,
and failed to go over ANY discovery material. ANY evidence, ANY trial strategies or tactics, ANY
defense or the indictment. Petitioner saw all of the states evidence for the .first time during capital
felony trial Counsels did not offer any evidence in aid of the defense, considering petitioner
facing life imprisonment.
Ground 25: Trial counsels failed to obtain the police chase policy requested by petitioner prior to
trial. Both circuit defenders were advising petitioner during trial that they were attempting to
obtain the document After trial, counsel revealed that he sent co-counsel, then co-counsel's
secretary or assistant to retrieve the policy, and he revealed that he never read the policy,
codefendant counsel had the policy, and he didn't plan to get the policy.
Ground 26: Trial counsel neglected to request a proximate cause or intervening cause jury
instruction, in regards to felony murder and vehicular homicide.
Ground 27: Trial counsel instructed the jury, during defensive closing arguments, to find
petitioner guilty of several serious felonies without securing petitioner's consent, permission or
approval of this tactic. (including 11 of 14 indicted crimes).
Ground 28: Trial counsel changed his reasonable doubt requested charge "to help the jury
commissioners out".
Ground 29: Trial counsel(s) failed to make timely objections to several improper statements
made by the prosecutors and codefendant's counsel (circuit defender) during closing arguments.
Disparaging petitioner at a critical stage. Codefendants circuit defender used defense closing
argument to disparage petitioner by blaming the entire case on petitioner in front of the jury.

:1. • .

,

7.,

er.7,
. 4 • -77-4

-

v•-•41:::
i"-- -44

D. Ronda
odd Molise
IL D. Shiny
Deputy ChteorPolfre

MO North Wirt. Paboy
Write., Mot& 3000.140
7704994900

SW Mull
Depay taderotrolica

Jane 21, 2007
Tary A Jackson
600 Edgewood AVCDUt
Atlanta. Georgia 30312
RE

Open Records Request I pursuit Polity Informat

ion
The following is in response to your Ope
7une 13, 2007. Per ClUt Awe 15' phon n Records Request received in our department
conversation. rayreply WAS delayed due
research needs. Your request Includede four
sections. tont address earls below: to
DepartmentPolicy5.17 Vehicle Pursuits
and the December 2006 memorandum
are included.
Department Policy Si? Vehicle Yaryan: is
included (the effective date of this
policy was December 19, 2004).
1have included e-mails from Sgt Drew Mar
unaware at this time of other corresponden chetti (CALEA Manager). I
4, A "list of names" does not exist and will ce.
not be
However, Sgt. Drew hfarthetta was instrume muted pursuant to 5048-700).
ntal in coordinating the writing of
the, policy.
Available reports may be viewed and/or
copied in the Central Records Uni
through Friday 8:00 AM to
5:00 PM by appointment Pages copied are t Monday
first MOW minutes ofrevievi and/
$0.25 each. The
or copying is free. After Meta min
utes, a fee of
510.83 will be assessed per hour in addi
tion to copying fees. This request includes
pages..I will waive the preparat
22
ion fee due to the delay of
=span*. Please remit $5.50
upon receipt
Sincerely,

Lieutenant T. R. Alexander
Records Custodian

It^
Scanned with CamScanner

CERTIFICATE OF MAILING

I hereby certify that, on the 23 I day of August, 202 this pleading was served on the Court
via U.S. mail courier.

A

r W"Cigider

Mr. Amos es oreland, Jr., Pro Se

CERTIFICATE OF SERVICE

I hereby certify that, on the 3/ day of August 2020, a true and correct copy of this Petition
and Appendix was sent to Georgia Attorney General Christopher M. Carr, at the Georgia
Department of Law. 40 Capitol Square, S.W., Atlanta, Georgia 30334-1300.

r. Amos Wes oreland, Jr., Pro Se
G.D.C. #1041629
Dooly State Prison (H-1 109M)
1412 Plunkett Road
Unadilla, Georgia 31091

No:

IN THE SUPREME COURT OF THE UNITED STATES

MR. AMOS WESTMORELAND, JR. -PETITIONER

vs.
MR. GLEN JOHNSON, WARDEN, AND
COMMISSIONER OF THE DEPARTMENT OF CORRECTION -RESPONDENT(S)

PROOF OF SERVICE

I, Mr. Amos Westmoreland, Jr., do swear or declare that on this date, August

/, 2020, as required by

Supreme Court Rule 29 I have served the enclosed MOTION FOR LEAVE TO PROCEED IN
FORMA PAUPERIS, PETITION FOR A WRIT OF CERTIORARI and APPENDIX, and Motion
For Leave to Exceed Page Limitation: on each party to the above proceeding or that party's counsel, and
on every other person required to be served, by depositing to each of them and with first-class postage
prepaid, or by delivery to a third party commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:

Georgia Attorney General, Christopher M. Carr
Georgia Department of Law
40 Capitol Square, S.W.
Atlanta, Georgia 30334-1300

I declare under penalty of perjury that the following is true and correct.
Executed on August, 31 , 2020

Mr. Amos Westmore and, Jr., Pro Se
1412 Plunkett Road
Unadilla, Georgia 31091

70

